<html>
<title> - STATE, FOREIGN OPERATIONS, AND RELATED PROGRAMS APPROPRIATIONS FOR FISCAL YEAR 2011</title>
<body><pre>[Senate Hearing 111-806]
[From the U.S. Government Publishing Office]



                                                        S. Hrg. 111-806
 
  STATE, FOREIGN OPERATIONS, AND RELATED PROGRAMS APPROPRIATIONS FOR 
                            FISCAL YEAR 2011

=======================================================================

                                HEARING

                                before a

                          SUBCOMMITTEE OF THE

            COMMITTEE ON APPROPRIATIONS UNITED STATES SENATE

                     ONE HUNDRED ELEVENTH CONGRESS

                             SECOND SESSION

                                   on

                                S. 3676

AN ACT MAKING APPROPRIATIONS FOR FOREIGN OPERATIONS, EXPORT FINANCING, 
AND RELATED PROGRAMS FOR THE FISCAL YEAR ENDING SEPTEMBER 30, 2011, AND 
                           FOR OTHER PURPOSES

                               __________

                          Department of State
           United States Agency for International Development

                               __________

         Printed for the use of the Committee on Appropriations


       Available via the World Wide Web: http://www.gpo.gov/fdsys

                               __________


                  U.S. GOVERNMENT PRINTING OFFICE
54-986                    WASHINGTON : 2010
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, U.S. Government Printing Office. Phone 202�09512�091800, or 866�09512�091800 (toll-free). E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="baddcad5fad9cfc9ced2dfd6ca94d9d5d794">[email&#160;protected]</a>  

                      COMMITTEE ON APPROPRIATIONS

                   DANIEL K. INOUYE, Hawaii, Chairman
ROBERT C. BYRD, West Virginia        THAD COCHRAN, Mississippi
PATRICK J. LEAHY, Vermont            CHRISTOPHER S. BOND, Missouri
TOM HARKIN, Iowa                     MITCH McCONNELL, Kentucky
BARBARA A. MIKULSKI, Maryland        RICHARD C. SHELBY, Alabama
HERB KOHL, Wisconsin                 JUDD GREGG, New Hampshire
PATTY MURRAY, Washington             ROBERT F. BENNETT, Utah
BYRON L. DORGAN, North Dakota        KAY BAILEY HUTCHISON, Texas
DIANNE FEINSTEIN, California         SAM BROWNBACK, Kansas
RICHARD J. DURBIN, Illinois          LAMAR ALEXANDER, Tennessee
TIM JOHNSON, South Dakota            SUSAN COLLINS, Maine
MARY L. LANDRIEU, Louisiana          GEORGE V. VOINOVICH, Ohio
JACK REED, Rhode Island              LISA MURKOWSKI, Alaska
FRANK R. LAUTENBERG, New Jersey
BEN NELSON, Nebraska
MARK PRYOR, Arkansas
JON TESTER, Montana
ARLEN SPECTER, Pennsylvania

                    Charles J. Houy, Staff Director
                  Bruce Evans, Minority Staff Director
                                 ------                                

    Subcommittee on State, Foreign Operations, and Related Programs

                  PATRICK J. LEAHY, Vermont, Chairman
DANIEL K. INOUYE, Hawaii             JUDD GREGG, New Hampshire
TOM HARKIN, Iowa                     MITCH McCONNELL, Kentucky
BARBARA A. MIKULSKI, Maryland        ROBERT F. BENNETT, Utah
RICHARD J. DURBIN, Illinois          CHRISTOPHER S. BOND, Missouri
TIM JOHNSON, South Dakota            SAM BROWNBACK, Kansas
MARY L. LANDRIEU, Louisiana          GEORGE V. VOINOVICH, Ohio
FRANK R. LAUTENBERG, New Jersey
ARLEN SPECTER, Pennsylvania
                           Professional Staff

                               Tim Rieser
                             Nikole Manatt
                             Janett Stormes
                         Paul Grove (Minority)
                        Michele Wymer (Minority)
                       LaShawnda Smith (Minority)

                         Administrative Support

                              Rachel Meyer


                            C O N T E N T S

                              ----------                              

                      Wednesday, February 24, 2010

                                                                   Page

Department of State: Secretary of State..........................     1

                        Tuesday, April 20, 2010

U.S. Agency for International Development........................    73


  STATE, FOREIGN OPERATIONS, AND RELATED PROGRAMS APPROPRIATIONS FOR 
                            FISCAL YEAR 2011

                              ----------                              


                      WEDNESDAY, FEBRUARY 24, 2010

                                       U.S. Senate,
           Subcommittee of the Committee on Appropriations,
                                                    Washington, DC.
    The subcommittee met at 10:30 a.m., in room SD-192, Dirksen 
Senate Office Building, Hon. Patrick J. Leahy (chairman) 
presiding.
    Present: Senators Leahy, Mikulski, Landrieu, Specter, 
Gregg, Bennett, Bond, Brownback, and Voinovich.

                          DEPARTMENT OF STATE

                           Secretary of State

STATEMENT OF THE HONORABLE HILLARY RODHAM CLINTON, 
            SECRETARY OF STATE


                 STATEMENT OF SENATOR PATRICK J. LEAHY


    Senator Leahy. Secretary Clinton, I commend you for your 
unbelievable energy, not only in the work you do at the State 
Department but around the world in representing the United 
States. I understand this is one of four times you're going to 
be testifying here on Capitol Hill and we appreciate it very 
much, Madam Secretary.
    The President's fiscal year 2011 budget request for the 
Department of State and foreign operations totals $56.6 
billion. It's a 10.6 percent increase over last year. Most of 
the increase is for three countries: Afghanistan, Pakistan, and 
Iraq.
    For the remainder of the world, the increase is about the 
rate of inflation and, as the President has pointed out, the 
total request for foreign operations is about 1 percent of the 
entire Federal budget.
    If we cut all these programs, it wouldn't make a dent in 
our deficit but it would cause many other problems around the 
world, especially as it would affect America's leadership 
position.
    The funds are all we have, besides the U.S. military, to 
protect the security and other interests of the American people 
in an increasingly dangerous and divisive world.
    That is not to say we can't do more to get full value for 
our tax dollars, that's always been mine and Senator Gregg's 
goal on this subcommittee. If there are programs that are not 
effective or no longer necessary, then we will eliminate them. 
As we listen to the complaints about broken Government or 
paralysis in Washington, this is a bill that, over the past 
number of years, has had overwhelming bipartisan support.
    If anybody wants to see whether bipartisanship still exists 
in Congress, they do not have to look any further than this 
subcommittee. Every member of this panel, Republican and 
Democrat alike, has a stake in what's in here. We work 
together. For example, our global health programs help to 
prevent outbreaks of deadly viruses and other infectious 
diseases that are only a plane ride away. If such viruses 
spread and become pandemics, they could kill millions of 
people, including Americans.
    Funding provided in this bill also addresses the continuing 
need to stop terrorism, organized crime, and other 
transnational crime that are growing threats to Americans and 
the citizens and governments of other nations, especially 
governments whose institutions are prone to corruption. There 
are many other examples.
    We know this budget is not going to solve every problem in 
the world but at least it ensures that the United States is 
equipped to play a leadership role.
    The Secretary has done her part and, Madam Secretary, I 
must say I appreciate the fact that you have been the face of 
America around the world. I know that it is physically 
strenuous, both for you and your staff, but it is important 
that you are there.
    Today, more than ever, we appreciate the need for fully 
staffed and secure embassies, effective diplomacy, and strong 
alliances. I want to commend the dedicated men and women of the 
State Department and the U.S. Agency for International 
Development (USAID), who are serving America here at home and 
at posts around the world and, I should note, often at great 
personal risk.
    After Senator Gregg makes his opening remarks and the 
Secretary testifies, we'll have 7-minute rounds for questions. 
The Senators will be recognized in order of arrival, 
alternating back and forth.
    Senator Gregg.


                    STATEMENT OF SENATOR JUDD GREGG



    Senator Gregg. Thank you, Mr. Chairman, and I want to 
second your opening comments. I especially want to pick up 
where you left off which is saying thank you to not only 
yourself, Madam Secretary, but the extraordinary staff that 
works for you at the State Department.
    Those of us who've had a chance to travel to some more 
severe regions in this world, such as Afghanistan, Syria, 
Pakistan, of course Iraq, recognize that the men and women who 
serve us in the State Department are on the frontlines and 
doing an extraordinary job of trying to carry out American 
policy and assist those nations in moving toward more 
democratic forms of government and to be constructive citizens 
in the world. They put their lives at risk as our military 
people do, and we very much appreciate their service.
    I also want to thank you personally for what you're doing. 
Your presentation around the world has been extraordinary and 
it's been very positive for us, for our Nation, to have you out 
there as our spokesperson, along with the President, of course.
    There are so many areas of concern that come to mind that 
rather than taking them all up in my opening statement, I'd 
rather hear your thoughts on them.
    So I will turn to you, but I just want to highlight one 
that doesn't get a lot of attention and that is an issue I've 
had interest in for almost 15 years now which is to make sure 
that you have the best technology and the best capability so 
that the support is there for the people who do such wonderful 
things for us in the field. I'd be interested in your thoughts 
on where we stand in that area and also in the area of 
facilities.
    I'd like to spend some time on that. I'm especially 
concerned about the cost of the Iraqi mission and the new 
building and the complex there and how that's going to drain 
away funds from other initiatives.
    I'd rather hear from you than talk myself. So I'll turn it 
over to you, Madam Secretary.
    Senator Leahy. Thank you. Secretary Clinton, please go 
ahead.


              SUMMARY STATEMENT OF HILLARY RODHAM CLINTON


    Secretary Clinton. Thank you very much, Chairman Leahy, and 
Senator Gregg, and members of the subcommittee.It really is a 
pleasure to be back here in the Senate and to be with all of 
you today.
    When I was last here to discuss our budget, I emphasized my 
commitment to elevating diplomacy and development as core 
pillars of American power. Since then, I have been heartened by 
the bipartisan support of this subcommittee and the rest of 
Congress and I want to take this opportunity to thank you on 
behalf of the men and women who work every day around the world 
at the State Department and USAID who put our foreign policy 
into action, and I will certainly convey the very kind words of 
both the chairman and the ranking member to them.
    The budget we're presenting today is designed to protect 
America and Americans and to advance our interests and values. 
Our fiscal year 2011 request for the State Department and USAID 
totals $52.8 billion. That's a $4.9 billion increase over 2010. 
Of that increase, $3.6 billion will go to supporting efforts in 
frontline states, Afghanistan, Pakistan, and Iraq.
    Other funding will grow by $1.3 billion and that is a 2.7 
percent increase and with that money, we will address global 
challenges, strengthen partnerships, and ensure that the State 
Department and USAID are equipped with the right people, the 
right technology, and the right resources.
    Over the past 6 weeks in Haiti, I've been reminded again of 
the importance of American leadership. I'm very proud of what 
our country has done. We will continue to work with our Haitian 
and international partners to address ongoing suffering and 
transition from relief to recovery.
    I'm also well aware that this is a time of great economic 
strain for many Americans here at home. As a former Senator, I 
know what this means for the people you represent. For every 
dollar we spend, we have to show results. That is why this 
budget must support programs vital to our national security, 
our national interests, and our leadership in the world, while 
guarding against and rooting out waste, redundancy, and 
irrelevancy. I believe this budget achieves those goals.
    These figures are more than numbers on a page. They tell 
the story of the challenges we face and the resources we need 
to overcome them. We are fighting two wars that call on the 
skill and sacrifice of our civilians as well as our dedicated 
military troops.
    We've pursued a dual-track approach to Iran that has 
exposed its refusal to live up to its responsibilities and 
helped us achieve a new unity with our international partners. 
Iran has left the international community little choice but to 
impose greater costs and pressure in the face of its 
provocative steps. We're not working actively with our partners 
to prepare and implement new measures to pressure Iran to 
change its course.
    We have achieved unprecedented unity in our response to 
North Korea's provocative actions, even as we leave the door 
open for a restart of the Six Party Talks, and we're moving 
closer to a fresh nuclear agreement with Russia, one that 
advances our security while furthering President Obama's long-
term vision of a world without nuclear weapons.
    With China, we are seeking areas of common purpose while 
standing firm where we differ. We're making concrete our new 
beginning with the Muslim world. We're strengthening 
partnerships with allies in Europe and Asia, with our friends 
here in the hemisphere, with countries from those that are 
rising and emerging powers to those who have challenges, and 
we're working hard every day to end the impasse and the 
conflict between Israelis and Palestinians.
    At the same time, we're developing a new architecture of 
cooperation to meet transnational global challenges, like 
climate change, the use of our planet's oceans, proliferation 
of weapons of mass destruction, health problems which, as the 
chairman said, are no respecter of boundaries.
    In so many instances, our national interests and the common 
interests converge and so from our hemisphere across the world 
we are promoting human rights, the rule of law, democracy, 
Internet freedom. We're fighting poverty, hunger, disease, and 
we're working to ensure that economic growth is broadly and 
inclusively shared.
    Now our agenda is ambitious, I admit that, but I think the 
times demand it. America is called to lead and we need the 
tools and resources to exercise our leadership wisely and 
effectively. We can bury our heads in the sand and pay the 
consequences later or we can make hard-nosed targeted 
investments now, addressing the security challenges of today 
while building a more lasting foundation for the future.
    Let me just highlight three areas where we're making 
significant new investments. First, the security of frontline 
states. In Afghanistan this past year, we've tripled the number 
of civilians on the ground and this presence will grow by 
hundreds more with the $5 billion in this budget. Our diplomats 
and development experts are helping institutions, expand 
economic opportunities and provide meaningful alternatives for 
insurgents ready to renounce violence and Al Qaeda and join 
their fellow Afghans in the pursuit of peace.
    In Pakistan, our request includes $3.2 billion to combat 
extremism, promote economic development, strengthen democratic 
institutions, and build a long-term relationship with the 
Pakistani people. This includes funding of the Kerry-Lugar-
Berman initiative. Our request also includes a 59 percent 
increase in funding for Yemen to help counter the extremist 
threat and build institutions there, as well.
    In Iraq, we're winding down our military presence and 
establishing a more normal civilian mission. Our civilian 
efforts will not and cannot mirror the scale of the military 
presence, but they, rather, should provide assistance 
consistent with the priorities of the Iraqi Government and the 
United States. So our request includes $2.6 billion for Iraq.
    These are resources that will allow us to support the 
democratic process, ensure a smooth transition to civilian-led 
security training, and operational support. These funds will 
allow civilians to take full responsibility for programs and 
the Defense budget for Iraq will be decreasing by about $16 
billion and that's a powerful illustration of the return on 
civilian investment.
    We are blessed, as we all in this room know, with the best 
troops in the world and we've seen that time and time again in 
today's wars, but we also need to give our civilian experts the 
resources to do the jobs we're asking them to do and this 
budget takes a step in the right direction.
    It includes $100 million for a State Department Complex 
Crisis Fund, replacing the 1207 Fund which the Defense 
Department used to direct money toward crisis response. It also 
includes support for the Pakistan Counterinsurgency Capability 
Fund which previously fell under the Defense Department, as 
well.
    The second major area is investing in development. So we're 
making targeted investments in fragile societies which, in our 
interconnected world, bear heavily on our own security and 
prosperity. These investments are a key part of our effort to 
get ahead of crises rather than just responding to them.
    The first of these is in health. Building on our progress 
treating HIV, malaria, and tuberculosis, our Global Health 
Initiative will invest $63 billion over 6 years, starting with 
$8.5 billion in fiscal year 2011, to help our partners address 
specific diseases and build strong sustainable health systems.
    The administration has also pledged to invest at least $3.5 
billion in food security over 3 years and this budget includes 
a request for $1.6 billion, of which $1.2 billion is funded 
through the State Department. This will focus on countries that 
have developed effective, comprehensive strategies where 
agriculture remains central to prosperity and hunger is 
widespread.
    On climate change, we've requested $646 million to promote 
the United States as a leader in green technology and to 
leverage other countries' cooperation, including through the 
Copenhagen Accord, which for the first time brings developed 
and developing countries together. This is part of the 
administration's total request of $1.4 billion to support core 
climate change activities in developing nations.
    Our request also includes $4.2 billion for humanitarian 
assistance. Our efforts in Haiti have made clear that State and 
USAID must be able to respond quickly and effectively, but we 
believe these initiatives will enhance American security and 
they will help people in need and they will give the American 
people a strong return on this investment.
    Our aim is not to create dependency but, rather, to help 
countries learn to fish, as the old Proverb tells it, and what 
we want to do is focus on equality and opportunity for women 
and girls because we know that is the key driver of economic 
and social progress.
    And then, finally, our third area of investment. None of 
what we intend to do can be accomplished if we don't recruit, 
train, and empower the right people for the job.
    The State Department and USAID are full of talented and 
committed public servants, but we have too often neglected to 
give them the tools they need to carry out their missions on 
the ground and rather than building our own expertise, we have 
too often relied on contractors, sometimes with little 
oversight and often at greater cost.
    This budget will allow us to expand the Foreign Service by 
over 600 positions, including an additional 410 for the State 
Department and 200 for USAID. It will also allow us to staff 
the standby element of the Civilian Reserve Corps which is a 
crucial tool in our efforts to respond to crises.
    Now while deploying these personnel generates new expenses 
in some accounts, it will reduce costs by changing the way we 
do business. As we are ending our over-reliance on contractors, 
we're actually showing we can save money, plus bringing these 
functions inside and improving oversight and accountability.
    So, Mr. Chairman and ranking member and members, one thing 
should be clear from this budget, the State Department and 
USAID are taking a lead in carrying out the United States' 
foreign policy and national security agenda.
    As we finish the first-ever Quadrennial Diplomacy and 
Development Review (QDDR), we have a unique opportunity to 
define the capabilities we need and to match resources with 
priorities. This budget aligns our investments with the 
strategic imperatives of our time.
    The QDDR will also help ensure we are more effective and 
accountable. As I have reported to you before, filling the 
first-ever Deputy Secretary of State for Management and 
Resources with Jack Lew, a former OMB Director, has given us an 
extra advantage in developing this budget and reviewing it to 
make sure that every item is economical and effective.


                           PREPARED STATEMENT


    Now at this time of change and challenge around the world, 
we need to make these investments and I believe that this 
subcommittee understands why. I look forward to your questions, 
but even more so I look forward to working with you in 
partnership in the months and years ahead.
    Thank you, Mr. Chairman.
    [The statement follows:]

              Prepared Statement of Hillary Rodham Clinton

    Thank you very much, Chairman Leahy and Senator Gregg and members 
of the subcommittee. It really is a pleasure to be back here in the 
Senate and to be with all of you today. When I was last here to discuss 
our budget, I emphasized my commitment to elevating diplomacy and 
development as core pillars of American power. Since then, I have been 
heartened by the bipartisan support of this committee and the rest of 
Congress. And I want to take this opportunity to thank you, on behalf 
of the men and women who work every day around the world at the State 
Department and USAID who put our foreign policy into action. And I will 
certainly convey the very kind words of both the Chairman and the 
Ranking Member to them.
    The budget we are presenting today is designed to protect America 
and Americans and to advance our interests and values. Our fiscal year 
2011 request for the State Department and USAID totals $52.8 billion. 
That's a $4.9 billion increase over 2010. Of that increase, $3.6 
billion will go to supporting efforts in ``frontline states''--
Afghanistan, Pakistan, and Iraq. Other funding will grow by $1.3 
billion, and that is a 2.7 percent increase, and with that money we 
will address global challenges, strengthen partnerships, and ensure 
that the State Department and USAID are equipped with the right people, 
the right technology, and the right resources.
    Over the past 6 weeks in Haiti, I have been reminded again of the 
importance of American leadership. I am very proud of what our country 
has done. We will continue to work with our Haitian and international 
partners to address ongoing suffering and transition from relief to 
recovery.
    I am also well aware that this is a time of great economic strain 
for many Americans here at home. As a former Senator, I know what this 
means for the people you represent. For every dollar we spend, we have 
to show results. That is why this budget must support programs vital to 
our national security, our national interests, and our leadership in 
the world, while guarding against and rooting out waste, redundancy, 
and irrelevancy. I believe this budget achieves those goals. These 
figures are more than numbers on a page. They tell the story of the 
challenges we face and the resources we need to overcome them.
    We are fighting two wars that call on the skill and sacrifice of 
our civilians as well as our dedicated military troops. We have pursued 
a dual-track approach to Iran that has exposed its refusal to live up 
to its responsibilities and helped us achieve a new unity with our 
international partners. Iran has left the international community 
little choice but to impose greater costs and pressure in the face of 
its provocative steps. We are now working actively with our partners to 
prepare and implement new measures to pressure Iran to change its 
course.
    We have achieved unprecedented unity in our response to North 
Korea's provocative actions, even as we leave the door open for a 
restart of the Six-Party Talks. And we are moving closer to a fresh 
nuclear agreement with Russia--one that advances our security while 
furthering President Obama's long-term vision of a world without 
nuclear weapons.
    With China, we are seeking areas of common purpose while standing 
firm where we differ. We are making concrete our new beginning with the 
Muslim world. We are strengthening partnerships with allies in Europe 
and Asia, with our friends here in our hemisphere, with countries from 
those that are rising and emerging powers to those who have challenges. 
And we are working hard every day to end the impasse and the conflict 
between Israelis and Palestinians.
    At the same time, we are developing a new architecture of 
cooperation to meet transnational global challenges like climate 
change, the use of our planet's oceans, proliferation of weapons of 
mass destruction, health problems--which, as the Chairman said, are no 
respecter of boundaries. In so many instances, our national interest 
and the common interest converge, and so from our hemisphere across the 
world, we are promoting human rights, the rule of law, democracy, 
Internet freedom; we are fighting poverty, hunger, and disease; and we 
are working to ensure that economic growth is broadly and inclusively 
shared.
    Now, our agenda is ambitious, I admit that, but I think the times 
demand it. America is called to lead--and we need the tools and 
resources to exercise our leadership wisely and effectively. We can 
bury our heads in the sand and pay the consequences later, or we can 
make hard-nosed, targeted investments now--addressing the security 
challenges of today while building a more lasting foundation for the 
future.
    Let me just highlight three areas where we are making significant 
new investments.
    First, the security of frontline states. In Afghanistan, this past 
year, we have tripled the number of civilians on the ground, and this 
presence will grow by hundreds more with the $5 billion in this budget. 
Our diplomats and development experts are helping build institutions, 
expand economic opportunities, and provide meaningful alternatives for 
insurgents ready to renounce violence and al-Qaida and join their 
fellow Afghans in the pursuit of peace.
    In Pakistan, our request includes $3.2 billion to combat extremism, 
promote economic development, strengthen democratic institutions, and 
build a long-term relationship with the Pakistani people. This includes 
funding of the Kerry-Lugar-Berman initiative. Our request also includes 
a 59 percent increase in funding for Yemen, to help counter the 
extremist threat and build institutions there as well.
    In Iraq, we are winding down our military presence and establishing 
a more normal civilian mission. Our civilian efforts will not and 
cannot mirror the scale of the military presence, but they rather 
should provide assistance consistent with the priorities of the Iraqi 
Government and the United States. So our request includes $2.6 billion 
for Iraq. These are resources that will allow us to support the 
democratic process, ensure a smooth transition to civilian-led security 
training and operational support. These funds will allow civilians to 
take full responsibility for programs, and the Defense budget for Iraq 
will be decreasing by about $16 billion--and that's a powerful 
illustration of the return on civilian investment.
    We are blessed, as we all in this room know, with the best troops 
in the world, and we have seen time and time again in today's wars. But 
we also need to give our civilian experts the resources to do the jobs 
we're asking them to do. And this budget takes a step at the right 
direction. It includes $100 million for a State Department complex 
crisis fund--replacing the 1207 fund which the Defense Department used 
to direct money toward crisis response. It also includes support for 
the Pakistan Counterinsurgency Capability Fund, which previously fell 
under the Defense Department as well.
    The second major area is investing in development. So we're making 
targeted investments in fragile societies--which, in our interconnected 
word, bear heavily on our own security and prosperity. These 
investments are a key part of our effort to get ahead of crises rather 
than just responding to them. The first of these is in health. Building 
on our progress treating HIV, malaria, and tuberculosis, our Global 
Health Initiative will invest $63 billion over 6 years, starting with 
$8.5 billion in fiscal year 2011, to help our partners address specific 
diseases and build strong, sustainable health systems. The 
Administration has also pledged to invest at least $3.5 billion in food 
security over 3 years, and this budget includes a request for $1.6 
billion, of which $1.2 billion is funded through the State Department. 
This will focus on countries that have developed effective, 
comprehensive strategies, where agriculture remains central to 
prosperity and hunger is widespread.
    On climate change, we've requested $646 million to promote the 
United States as a leader in green technology and to leverage other 
countries' cooperation--including through the Copenhagen Accord, which 
for the first time brings developed and developing countries together. 
This is part of the Administration's total request of $1.4 billion to 
support core climate change activities in developing nations.
    Our request also includes $4.2 billion for humanitarian assistance. 
Our efforts in Haiti have made clear that State and USAID must be able 
to respond quickly and effectively.
    But we believe these initiatives will enhance American security, 
and they will help people in need, and they will give the American 
people a strong return on this investment. Our aim is not to create 
dependency, but rather to help countries learn to fish, as the old 
proverb tells it. And what we want to do is focus on equality and 
opportunity for women and girls, because we know that is the key driver 
of economic and social progress.
    And then finally, our third area of investment. None of what we 
intend to do can be accomplished if we don't recruit, train, and 
empower the right people for the job.
    The State Department and USAID are full of talented and committed 
public servants, but we have too often neglected to give them the tools 
they need to carry out their missions on the ground. And rather than 
building our own expertise, we have too often relied on contractors, 
sometimes with little oversight and often at greater cost. This budget 
will allow us to expand the Foreign Service by over 600 positions, 
including an additional 410 for the State Department and 200 for USAID. 
It will also allow us to staff the standby element of the Civilian 
Reserve Corps, which is a crucial tool in our efforts to respond to 
crises. Now, while deploying these personnel generates new expenses in 
some accounts, it will reduce costs by changing the way we do business. 
As we are ending our over-reliance on contractors, we're actually 
showing we can save money, plus bringing these functions inside and 
improving oversight and accountability.
    So, Mr. Chairman and Ranking Member and members, one thing should 
be clear from this budget: The State Department and USAID are taking a 
lead in carrying out the United States' foreign policy and national 
security agenda. As we finish the first-ever Quadrennial Diplomacy and 
Development Review, we have a unique opportunity to define the 
capabilities we need and to match resources with priorities. This 
budget aligns our investments with the strategic imperatives of our 
time. The QDDR will also help ensure we are more effective and 
accountable. As I have reported to you before, filling the first-ever 
Deputy Secretary of State for Management and Resources with Jack Lew, a 
former OMB director, has given us an extra advantage in developing this 
budget and reviewing it to make sure that every item is economical and 
effective.
    Now, at this time of change and challenge around the world, we need 
to make these investments. And I believe that this committee 
understands why. I look forward to your questions.
    But even more so, I look forward to working with you in partnership 
in the months and years ahead.
    Thank you, Mr. Chairman.

                                  IRAN

    Senator Leahy. Thank you, Madam Secretary. Let me first ask 
you about a country that concerns all of us: Iran.
    We know that the Iranian people have relied on the Internet 
and satellites to get news, often of the outside world, but 
sometimes even of what's going on in their own country.
    The Iranian Government has spent millions of dollars to 
block Internet and social media connections inside of Iran. To 
me that's a sign of a regime that is afraid of its own people 
and that wants to hide its actions from the rest of the world.
    In an earlier time, oppressive regimes trapped their people 
behind an Iron Curtain. The Iranian Government is trying to 
muzzle its people behind an electronic curtain, and I'm 
troubled by what they're doing, not just to their own people 
but also stopping the programs of other countries.
    You made a recent speech, which I thought was superb, at 
the Newseum spelling out principles of global Internet freedom 
for the benefit of people everywhere and that was well received 
around the globe.
    It appears that Iran has broken international agreements by 
doing this, is that correct?
    Secretary Clinton. Yes.
    Senator Leahy. We have worked with the State Department and 
others on this issue. Beginning in fiscal year 2008, we 
provided funds to facilitate Internet communication by people 
around the world in closed societies.
    I noticed an article in the Washington Post on February 18 
that mentioned the National Security Council discouraged the 
Broadcasting Board of Governors, the Board that oversees the 
Voice of America (VOA) and other U.S. international 
broadcasters, from signing a statement with the BBC and 
Deutsche Welle denouncing Iranian jamming of their broadcasts. 
In the end, VOA ended up signing that statement.
    Is there disagreement in the administration of the need to 
strongly protest internationally this violation of 
international agreements by Iran?
    Secretary Clinton. Mr. Chairman, there is no disagreement. 
As I said in my Internet Freedom speech, the development of new 
tools that enables citizens to exercise their rights of free 
expression and virtual assembly, because I think it's rooted in 
both, needs to be protected and advanced, and we need these new 
tools, particularly in Iran but not only in Iran.
    So the State Department is looking very closely at what 
more we can do to try to work with the private sector in 
partnership to unblock the Internet, to get information 
flowing, to speak out against the kinds of abuses that we see 
going on out of Internet.
    We are providing funds to groups around the world to make 
sure that these new tools get to the people who need them. We 
are--we have been assisting in those areas for some time and 
thanks to this subcommittee, which has helped to pioneer the 
funding for these efforts, but there's so much more that we can 
and should do and inside the State Department, I've created a 
group of young tech-savvy diplomats.
    We're doing what we call ``21st Century Statecraft'' and 
they are working, again as I say, with the private sector, this 
is not all just American government efforts, in order to be 
able to unjam and circumvent with our technologies the kind of 
blockades that the Iranians are using.
    There's still a lot to be done and I think that the 
discussion inside the administration is what are the most 
effective ways of doing it. Some of the technology, for 
example, that we would very much like to see used to unblock 
Iran is very valuable technology. We have to be careful about 
how it is utilized so it doesn't get into the wrong hands.
    Senator Leahy. Sure.
    Secretary Clinton. We're focused on this, Mr. Chairman.
    Senator Leahy. But we also have to be working, I would 
assume, with other countries if there's a violation of a 
bilateral agreement.
    I've heard that some of their blocking efforts not only 
block satellite transmission into neighboring countries but in 
one instance as far away as Italy.
    Secretary Clinton. Well, when they bring down the cellphone 
networks, that has broad ramifications.
    Senator Leahy. The satellite is not just Voice of America. 
I know we've tried to tighten bilateral sanctions against Iran, 
targeting the Revolutionary Guard. We're seeking the support of 
Russia, China, and other countries for U.N. sanctions.
    Are there other things we should be doing? I know the House 
and Senate have passed legislation imposing sanctions on 
petroleum companies that do business with Iran. What about 
that?
    Secretary Clinton. Well, Mr. Chairman, we support the 
purpose and the principles of the bills, both the bill in the 
House and the sanctions bill that recently was passed by 
unanimous consent here in the Senate.
    We want to have as strong a partnership with the Congress 
as possible. We need to enlist every possible tool that we can 
bring to bear on this, and we look forward to working with the 
Congress. What we're hoping for is that whatever sanctions 
emerge from the conference committee have some flexibility that 
will support our ongoing efforts because you rightly pointed 
out, we are working very hard with our partners in the Security 
Council.
    We've already made it clear that we stand ready to do both 
unilateral and multilateral sanctions on top of whatever comes 
out of the Security Council, but while we're in the midst of 
these negotiations, it would be very useful for us to be in 
close consultation with the Congress so that whatever is done 
here supplements and supports what we're trying to get done in 
the Security Council.

                         ECONOMIC SUPPORT FUNDS

    Senator Leahy. Let us follow up on that in another 
discussion. The administration has requested increases in 
Economic Support Fund assistance for Afghanistan, Pakistan, and 
Iraq. I worry about the billions that were wasted in the years 
past because there seemed to be an emphasis on burn rates more 
than on results. I think you and I should discuss that more as 
we go forward with the bill.

                             TRAVEL TO CUBA

    I will also be talking to you about a group of Vermont high 
school students who wanted to travel to Cuba to set up a sister 
school relationship with Cuban students. After doing their own 
research, and getting ready for the trip, they ran into U.S. 
travel restrictions.
    It seems so beneath a nation as powerful as ours to tell 
kids they can't go back and forth and talk to students in Cuba. 
They can go to Russia, they can go to China, they can go 
everywhere else. Then there's Cuba. It makes no sense. You 
don't have to answer, but we'll talk further about that.
    Senator Gregg.
    Secretary Clinton. Thank you, Mr. Chairman.

                                 JORDAN

    Senator Gregg. Thank you, Mr. Chairman. First, one of our 
closest allies in the Middle East is Jordan and they've really 
borne the brunt of a lot of our policies in the forms of cost 
of refugees and border security issues. They requested $300 
billion additional assistance in the supplemental.
    I was wondering if the administration supports this 
request.
    Secretary Clinton. Well, Senator Gregg, as you know, Jordan 
is a stalwart ally and their work with us over the years has 
been extraordinarily helpful.
    We, in this budget, hit the targets that were set in the 
memorandum of understanding that we--we certainly abide by 
which gives us about over $600 million. The supplemental amount 
is something that we are considering and looking at.
    Obviously in this time of real budget constraints, it's--
it's a challenge, but we know how much Jordan has done. We just 
have to try to see whether it's--it's doable within the 
confines of the budget.
    Senator Gregg. Well, considering what we're spending in 
Iraq and Afghanistan, Pakistan, it would seem to me to be 
dollars well spent and probably have a much better impact in 
the area of stabilization in the region.
    Let me ask you two specific areas that I'd be interested in 
getting your thoughts on because they appear to be energizers 
of most of our problems.
    The first is the issue of where you think the Palestinian 
issue is going and where you think Israel is going in 
relationship to Palestine, and, second, the issue of the India-
Pakistan relationship and what we're doing to try to create 
some comity there so that we can take advantage of our 
friendships or participate with the friendships in both 
countries.
    Secretary Clinton. Well, Senator Gregg, those are two 
issues that we spent a lot of time working on.

                              MIDDLE EAST

    First, with respect to the Palestinians, there are really 
two aspects of our engagement with the Palestinian Authority. 
The first is our continuing effort under the leadership of 
former Senator Mitchell for the Israelis and the Palestinians 
to resume negotiations.
    We hope that that will commence shortly. We think it's 
absolutely essential that they begin to talk about the final 
status issues that divide them, that have perpetuated the 
conflict over all of these years, but we're well aware of the 
difficulties that confront us on this.
    At the same time, we continue to work with the Palestinian 
Authority to support their efforts to build their capacity, 
particularly in security. General Dayton has done a superb job 
working with Prime Minister Fayed in creating a Palestinian 
Security Force that is respected by the Israelis, that 
demonstrates a capacity to perform under difficult 
circumstances.
    We have encouraged other countries to provide funding 
directly to the Palestinian Authority so that they can help 
build their judicial system, their prosecutorial system, their 
corrections system. It's not enough just to have a good 
security force, you've got to have the rest of the law 
enforcement, judicial apparatus functioning, and we're getting 
support to do that given directly to the Palestinian Authority.
    So on both of those tracks, there are certainly challenges 
ahead, particularly on the first, the political negotiation 
track, but the progress that is being made on the second track 
actually increases the leverage and the credibility of the 
Palestinians in negotiations with the Israelis.

                           INDIA AND PAKISTAN

    Second, with respect to India and Pakistan, we've 
encouraged the resumption of the direct talks which were 
suspended when President Musharraf left office. Those talks 
between President Musharraf and Prime Minister Singh had 
actually been quite productive, particularly in producing 
results on the ground in Kashmir, but they've been in abeyance 
now for I think slightly more than 2 years.
    So we've encouraged both countries to begin a dialogue. 
They are going to be doing so. There will be a meeting within 
days, as I recall the date, and we are sensitive to the 
concerns that they each have that it's--it's their issues that 
they have to address, but we continue to raise it and make the 
case to each separately as to why it's in their mutual 
interests to proceed.
    What's going on in Pakistan right now is very significant. 
The increasing efforts by the Pakistani Military and 
Intelligence Services to capture Taliban leaders, which they've 
done, to work with the United States, both on the civilian and 
the military side, better to assist in what they're doing to 
reclaim territory from Swat to North Waziristan.
    We're trying to create a new relationship with Pakistan 
that is of longer duration and--and making the Pakistanis know 
that we're in it for the long term.
    With India, we've had a very successful start to this 
administration building on, frankly, the success and the 
investment of the prior two administrations in working with 
India, creating more opportunities for investment, more 
relationship-building between our two governments.
    So I think that in these two areas, which are two of the 
most significant areas for America's long-term security, we are 
working very hard and, you know, trying to make even, you know, 
very small but significant progress in any way we can.

                                 SYRIA

    Senator Gregg. Thank you. I noticed we just appointed an 
Ambassador to Syria. There has been some slight opening, very 
slight opening of dialogue there.
    Can you tell us where you see that going?
    Secretary Clinton. Senator, we have. We decided to return 
an Ambassador. We've been without one since 2005. We have a 
very experienced diplomat, Robert Ford, who has served in Iraq 
as the political director, is fluent in Arabic, lots of 
experience in the region.
    I agree with your characterization that there's a slight, a 
slight opening for us to build on. We've had high-level visits, 
highly ranking Members of Congress have also gone to Syria in 
the last year, but there are a lot of issues between our 
Government and the Syrian Government, and we've been absolutely 
clear about those issues.
    Just recently Under Secretary Bill Byrnes had very intense 
substantive talks in Damascus and we have laid out for the 
Syrians the need for greater cooperation with respect to Iraq, 
the end to interference in Lebanon, and the transport or 
provision of weapons to Hezbollah, a resumption of the Israeli-
Syrian track on the peace process which had been proceeding 
through the auspices of the Turks the last years, and generally 
to begin to move away from the relationship with Iran which is 
so deeply troubling to the region as well as to the United 
States.
    There are many specifics under each of those big ticket 
items that we have discussed with the Syrians and, you know, we 
are going to resume ambassadorial level representation, but 
these issues have to be addressed continually.
    Senator Gregg. Thank you, Madam Secretary.
    Senator Leahy. Thank you. Senator Mikulski.
    Senator Mikulski. Madam Secretary, it's so great to welcome 
you back to the Senate. We miss you, and we know today you've 
really presented an appropriations request representing your 
role as the CEO of the State Department as well as America's 
top diplomat.
    Reading the budget, I see where the President, with your 
advice and to us, meets compelling human need around the world. 
It's in our strategic interest. It re-establishes relationships 
with treasured allies, and I know I speak in a heartfelt way 
that the focus on women and girls in development.
    Also, I note the--your desire to reinvigorate and re-
establish the professionalism that once was the hallmark of 
AID. So we appreciate that.

                                  IRAN

    Let me get right to my questions. One--one, I want to 
associate myself with the remarks of Senator Leahy about Iran 
and we would hope to discuss after this hearing how we could 
follow up on that close alignment, but do you--I'm concerned 
that there is a lack of intensity in the international arena as 
we push or advocate for sanctions.
    My concern is that Russia and China are slow walking us. 
You might or might not want to comment on that, but is it your 
view and the administration's view that we'll move with our own 
sanctions after the international community acts or are we not 
going to wait for them or is that yet to be determined?
    Secretary Clinton. Thank you, Senator, and thank you for 
your encouragement and support of our initiatives, particularly 
around women and girls. I--I appreciate that very much.
    With respect to Iran, I feel the intensity of our efforts 
very personally because I have been out there engaged in 
bilateral and multilateral diplomacy with countries that we are 
moving toward an acceptance of the need for greater pressure on 
Iran.
    You know, when President Obama came to office, he very 
clearly, and I think correctly, laid out what we needed to do. 
He said, look, we'll extend our hand, but you have to unclench 
your fist, and from the very beginning he said we will have a 
two-track process. We will engage, but it's a two-way street. 
There has to be something coming back and we will pursue 
pressure and sanctions in order to change behavior and to send 
as clear an international signal as possible that Iran's 
pursuit of nuclear weapons will not be allowed.
    Now, I believe that because of the President's policy of 
engagement, we are in a much stronger position today than we 
would have been in the absence of all of our efforts. We have 
kept the so-called P5+1, which is the United Kingdom, France, 
Germany, China, Russia, and us, united until now. We have 
issued very strong statements, with both Russia and China 
signing on, endorsing this dual track approach.
    We have demonstrated to countries that are somewhat 
ambivalent, to say the least, about going against Iran what it 
is we are trying to achieve and pointing out the problems that 
Iran poses to them.
    So just in the last, you know, month, I've attended a 
London conference on Afghanistan and Pakistan but spent an 
enormous amount of time in bilateral negotiations with all of 
the major parties about Iran. I went to Saudi Arabia and Qatar 
last week. I'm on my way to Latin America next week, and Iran 
is at the top of my agenda, and in the Security Council our 
negotiations are very intensely under way.
    There's been an enormous amount of work done by the 
Treasury Department and the State Department to design 
sanctions that will be aimed at the Revolutionary Guard. I 
think we've made tremendous progress with Russia and I believe 
it is due to the President's engagement with Medvedev and our 
very clear, consistent message over this past year about the 
way we see Iran which the Russians now are endorsing.
    With China, because of their dependence on Iranian oil, our 
arguments to them are somewhat different, that because of their 
dependence, they, above all, should be supporting a sanctions 
pressure track because an arms race in the gulf that would 
further destabilize the major oil producers is not in China's 
interests and I think we've made a lot of progress.
    Now we don't come out and do a press conference every time 
we have these meetings, but I have seen over the past year the 
attitudes about Iran evolve. So even countries that are still 
not sure they want to sign up to sanctions, they're not sure 
they want to oppose them, they now understand why the United 
States views Iran's behavior as a threat.
    And, finally, Senator, I want us to work in tandem as a 
United States Government. The administration and the Congress 
together focused on what are the smartest, toughest sanctions 
that can be legislated that will assist our efforts because we 
want to make sure that we don't send wrong messages before we 
get everybody signed up to whatever we can achieve 
internationally.
    Senator Mikulski. Well, thank you very much, Madam 
Secretary. It's very clear we appreciate your personal hands-on 
robust involvement in moving this agenda forward and we salute 
you for identifying the risk of a lackluster response to Iran 
that would not only endanger our security, treasured allies', 
but also the rest of the world. So we thank you for that.
    We also want to thank you for your speech on China and the 
cyber world. Senator Bond and I are on the Intelligence 
Committee. I'm on a task force on the--on the cyber terrorism 
issue. We want to work--today, this is not the environment to 
have this conversation. A more classified one would be 
appropriate.
    But I believe that cyber terrorism, cyber intrusion is 
really one of the biggest threats facing the United States and 
the free world. If the terrorists can attack and steal our 
ideas or place our critical assets into jeopardy, it is--has 
the potency that I believe is far more dangerous than even 
nuclear and other weapons of mass destruction. So that's a 
topic for other discussion.

                                 HAITI

    But I'd like to just shift in my time left to a compassion 
issue which is Haiti. We really want to salute the 
administration and work with the Congress on our response to 
Haiti as well as President Bill Clinton's Global Initiative.
    I worry about compassion fatigue, not of our country but of 
allies, and I wonder how you see that and, number 2, what do 
you see are the future sustained efforts?
    I represent a substantial number of NGOs that are 
headquartered in Maryland, like Catholic Relief, and then 
there's another issue that I'd like you to consider and follow 
up with your staff. That is the issue of amputees.
    Secretary Clinton. Yes.
    Senator Mikulski. In all of the terrible tragedy, so much 
of the population has suffered amputation. My colleague, 
Senator Leahy, has been one of the leaders. I had the great 
honor of being with him in Mozambique where he had created a 
low-tech but highly effective industry where people who had 
been victims of land mines, children, adults, the elderly, and 
I saw where they could make their own products that could help 
them sustain themselves in a very rugged environment.
    I was so proud of what Senator Leahy did, and I really 
bring this to the attention that Senator Leahy, with his 
leadership as the Chair, your work in Haiti, that we take 
special attention to that.
    I've reached out to the Bloomberg School of Public Health. 
I have a list of people who've done this around the world where 
there are models and lessons learned, but again it was the 
Leahy leadership in Africa and your work here because what I 
fear is, after the TV cameras leave and we want to go rebuild a 
country that's 80 percent agriculture, they won't be able to do 
the work and also could that also be another source of 
employment right there in country.
    So you might not have the answer today, but I'd like to lay 
that out as a policy direction that perhaps we could pursue.
    Secretary Clinton. Could I take a little time, Mr. 
Chairman, to respond because this is----
    Senator Leahy. Sure.
    Secretary Clinton. I was smiling because I had a meeting--
--
    Senator Leahy. I should note that the Secretary, when she 
was in----
    Senator Mikulski. Are you all aware of this?
    Senator Leahy [continuing]. The Senator supported me on 
every one of these efforts to help with amputees----
    Senator Mikulski. Well, he's been the leader.
    Senator Leahy [continuing]. As has the Senator from 
Maryland.
    Secretary Clinton. Well, I was meeting with Dr. Roj Shah, 
our new USAID Administrator, telling him about this work that 
Senator Leahy has led and that so many of us supported for 
exactly the reasons that you're pointing out, Senator Mikulski.
    The amputation issue is going to be one we have to address. 
We're trying to put together a plan now and I would like to 
come back to all of you who are concerned about this to make 
sure that you know what we're doing, that we have all the 
information you have at your fingertips, the experience that 
resides here on this subcommittee, and that we have adequate 
funding to address it because I think that is a wonderful 
compassion initiative for the United States.
    But to your other point, Senator, I am very heartened by 
what I see happening in the international community. Every 
single country in the Western Hemisphere has contributed 
something to Haiti and they have made a collective commitment 
of money, plus individual countries, like Brazil and Mexico, 
that have more capacity, but even poor countries, like 
Guatemala. The Dominican Republic has been extraordinary in 
what it has done for its neighbor.
    We're having a conference that is co-hosted by the United 
States, the United Nations, and major donor countries at the 
United Nations on March 31 to really nail down these 
commitments.
    The United States is working very closely with the Haitian 
Government to stand up a development authority that will be 
supported to fulfill the reconstruction and recovery work now 
that the relief phase is ending.
    But I think this is an opportunity for us. Our military 
performed admirably and just completely eliminated any of those 
old canards about the United States military in our hemisphere. 
We had a very robust public diplomacy effort.
    Under Secretary Judith McHale, whom you know, drove this 
and we basically looked at every press coverage in the world 
about what we were doing in Haiti. If there was a story that 
was inaccurate or unfair, we immediately responded and the net 
result is that I think the United States is seen as the leader 
that we have been in doing this work.
    Senator Mikulski. Well, that's fantastic. My time is up. I 
have--I have a constituent who's in a Burmese prison and I'd 
like to talk to you. Your staff has been great, but I'd like to 
talk with you about more, perhaps other avenues for his 
release.
    Secretary Clinton. Good.
    Senator Leahy. And the Secretary's been wonderful in being 
accessible to us. I want to make sure everybody gets a chance 
before she has to leave.
    Senator Bond has been one of the hardest-working members of 
this subcommittee. I want to make sure he gets a chance to be 
heard.
    Senator Bond. Mr. Chairman and I join with you and Senator 
Gregg in issuing a very warm welcome to the Secretary back to 
the Senate and I certainly join them in applauding your 
leadership at the State Department.
    I personally am delighted with your active support of the 
concept of smart power, particularly in nations where we see 
the threat of extremist violent terrorism in Islamic lands 
threatening not only their people, our interests, their 
neighbors, but the United States, and smart power, through the 
use of diplomatic efforts, personal visits, economic 
cooperation, two-way trade, investment, and educational 
exchanges can work.
    But one of the things that I have seen as I've traveled 
around the world is the great need for more of your personnel 
on the ground and I join with Senator Gregg in supporting--and 
the chairman--in supporting your budget to rebuild our civilian 
foreign assistance capacity. That's very important.

                        ASSISTANCE TO INDONESIA

    As you may know, as you know, I'm interested in Southeast 
Asia which the 10 nations comprise our fifth largest two-way 
trading partner, equal--exports equal almost what we send to 
China, and the keystone of that whole area is Indonesia.
    I thank you for recognizing Indonesia's importance. One of 
your first official visits was ensuring that the President can 
go there. No better--no better example of our friendship, and I 
just visited with President Yudhoyono last month who was 
interested in far more United States investment and 
participation.
    And I guess the first question is does the administration 
support any conditionality at all on the foreign military 
assistance, foreign aid and foreign assistance to Indonesia?
    Secretary Clinton. Senator, thank you for those--those 
comments, and as you know, President Obama will be going to 
Indonesia----
    Senator Bond. Right.
    Secretary Clinton [continuing]. In March with his family, 
and we have been working hard with the Indonesian Government to 
be able to be in a position where we can resume support for 
vital security functions and we are looking at ensuring that 
the Indonesian democracy that has taken hold there will make 
sure that there's no resumption of any human rights abuses or 
other kinds of behaviors that we, you know, deplore.
    This is an area where Chairman Leahy has been a real 
leader. We hope to be able to come before the President's trip 
and brief you on how we would like to be able to move into a 
new era of cooperation because the Indonesians have been very 
helpful to us on counterterrorism. I think a lot of what 
they've done in their own--in dealing with their own threats 
has really been first, you know, first-rate in the sense of the 
results that they've gotten, but we just have to make sure that 
we're complying with all the legislative criteria and we think 
we can do that.
    Senator Bond. Well, Madam--Madam Secretary, I believe 
there's a new era. It's been totally changed.
    Secretary Clinton. I do.
    Senator Bond. President Yudhoyono has reformed the 
military, a former general. He stepped out of the military. 
He's working to establish--and we need much stronger 
cooperation to make sure the military leaders understand that 
they are under civilian rule. We need to fight corruption and--
and ensure continued support. They need our active support 
militarily but they need the support of private businesses and 
I--as I've visited those countries, I find that American 
business people abroad are penalized, facing double taxation.
    I visited Thailand. The American Chamber of Commerce, there 
is probably one of the best public diplomacy outreaches we 
have. They have adopted school programs. They're constructing 
playgrounds, libraries, water tanks, water filtration, helping 
children with dental deformities, but the problem is that our 
system of taxation penalizes the CEOs, so all the American 
companies that could be leading for America have to be 
Australians, Brits, or Kiwis because of our extra-territorial 
taxation.
    I just--I know that's a sensitive subject. I've been 
fighting it, but what's your view of the role that private 
American businesses' investment and participation in developing 
countries can do to strengthen our relationship?
    Secretary Clinton. Well, I believe very strongly that 
American business is critical to American interests and 
American security and prosperity.
    I met this morning with two of our leading company CEOs, 
Indra Nooyi from Pepsico and Jeff Immelt from GE, talking about 
how the State Department and our commercial diplomacy efforts 
need to be more in support of what American businesses are 
doing because the competition is so rough.
    Senator Bond. Right. And we--if we--with the double 
taxation, the punitive taxation, we penalize them putting 
American CEOs in--in charge of it.

                              AFGHANISTAN

    I have lots more questions, but on--I want to turn to 
Afghanistan. My staff met with Joann Herring, who's founded the 
Marshall Fund Charities and during Charlie Wilson's Days in the 
1980s, she was working to help the people of Afghanistan. She 
has some views on a comprehensive approach to reconstruction 
and development bringing NGOs together, and I would ask, number 
1, that you at least give a hearing to them. They would like 
USAID dollars. I hope you'll consider that.

                              AGRICULTURE

    Also, I hope that you will--that the additional funds for 
USAID will help them take agricultural experts. For 2 years, 
this subcommittee supported me in putting $5 million in the 
budget to send agriculture extension agents several years ago 
to Afghanistan. They never got one there. The Missouri National 
Guard has the Agricultural Development Team which is making a 
tremendous difference in Nangahar Province.
    I hope that there can be continued cooperation and 
providing military--military-civilian support for improving 
agriculture, teaching them not only to fish but to grow crops.
    Secretary Clinton. Well, Senator, again, I mean, you are 
singing my song here because we are absolutely committed to 
agricultural exports.
    I don't know if this subcommittee has gotten a copy of the 
Afghanistan and Pakistan Regional Stabilization Strategy. If 
not, we will get copies to you. But in the section on 
Rebuilding Afghanistan's Agricultural Sector, just a few 
highlights. Eight-ninety agricultural experts, 64 from the U.S. 
Department of Agriculture (USDA), 25 from USAID, on the ground 
in Afghanistan, working in the south and the east sectors with 
our PRTs, our district support teams.
    We've got USAID issuing vouchers to farmers in 18 
provinces, particularly in Helmand and Kandahar, for inputs 
offering, you know, better fruits, assistance with irrigation 
and the like, and, finally, we're doing a high-impact 
irrigation initiative because all of our agricultural experts 
have told us that's key.
    But there's a lot more, Senator, that I would like you to 
know about because you have been right about this for years and 
I think finally we're getting around to implementing it and we 
are looking for assistance from land grant colleges and asking, 
as well, that as we embed our civilians in with our military, 
which is how we're getting into these combat or post-combat 
zones, that we have the support that is needed to be able to 
get out there and deliver these services to farmers and we're 
doing that.
    Senator Bond. I look forward to talking with the 
appropriate staffers on your team about that because there's 
much that we can.
    Thank you.
    Secretary Clinton. Thank you.
    Senator Leahy. Thank you very much. Senator Landrieu.
    Senator Landrieu. Thank you, Mr. Chairman, and welcome, 
Madam Secretary. It's wonderful to see you back, and let me 
just begin by thanking you for the very admirable way that you 
have represented our country. Many of us are extremely proud. I 
know it's a very, very difficult job that you have and you do 
it very well on our behalf.
    I also want to follow up with what Senator Bond said, that 
I specifically appreciate your partnership with Secretary Gates 
to marry the hard power of our military with the smart power of 
our diplomacy over the long run. I believe that is going to pay 
huge dividends and it's been missing in the last several years 
and you have really filled the bill there.
    I also want to acknowledge, as Senator Mikulski said, thank 
you for always putting women in the forefront of this debate 
because, as you know, women can be the drivers of economic 
growth and social stability around the world. They're often 
left out at our peril because no plans really work without them 
being at the table and I think often they're left out, but with 
your leadership, they have not been.

                                ORPHANS

    In one particular area, Madam Secretary, I wanted to ask 
you some questions about something you and I have worked on for 
many years together and that is the rights of the world's 
children, particularly orphans. This has been in the news from 
day one in Haiti, but it really should be news all over the 
world because conservative estimates have about the number 
pegged at somewhere about a 163 million orphans. We don't know 
the real number. We know that there are some issues with those 
definitions. UNICEF's definition is a little bit different than 
other definitions.
    But my point is this or my question is this. Senator Inhofe 
and I and other members in a bipartisan way have introduced a 
bill called The Families for Orphans Act which is pending 
before the Foreign Relations Committee of the Senate now. This 
bill would establish in the State Department an opportunity to 
focus on the plight of orphans and to promote the simple but 
profound concept that children belong in families. They don't 
belong in institutions. They can't raise themselves on the 
streets. If we want to stop trafficking, if we want to stop 
exploitation of children, prostitution of children, the best 
thing to do would be to put them under the watchful eye and 
care of a family. So that's what our bill attempts to do.
    Could you give us your views about our efforts there, if 
you're familiar with the specific aspects of this bill, please 
comment, but what are your general views about what we could do 
to focus our efforts and the world's efforts to really connect 
orphans to families that need them or children that need 
families?
    Secretary Clinton. Well, Senator, let me start by 
acknowledging and thanking you for your passion about this. You 
and I have both worked together on this and talked over many 
years about it, but you've been the leader. You have really 
demonstrated a heartfelt commitment to the world's children in 
so many different aspects.
    I share that commitment and I am looking for the best way 
forward, how we can realize the positive results that we both 
see, because I share your conviction that, you know, the best 
place for a child is in a family and it may not be a family 
with a mother and a father, it might be grandparents, it might 
be older siblings, it might be aunts or uncles or even in some 
societies extended families, and so there are three areas that 
I think we have to focus on.
    One, there is in many parts of the world no capacity for 
absorbing orphans and no real sense of adoption or fostering in 
any organized institutional way. So I think we need to up our 
outreach to provide education, technical capacity, to help 
countries because in some countries adoption is really against 
the culture and so if they're not some blood connection, the 
child has nowhere to go, and I think there's a slow change in 
this but we have to do more in a public diplomacy outreach way 
and I'd like to work with you on that.
    Second, in times of crisis, we have to have our systems in 
place, we certainly saw that in Haiti, because there's a lot of 
misunderstanding, there's confusion in any disaster. So we're 
working on kind of a lessons learned from--from disasters, from 
conflict situations about what more can be done, and we need 
high-level advocacy.
    We have a Children's Office in the State Department. It 
would be, you know, my preference that we sort of build that up 
because I want it embedded. I don't want it to be--I don't want 
this to be an add-on. I want it to be permeate what I'm trying 
to do with women, is to permeate the Department so that women 
are part of the policy. If you're serving in Europe or Africa 
are part of the policy. If you're doing outreach in Angola, we 
are just going to try to permeate.
    I want the same attitude about children. So we need--we 
need better education, more technical capacity, more direction 
and support, and I'd like to work with you to make sure that 
what we're doing will actually have the results that we both 
seek.
    Senator Landrieu. And I appreciate that, and I thank you 
for pointing out that in many countries of the world there 
isn't the same urgency or appreciation for the strength of 
families that exists in America, but just because people can't 
appreciate that doesn't necessarily mean that it's not the 
right thing and I appreciate your commitment.
    One figure that I want to throw out today because these 
figures are hard to come by and some people throw up their 
hands and say the problem is overwhelming, we can't address it, 
but I want to leave you with these numbers. If you just took 50 
percent of the estimated orphans, Senator, Secretary Clinton, 
that would be roughly 70 million children.
    There are 2.5 billion families in the world. So if only 
2\1/2\ percent of families in the world, only 2\1/2\ percent 
opened up their homes and their hearts, there would be no 
orphans left in the world. So while these numbers seem 
overwhelming, when you put them in perspective to how many 
parents would adopt, how many families want to open up their 
homes, how many churches, synagogues and mosques are willing to 
step up, it's just the government enterprises have to get 
themselves better organized.
    So I know you're a great leader in this area. I look 
forward to working with you, and I know that your position is 
generally against institutional care and for care in families.
    So thank you very much and thank you, Mr. Chairman, for 
your leadership on this issue, as well.
    Senator Leahy. Thank you very much, Senator. We all know 
the amount of time and effort you have spent on this issue and 
I applaud you for it.
    Senator Voinovich.
    Senator Voinovich. Thank you, Mr. Chairman. Madam 
Secretary, I've got three areas that I'm going to mention and 
I'm hopeful that you'll be able to respond to at least one of 
them and if we don't get a second round, Mr. Chairman, I would 
hope that the people that are here would respond to them to me 
in writing.
    First of all, I want to congratulate you on putting 
together a great team. I don't know of any Secretary of State 
that's had more on their plate than you have and I do 
understand that you can't do it alone.
    I also applaud the fact that you have created two Deputy 
Secretaries, one for management and one for policy. As you 
know, I've been critical of the former administration because 
they didn't pay enough attention to management.
    I want to tell you that the most important--one of the most 
important things you've done for your people is the issue of 
location pay----
    Secretary Clinton. Yes.
    Senator Voinovich [continuing]. And I hope that that is 
reflected in this budget. The Foreign Relations Committee 
hasn't yet set out their vision, I guess, for the next 5 years, 
but that's important.
    Second of all, I'd like to say that where the Visa Waiver 
Program has worked, they have less work than they had before 
because of that program.
    And last but not least, the Embassies. I visited a couple 
of countries and they're really pleased with those Embassies 
and I think it's important to the countries because it 
indicates to them that the United States is really interested 
in them and their future.

         ASSISTANCE FOR EUROPE, EASTERN EUROPE AND CENTRAL ASIA

    Last week I was in Slovenia, Croatia, Bosnia, Macedonia, 
Kosovo, and Serbia with Senator Shaheen, and I know you're 
focused on Iraq and Iran and Afghanistan, but probably more 
than maybe some other Secretary of State, I know that you're 
interested in that region. We have spent a lot of time, a lot 
of money, and I'm concerned that if we don't pay attention to 
it, all of the progress that we have made may be--may be for 
naught.
    The good news, when I visited these countries, they didn't 
mention the FMA or IMET, but what they did mention was the 
State partnership that they have with our states. This wasn't 
in this trip but when I was in Latvia the last time, the 
Latvian group going to Afghanistan had the Michigan National 
Guard serving under it and I know that the Ohio Guard is doing 
a fantastic job in Serbia today. Just to hear their Defense 
Minister talk about that partnership, it just gives me goose 
bumps.
    Second of all, you know that their budgets are not very 
good. They've got the same problems we have, but they're 
helping us, many of them, in Afghanistan and Kosovo, and they 
care about the regions.
    It's interesting. Each of these countries, you know, 
they're concerned about themselves, but they realize they have 
a symbiotic relationship with the other countries that--that 
are there and their vision is my vision, that they all get in 
the European Union (EU), they become part of the North Atlantic 
Treaty Organization (NATO), and then become part of the 
EuroAtlantic Alliance, and a couple of things they're concerned 
about.
    One is EU membership. They know that there's fatigue today 
in the European Union and many of them were using it as an 
incentive to get them to do some things they wanted to do but 
they're afraid that they'll never in the European Union.
    Most of them were concerned about Bosnia. Put in a 
nutshell, the Butmir Process has not worked. No progress will 
be made on that, they think, and this is the consensus, till 
after the election, but what they're worried about is that in 
the election, they'll poison the well so that after the 
election, the issue of changing the Constitution to give it 
more flexibility is not going to occur and they argue 
strenuously for Bosnia getting into the European Visa Waiver 
Program and they also think it's very important that some 
indication of their getting IPMAP is--is--or MAP is going to--
is going to happen.
    And their concern is that Dodik right now and his 
president, one of the three presidents is in favor of--of NATO 
membership, but after the election, they think possibly this 
thing would just blow up and then we'll have a black hole there 
in that part of the world.
    In addition to that, they're all concerned about Kosovo 
because you know the court's going to decide one way or the 
other on Kosovo and when I talked with Prime Minister Thaci, I 
said, ``You ought to be thinking about what's going to happen 
here,'' and I talked to the Serbs. ``You've got to think about 
what's going to happen on the ground,'' and I think it's real 
important that the State Department encourage them to do that.

                              AFGHANISTAN

    The last part of this deals with--with Afghanistan. I had--
I was honored that Holbrook spent a couple hours. I went over 
there and spent--I was absolutely impressed with what they're 
doing, but I don't think that we have been candid enough with 
the American people about the commitment that we're going to 
have to make in Afghanistan if we intend to be successful.
    Now you've mentioned some of the things that you're doing, 
but this is not going to be next year or the year after. This 
is maybe 5 to 10 years. It could even be more than that if 
we're going to create an environment where the Taliban, who--
you know, it's with them, you know, it's Alakbat, okay. That's 
what you're dealing with and so you're going to have to really 
do a lot of work there to counter that and get people to feel 
good about it and you're also going to have to make--and you 
should level with the American people. Okay?
    The last time around, if you remember, we were there is 
that we did not level with the American people about the 
commitment that we're going to have to make. We're just kind 
of--and we need to put it out. This is a commitment we're going 
to have to make. The Europeans, by the way, also want to know 
about the commitment in terms of military and in terms of 
their--what do you call them--P----
    Secretary Clinton. PRTs.
    Senator Voinovich. PRTs, and I congratulate you on getting 
them all together. They don't feel like we're just telling them 
what to do. There's a consensus and you've got to keep doing 
it, but I think it's really important that--that we level with 
the American people and the world about what kind of commitment 
we're going to have to make to be successful in Afghanistan.
    And last but not least, I'm concerned about whether 
Karzai's going to do his thing and if you recall in terms of 
Iraq, we laid out a whole list of things they promised to do 
and then we used metrics to see whether or not they did them or 
not, and I would think that, rather than having it come from 
Congress, that you'd give some serious consideration to saying 
here's what they did, we're going to monitor their progress so 
that you can keep us informed and the American people that 
they're doing what they're supposed to do because if they don't 
do what they're supposed to do, we're in--we're in big trouble.

         ASSISTANCE FOR EUROPE, EASTERN EUROPE AND CENTRAL ASIA

    Secretary Clinton. Well, Senator, I don't think there's a 
thing you said that I disagree with and I thank you for your 
interest and focus on southern Europe.
    We are very concerned, as well, about the direction we see 
Bosnia heading. We need to have more attention paid. We need to 
partner with the Europeans so that they are committed. We are 
obviously a strong supporter of the countries in southern 
Europe going into the EU. We think it has a lot of benefits for 
the countries but also the broader effort for integration in 
Europe and the TransAtlantic Alliance. But we also think, with 
respect to NATO, that we have to make clear what it would take 
to get MAP and then move Bosnia forward.
    I think, you know, Senator, that your attention to these 
issues is something that I'd like to take more advantage of 
because you have been consistently concerned and involved. I 
share your wariness about what happens after the court decision 
in Kosovo and I think I'd like to follow up with you to make 
sure that we convey to our Serbian friends and our Kosovar 
friends that this has to be managed in the right way.

                              AFGHANISTAN

    And, finally on Afghanistan, I agree that we have to be as 
candid as possible. We can't lay down a clear path forward and 
say this is the way it's exactly going to be, but we can 
certainly set the general direction and we have said 
consistently that our, you know, our goal is to transition 
military security to the Afghans and we've seen some real 
progress under General McChrystal and General Caldwell in 
improvements in Afghan security, both Army and police 
recruitment and retention and performance, but we are going to 
have a long-term civilian relationship and we think we need 
that. We think that's going to be in America's interests, and I 
agree with you that we need to make that as clear as we can, 
and we want also to use the metrics that we've developed that I 
would hope have been shared with you, but if not, we will, as 
to how we're going to try to hold the Karzai Government 
accountable.
    Senator Voinovich. Thank you.
    Senator Leahy. Senator Specter.
    Senator Specter. Thank you, Mr. Chairman. Madam Secretary, 
thank you for taking on the job and the hard work and 
successful work you're doing. We miss you in the Senate but we 
like to see you where you are.

                                 SYRIA

    Thank you for the call from your Deputy Bill Burns about 
his trip to Syria.
    The question on my mind that I alerted him to this 
yesterday as to whether the stalemate might be broken between 
Syria and Israel on negotiations if the President were to 
invite them to the Oval Office.
    Back in 1995, Senator Hank Brown and I were in India and 
Prime Minister Rao brought up the subject of his interest in 
having the subcontinent nuclear-free and asked us to convey 
that message to Prime Minister Bhutto whom we saw the next day 
and we made a recommendation to President Clinton to consider 
calling them in.
    I had recalled the tremendous success that President 
Clinton had with Yassir Arafat and Shimon Peres and Rabin that 
memorable day on the White House Lawn.
    Would you give consideration to that process? I have gotten 
to know the Assads, both the father and the current president, 
and I think the right nudge could push them to the table. We 
came very close in 1995, came very close in 2000. The Turks 
have been in the process of mediating, but would you consider 
that?
    Secretary Clinton. Well, Senator, I certainly will look at 
anything that might break the stalemate. I'm not sure that that 
would be acceptable or doable to all of the parties involved, 
but certainly our goal is to help facilitate a resumption of 
talks between Israel and Syria. We think it's absolutely 
necessary for Israel's security and future to try to move the 
whole region toward a more peaceful state. So we'll certainly 
take--take any idea you have under consideration because you 
have been--I don't know how many times you've been to Syria by 
now.
    Senator Specter. Eighteen.
    Secretary Clinton. Eighteen. It's more than anybody else 
that I personally know. So we take what you say and that's why 
Under Secretary Burns called to report to you. We take what you 
say, you know, very seriously and we'll certainly consider it.
    Senator Specter. I have been concerned about the gridlock 
in Congress for many reasons, but from what I have read and 
heard, it has had an impact on our stature internationally.
    The President came on with a great promise and, I think, 
did materially change the world's view of the United States for 
a number of reasons and I think not only has President Obama 
been diminished but so has the presidency and for that matter 
so has the ability of governance by the Congress of the United 
States, very, very problem-some, and we ought to be backing up 
the President on matters that he has to deal with of such 
gigantic importance.
    I read your statement across the board, Iran and North 
Korea and the Mid East and Afghanistan and everywhere.
    May the record show an affirmative nod? We trial lawyers 
use that procedure sometimes not being sure what the answer 
will be.
    What do you--what do you think?
    Secretary Clinton. Well, Senator, I have great affection 
and admiration for the Senate. The 8 years I was privileged to 
serve here were extraordinarily meaningful to me, but 
unfortunately I have to agree with you.

                      SENATE CONFIRMATION PROCESS

    The gridlock over nominations is particularly troubling. 
We're now, you know, what, more than 1 year into a new 
administration and whether you agree or disagree with a 
particular policy, a president deserves to have the people that 
he nominates serving him and I would earnestly request the 
attention of this committee to filling the USAID appointments. 
We finally got Dr. Shah nominated and confirmed. There was no 
delay on that, and I thank you for it, but he has no team and 
we've got to get that moving as quickly as possible.
    But I--I have to confess that when it came to some 
Assistant Secretary positions, some ambassadorial positions, it 
became harder and harder to explain to countries, particularly 
countries of significance, why we had nobody in position for 
them to interact with.
    So I--I think that, as we move forward, there are many 
things to argue about and I am the strongest advocate of 
people, you know, arguing out positions in a civil way that 
hopefully sheds more, you know, light than smoke, but on the 
question of nominations, I hope that we all can move more 
quickly and particularly on the AID front and the ambassadorial 
front.
    Senator Specter. Well, I will help you with that, but, 
Madam Secretary, beyond the confirmations, is my perception 
right or wrong that what has happened on gridlock goes beyond 
that? The weakening of the President? Everybody reads the 
public opinion polls. He's not able to project the same kind of 
stature and power that he did a year ago because we're--because 
he's being hamstrung by--by the Congress and it has an impact 
on foreign policy which we really ought to do everything we can 
not to have partisanship influence.
    Secretary Clinton. Well, Senator, I think there is 
certainly a perception that I encounter in representing our 
country around the world that supports your characterization. 
People don't understand the way our system operates. They just 
don't get it, and their view is--does color whether the United 
States is in a position, not just this President but our 
country is in a position going forward to demonstrate the kind 
of unity and strength and effectiveness that I think we have to 
in this very complex and dangerous world, and, you know, we're 
always going to have differences between the executive and the 
legislative branch.
    Having served on both ends of Pennsylvania Avenue, that's 
par for the course. That's democracy. You know, we're not going 
to do anything that will undermine that, but I do think we have 
to be attuned to how the rest of the world sees the functioning 
of our Government because it's an asset. It may be an 
intangible asset but it's an asset of great importance and as 
we sell democracy and we're the lead democracy in the world, I 
want people to know that we have checks and balances, but we 
also have the capacity to move, too.
    So it is--it is a concern of mine, and I--I hope that we 
can figure out a better way to address it.
    Senator Specter. No more questions, Mr. Chairman, but a 
comment.

                                  IRAN

    On Iran, I hope you will figure out something that we can 
get the Chinese to go along with, which is tough enough, to get 
some sense out of Iran because that boiling pot is not going to 
simply boil forever.
    And the final comment is I know you've done a great deal on 
the three hikers in Iran, one of whom lives in the Philadelphia 
suburbs, Joshua Fattal, but whatever in addition can be done, 
it would be greatly appreciated in many quarters.
    Secretary Clinton. Thank you, sir.
    Senator Specter. Thank you, Madam Secretary. Thank you, Mr. 
Chairman.
    Senator Leahy. Thank you. I'm going to yield back to 
Senator Bennett, but on Iran, I'm going to leave with you and 
your staff an op-ed in the New York Times by Roger Cohen about 
what we prevent from going to Iran. One of the things he 
suggests we shouldn't be preventing is the equipment they might 
need to get on the Internet. That's kind of a layman's 
description of it.
    I would look at that especially as they're working so hard 
to block the Internet, anything we can do there which will get 
around the government's censorship would be helpful.
    Secretary Clinton. If I could, Mr. Chairman, I just want to 
respond to Mr. Cohen's column. It references a pending license 
that was held up in the Treasury Department. That has now been 
moved, perhaps there's a cause and effect there, and it is now 
in the State Department and we intend to act on it 
expeditiously.
    Senator Leahy. As the old serials on radio would say, my 
work here is done.
    Senator Bennett.
    Senator Bennett. Thank you very much, Mr. Chairman, and I 
join, Madam Secretary, my colleagues in welcoming you back to 
your old stomping grounds. Seeing you on the other side of the 
table is a different kind of reaction, but we're always happy 
to see you, regardless of the circumstance.
    Coming as late in the questioning as I do, I won't rehash 
many of the things that have been said by my colleagues, but I 
will not let the opportunity to mention Iran and the Iran 
Sanctions Act go unchosen. I won't have to add anything to the 
things that have been said, but I believe that's extremely 
important, whatever you can do to see to it that the Russians 
and the Chinese are helpful to us here. I won't go into 
territory about what I think may be happening with both Russia 
and China because I don't want to say anything that makes any 
particular headlines.
    But I understand from reading history that Ronald Reagan 
used to drive Mikhail Gorbachev crazy by quoting the old 
Russian aphorism ``Trust but verify,'' and Gorbachev finally 
said to Reagan in an outburst, ``You keep saying that,'' and I 
think he did keep saying that and we should keep saying that.
    So with respect to Iran and what the Russians and the 
Chinese are doing, just remember the Russian proverb that an 
American president enjoyed so much.
    So I will turn to two subjects that have not been raised, 
both of which are enthusiasms of mine that I've been involved 
with in the subcommittee while I've been on it. The first one 
is the Millennium Challenge Corporation and the second one is 
micro lending and micro enterprise.

                    MICROLENDING AND MICROENTERPRISE

    If I can start with the second first, just I'm very proud 
of the fact that as long as I've been on this subcommittee, the 
pressure for micro lending has always been strong and the 
number has always gone up and I don't think there's anything we 
can do that makes more sense in the poor parts of the world 
than encourage micro lending.
    I have some of the articles that have been produced by 
women who have received micro loans. They offered to make me a 
deal. I said no, I don't want a discount, I'll pay the full 
price for this because it's still very low and I want you to be 
as encouraged as you can.
    Would you talk to Secretary Geithner to talk about 
increasing U.S. support at the World Bank? I've talked to the 
World Bank about this and I get lots of encouraging words back, 
but I'm not sure there's been as much movement at the World 
Bank as perhaps there should be and I hope that the State 
Department will continue to be as supportive and increase as 
much as they possibly can in these budgetary times support for 
micro lending.
    Do you have a comment on that before we turn to the 
Millennium Challenge Corporation?
    Secretary Clinton. Well, Senator, I share your enthusiasm. 
I've worked in micro enterprise since 1983 in Arkansas. I 
championed it when I was First Lady and I supported programs, 
along with you and others, when I was a Senator and we are very 
focused on micro enterprise and we're also looking at some new 
ways of accomplishing the goals of the Micro Enterprise Results 
and Accountability Act of 2004.
    We are looking at how we can fund institutions more 
effectively, leverage the money, and the World Bank is a big--
has a big role in this. So I will gladly pass on your comments 
to Secretary Geithner.
    Senator Bennett. Yeah. My own experience with the World 
Bank, as I say, is they talk a good fight but they get carried 
away with, well, we can do this, we can do that, and all these 
other things with respect to financial services, and--and 
that's wonderful, but in the meantime make the loans.
    Secretary Clinton. Right.
    Senator Bennett. Don't study this thing to death----
    Secretary Clinton. Right.
    Senator Bennett [continuing]. And look at possibilities. I 
want the possibilities to come true, but in the meantime let's 
make the loans.

                    MILLENNIUM CHALLENGE CORPORATION

    All right. The Millennium Challenge Corporation (MCC), I 
met with the new CEO whom I find very impressive, and the 
concern that many of us have with respect to the Millennium 
Challenge Corporation is that the current administration might 
take steps to curb its independence and one of its values, I 
think, has been that it is an independent agency with strong 
guidance from a board of directors which you chair.
    But can it maintain its independence or is there still 
conversation about folding it into something else that would 
make it more part of the State Department bureaucracy or the 
AID bureaucracy, and the budget is the lowest request that 
we've had since it began. I'd like you to address those two 
issues.
    Secretary Clinton. Well, Senator, I do chair the board and 
I'm very, very proud and happy to do so and I have publicly 
applauded the Bush administration for both MCC and PEPFAR which 
I think were significant advances in how we think about and do 
development.
    There have been no conversations that I have been part of 
or that I'm aware of about curbing the independence of the MCC. 
I think that there are, as you know, some legislative fixes 
that need to be done so that compacts can be extended, so that 
money can be rolled over, and that the mission of the MCC 
really focused on the kind of conditions-based aid that will 
change behaviors and increase capacity can be supported more 
effectively.
    So I--I am a strong advocate of the MCC. I think actually 
some of the lessons that we have learned from the MCC are part 
of our QDDR process and will be influencing how we do aid 
elsewhere, but, you know, it won't surprise you, I'm not 
telling you anything you don't know, that there is a division 
of opinion within the Congress concerning the MCC. There are 
very strong supporters and there are very strong detractors.
    But I think that on balance the MCC has proven itself. I 
think its--its independence has been beneficial, but I do want 
it to be seen as part of our overall efforts, not that it's 
going to be in any way undermined, but that it is part of how 
we deliver aid. It's not, you know, some add-on that is stuck 
out in left field. It is something that is integral to what the 
United States Government is doing and it's a model that I 
happen to hold in high regard.
    Senator Bennett. Well, I recognize there are some strong 
supporters and some strong opponents. Put me down as a strong 
supporter, and my--my goal is--is not to fund monuments 
overseas. We go overseas and we see U.S. money going to create 
something which then isn't maintained or doesn't provide any 
long term. I want to fund movement, movements toward the kinds 
of developments that are long term and become sustaining, and I 
think the MCC has that particular vision.

    So I applaud your support and if you need any support on 
this side in this subcommittee, why, put me down as one who's 
available.
    Secretary Clinton. Well, Senator, I just want to make sure 
that the record accurately reflects, thanks to the good 
information from my team here, we're actually increasing the 
MCC budget. We have a 15 percent increase over fiscal year 
2010. We've asked for $1.279 billion. That's a $174 million 
over fiscal year 2010. So we're increasing the MCC budget by 15 
percent.
    Senator Bennett. Oh, I'll get back into that then. Thank 
you. I appreciate that.
    Secretary Clinton. If you have any questions, please call 
us.
    Senator Bennett. I will.
    Secretary Clinton. We'll walk through them with you.
    Senator Bennett. Thank you.
    Senator Leahy. Thank you, Senator Bennett. Senator 
Brownback.
    Senator Brownback. Thank you, Mr. Chairman. Thank you, 
Madam Secretary. Appreciate you being here, appreciate the way 
you represent us around the world and your high energy levels. 
I'm sure it takes every bit of it.
    Secretary Clinton. Yes, it does, Senator.
    Senator Brownback. I've got a couple of items I want to run 
through with you, all of which you're familiar with, but a 
couple really need your action.

                            INTERNET FREEDOM

    We've appropriated to the State Department I think it's $20 
million for Internet firewall, getting through the Internet 
firewall. I was at your speech that you gave on this recently 
over at the Newseum. Congressman Wolf and I wrote you about 
this in 2009. Senators Specter, Casey, Kauffman, Kyl, and I 
wrote you about this.
    We've allocated the money to the State Department but State 
Department hasn't given any of it to the Global Internet 
Freedom Consortium. This is the group I found the most 
effective in doing this. They believe they could get a capacity 
in the anti-firewall area from 1.5 million now people that can 
get through these firewalls to 50 million users a day with the 
amount of money we put forward.
    I got two letters here to you from basically Chinese 
dissident groups and Iranian dissident groups saying would you 
please allocate this money to the Global Internet Freedom 
Group?
    There's a recent Washington Post report from an unnamed 
senior administration spokesman saying the reason they're not 
going to the Global Internet Freedom Consortium is because the 
Chinese Government would ``go ballistic'' if this were done. 
These are--a number of these are Chinese dissidents that are 
operating in these firewall items but they've been very 
successful on rudimentary, no help from the U.S. Government and 
with it, they can smash through the Iranian firewall and 
probably the Chinese firewall, as well, and I just would really 
urge you to look at it.
    I'm going to give you these two letters----
    Secretary Clinton. Good. Thank you, sir.
    Senator Brownback [continuing]. From those groups because 
that's in your wheelhouse already. You've spoken about it. 
You've got the money. We need to get it to a good group.

                    DEMOCRATIC REPUBLIC OF THE CONGO

    Second, I know you've been to Congo a few months back. 
That's been a personal interest of mine and Senator Durbin's, 
as well. I think we have the chance here to defund the militias 
that are--that are really just wreaking havoc all over Eastern 
Congo but the key is the--the minerals, conflict commodities. 
It's the--it's--it's the blood diamonds issue, only got four 
commodities you're dealing with, and I think at the core of the 
issue is that--that we require companies that are going to sell 
products into the United States, they've got to have a license 
on the products, a license on the minerals coming out.
    We want you to sell the minerals, Congo. We want you to be 
able to get the income, but on an item like coltan that's in 
cellphones that Congo has 80 percent of the African coltan and 
then it comes out and these militias, this is the way they fund 
themselves is they kind of operate the concessions or let 
people come and go, and then that funds the soldiers.
    If we could just require licensing on minerals that come 
out of Congo, I really think--and this by the big companies, I 
really think it would defund the militias and much of this goes 
away, not all of it but a lot of it. In the blood diamonds case 
in West Africa, this thing mostly defunded the militias which 
is what we got to do. We got to get the money away from the 
militias and there's a bill in both the House and the Senate. 
We have companion bills in each House that would do this.
    We've worked for several years to work with the companies, 
with the government, you know, that--that this is a way that 
could do this without hurting Congo and without hurting the 
businesses. So I think we've found how to do it, but we really 
need your backing and support and I don't know of anything that 
could--could help that war-weary place and it's--it's 
probably--it's hard to say, but this probably is the worst 
suffering in the world right now, is in--is in Eastern Congo 
and it's big, it's big. I mean, it's 60 million people in 
Congo.

                                 SUDAN

    The third item is Sudan. I was pleased to see this recent 
agreement signed on Darfur. I'm going to watch and see if it--
if it actually holds, but Southern Sudan, as you know, is going 
to be voting fairly soon on whether to move out of the Union 
with Northern Sudan. They've been--you know they've had a 
conflict for a long period of time.
    I would really hope that State Department and the White 
House could start working with Southern Sudan more like a 
country and helping them get established and visible. I've 
thrown out, you know, that if the President or if you could 
meet with the leadership of Southern Sudan, the President could 
meet in the White House with them as a statement of support for 
them.
    They've got--I've been urging them, saying why don't you 
get a basketball team together and start traveling in America 
with the Southern Sudanese. They've got--you know, the Dinka 
Tribe dominated and they're very tall. They've got 10 guys, Mr. 
Chairman, over seven feet tall playing basketball in Southern 
Sudan.
    So I'm saying just show up. You may get beat up by 40 
points but everybody's going to say where did these guys come 
from and I thought--I told them, I said, ``I don't know of a 
better way to get on the view screen in America faster than 
showing up with four guys over seven feet tall playing 
basketball.''

                              MIDDLE EAST

    Anyway, just if you could work with them, I think it's 
really an important phase, and I want to finish my comments 
with you on this. This is--this is a really tough one, I know, 
but I think it's time for us to review our Embassies in Israel 
and review again with the depth of review moving it from Tel 
Aviv to Jerusalem. Long issue, old issue. I know all of the 
thorns that are around it, but it seems to me that now is a 
good time to do this, that we're starting to talk about a two-
state solution, have for a couple years.
    Another key issue is the final status of Jerusalem. This is 
a negotiation just between us and the Israeli Government. I 
think it would be a very strong statement. It's the only 
capital in the world where we don't put our Embassy in the 
capital city. It would be obviously well received by the 
Israelis. It might irritate the Iranians. I'm okay with 
irritating the Iranians right now with everything that they're 
doing. I realize it has broader impact, but I think, you know, 
these things have timings to them, as you know better than 
anybody, and I think this is ripe now for a discussion to 
begin, particularly when we've had now a couple years of 
discussion about a two-state solution.
    I think we need to be clear that we believe Jerusalem's the 
capital of Israel and we're going to--we're going to act that 
way.
    So I thank you for considering these comments and would 
love to work with you on any of them.
    Secretary Clinton. Well, we will get back to you on all of 
them, Senator, because each and every one of them is very 
important. I appreciate your concerns about them.

                     ADDITIONAL COMMITTEE QUESTIONS

    Senator Leahy. The hearing record will remain open until 
Monday, March 1, for the submission of any written questions 
for the Secretary. I know we've gone beyond the time that was 
allocated for the hearing.
    [The following questions were not asked at the hearing, but 
were submitted to the Department for response subsequent to the 
hearing:]

            Questions Submitted by Senator Patrick J. Leahy

    Question. I was surprised that the budget recommends a cut of $87 
million from the fiscal year 2010 level for aid for refugees. Given 
what we know about the pressures on this account, aren't you 
essentially forcing us to rob funds from other accounts to be sure that 
the most vulnerable people are not disproportionally hurt?
    Answer. Supporting humanitarian assistance to and the protection of 
refugees, internally displaced populations, other conflict victims, 
stateless people, and vulnerable migrants remains a top Administration 
priority. While the President's fiscal year 2011 MRA request of $1.605 
billion is lower than the fiscal year 2010 appropriated level of $1.693 
billion, it represents a 9 percent increase over the fiscal year 2010 
MRA request of $1.48 billion. To assist in meeting humanitarian 
requirements in fiscal year 2011, the Administration also requested $45 
million in the Emergency Refugee and Migration Assistance (ERMA) Fund 
to meet urgent and unexpected needs. The Administration will continue 
to monitor worldwide humanitarian needs closely.
    Question. You have requested another $25 million to support Jewish 
migrants to Israel, which is the only instance in which we carve out an 
amount of funds for a designated group of refugees. The Congress has 
consistently supported this. Would you support similar carve outs for 
other designated groups of migrants, for example, Somalis who seek 
refuge in Yemen, and if not why not?
    Answer. The Humanitarian Migrants to Israel program provides a 
critical service to Jewish migrants to Israel. While the Administration 
appreciates congressional support for this program, we would not 
support similar carve outs for other populations that we assist. The 
Migration and Refugee Assistance (MRA) account is a humanitarian 
contingency account that serves the needs of refugees and conflict 
victims worldwide. Given the fluid and ever-changing nature of 
humanitarian situations, the flexibility provided within the MRA 
account to respond to needs as they arise is critical to ensuring the 
effectiveness of this assistance.
    Question. You are requesting a $25 million cut in aid for Europe, 
Eurasia and Central Asia. These include the former Soviet republics, 
where democracy is being threatened every day. Given the importance of 
strengthening our relationships with the people of these countries, why 
does cutting these programs make sense?
    Answer. We agree with you that strengthening our relationships with 
the people of the countries of Eurasia and Central Asia is critically 
important to the people of the United States. We recognize the 
backsliding that has occurred in the establishment of democracy in 
these countries--from flawed elections to stifling of media outlets.
    We believe that the Administration's request for AEECA funding is 
appropriate and reflects the needs of this region relative to critical 
priorities in other parts of the world. The fiscal year 2011 request of 
total assistance (all accounts) for Europe, Eurasia, and Central Asia 
reflects only a 2.5 percent reduction (compared to the fiscal year 2010 
estimate). The proposed allocations for fiscal year 2011 programs in 
the democracy and governance area in the Assistance to Europe, Eurasia, 
and Central Asia (AEECA) account represent only a 2.3 percent reduction 
from the fiscal year 2010 estimate--slightly less than the overall 3.4 
percent reduction in the account as a whole.
    Though some needs in the region have increased, other areas require 
fewer resources. Some nations in the region are beginning to make real 
progress on economic and political reform. In addition, other nations 
have significant energy wealth which they are applying to support their 
own development, and which require our continued diplomatic efforts--
but not much more money--in order to try to bring human rights and 
other important issues to the fore. Thanks to prior U.S. investment 
some non-governmental organizations and legacy institutions are now a 
sustained presence supporting democratic and economic reform in many 
countries.
    Finally, past investments in building the capacity of local 
organizations have allowed us to utilize indigenous expertise for 
program implementation, thereby permitting some cost savings within the 
fiscal year 2011 level. Moreover, we are using our experience to be 
more strategic in selecting the most cost-effective interventions and 
are leveraging more sources of other USG and donor funding to 
complement our assistance. In short, we believe that the levels of 
funding in the fiscal year 2011 AEECA request will permit us to 
continue to promote the transformation of these countries into market-
based democracies respectful of human rights and committed to the rule 
of law.

                  AFGHANISTAN-PAKISTAN CIVILIAN SURGE

    Question. You are requesting an increase of $1.4 billion for the 
Economic Support Fund. The bulk is it is for Afghanistan, Pakistan, and 
Iraq, which is separate from the $1.8 billion you have requested for 
Afghanistan, $344 million for Pakistan, and $517 million for Iraq in 
the supplemental.
    I understand the motivation to increase aid to these countries 
given what is at stake, but we have seen how difficult it is to spend 
money effectively. The previous Administration wasted billions in top-
down programs, and measured results by the so-called ``burn rate''--how 
fast money was spent, often through big contractors and corrupt 
governments. You are asking for a lot more money, and that means 
spending bigger and faster. Shouldn't we spend less, go slower, work 
from the ground up--in other words, fundamentally change the way we 
spend money in these countries?
    How much are we spending through Afghanistan's central government, 
and given press reports that top Afghan officials, including President 
Karzai's family, are getting rich and buying mansions in Dubai, are 
these the people we should be working with?
    Answer. We have provided over $700 million to the Karzai government 
between fiscal year 2002-2009. We are using this assistance to build 
Afghan government capacity, which will help the Afghan government gain 
the trust of its people through the delivery services. This direct 
assistance is also transferring ownership and responsibility of our 
assistance to Afghanistan to the Afghan people.
    The Afghanistan Reconstruction Trust Fund (ARTF) is our primary 
vehicle for channeling resources through the Government of the Islamic 
Republic of Afghanistan's (GIRoA) budget. This mechanism, which we 
monitor carefully, strengthens GIRoA's capacity to prioritize, direct 
and allocate resources. The ARTF also improves aid effectiveness by 
serving as a collective platform for donor funding, reducing the need 
to deal with all donors bilaterally. The governance and fiduciary 
framework for the ARTF has strict systems in place to increase 
accountability, transparency, and safeguards to ensure proper oversight 
of U.S. taxpayer (and donor) resources.
    We review the financial management, procurement and expenditure 
systems of key ministries to help them increase their capacity to 
accept U.S. direct assistance. Assessments (financial and procurement) 
to determine Ministries' ability to account for and manage funds and 
execute services are conducted at Ministries we intend to fund with 
direct assistance. Ministries are recertified every 3 years. The USAID 
controller leads this effort.
    At the same time, we are taking a multi-pronged approach to 
tackling corruption in Afghanistan. The U.S. government, with the 
broader international community, is prepared to help the Afghan 
government implement its strategy with programs designed to: (1) 
improve the transparency and accountability of Afghan government 
institutions to reduce corrupt practices; (2) improve financial 
oversight; (3) build Afghan capacity to investigate, prosecute, 
sanction and/or remove corrupt officials from power; and, (4) help 
Afghans educate the public about efforts to reduce corruption and 
improve the resources available for the public to demand and 
participate in transparent and accountable governance. Initiatives 
already underway include the Major Crimes Task Force, the Anti-
Corruption Unit at the Attorney General's office, and new programmatic 
support for the High Office of Oversight. We are also working with the 
Afghan Parliament to ensure ethics training is part of orientation for 
new members of parliament, and oversight assistance training is 
provided for members working on the national budget.
    Strengthening the Government accountability and service delivery is 
a key component of our larger strategy for stabilizing Afghanistan. 
Along with our diverse counter corruption initiatives, our programs to 
provide qualified civilian technical advisors and put in place sound 
auditing and payment transmission systems will be an important step 
toward stemming corruption and achieving our larger national security 
goals in Afghanistan.
    Question. Talking about ground up approaches to development, you 
have probably read or at least heard of Greg Mortenson's book ``Three 
Cups of Tea'' about building schools in Pakistan and Afghanistan. His 
schools, with the support of local villagers, cost a fraction of the 
schools we build and they are not destroyed by the Taliban. His 
approach may not be the answer for everything we are trying to do, but 
what have we learned from Mortenson's experience and how are we 
applying those lessons?
    Answer. Two key components of Greg Mortensen's approach to building 
schools in Pakistan and Afghanistan are community buy-in and long term 
investment. Both concepts continue to ground USAID education 
programming in Afghanistan and Pakistan as we move forward implementing 
USG strategy in this politically strategic region. The involvement of 
the community is a critical aspect of sustainable development in the 
education sector; USAID provincial programs in education incorporate 
input of local leadership and provide support for school management 
committees and parent teacher councils. In addition to fostering 
community involvement, USAID/Afghanistan and USAID/Pakistan demonstrate 
a long-term commitment to education by building capacity of government 
agencies on the district, provincial, and Federal levels and of 
nongovernmental organizations. These combined efforts to improve access 
to, quality, and governance in education throughout both countries, 
particularly in underserved areas and those vulnerable to extremism.
    I would also like to provide you with a bit of background on 
USAID's construction of schools in both Afghanistan and Pakistan. Since 
2002, USAID, in conjunction with the Ministry of Education (MoE), has 
built or refurbished over 680 schools throughout Afghanistan, at a 
total cost of $58 million. The preferred school design of the MoE is an 
eight-classroom school. As a Government agency, USAID follows the 
direction of the host government's MoE.
    The MoE estimates that an eight-classroom primary school costs 
approximately $160,000, while the cost of high schools differs greatly 
based on their size and the equipment to be provided. Construction 
costs can vary significantly depending on a number of factors, 
including remoteness of location, difficulty of terrain, land 
availability and the security environment.
    Without knowing the particulars--including size and location--of 
Greg Mortenson's schools, it is difficult to compare construction 
costs. One of the key factors could be that Moretnson may be using 
local materials, such as mud or brick, and that the school may not be 
earthquake-resistant. Indeed, traditional Afghan construction is very 
inexpensive but does not produce the types of buildings that will last 
over time nor stand up to earthquakes. To the extent possible, USAID 
uses local materials if they meet International Building Code (IBC) 
standards, however, some traditional materials are often not long-
lasting and not of a high quality.
    As of 2008, all USAID-funded buildings must be constructed to IBC 
standards. We are not aware of any other donor in Afghanistan requires 
these higher standards, but we believe it is essential that U.S. 
Government funded buildings adhere to these international standards in 
areas that are prone to earthquakes, and so we accept the higher costs 
and longer timeframes necessary to construct high quality buildings for 
school children and their teachers.
    The cost of construction for USAID-funded schools in Pakistan 
ranges from 2,100-5,600 Pakistani Rupees per Square foot (U.S. $25-
$66). USAID-constructed schools are built to the Zone Four Earthquake 
Rating (the highest possible) and apply the internationally accepted 
Uniform Building Code.
    Question. There have been articles in the New York Times and 
Washington Post about secret prisons in North Korea. It described 
horrific conditions, where prisoners--mostly critics of the regime or 
their relatives--are worked and tortured to death. That was disturbing 
enough, but the article also said that U.S. policy is focused on the 
nuclear issue, and that human rights and specifically the treatment of 
political prisoners is not a significant part of the discussion. Is 
that correct?
    Answer. The United States remains deeply concerned about the human 
rights situation in North Korea, including its labor and political 
prison camps. Human rights are a top priority and addressing human 
rights issues will have a significant impact on the prospect for closer 
U.S.-DPRK ties.
    The State Department's annual Human Rights Report reports that an 
estimated 150,000 to 200,000 persons, many of whom die from torture, 
starvation, disease, and exposure, are held in a type of political 
prisoner camp known as the kwan li so. As noted in both the 
Department's Human Rights Report and Trafficking in Persons Report, the 
North Korean regime reportedly continues to use forced labor as part of 
an established system of political repression.
    The Department currently funds a number of programs which seek to 
increase the free flow of information into and out of North Korea, 
document human rights abuses, including those occurring in political 
prisoner camps, and build the capacity of defector-led organizations to 
protect the human rights of all North Koreans. Additionally, the 
Department of State will allocate approximately $3.5 million in fiscal 
year 2010 for programming to promote democracy, rule of law, and human 
rights in North Korea.
    We also continue to work though multilateral organizations, such as 
the U.N. Human Rights Council (HRC), and bilaterally with other 
governments, including our regional partners, to improve human rights 
in North Korea. We are currently cosponsoring a resolution at the U.N. 
HRC, which specifically censures the use of torture and political 
prisoner camps. We see human rights as an integral part of the United 
States' North Korea policy, and will raise our concerns at every 
appropriate opportunity in the Six-Party Talks framework.
    Ambassador Robert King, the Special Envoy for North Korean Human 
Rights Issues, oversees North Korean human rights issues as a part of 
the Office of the Special Representative for North Korea Policy and 
participates in all relevant discussions in accordance with 
congressional intent.
    Question. I think there is a lot of concern that despite Senator 
Mitchell's efforts, negotiations on a peace agreement between Israel 
and the Palestinians have not produced the results we had hoped for. A 
year has passed, and Israel continues to expand settlements in the West 
Bank and the Palestinians continue to fight among themselves.
    Are those of us who believe a peace agreement is necessary to the 
success of our broader foreign policy goals in the region overstating 
its importance? If real progress is not made this year, do you think we 
should rethink our approach?
    Answer. Comprehensive Middle East peace remains important to 
broader American foreign policy goals in the region. When Prime 
Minister Netanyahu and President Abbas met in Washington on September 
2, 2010 to launch direct talks, they agreed to pursue a framework 
agreement within twelve months. That remains the goal.
    Unfortunately, we have not made as much progress as we or the 
parties would have liked. We knew this effort would be difficult and 
that we would hit hurdles; and we are always assessing the merits of 
our approach and seeking ways to promote progress toward the two state 
solution in the most realistic way possible, knowing the risks and 
constraints of the environment in which we operate. Both parties have 
asked for continued U.S. engagement with the parties and that is what 
we intend. Moving forward we will engage both on the core issues of the 
conflict and with a deepened commitment to Palestinian state-building, 
and step up the American approach including by offering new ideas and 
bridging proposals as necessary.
    Question. The Administration is putting together a supplemental 
request for relief and reconstruction in Haiti. A lot of people here 
will want to support that. The American people have shown tremendous 
generosity in helping the Haitian people during this disaster, and we 
want to help Haiti rebuild--hopefully to a better place than they were 
before the earthquake.
    But money, without effective leadership, will not solve Haiti's 
problems. While the current government is an improvement over the past, 
it was barely functional before the earthquake and will be unable to 
play a leadership role for the foreseeable future. There is a need for 
effective leadership, whether by the United Nations, United States, or 
some coalition of international donors and agencies. Given the amount 
of foreign aid wasted or stolen in Haiti, any long term reconstruction 
strategy, for Congress to support it, needs to be credible. The Haitian 
Government obviously needs to be consulted and involved, but a strategy 
whose success depends on the performance of the government would not be 
credible.
    Do you agree or disagree, who is in charge of rebuilding Haiti, is 
there a strategy, and how do we avoid the mistakes of the past?
    Answer. A key guiding principle of the USG strategy in Haiti is 
that the ultimate responsibility for rebuilding the country rests in 
the hands of the sovereign nation of Haiti and the Haitian people. It 
is our responsibility to see that U.S. Government resources spent 
toward accomplishing the reconstruction of Haiti are effectively 
managed, and transparently administered with proper oversight while we 
are helping Haiti to rebuild. There are a number of proposed mechanisms 
being discussed among Government of Haiti officials, multilateral 
institutions and bilateral donors for the management of reconstruction 
resources that would entail Haitian leadership along with credible 
systems of transparency and accountability. The United States strongly 
supports the development of mechanisms for oversight and management of 
the reconstruction program that will promote the effective, transparent 
and accountable use of resources.
    Question. There have been reports that funds have been cut from 
other disaster relief programs in order to support the Haiti relief 
operation. Is this correct, are funds for Sudan or other humanitarian 
crises being cut?
    Answer. Since IDA is a contingency account used to respond to 
natural and complex disasters world-wide, its flexibility allows OFDA 
to program funds as necessary to meet emergencies. While a significant 
amount of IDA funding is being directed to respond to the devastation 
from Haiti earthquake, the impact to other OFDA programs can be 
minimized if a supplemental is approved in a timely fashion (no later 
than the third quarter of the fiscal year).
    Humanitarian needs in Haiti can be met with current IDA resources, 
but funding availabilities for other programs world-wide may be 
temporarily reduced. USAID is hopeful that the IDA account will be 
replenished by a supplemental, which will allow OFDA to restore other 
programs to originally planned levels. In the mean time, OFDA will work 
with partners to meet critical needs with currently available funding 
and avoid programming gaps.
    However it should be noted that if a supplemental does not 
materialize, or is not available until late in the fiscal year, there 
will unfortunately be major impacts to OFDA's programs world-wide.
    Question. The $1.4 billion Merida Initiative, which Congress 
funded, was to be for 3 years. But for fiscal year 2011 you are 
requesting another $292 million for Mexico for the same purposes. Is 
this part of a longer term strategy with Mexico--sort of ``Merida 
Plus'', and if so, where can we get a copy of the strategy, who was 
consulted about it, how many years is it for, how much will it cost, 
and what results do you predict if the demand for illegal drugs in the 
United States, and the flow of guns from the United States, continues?
    Answer. The Merida Initiative was announced in 2007 as a 
partnership among the governments of the United States, Mexico, and the 
countries of Central America to confront the violent national and 
transnational gangs and organized criminal and narcotics trafficking 
organizations that plague the entire region. To date, Congress has 
supported this Initiative with $1.324 billion in funding for Mexico. 
The fiscal year 2011 budget request includes $310 million for Mexico--
$292 million in INCLE, $10 million for ESF, and $8 million in FMF.
    Following extensive Department discussions, including within the 
interagency community, and especially with Congress, we have now 
broadened our focus to include the Caribbean under the Caribbean Basin 
Security Initiative, renamed our Central America efforts as ``CARSI'' 
(the Central America Regional Security Initiative), and are refocusing 
on ways to improve citizen safety--something consistently ranked high 
among societal concerns in all countries of the region.
    Beginning with the Merida Initiative and moving ``Beyond Merida'' 
in Mexico, the United States is forging strong partnerships to enhance 
citizen safety in affected areas by fighting drug trafficking, 
organized crime, corruption, illicit arms trafficking, money-
laundering, and demand for drugs on both sides of the border.
    At bilateral working group meetings leading up to the March 23rd 
Merida U.S.-Mexico High Level Consultative Group, the governments of 
the United States and Mexico agreed on new goals to broaden and deepen 
our cooperation to effect lasting change. As a result of these new 
goals, we are accelerating our efforts to support and strengthen 
democratic institutions in Mexico (especially police and judicial 
institutions) and civil society organizations. We are also expanding 
our border focus beyond interdiction of contraband to include 
facilitation of legitimate trade and travel; and we are cooperating in 
building strong communities resistant to the corrupting influence of 
organized crime. As discussed in recent briefings with congressional 
staff, future programs to increase Mexican capacity and to 
institutionalize our partnership will focus on four goals:
  --Disrupt Organized Criminal Groups.--The United States and Mexico 
        will continue to collaborate to disrupt and dismantle organized 
        criminal groups. We will do so by focusing our efforts on 
        intelligence collection and analysis, training and equipping 
        special units, enhancing investigative capacity, conducting 
        targeted work against money laundering, improving interdiction 
        capability, building effective command and control centers 
        across Mexico, and developing effective task forces.
  --Institutionalize Reforms to Sustain Rule of Law and Respect for 
        Human Rights.--The United States will partner with Mexico to 
        help institutionalize justice-sector reforms to sustain the 
        rule of law and respect for human rights. We will continue 
        large-scale institution building projects with security and 
        judicial institutions at the Federal level and expand these 
        efforts to include additional Federal agencies and to State and 
        local institutions. The goal of these efforts is to support 
        sustainable changes in the judiciary to strengthen the rule of 
        law, promote respect for human rights, and engage with civil 
        society.
  --Create a 21st Century Border.--Our goal is to create efficient, 
        economically competitive border crossings along the U.S./
        Mexican border that ensure ``secure two-way flows'' of 
        travelers and trade. We will also work to improve enforcement 
        cooperation between ports of entry. Our immediate law 
        enforcement challenge is to greatly reduce the flow of drugs to 
        the north, and guns and bulk cash to the south.
  --Build Strong and Resilient Communities.--Mexico will take the lead 
        to enhance the rule of law, promote respect for human rights, 
        and create a culture of lawfulness by targeting specific areas 
        for building community organizations, reducing demand for 
        drugs, encouraging civil society participation, creating 
        sustainable economic opportunities, and promoting community 
        cohesion and violence reduction strategies. The United States 
        will support specific, geographically focused programs that 
        advance these goals.
    The United States and Mexican governments agree in principle to 
this framework for cooperation and are working together closely to 
determine the scope of action within each programmatic area. Broadly, 
and within this context, we are moving away from equipment purchases, 
such as aviation, and into an engagement that reinforces progress by 
institutionalizing Mexican capacity to sustain the rule of law and 
respect for human rights, build more responsive and transparent 
institutions, promote full civil society participation, transform the 
nature of our borders, and provide intensive technical assistance and 
training. We will also encourage enhanced cooperation with regional 
partners, including along Mexico's southern border with Guatemala and 
Belize. The $310 million fiscal year 2011 request for Mexico, along 
with considerable GOM efforts in these areas, complements the 
comprehensive and balanced USG strategy on our side of the border to 
reduce drug demand by focusing on prevention, treatment, and 
enforcement, and expanded efforts stop illegal arms and bulk cash 
flowing south into Mexico.
    We are hopeful that we can strengthen U.S. national security by 
helping the Calderon Administration break the power of the drug 
trafficking organizations and institute lasting institutional reforms 
that will continue into future Mexican Administrations. Assistance 
under the Merida Initiative, and other regional efforts throughout the 
Hemisphere, is strategically targeted to make an impact on the need for 
improved citizen safety and security. As we move forward, we will 
continue to assess progress and the impact of our assistance. We 
especially look forward to continued and regular dialogue with Congress 
as an integral part of this ongoing review.
    Question. I and other Members of Congress, and the Administration, 
have urged the Mexican Government to conduct a credible, transparent, 
and thorough investigation of the murder of American citizen Bradley 
Will, and the 17 other Mexicans who were killed in Oaxaca in 2006. 
Instead, the Mexican Government arrested and accused an innocent man of 
killing Mr. Will, and he languished in prison until a court finally 
ordered his release. Can you assure me that you will insist that these 
cases be thoroughly and credibly investigated?
    Answer. The Department of State has and will continue to raise the 
case of the death of American citizen Bradley Will with the Government 
of Mexico. We have made it clear to the Mexican Government that we 
expect a thorough and credible investigation of all evidence by Mexican 
authorities with a view to identifying and prosecuting the individual 
or individuals responsible for this heinous act.
    On the issue of other Mexican citizens who were killed in Oaxaca in 
2006, we have raised these as part of our regular dialogue regarding 
human rights issues with the Government of Mexico.
    Question. For years, there has been talk about the need to reform 
the foreign aid budget. There has been any number of commissions, 
studies, reports and countless recommendations, all with little effect. 
This Administration has its own studies underway, at least one at the 
NSC and your Quadrennial Diplomatic and Development Review (QDDR). 
Given the strong views in Congress and the special interests with a 
stake in the status quo, what do you hope to accomplish this year to 
make foreign aid more efficient and effective?
    Over the years, USAID has seen its autonomy decrease, as it lost 
control of its budget and no longer has a policy office. Whole pieces 
of foreign aid have been shifted to the State Department or the 
Millennium Challenge Corporation. In my opinion, USAID's effectiveness 
has been weakened as a result. I will also ask USAID Administrator Shah 
this question when he testifies next month, but what steps do you plan 
to rebuild USAID and restore some of its autonomy?
    Answer. To make foreign aid more efficient and effective, State and 
USAID work closely with other agencies in the field, under the 
direction of the Chief of Mission, to coordinate our assistance 
activities. In Washington, we are taking specific steps to ensure close 
coordination. For example, under our Global Health Initiative, we are 
working collaboratively with USAID and Health and Human Services to 
review all of our associated health programs in a number of countries. 
We will enter into new long-term partnerships building on prior U.S. 
international health programs and work with our 80 partner countries to 
strengthen health systems and improve sustainable health outcomes, with 
a particular focus on women, children and newborns.
    The fiscal year 2011 request is critical to helping USAID become 
the world's premier development agency. The request includes resources 
for hiring an additional 200 officers at USAID and--under the strong 
leadership of Administrator Shah--for building a robust policy, 
planning and evaluation capacity. USAID is playing a leading role in 
the management of priority development initiatives such as working to 
improve global health and food security around the world. In each of 
these areas USAID will show that it can have impact, make tough choices 
about how resources are used to get the most bang-for-buck, and serve 
as a whole-of-government platform that invites in other partners to 
maximize efforts against specific goals and outcomes.

                             CLIMATE CHANGE

    Question. The Administration committed at Copenhagen to 
contributing a total of $1 billion over 3 years in new funds to protect 
tropical forests, improve forest management, and increase carbon 
sequestration in tropical forests. I strongly support this, and it 
builds on what this subcommittee has been doing for years to protect 
tropical forests. How do you plan to meet the $1 billion commitment by 
fiscal year 2012?
    Answer. In Copenhagen, the United States and five other developed 
countries collectively pledged $3.5 billion over the 2010-2012 periods 
for REDD+ (Reducing Emissions from Deforestation and Degradation) 
activities, with the United States pledging $1 billion as its share of 
the total. We are on a path to meet that commitment.
    The fiscal year 2010 appropriation included $233 million in 
``Sustainable Landscapes'' for forest-related climate change funding 
for State, USAID, and Treasury. This includes a ``core'' allocation of 
$153 million, as well as $80 million in USAID biodiversity funding that 
has direct climate benefits. The fiscal year 2011 request for State, 
USAID, and Treasury includes $347 million for sustainable landscapes.
    In addition to this fiscal year 2010 and 2011 ``core'' funding from 
State, USAID, and Treasury, additional USAID activities, as well as 
assistance activities by MCC and possibly other USG agencies, 
contribute to our climate change goals. We are currently reviewing 
those assistance portfolios to identify other existing or planned 
fiscal year 2010 and 2011 assistance activities that meet the REDD+ 
criteria and contribute toward our Copenhagen REDD+ pledge.
    We are confident the Administration's fiscal year 2012 budget 
request, still to be formulated, combined with the fiscal year 2010-11 
assistance mentioned above, will allow us to meet the $1 billion 
commitment.
    Question. The budget request proposes adding American Centers, 
expanding English language programs, increasing public diplomacy 
programs to Muslim-majority countries, expanding the initiative 
specifically for Pakistan, and increasing the Department's efforts with 
the Internet and other electronic media tools. This subcommittee has 
been very supportive of the Department's public diplomacy programs, 
particularly the educational and cultural exchange programs. What are 
the Department's priorities for public diplomacy programs, what gives 
you confidence that these programs are working and should be expanded, 
and how can we be sure that educational and cultural exchange programs 
will continue to grow?
    Answer. First of all, thank you and the rest of the committee 
members for your continued support of public diplomacy.
    The core mission of public diplomacy is to support the achievement 
of U.S. foreign policy goals and objectives, advance national interests 
and enhance national security by informing and influencing foreign 
publics and by expanding and strengthening the relationship between the 
people and government of the United States and citizens of the rest of 
the world.
    To that end the Under Secretary for Public Diplomacy and Public 
Affairs, Judith McHale, after an 8 month review of the current state of 
public diplomacy and public affairs, has just recently rolled out a 
strategic framework for public diplomacy. After consulting with members 
of the hill, NGOs, representatives from academia, and Public Affairs 
Officers, Under Secretary McHale found that in significant ways our 
public diplomacy was working well to advance America's interests. But 
the review also revealed a great degree of consensus about what needs 
to be changed to align it to current priorities and guide our efforts 
going forward.
    As part of this review, we identified five strategic imperatives: 
to pro-actively shape global narratives; expand and strengthen people-
to-people relationships; counter violent extremism; better inform 
policy-making; and, redeploy resources in strategic alignment with 
shifting priorities. Moving forward, we are taking steps to ensure that 
all our activities support these requirements.
    Creating or maintaining American Centers, increasing English 
language training, appropriately using Internet technology and social 
media and increased engagement in Muslim majority countries are all 
means by which we can better achieve the strategic imperatives laid out 
above.
    As noted in your question, a great deal of our public diplomacy 
efforts have been focused on Pakistan. Last summer, Under Secretary 
McHale, working closely with our Embassy in Islamabad, Special 
Representative for Afghanistan and Pakistan Richard Holbrooke, USAID 
and DOD, drafted the Pakistan Communications Plan, a copy of which will 
accompany this response.
    The Pakistan Plan has four broad goals: expand media outreach, 
counter extremist propaganda, build communications capacity, and 
strengthen people-to-people ties. Our plan links elements of 
traditional public diplomacy with innovative new tools. For instance, 
recognizing that extremist voices dominate in some of Pakistan's media 
markets, we instituted a rapid response unit and a 24-hour multilingual 
hotline for the Embassy to respond to attacks, threats, and propaganda 
from the Taliban, al Qaeda, and their sympathizers. This approach 
reversed a previous approach of not actively countering such 
propaganda. It has been an uphill battle but, as our voice gets more 
frequent play, the impact on the discourse in Pakistan's media has been 
noticeable.
    As we strengthen our people-to-people ties with Pakistanis, our aim 
has been to increase positive American presence on the ground in 
Pakistan. To do this we are focusing on more exchanges, more presence, 
more Lincoln Centers, more face-to-face meetings with engaged citizens 
in Pakistan, and more non-official contacts between Pakistanis and 
Americans in Pakistan.
    A key component of face-to-face engagement is our educational and 
cultural exchange programs for which I have every confidence that these 
programs will continue to play an increased role in the success of our 
foreign policy objectives. Exchange levels have increased significantly 
in the last couple of years and we are looking to increase that trend 
while ensuring that resources are being placed strategically and 
appropriately and that proper oversight and evaluations are being 
carried out.
    Under Secretary McHale and I agree that in this day and age it is 
critical that we engage with foreign publics like never before. It is 
the relationships built upon year after year that matter and that 
ultimately help us to better realize our foreign policy objectives.

                   EFFECTIVE OVERSIGHT OF CONTRACTORS

    Question. Over the past several years, the Department's Inspector 
General and the Special Inspectors General for Iraq and Afghanistan 
have identified systemic problems in the Department's contract 
management, including inadequate oversight of the contractor's work, 
overpayments to contractors, and delayed project completion.
    What changes, within what timeframe, is the Department implementing 
to address these problems, which are responsible for the waste of 
millions of dollars?
    Answer. The Department of State is committed to strengthening our 
contract management processes. In the last 2 years, the Office of 
Acquisitions Management (A/LM/AQM) created a strategy and established a 
business process for audits of A/LM/AQM contracts. We developed a close 
and professional working relationship with the Defense Contract Audit 
Agency (DCAA) and the Defense Contract Management Agency (DCMA) which 
are the Department's audit agencies for major programs. We also issued 
an A/LM/AQM operational policy pertaining to audit services to ensure 
staff is aware of the policy. This strategy ensures that the Department 
meets contract administration responsibilities required by the Federal 
Acquisition Regulations (FAR). During fiscal year 2009, the Department 
initiated 12 external audits of significant programs. In addition to 
financial audits, we initiated a series of business system audits to 
review contractor accounting and internal controls, billing systems, 
estimating systems, labor system controls, subcontractor systems, and 
property management systems in conjunction with audits of specific 
contracts on a pre-award and post-award basis. The Quality Assurance 
Branch works closely and successfully with contracting officers, the 
Office of Inspector General, and program offices to obtain 
documentation, provide answers to audit related questions, support 
negotiations, and reach settlement agreements.
    Since 2008, A/LM/AQM has also significantly improved our contract 
close-out process. A/LM/AQM designed an effective business process and 
formed a team of close-out specialists, trained to identify contractual 
and budget issues, perform contract analysis, and to reconcile and 
document obligations and payments. This team is developing standard 
operating procedures for all of our contract managers to follow and is 
training their colleagues in A/LM/AQM on our new business process. In 
fiscal year 2010, as of February 24, 2010, nearly 500 contracts have 
been closed out, with $16.5 million in deobligations of unliquidated 
funds.
    The Department is continuing to examine other improvements to 
contract oversight through the Quadrennial Diplomacy and Development 
Review with USAID acquisitions offices.
    Question. The fiscal year 2011 budget request includes $3.1 billion 
for Department of State operations in Pakistan, Afghanistan, and Iraq. 
This includes a significant increase in civilian staff throughout these 
countries. Given the severe security constraints on State Department 
and other U.S. Government civilians in these countries, how are you 
going to use these people effectively and at the same time ensure their 
safety?
    Answer. Achieving progress in Afghanistan, Pakistan, and Iraq will 
require continued dedication and sacrifice not only by our military 
personnel, but also by the more than 2,000 U.S. government civilians 
currently serving in those countries. While security remains a concern 
in many parts of Afghanistan, Iraq, and Pakistan, the civilian increase 
can still be used effectively, without compromising civilian safety or 
our mission. For example, the increase in Afghanistan, coordinated by 
the Office of the Special Representative for Afghanistan and Pakistan 
and the Deputy Secretary of State for Management and Resources, 
includes top experts from 10 different U.S. government departments and 
agencies. Many have previous experience in Afghanistan or Iraq. In 
Afghanistan, these experts contribute to the mission in the field, 
especially in the East and South where a majority of U.S. combat forces 
are operating and many of the additional 30,000 forces announced by 
President Obama are deploying. They work alongside our military forces 
in critical districts where ISAF is focusing its efforts in 2010, and 
partner with Afghans to enhance the capacity of national and sub-
national government while helping to rehabilitate Afghanistan's key 
economic sectors.
    In Afghanistan, U.S. civilians move into dangerous areas only after 
ISAF has completed clearing operations, which allows the Afghan 
government, U.S. civilian experts and ISAF to deliver an integrated 
package of basic services.
    Question. I held a hearing in the Judiciary Committee recently 
about the roles of State Department, the Department of Homeland 
Security, and Federal Bureau of Investigation in the Christmas Day 
bombing attempt, and what changes are needed to prevent a similar 
incident from occurring again. At that time, the Department of State 
indicated that the visa process was under review to determine what 
improvements and changes are needed.
    What is the status of the Department's efforts to improve the visa 
process, and what if any improvements are included in the fiscal year 
2011 budget request?
    Answer. We took immediate action to improve the procedures and 
content requirements for Visas Viper cable reporting that will call 
attention to the visa application and issuance information that is 
already part of the data that we share with our national security 
partners. All officers have been instructed to include complete 
information about all previous and current U.S. visa(s) when a Visas 
Viper cable is sent. This instruction includes guidance on specific 
methods to comprehensively and intensively search the database of visa 
records by conducting a wide-parameter, ``fuzzy search,'' leveraging an 
existing search capability, when searching our comprehensive repository 
of visa records in the Consular Consolidated Database (CCD). Searches 
conducted in this manner will identify visa records despite variations 
in the spelling of names as well as in dates of birth, places of birth, 
and nationality information. Visas Viper cables sent after December 
2009 contain this more complete information.
    Since the Presidentially ordered Security Review, there have been 
exigent changes in the thresholds for adding individuals to the 
Terrorist Screening Database, No Fly, and Selectee lists. The number of 
revocations has increased substantially as a result. As soon as 
information is established to support a revocation, an entry showing 
the visa revocation is added electronically to the Department of 
State's Consular Lookout and Support System (CLASS) and shared in real 
time with the DHS lookout systems used for border screening.
    The State Department has broad and flexible authority to revoke 
visas and we use that authority widely to protect our borders. Since 
2001, we have revoked more than 57,000 visas for a variety of reasons, 
including over 2,800 for suspected links to terrorism. Currently, we 
are reviewing the procedures and criteria used in the field to revoke 
visas and will issue new instructions to our officers. Revocation 
recommendations will be added as an element of reporting through the 
Visas Viper channel. We have provided additional guidance to the field 
on use of the broad authority of visa officers to deny visas on 
security and other grounds. Instruction in appropriate use of this 
authority has already been a fundamental part of officer training for 
years.
    We have been actively using this revocation authority as we perform 
internal reviews of our data against watchlist information provided by 
partner agencies. We are reviewing all previous Visas Viper submissions 
and cases that other agencies are bringing to our attention from the No 
Fly and Selectee lists, as well as other sources. In these reviews, we 
have identified cases for revocation and also confirmed that 
substantial numbers of individuals in these classes hold no visas and, 
of those few who did, a great many were revoked prior to the current 
review.
    We are implementing a new generation of visa processing systems 
that will further integrate information gathered from domestic and 
overseas activities. We have enhanced our automatic check of CLASS 
entries against the CCD as part of our ongoing process of technology 
enhancements aimed at optimizing the use of our systems to detect and 
respond to derogatory information regarding visa applicants and visa 
bearers. We are accelerating distribution to posts of an upgraded 
version of the automated search algorithm that runs the names of new 
visa applicants against the CCD to check for any prior visa records. 
This enhanced capacity is available currently at 83 overseas posts, 
with the rest to follow soon.
    We are deploying an enhanced and expanded electronic visa 
application form, which will provide more information to adjudicating 
officers and facilitate our ability to detect fraud. We are working 
with our interagency partners on the development and pilot-testing of a 
new, intelligence-based Security Advisory Opinion (SAO) system that 
will make full use of the additional application data.
    The fiscal year 2011 budget for Consular Affairs includes 
significant resources to fund ongoing and new activities for the Visa 
Office. All activities will be funded with fee revenues included in the 
new schedule of fees. These activities include: Global Visa System 
creation, advanced biometric search capabilities, datasharing with 
relevant agencies and other advancements.
    Question. Do you think that adding Department of Homeland Security 
Visa Security Units at overseas embassies would improve the security of 
the consular visa issuance process?
    Answer. The Department of State has a close and productive 
partnership with the Department of Homeland Security (DHS), including 
the Visa Security Program (VSP) of Immigration and Customs Enforcement 
(ICE). Over the past 7 years both agencies have increased resources 
significantly, improved procedures and upgraded systems devoted to 
supporting the visa function. We support the assignment of Visa 
Security Officers to selected overseas posts where they work together 
with Consular Officers and Assistant Regional Security Officer-
Investigators (ARSO-I) to advance the nation's border security 
initiatives in the following areas: extending the border overseas; 
capitalizing on the visa process to identify national security threats; 
identifying unknown threats; sharing information and conducting liaison 
activities; providing training and advice; and investigating terrorism, 
human trafficking, alien smuggling, marriage fraud.
    We work closely with the ICE Visa Security Units (VSUs) established 
abroad and with domestically based Visa Security Program supporting 
those units. VSUs currently operate at 14 visa adjudicating posts in 12 
countries. Since January 19, 2010, we have received requests from ICE 
to open four additional VSUs and to augment staff at two existing VSUs. 
The Chiefs of Mission have approved the four new VSUs and one request 
for expansion with one request for expansion pending.
    Question. An article in the February 23rd Washington Post describes 
problems in moving forward with the planned Security Training Facility 
in Maryland. The most troubling issues mentioned in the article include 
missteps by Federal officials, poor communication with the local 
communities affected by the Training Facility operations, and the State 
Department's acknowledgement that there hasn't been adequate analysis 
on whether building a single facility is more cost-effective than the 
current leasing of various different sites.
    The article also questions the economic impact of the project for 
the local community and States that the Department acknowledges that 
there may be delays due to the public opposition and possible legal 
challenges.
    What is the State Department doing to address these problems and 
have you determined whether building a single facility is the most 
cost-effective approach to providing security training to its 
employees? If not, shouldn't that have been done well before this 
point?
    Answer. The Department of State (DoS) and General Services 
Administration (GSA) recognize and understand the concerns of Queen 
Anne's County residents regarding this proposed project. It is our goal 
to work in conjunction with the citizens of this community to ensure 
that the proposed facility benefits the surrounding area and any 
adverse impacts are minimal.
    To that end, project overview and public scoping meetings were held 
in early January, marking the beginning of the public participation 
process. Additional public meetings were conducted on February 16 and 
February 23, and the public comment period was extended from January 
15, 2010 until March 12, 2010. In those meetings, we shared the 
evaluation criteria guiding the selection of a preferred site, provided 
general background information about the purpose and need of the 
project, and requested feedback from local residents and community 
groups about what issues should be studied and what areas may need to 
receive a greater level of attention during the National Environmental 
Policy Act (NEPA) process.
    The NEPA process is the tool by which the public is invited to 
comment and identify impacts that they believe may result from the 
proposed development. The comments will be part of the NEPA analysis 
that will be published in the draft Environmental Assessment (EA). Upon 
publication of the EA, the public will have another opportunity to 
participate in a 30-day comment period. The findings will be used to 
modify the plans and operations for the facility to avoid or mitigate 
any impact. Development of the site cannot, and will not, begin until 
the NEPA process is completed.
    Additionally, the DoS and GSA accepted numerous invitations from 
local organizations and community groups for open discussions, and are 
also working to establish community liaison positions that will 
strengthen the dialogue with the local community and continue it on a 
more regular basis. We also invited the public to submit feedback on 
the proposed training center at any time, by calling the dedicated 
phone line at (215) 446-4815 or emailing <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="5d1b1c0e091e7334333b321d3a2e3c733a322b73">[email&#160;protected]</a>
    According to a 2007 DoS Office of the Inspector General report, the 
Bureau of Diplomatic Security's (DS) training facilities are not 
adequate to accommodate the Bureau's training. The dispersal of 
instructors and students among different facilities throughout the 
greater Washington, DC, metropolitan and surrounding areas is a barrier 
to effective team building, communication, and operational efficiency. 
The operating cost to conduct training at the current patchwork of 19 
facilities exceeds $19 million annually. Students and instructors 
shuttle between facilities that extend from West Virginia to the 
Maryland suburbs at a significant productivity cost to employees. 
Several off-site annexes used for training are sub-standard facilities.
    The Department, over a 15-year period, has pursued possible 
locations for a consolidated training facility in Maryland, Virginia, 
and Washington, DC. DS collaborated extensively with other agencies 
(Drug Enforcement Agency, Customs and Border Protection, Federal Law 
Enforcement Training Center, Federal Bureau of Investigation, 
Department of Defense and others) to discuss facility sharing and 
opportunities for co-location. During this process, DS learned that 
these agencies were training at maximum capacity, and could not offer 
exclusive scheduling opportunities. Furthermore, they could not 
accommodate our highly specialized programs or our diverse and 
voluminous student population (Foreign Service Officers, Foreign 
Service Nationals, etc.) and unique curriculum (i.e., aggressive 
driving/ambush/kidnap scenarios, weapons of mass destruction and 
medical courses, explosives, heavy firearms, etc.).
    DS also vigorously explored expanding existing facilities. DS 
concluded that existing facilities have been expanded to capacity and 
unable to meet the demands of an increase in Foreign Service and other 
personnel who will serve in high/critical threat environments based on 
an expected augmentation of U.S. foreign affairs reconstruction and 
stabilization efforts in failing or transitioning states/regions.
    Question. Were existing sites, including local military facilities 
with excess space capacity, considered and evaluated as part of the 
decisionmaking process? If so, which sites were considered and what 
were the reasons for deciding to instead build a new site? If existing 
sites were not considered, why not?
    Answer. The Bureau of Diplomatic Security (DS) has been pursuing 
space for a consolidated training facility for more than 15 years. This 
search has included seeking available land for purchase or exclusive 
use from other Federal agencies, operating military bases, and military 
bases scheduled to close as a result of the 2005 Base Realignment and 
Closure (BRAC) recommendations, as well as facility sharing and 
opportunities for co-location. Other agencies with whom DoS has 
approached over the years to share their facilities include the Drug 
Enforcement Administration, Customs and Border Protection, the Federal 
Law Enforcement Training Center, Federal Bureau of Investigation, 
Department of Defense, and others.
    In addition to seeking new land, DS also vigorously explored 
expansion of existing facilities, but concluded that those facilities 
are already at full capacity. Over the past several years, some of the 
following Federal/military/or commercial facilities have been 
investigated as potential sites for a consolidated DS hard skills 
training center:
  --Camp Dawson, WV;
  --National Conservation Training Center, WV;
  --Summit Point Raceway Associates, WV (Privately owned land-lease 
        with DoS-owned buildings);
  --Aberdeen Proving Ground, MD;
  --Agricultural Research Center, Beltsville, MD;
  --Indian Head Naval Surface Weapons Center, MD;
  --Fort AP Hill, VA;
  --Quantico Marine Base, VA;
  --Federal Law Enforcement Training Center, Cheltenham, MD;
  --Fort Pickett, VA; and
  --U.S. Army Research Facility, Blossom Point, MD.
    None of the agencies or locations listed above were able to 
accommodate the highly specialized programs (i.e., driving tracks, 
firing ranges and mock-urban environments), student populations 
(Foreign Service Officers, Locally Employed Staff, etc.), and 
relatively unique curriculum and mission needs of DS.
    Therefore, during the summer of 2009, a search for other available 
land was initiated by the General Services Administration (GSA), Region 
3/Philadelphia, on behalf of the Department. Following a search of 
declared excess Federal property and commercially listed private lands, 
both GSA and the Department concurred additional site options were 
needed. GSA posted an announcement seeking interested parties on the 
Federal Business Opportunities website (www.fbo.gov) on June 29, 2009.
                                 ______
                                 
            Questions Submitted by Senator Daniel K. Inouye

    Question. Madame Secretary, as briefly mentioned, Hawaii will have 
the great honor of hosting the Asian-Pacific Economic Cooperation 
(APEC) 2011 Leader's Meeting. My constituents have expressed some 
concerns about anticipated security-related expenses that will be 
associated with this event. It is my understanding that last year's 
Group of Twenty Summit, which was hosted by Pittsburgh, Pennsylvania, 
resulted in cost overruns incurred by the State and local governments. 
The APEC 2011 Leader's Meeting will be quite an undertaking, and it is 
my hope that the State of Hawaii can look forward to the full 
cooperation of the Department of State and all the other coordinating 
Federal agencies. Would you please speak to the interagency 
cooperation, coordination, and cost-sharing anticipated between the 
various Federal agencies and Hawaii's local government?
    Answer. The Department of State is the lead coordinating agency for 
U.S. participation in the Asia Pacific Economic Cooperation forum 
(APEC), and will work with a strong interagency team to arrange the 
hosting of APEC in 2011. Of the $89 million anticipated spending by 
State in fiscal year 2011, we expect that over one-half will be spent 
in Hawaii. The majority of the APEC 2011 meetings will take place 
during fiscal year 2011, and much of the Hawaii costs will also be 
incurred in fiscal year 2011. However, Leaders Week security costs will 
fall in the fiscal year 2012 budget period. Diplomatic Security 
officers have briefed officials in Hawaii on obtaining National 
Security Special Event Status and have requested that Hawaii prepare a 
budget of anticipated costs. Governor Lingle has also discussed the 
matter with Secretary Napolitano, and the Departments of State and 
Homeland Security will coordinate closely in this matter. The State 
Department looks forward to working closely with Congress, the 
interagency team and officials in Hawaii to ensure successful meetings 
in 2011.
    Question. The East-West Center was created by Congress 50 years ago 
to promote the relationship between the United States and its neighbors 
throughout and across the Pacific Ocean. I appreciate the support the 
Department has expressed for public diplomacy, and a commitment to 
promoting the concept of citizen diplomacy. These are key concepts 
promoted by the East-West Center and facilitated by its exchanges and 
educational programs. The Center is a key stakeholder and participant 
planning and preparing for the APEC 2011 Leader's Meeting. As the 
Center looks forward to its next 50 years, how do you see the Center's 
extensive alumni network throughout Asia and the Pacific region, 
exchange programs, capacities, and partnerships complementing efforts 
by the Department, and how might its tremendous resources be further 
utilized?
    Answer. The Department of State greatly values the East-West 
Center's achievements in strengthening relationships between the United 
States and the Asia-Pacific region, and in addressing global issues. 
The Center is providing important support to our efforts to prepare for 
the United States' hosting of APEC in 2011, particularly preparations 
for the 2011 APEC Economic Leaders' Meeting.
    For 50 years, the East-West Center has played a vital part in 
bridging cultural, educational, political, economic and social 
distances between the United States and the Asia-Pacific region. I 
appreciated the opportunity to speak at the Center as part of its 
anniversary celebrations, and to engage with students who will be among 
the next generation of leaders in promoting stronger U.S.-Asia-Pacific 
relations.
    The East-West Center has served as an important forum for meetings 
between senior U.S. officials and leaders from the Asia-Pacific region, 
including the Heads of State of many Pacific islands nations. It also 
brings together journalists, security experts, educators and other 
professionals in many fields that are important to our relationship. 
Its 58,000 alumni, organized into 50 chapters, form a significant 
international network of influence, and our Embassies help to support 
the efforts of these alumni overseas.
    As the United States further develops our partnerships in the Asia-
Pacific region, the East-West Center offers a unique venue and 
expertise to foster cooperation and encourage the sharing of ideas. The 
Center's efforts to promote broader systemic and globalized thinking in 
the Asia-Pacific region helps build a common understanding of issues 
and values among publics and professionals, facilitating the State 
Department's work. We anticipate that the Center will become an even 
more valuable part of the overall U.S. public diplomacy effort in East, 
South, and Southeast Asia and the Pacific in the coming years, and we 
look forward to continued collaboration with this important 
institution.
    Question. The Asia-Pacific region continues to gain more attention 
in the media, whether due to economic, trade, or security matters. With 
the benefit of having a year in your position as the Secretary, I am 
curious how you see the U.S. role in the region growing, adapting, and 
changing in the next few years?
    Answer. The United States' revitalized relationship with the Asia-
Pacific region will continue to grow in the next few years. We have a 
strong interest in continuing our economic and strategic leadership, 
and Asia has a strong interest in the United States remaining a dynamic 
economic partner and a stabilizing influence.
    We will remain a resident power in the region contributing to the 
stability that makes economic progress possible. Our economies will 
remain inextricably linked. American companies export $320 billion in 
goods and services to the Asia-Pacific region every year, creating 
millions of jobs. We will continue to work through APEC with other 
regional economies to foster free and open trade and investment and 
growth that is more inclusive, balanced, and secure.
    We will enhance our partnerships with our friends in the Asia-
Pacific region to meet global security and humanitarian needs. We will 
continue to work together to help prevent nuclear proliferation, 
support our common interests in Afghanistan, combat piracy off the Horn 
of Africa and more.
    Our people-to-people links will continue to grow with more than 13 
million Americans tracing their ancestry to that part of the world. 
Hundreds of thousands of students from the Asia-Pacific region study in 
the United States, and the number of American students is increasing at 
universities in Asia.
    The next few years will present the possibility for greater 
regional cooperation. We are building the architecture to meet the 
challenges faced by the region. Our alliance relationships with Japan, 
South Korea, Australia, Thailand, and the Philippines are among the 
most successful bilateral partnerships in modern history and will 
remain the cornerstone of our regional involvement. We are building 
toward launching a Comprehensive Partnership with Indonesia and will 
continue to strengthen relationships with other key players, including 
China. We are also exploring strengthened multilateral cooperation 
across the region.
    Question. Last April I shared with you my concerns regarding the 
Western and Central Pacific Fisheries Commission (WCPFC) and 
specifically, the importance of bigeye tuna (BET) to Hawaii's economy.
    The Hawaii longline fleet has been under limited entry regulation 
for 15 years while other nations (including China and Taiwan) have 
increased their number of boats by 50 percent and increased their 
fishing exponentially by entering into multiple charter agreements with 
other nations--which are not closely tracked. The WCPFC established a 
BET quota of 4,200 metric tons for the U.S. longline fleet for 2006-
2008. For 2009-2011 that quota was reduced to 3,750 metric tons. The 
purse seine industry in the United States also catches BET, often 
taking more as unwanted bycatch than the longline industry takes as a 
target species.
    Our longline industry has informed us repeatedly about the 
challenges associated with operating within this quota, particularly in 
light of the fact that China and Taiwan do not appear to be honoring 
the quota limits. To that end, the fishermen in Hawaii have taken the 
initiative to map out potential charter agreements with Guam, American 
Samoa, and the Commonwealth of the Northern Mariana Islands in order to 
legally take additional catch and ensure a steady supply to the 
American market. However, the WCPFC has not adopted mutually agreed 
upon parameters for charter agreements, and there is currently no 
governing mechanism for how they are entered into or agreed upon, which 
is something we encourage the WCPFC to take up at future meetings.
    Our challenges are twofold: How do we secure meaningful enforcement 
measures to ensure that all WCPFC signatories abide by their quota 
while supporting the efforts of our domestic industry to provide a high 
quality, reliable supply of fresh seafood to the American market? Even 
though the Regional Fishery Management Organizations such as the WCPFC 
focus on international issues, I urge State to work with the National 
Oceanic and Atmospheric Administration to take into account the effect 
of international negotiations on domestic industry. How can State 
assist with moving this forward?
    Answer. The Department of State works closely with NOAA on issues 
related to the Western and Central Pacific Fisheries Commission 
(WCPFC). Both agencies take seriously the responsibility of making 
decisions that affect U.S. economic interests, and our negotiators work 
diligently to balance those interests with the conservation imperatives 
and priorities in the most equitable manner possible. In particular, in 
recognition of the special circumstances surrounding the operation of 
the Hawaii-based U.S. longline fleet, our negotiators, on two separate 
occasions, fought for and secured special accommodations for that 
sector of the industry, which were described in detail in a May 4, 2009 
letter to you from Assistant Secretary Verma. Together, these 
provisions ensure that reductions in the quota for the U.S. Hawaii-
based fleet are significantly less than the cuts faced by the fleets of 
other developed States.
    Even so, we fully recognize the challenge in working to ensure that 
all WCPFC participants abide by the quotas for bigeye tuna pursuant to 
WCPFC Conservation and Management Measure 2008-01. At this time, we 
have no evidence to indicate or to suggest that other WCPFC members, 
including those mentioned in your question, are exceeding their 
established quotas. At the same time, we recognize that the process for 
monitoring of catches and collection of information is still under 
development and the information available to us to assess the current 
situation is imperfect. A large part of our response to the challenges 
you have identified must be to continue to strengthen the programs 
within the WCPFC for monitoring, control and surveillance of fishing 
activities to ensure a greater level of transparency in fishing 
operations in the region.
    The WCPFC took an important step in this direction at its December 
2009 meeting with the adoption of a measure to monitor and regulate the 
transshipment of fish caught in the WCPFC Convention Area. Under this 
measure, all transshipments of fish by longline vessels will be 
observed and recorded by an observer on board either the fishing vessel 
or the carrier vessel receiving the fish. (Similar provisions apply to 
other fleets.) In our view, this measure closes a significant gap in 
our ability to monitor catches and ensure compliance with agreed 
measures. Unreported transshipment of fish is one way that vessels can 
avoid having catches counted against their national quotas. We will 
also continue to push for higher levels of observer coverage on foreign 
longline fleets, recognizing the U.S. fleet operates with the highest 
level of coverage of any fleet in the region.
    The issue of charter operations is one that we are considering 
carefully. Under certain circumstances, charter operations can provide 
an effective and legitimate means for small island developing States 
and territories to develop their domestic fisheries without incurring 
large capital expenditures. At the same time, we are concerned that, 
without clear rules and guidance on the nature and extent of allowable 
charter operations, such operations could allow some fishing States to 
increase their catches without having that catch count against their 
national quota, but instead against the quota of a small island 
developing State or territory, with little direct link to the 
development of the domestic fishery in the State or territory in 
question. Under this latter scenario, the catch limits for some distant 
water fishing nations would have little meaning and the conservation 
benefits of CMM 2008-01 would be significantly diminished.
    Finally, another way to address concerns about the status of bigeye 
tuna, is to explore ways to reduce catches of juvenile bigeye tuna in 
the tuna purse seine fishery, especially the fishery associated with 
fish aggregating devices or ``FADs.'' At present, different groups are 
exploring various options with respect to the development of different 
fishing gear and techniques to reduce catches of juvenile bigeye tuna. 
WCPFC members are looking to the United States for leadership in this 
endeavor. In our view, although this work is expensive and would 
require a multi-year funding commitment, the United States should seek 
to join these ongoing efforts and contribute to them in a material way.
                                 ______
                                 
            Questions Submitted by Senator Mary L. Landrieu

    Question. Madame Secretary, as you are aware, on April 1, 2008, the 
Hague Convention on Intercountry Adoption went into full force in the 
United States. Since that time, the number of intercountry adoptions 
has decreased dramatically from over 22,000 in 2004 to just over 13,000 
last year. For the most part, this is because countries of origin have 
shut adoption processes down due to concerns of fraud and abuse. It has 
been my experience that governments in these countries are both willing 
and wanting to receive guidance from the United States in building a 
system of intercountry adoption that is both safe and effective. What 
is the State Department currently doing to meet this need?
    Answer. The reasons for the decline in numbers of intercountry 
adoptions vary from country to country. The United States is only one 
of several receiving countries experiencing such a trend. However, 
since the United States adopts on a greater scale than all other 
countries, the decline in raw numbers is larger. The majority of 
intercountry adoptions into the United State occur from a handful of 
countries of origin. When those few countries of origin alter their 
intercountry adoption practices and requirements, the impact on our 
overall numbers is disproportionately large.
    Over 70 percent of the reduction in fiscal year 2009 was in the 
number of children adopted from Guatemala, where the Guatemalan 
National Council on Adoption announced in September 2008, that it would 
not accept any additional adoption cases, because, among other things, 
the Government of Guatemala has not yet met its obligations under the 
Hague Convention on Intercountry Adoption (the Convention) and has not 
yet put into place the required safeguards. This year, due to our 
strong interest in encouraging Guatemala's efforts to reform its 
adoption system, and pending a determination about whether the program 
is consistent with Convention standards, the United States has asked to 
participate in a limited 2 year Guatemalan pilot program to allow for 
the adoption of a number of special needs children.
    Nearly 20 percent of the fiscal year 2009 reduction in intercountry 
adoptions was from China, which is making fewer children eligible for 
intercountry adoption, while the numbers of prospective adoptive 
parents from traditional receiving countries has been increasing. As a 
result the wait time for healthy young children is increasing. However, 
the wait time for older children and those with special needs remains 
low. Russia and Vietnam also registered notable declines. The 
Department remains in close contact with the governments of Russia and 
Vietnam on adoption matters.
    The United States takes a multi-faceted approach in working with 
other countries on adoption issues. The Convention is an important tool 
in helping the United States promote intercountry adoption practices 
that focus on the best interests of each child. The accreditation 
process for adoption service providers who wish to operate in 
Convention countries establishes clear, strong, enforceable standards. 
Although the accreditation process is only a few years old, it is our 
judgment that U.S. efforts in accreditation have ``raised the 
performance bar,'' and helped to improve the standard for services 
provided in non-Convention as well as Convention adoptions.
    As the U.S. Central Authority for the Convention, the Department of 
State encourages and supports implementation of best practices in child 
protection and welfare in order to achieve Convention goals of 
incorporating intercountry adoption in an integrated child protection 
and child care system. As a matter of policy, we take every opportunity 
to encourage all countries to take the necessary steps toward joining 
and properly implementing the Convention. For example, the Kyrgyz 
Republic, which is not party to the Convention, halted intercountry 
adoptions in 2008 over concerns of corruption and fraud in the adoption 
process. The Department has engaged the Kyrgyz government at the 
highest levels on numerous occasions to encourage the strengthening of 
safeguards in the adoption process and accession to the Convention. In 
addition to these efforts, we have advanced the issue through outreach 
programs that included sending a U.S. adoption expert to the Kyrgyz 
Republic last year, and sponsoring an adoption-themed study tour to the 
United States for senior Kyrgyz officials.
    Another country not party to the Convention is Vietnam. Adoptions 
from Vietnam were suspended in 2008. However, the United States remains 
in frequent contact with the government of Vietnam on adoption matters. 
Discussions have focused on the broad range of child welfare 
responsibilities encompassed by the Hague Adoption Convention, the 
principles underlying the Convention, and the practical requirements 
for implementing procedures that the Convention requires.
    Cambodia is a member of the Hague Adoption Convention, but due to 
fraud, irregularities, and an insufficient legal framework to provide 
safeguards for the protection of children, the former Immigration and 
Naturalization Service (INS) suspended adoptions from Cambodia on 
December 21, 2001. Despite accession to the Convention in 2007, the 
Royal Government of Cambodia (RGC) has been unable to implement Hague-
compliant procedures necessary to meet its treaty obligations. Working 
in cooperation with the Hague Permanent Bureau (HPB), as well as with 
several receiving countries, the United States has sought to provide 
assistance for Cambodia's establishment of implementing legislation 
necessary for an ethical and transparent adoption program that meets 
Convention standards. The United States has supported efforts by the 
HPB and joined a receiving country Working Group comprised of 
Convention states to provide coordinated input on Hague law and 
procedures to the RGC. The United States also supports UNICEF's 
continuing work with the RGC to implement law, as well as improve and 
strengthen the child welfare system in Cambodia. As part of a multi-
country assistance grant to UNICEF, the USAID Displaced Orphan's and 
Children's Fund (DCOF) is providing approximately $1 million for this 
purpose.
    Finally, the United States supports the work of the Hague Permanent 
Bureau as it responds to inquiries from countries on intercountry 
adoption issues. The Department has an ongoing and active record of 
sponsoring and participating in the work of the Hague Conference on 
Private International Law's Inter-Country Adoption Training and 
Technical Assistance Program (ICATAP). Created in 2007, ICATAP provides 
assistance directly to governments that are planning to ratify or 
accede to the Convention, or have already done so but are experiencing 
difficulties with implementation. The United States contributed 
$200,000 in 2008 to the Hague Permanent Bureau's Supplementary Budget, 
which funds ICATAP and other child welfare programs.
    Question. As you know, one of the founding principles of the Hague 
is that children are best served in a family. Under what is called its 
principle of subsidiarity, convention countries agree to pursue family 
reunification and domestic adoption before allowing a child to be 
adopted by a family in another country. Convention countries also agree 
that institutionalization and long term foster care are not considered 
permanent and should therefore not be used as long term solutions. 
Madam Secretary, I am concerned that while it appears to be U.S. policy 
that intercountry adoption should take precedence over long term foster 
care and institutions, our practice appears to be quite the opposite.
    Can you confirm that it is in fact the U.S. policy that long term 
foster care and institutionalization are not long term solutions and 
should therefore not be given preference over intercountry adoption?
    Answer. Yes, that core Convention principle reflects our policy as 
well. In situations where children will not be reunited with their 
families, permanency planning should be undertaken as quickly as 
possible. Long-term foster care or institutionalization is not in the 
best interests of children. The principle of subsidiarity as expressed 
in the Convention stands for the principle that national adoption be 
given precedence over intercountry adoption. However, the practice of 
stopping intercountry adoptions pending the development of a viable 
national adoption system or enactment of long-term child care reform, 
in most cases runs contrary to the core ``best interests of the child'' 
principle of the Convention.
    Question. As you know, one of the many challenges in addressing the 
needs of orphan children in Haiti is the lack of a universally accepted 
definition of what is an orphan. In fact, the often cited estimate that 
there were 380,000 orphans in Haiti prior to the earthquake include 
children who had one living parent and/or extended family. What can the 
United States do to assist the Government of Haiti in developing the 
data necessary to better understand what children's precise needs are?
    Answer. The United States is actively assisting the development of 
the data necessary to better understand children's precise needs by 
providing expert technical assistance to the U.S. mission child 
protection team, technical assistance and transport for GOH/UNICEF 
assessments of the needs of children in hundreds of orphanages in the 
Port au Prince area, and by supporting nationally representative 
surveys such as periodic Demographic and Health Surveys (DHS) and a 
recent survey of child trafficking, restaveks, and child victims of 
violence.
    The figure of 380,000 is the UNICEF estimate of the number of 
children under 18, before the earthquake, who had lost one or both 
parents. Of this number, 330,000 children had lost one parent and 
50,000 had lost both parents. The great majority of these children were 
living with the surviving parent (if a single orphan) or with extended 
family members, usually a grandparent or aunt or uncle.
    Prior to the earthquake, only 67 of an estimated 600 residential 
care centers (referred to as ``orphanages,'' though many of the 
children have one or both parents living) had been registered with the 
Government of Haiti (GoH). Because a majority of these centers were 
unregistered, there is little official data or statistics on children 
living in these conditions. Approximately 300 of these centers were 
located in Port-au-Prince and the surrounding earthquake-affected area.
    The USG is supporting the GoH and UNICEF to map and build a 
database of children's residential care centers to facilitate stronger 
oversight through registration and monitoring in the future. As of 
March 1st, the UNICEF-led Child Protection Sub-cluster (CPSC) had 
completed assessments in 280 residential care centers. More than 17,000 
children were residing in 205 of the assessed centers. The remaining 
assessed centers were found to be no longer hosting children.
    With USAID support, Haiti carried out Demographic and Health 
Surveys in 1994-1995, 2000, and 2005-2006. The 2005/6 survey included 
information for children under 18 about whether the parents are alive, 
whether the children live with their parents and the relationship to 
other members of the household. The United States can assist the 
Government of Haiti to conduct another such survey as soon as possible, 
preferably with additional questions about the changes in these 
relationships following the earthquake. If possible, the survey should 
be accompanied by special data collection on children who live in 
residential care centers.
    Question. The UNHCR stipulates 2 years as a ``reasonable period'' 
for the tracing of and reunification with parents or other surviving 
family members. Understanding the detrimental effects of prolonged 
institutionalization, particularly for children ages 0 to 5, what is 
the United States plan for ensuring that children are not placed in 
institutions for significant portions of those 2 years?
    Answer. The duration of the tracing process varies per child and is 
largely influenced by prospects for success, as well as the age and 
specific needs of the child and the circumstances of the child's 
interim care placement. It is the USG's view that it would be 
inappropriate to mandate 2 years of tracing before decisions about 
long-term placement and care are made, particularly for young children. 
With adequate resources, we believe that the GOH capacity could be 
developed so that, when a child is identified as currently not living 
with a family, a ``best interests of the child'' determination (BID) 
could be made for each child. Once a BID is completed, then placement 
decisions about short and long-term care could be made concurrently.
    The following are priorities that USAID aims to address for child 
protection in Haiti:
  --Assist reunited families to remain intact and viable through social 
        and economic support;
  --Reduce the number of children abandoned (as measured by new 
        admissions to orphanages);
  --Increase the number of children in family-based interim and long-
        term care in communities (e.g. family reunification, kinship 
        care, foster care, small group homes, supervised independent 
        living for older children, adoption);
  --Reduce the number of children living in orphanages; and, improve 
        the quality of care for children living in orphanages awaiting 
        a family placement; and
  --Strengthen the capacity of the Government of Haiti to build and 
        lead a national child protection program based on international 
        standards, robust monitoring and evaluation, an expanded cadre 
        of professional social and child welfare workers.
    Question. As you are well aware, U.S. Federal law requires that 
State and local officials who place children in foster care are to 
pursue the primary goal of family reunification, while at the same 
time, developing an alternative permanency plan for the child. If the 
family reunification efforts fail, then the alternate plan will already 
be in place and well on its way to completion. This practice, which is 
called concurrent planning, is intended to reduce the total period of 
time a child will remain in out of home care before being permanently 
placed with a family. Is this an approach that the United States might 
encourage its international partners to consider adopting so that 
children in Haiti are not spending unnecessary time in non-permanent 
situations?
    Answer. Yes, we are aware of and support the concept of concurrent 
planning for children in care. We note that the main problem in Haiti 
before and after the earthquake is that the GOH does not have a 
functioning child welfare system, including the sophisticated social 
work capacity required to engage in case-by-case analysis of each 
child's situation and needs so that, if needed, a concurrent plan could 
be written, approved, and executed. Now that so many children are in 
need of emergency care, such as food and shelter, the immediate 
priority has been to focus on those needs first.
    Question. Long term solutions to the issues facing Haiti's orphan 
children will undoubtedly require the mobilization and coordination of 
both traditional and non-traditional partners. Have you given any 
thought about how you might mobilize faith based, corporate and 
professional partners around the goal of providing families for orphan 
children?
    Answer. Yes, a great deal of thought has been given to the 
mobilization of such partners. Faith-based partners in particular have 
long played a central and seminal role in assisting children and are 
well positioned to scale-up such services. USG agencies are currently 
working with a variety of faith-based partners in Haiti to address the 
needs of orphans and vulnerable children.
    Question. This year will mark the third year of the 10-year 
memorandum of understanding between Israel and the United States on 
important military assistance to Israel. The President's budget request 
for FMF to Israel--$3 billion--is the amount noted in the MOU and we 
are appreciative of the President's ongoing commitment to ensure Israel 
has the tools it needs to defend itself. What do you perceive to be the 
security threats Israel faces today? How will this assistance help to 
enhance security and stability in Israel and throughout the region?
    Answer. Support for Israel's security is a cornerstone of our 
Middle East policy. Israel faces potential threats from a number of 
sources, including terrorist organizations such as Hizballah and Hamas, 
as well as states including Iran. Our Foreign Military Financing (FMF) 
memorandum of understanding is intended to contribute to Israel's 
ability to defend itself from these regional threats by committing the 
Administration to seek congressional approval to provide Israel $30 
billion in FMF over a 10-year period, beginning in fiscal year 2009. 
The United States provided Israel with $2.55 billion for fiscal year 
2009, and forward-funded $555 million of Israel's $2.775 billion fiscal 
year 2010 FMF allocation via the fiscal year 2009 Supplemental 
Appropriations Act.
    Israel uses this assistance both to procure U.S.-origin defense 
articles, ranging from ammunition to advanced weapons systems and 
training, and to develop and support its own defense industry. U.S. 
assistance will help ensure that Israel maintains its qualitative 
military edge over potential threats, preventing a shift in the 
security balance of the region, and safeguarding U.S. interests. Our 
assistance is also aimed at building Israel's confidence to make 
historic concessions necessary for comprehensive regional peace.
    Question. The President's request included $400.4 million in 
economic assistance for the West Bank and Gaza ``to strengthen the 
Palestinian Authority as a credible partner in Middle Eastern peace and 
continue to respond to humanitarian needs in Gaza.'' The request also 
states that this assistance ``will provide significant resources to 
support the stability of the PA, economic development of the West Bank, 
and increase the capacity of the PA to meet the needs of its people.'' 
Can you tell us how these funds will be disbursed? What specific 
projects will be funded and through what specific mechanisms? What 
portion of these funds will be used for humanitarian assistance in 
Gaza? Are you confident that there are safeguards in place to ensure 
this assistance reaches its intended recipients and does not land in 
the hands of Hamas or benefit Hamas? If yes, can you please provide an 
explanation of the safeguards in place?
    Answer. The Department's $400.4 million request in fiscal year 2011 
for the West Bank and Gaza Economic Support Funds (ESF) program 
supports the Palestinian Authority's (PA) development and institution-
building priorities through the following bilateral economic support:
  --Up to $200 million in direct budget support to the PA.
  --$72.5 million for the delivery of basic education, health, and 
        water services.
  --$81.4 million in programs to help develop the environment for 
        growth in the Palestinian private sector.
  --$15.5 million in food, medical, and other humanitarian assistance 
        for Palestinians in the West Bank and Gaza.
  --$31 million to enhance democratic reform, respect for human rights 
        and the rule of law, and increase civic engagement.
    The more than $400 million ESF requested in fiscal year 2011 will 
continue support for priority reform and institution-building 
priorities identified by the PA, and will be disbursed primarily 
through either new or existing USAID and MEPI contracts or grants with 
international organizations, U.S. non-governmental organizations, and 
local vetted organizations. As noted above, the Administration has 
requested $15.5 million for humanitarian assistance in the West Bank 
and Gaza for fiscal year 2011. At this stage, USAID cannot predict the 
exact amount that will be spent on humanitarian assistance in Gaza 
versus the West Bank. The decision on funding for Gaza will be based on 
the changes in the situation and the evolving needs.
    The United States has installed safeguards that will ensure that 
our funding is only used where, and for whom, it is intended, and does 
not end up in the wrong hands. USAID and MEPI provide all project 
assistance through International organizations, U.S. non-governmental 
organizations and local vetted organizations. Before making an award of 
either a contract or a grant to a local NGO, USAID or MEPI, as 
appropriate, checks the organization against information in U.S. 
government databases. USAID and MEPI also check these organizations and 
the organization's principal officer, directors, and other key 
individuals through law enforcement and other systems accessed by 
USAID's Office of Security. All NGOs applying for grants from USAID and 
MEPI are required to certify, before award of the grant will be made, 
that they do not provide material support to terrorists. These 
organizations also work with local organizations through sub-grants. 
All local sub-grantees are likewise vetted to ensure no terrorist 
connections.
    Once an award has been made, USAID and MEPI have established 
procedures to safeguard U.S. investments and ensure the transparency 
and integrity of U.S. assistance. In order to ensure that funding 
through local and U.S. NGOs is used only for agreed upon purposes, all 
NGOs are required to submit quarterly financial reports on how funds 
are spent. Also, all direct USAID grantees, contractors, and 
significant sub-grantees and subcontractors' local costs are audited by 
USAID's Inspector General on an annual basis. In addition, the 
Mission's vetting procedures are the subject of regular GAO audits.
    Before transferring U.S. taxpayer dollars to the PA as budget 
support, the Secretary of State certifies that the PA maintains a 
Single Treasury Account; has eliminated all parallel financing 
mechanisms outside of the treasury account; and established a single 
comprehensive civil service roster and payroll. The PA is only 
authorized to use budget support funds for purposes approved by USAID. 
In 2008 and 2009, U.S. budget support was tied to specific PA 
expenditures, i.e., payment of debt to Israeli energy or utility 
companies and private sector financial institutions providing credit 
for purchases from these companies. Vetting of specific private sector 
creditors is a prerequisite to disbursements of funds. Funds are 
transferred into a separate local currency sub-account of the PA's 
Single Treasury Account, and USAID had access to all information 
pertaining to the separate sub-account in order to monitor funds. The 
PA must notify USAID in writing when disbursements are made from the 
separate sub-account, including the amount disbursed and the recipient. 
The Regional Inspector General also audits each cash transfer. We 
anticipate using the same process for fiscal year 2011 budget support.
    In addition to tight USG procedures and controls, the PA, under 
Prime Minister Fayyad, has undertaken substantial economic and fiscal 
reforms that have increased transparency and accountability. The PA's 
budget, including revenue sources and actual expenses and commitments, 
is publicly available on the Ministry of Finance's website. In 
addition, the Ministry of Finance (MOF) has taken a number of 
additional steps to increase fiscal oversight and streamline budget 
execution, including by establishing a General Accounting Department 
and a Computerized Accounting System to link the MOF to line ministries 
and ensure that funds are used for their intended purpose.
    Question. The President also requested $150 million for security 
assistance for the Palestinian Authority, indicating these funds will 
support reform of the Palestinian security sector. This is an increase 
of $50 million over last year's funds. Please explain the reason for 
this increase.
    Answer. The Bureau of International Narcotics and Law Enforcement 
(INL) will use most of the $50 million increase in funding over fiscal 
year 2010 levels to train, equip and garrison an additional Special 
Battalion of the Palestinian Authority's (PA) National Security Force 
(NSF). The total fiscal year 2011 request of $150 million provides 
enough funds to train, equip, and garrison three Special Battalions. 
This level of funding will bring us to our goal of training and 
equipping a total of 10 battalions (including one in reserve) and 
garrisoning nine.
    INL will direct a portion of this additional request to provide 
training, equipment, infrastructure, and technical assistance to 
prosecutors, investigative police, and prison officials in the Justice 
and Corrections Sectors to complement our security force programs.
    Question. In December, you acknowledged that efforts to engage Iran 
in negotiations on its nuclear program had not had the desired results, 
saying, ``I don't think anyone can doubt that our outreach has produced 
very little in terms of any kind of positive response from the 
Iranians.'' Iran continues to enrich uranium, test missiles and work on 
its heavy water reactor. The global community cannot sit idly by as 
Iran continues to build a nuclear weapons capability. Can you provide 
us with an overview of the Administration's strategy to prevent Iran 
from obtaining and using a nuclear weapon?
    Answer. The Administration remains committed to its dual-track 
strategy to address Iran's pursuit of a nuclear weapons capability, 
which ultimately presents Iran with two choices: It can fulfill its 
international obligations under the Nuclear Non-Proliferation Treaty 
and to the U.N. Security Council and International Atomic Energy 
Agency, or it can face increasing international pressure and 
condemnation for its activities.
    At the moment, our focus is on getting the international community 
to consider new multilateral sanctions, while also implementing all 
existing U.N. Security Council resolutions through national measures. 
We believe that these kinds of multilateral pressures can most 
effectively underscore to the Iranian government the cost of defying 
the international community. They are also the most difficult for Iran 
to evade.
    We also continue to work independently and with our allies to take 
measures to deny Iran access to the technology and know-how it needs to 
develop further its nuclear program, while underscoring our continued 
support for a peaceful nuclear energy program in Iran. We are also 
working with our partners to prevent Iran from abusing the 
international financial system to facilitate its proliferation 
activities.
    Finally, we are working with our counterparts on the IAEA Board of 
Governors to support the IAEA's investigation into Iran's nuclear 
program and compliance with its obligations. Through the IAEA's 
investigation, we have learned much concerning Iran's activities and 
many questions have been raised that reinforce our concern regarding 
the nature of Iran's nuclear intentions. We support fully the IAEA's 
efforts to address those questions.
    Question. As part of the administration's sanctions effort, will 
the State Department begin to implement the Iran Sanctions Act (ISA) by 
making determinations about companies investing in the Iranian 
petroleum sector?
    Answer. The Department of State takes its obligations under the 
Iran Sanctions Act (ISA) very seriously and we have reviewed many 
reports of potentially sanctionable activity under the Act. In addition 
to this ongoing process, we recently conducted a preliminary review of 
a number of reported activities that were mentioned in a letter sent 
from 50 Members of the House to President Obama in October and a letter 
sent to me by Senator Kyl and 10 other Senators in November. During the 
course of this review, we found the activities of some companies to be 
problematic and therefore warranting more thorough consideration under 
the standards delineated in the ISA. We are continuing to collect and 
assess information on these cases.
    We work aggressively on three fronts to ensure that our review of 
such reports is serious and thorough and that we have a rigorous 
process in place for implementation of the ISA. First, we raise in our 
bilateral engagement with numerous countries the need to strengthen our 
cooperation in promoting a united front for restricting investment in 
Iran's energy sector. Second, we supplement our efforts by working with 
our Embassies overseas to collect information on potentially 
sanctionable activity. Finally, we review with the intelligence 
community reports of activities of some companies that warrant further 
scrutiny under the ISA. Through these mechanisms we ensure that 
credible reports are examined fully while reports with no substance are 
put to rest. It is worth noting that the Iranian government, in its 
efforts to deny its increasing international isolation, promotes and 
publicizes all manner of transactions and purported investments that 
may or may not have any truth to them.
    If the Secretary makes a final determination that sanctionable 
activity has occurred, Congress will be notified promptly.
                                 ______
                                 
           Questions Submitted by Senator Frank R. Lautenberg

    Question. We saw with the Sean Goldman case that international 
parental abduction is a major problem. Although we were able to secure 
a positive outcome in that case with your help, many other parents are 
still struggling to bring their children home and it is clear that the 
current system falls short. What are you doing to improve the 
Department's ability to locate and help safely return American children 
who are victims of international parental abduction?
    Answer. The Department has designated the Office of Children's 
Issues (CI) in the Bureau of Consular Affairs as the U.S. Central 
Authority for the Hague Convention on the Civil Aspects of 
International Child Abduction (Hague Abduction Convention) and to work 
with parents and our posts abroad on cases of international parental 
abduction to countries that are not Hague partners. CI works to reunite 
parents with abducted children and has expanded in size as the number 
of international parental child abductions has grown. In the last year 
alone, the Department has hired 21 new employees in the Office of 
Children's Issues to work exclusively on abduction cases, bringing 
total staff for the issue of abduction to over 70 employees spread 
among five issue-specific and geographic branches. In addition, the 
management structure of CI has been expanded and a number of new 
higher-graded positions have been introduced. The CI Director is a 
member of the Senior Foreign Service. A Senior Advisor will also be 
added to provide senior management with analysis and policy 
recommendations. Additionally, in the fall of 2009, CI added a 
Diplomatic Security officer to its staff to strengthen its cooperation 
with law enforcement authorities. These additional resources will 
enable CI to continue to broaden its prevention-related activities, 
improve its ability to locate abducted children abroad, ensure 
consistently high levels of service among case workers, improve 
training, and carry out more vigorous bilateral and multilateral 
engagement with countries that are parties to the Hague Abduction 
Convention, and those that are not.
    These bilateral and multilateral efforts are critical to resolving 
cases of international parental child abduction. As the Goldman case 
with Brazil demonstrated, complying with the Hague Abduction Convention 
and returning children remains an ongoing challenge for some countries. 
When countries fail to comply with the Hague Abduction Convention, the 
Department, in coordination with other treaty party countries and the 
Hague Conference on Private International Law, offers technical 
assistance and guidance. The Department participates in and helps to 
sponsor judicial seminars on the Convention in party countries across 
the globe. In the last few years alone, the Department has participated 
in judicial conferences or training in Argentina, Brazil, Chile, 
Colombia, Costa Rica, the Dominican Republic, El Salvador, France, 
Israel, Mexico, Panama, Paraguay, and Spain.
    The Department has seen how its diplomatic efforts can produce 
positive results. As recently as 2007, for example, Germany was one of 
the most difficult countries from which to recover an abducted child. 
But active engagement with Germany through quarterly bilateral meetings 
has resulted in consistent and prompt action by German courts. Germany 
has returned 17 children to the United States over the past 2 years.
    Intensive cooperation with other Convention countries has also been 
critical to enhancing our ability to stop abductions before they 
happen. When the Department becomes aware that a parent may be in the 
process of abducting a child from the United States to another country, 
it works with U.S. law enforcement to stop the departure from the 
United States. Once the abductor is on the way to another country, the 
Department works with officials in other Convention countries to 
intercept the taking parent, if possible. In 2009, these efforts 
resulted in the prevention of 147 abductions from the United States to 
61 different countries.
    The Department is engaged in multilateral efforts to obtain better 
cooperation from countries that are not parties to the Convention. In 
Japan, for instance, our ambassador has recently joined his 
counterparts from Australia, Canada, France, Italy, New Zealand, Spain, 
and the United Kingdom in a persistent effort both to encourage Japan 
to recognize foreign custody orders and to adjust its laws so that 
Japan can join the Hague Abduction Convention. The Department will 
continue and increase these efforts with Japan and around the world in 
the coming months.
    The Department's abduction staff is expert in the field, speaks 21 
different languages, and works closely with embassies and consulates 
around the world to do everything the Department legally can to assist 
parents in preventing abduction and recovering their children. CI has 
developed resources for left-behind parents that are easily accessible, 
regardless of a parent's immigration status, English-language 
capability, or financial situation. These include: information on our 
website at travel.state.gov; a 24-hour toll-free number for parents; 
lists of attorneys abroad and in the United States; a language line for 
parents who do not speak English; law enforcement liaison; and victim 
assistance resources. The CI Staff are available to assist 24 hours a 
day, 7 days a week, worldwide. An improved website focused on 
international child abduction and intensified outreach programs in 
domestic and international fora are contributing to public awareness of 
both the problem and of resources to combat it.
    The Department assisted in the return of 422 children to the United 
States from other countries during fiscal year 2009. During the same 
period, 132 children were returned from the United States to their 
countries of habitual residence. More detailed information about 
international parental child abduction cases and the Department's work 
to resolve longstanding cases will appear in the Department's upcoming 
2010 Report to Congress on Compliance with the Hague Convention on the 
Civil Aspects of International Child Abduction. Previous reports can be 
found online at www.travel.state.gov/childabduction.
    Question. Eighty-five years ago, Haiti's tropical forest covered 60 
percent of the country. Today, that number has fallen to less than 2 
percent. As we work to fight global warming, this environmental 
degradation has serious implications for Haiti and the world. What role 
will environmental issues such as reforestation play in the long-term 
recovery plan for Haiti?
    Answer. Root causes of environmental disaster in Haiti include 
acute poverty, rapid population growth and unplanned urbanization. In 
the short term, it is critical to convert hillsides to tree-based 
perennial agriculture to improve soil conservation. Lessons learned 
from decades of reforestation programs demonstrate that, if a tree has 
value, a farmer is likely to maintain and manage it; if not, it will 
likely disappear. Therefore, strengthening tree crop value chains is an 
approach with proven ability to restore degraded landscapes.
    USAID/Haiti's Watershed Initiative for National Natural 
Environmental Resources (WINNER) Project, an agricultural and watershed 
management program, applies best practices such as this. WINNER is 
already active in the Cul-de-Sac watershed where Port-au-Prince is 
located, as well as the Cabaret, Mirebalais, Archaie and Gonaives 
regions of Haiti. Prior to the January 12, 2010 Haiti earthquake 
disaster, the United States planned to invest $126 million in the 
project over the next 5 years. WINNER is strengthening the value chains 
for tree crops and focusing on tree crops with high value (such as 
mango) as these are effective incentive to hillside farmers to plant 
and manage perennial crops.
    In addition to tree crops, the USG strategy in Haiti also includes 
plans to promote cleaner and more efficient cooking technologies, such 
as liquid petroleum gas (LPG), to decrease charcoal consumption and 
reduce the rate of deforestation and environmental degradation. After 
completing a rigorous assessment of the potential market for improved 
cooking technologies, the USG will implement a program that will 
address market barriers such as high upfront costs or lack of awareness 
and achieve large-scale reduction of charcoal consumption over a 5-year 
period. Beneficiaries are likely to include households, food vendors 
and energy-intensive businesses such as laundries and bakeries.
    Finally, a Programmatic Environmental Assessment will be conducted 
for proposed earthquake reconstruction activities, which will pay close 
attention to addressing these issues across the mission's portfolio of 
projects.
    Question. I applaud President Obama's immediate rescission of the 
Mexico City Policy, also known as the Global Gag Rule, upon taking 
office. What impact did the previous 8 years of this policy have on 
women's health? What impact does uncertainty surrounding this policy 
have on organizations' ability to address these critical health 
challenges?
    Answer. During the period in which the Mexico City Policy (MCP) was 
in place, all family planning funds were successfully programmed with 
an emphasis on the countries with the greatest need. This included 
funds that might have otherwise gone to international non-governmental 
organizations (NGOs) that chose not to work with USAID while the policy 
was in place.
    More than 450 foreign NGOs elected to accept assistance subject to 
the MCP and received USAID funding. USAID programs demonstrated 
continued success during this period--shown by an increase in modern 
family planning use among married women from 33 to 39 percent between 
2001 and 2008 in 38 countries with USAID-assisted family planning 
programs which have data over this period. Since the rescission of the 
MCP, the USG has had the opportunity to reengage with additional 
experienced and qualified family planning providers working at the 
grassroots level, furthering our work to meet the growing demand for 
voluntary, safe family planning and other critical health services. We 
expect that should this situation change, these organizations would 
reassess their decision to work with USAID.
    Question. Aid programs too frequently focus on one problem and fail 
to provide the integrated approach necessary for successful 
development. What is the Administration doing to better integrate U.S. 
development programs on food security, health, the environment, and 
family planning?
    Answer. USAID has made great strides in establishing mechanisms to 
ensure that its development activities are undertaken within the 
framework of a comprehensive and integrated development approach, which 
employs strategic multi-sector synergies for improving performance and 
producing greater results. For example, the Agency's new USG Global 
Hunger and Food Security Initiative (GHFSI) is multi-disciplinary and 
being developed and undertaken with a cross-cutting sector approach 
that includes the direct participation of development experts from a 
wide variety of sectors--including agriculture, environment, nutrition, 
maternal and child health, education, infrastructure, gender, and 
family planning and reproductive health. Similarly, one of the 
principles of President Obama's new Global Health Initiative (GHI) is 
integration with other sectors to ensure a cross-cutting sector 
approach that will benefit from the development linkages within USAID 
and across the USG. In addition, USAID's Global Climate Change Agency 
Policy Coordinating Committee (APCC) is working closely with the GHFSI 
APCC, the GHI Interagency Team and the Agency's Extended Water Team to 
identify integrated approaches to the four programs. Designed to 
address the unique settings of each development and humanitarian 
challenge, this comprehensive integrated management structure 
strengthens USAID's development efforts, and particularly, the Agency's 
new initiatives both in Washington and the field.
    Under the GHI and in the Agency approach generally, USAID is 
engaging in smart integration to maximize gains from development funds. 
Using an increasingly integrated and coordinated approach, several 
principles derived from experience serve as a guide. These principles 
focus on:
  --Country-led coordination and strategic decisionmaking on 
        integration of services is required for the sustainability of 
        development;
  --All partners--public and private--are important in maximizing 
        achievement of outcomes in limited resource settings;
  --Integration of U.S. programs must be based on specific country 
        circumstances;
  --Integration and coordination have a cost--they add a level of 
        complexity and administrative burden to programs that must be 
        weighed against the urgency of rapid results;
  --Resources are required to research, monitor and evaluate the 
        expected causal relationship between increased integration and 
        outcomes;
  --In order to build country capacity for integration, systems and 
        structures (such as the health system) should be a deliberate 
        focus of U.S. assistance with documentation on the impact on 
        outcomes; and
  --Critical assessment of other multilateral and bilateral investments 
        and increased coordination will be essential to the achievement 
        of ultimate success.
    Question. I was pleased to see the increase in funding for the 
Clean Technology Fund and the Strategic Climate Fund. How will these 
two programs address the national security threats caused by global 
warming?
    Answer. Climate change poses a significant threat to the national 
security of nations around the globe. Variations in weather patterns 
caused by rising temperatures threaten to create dangerous changes in 
the climate system, increasing floods and droughts, altering natural 
resource availability, and creating conditions likely to cause regional 
conflict and destabilize security situations throughout the world. 
Given the urgency of the climate challenge and the threats it poses to 
national security, it is essential to be able to mobilize and disburse 
climate assistance quickly and effectively. The CIFs, which were 
launched just 2 years ago as a partnership of developed and developing 
countries, are doing just that.
    The Clean Technology Fund and the Strategic Climate Fund (together, 
the Climate Investment Funds or ``CIFs'') have become an essential 
pillar of the international community's effort to mobilize funding to 
help developing countries mitigate their greenhouse gas emissions and 
adapt to the effects of climate change. With $6.3 billion pledged so 
far, the CIFs constitute the largest multilateral fund dedicated to 
climate assistance. Funds mobilized under the CIFs are being utilized 
to help those countries which are most vulnerable to the effects of 
climate change increase their resilience and capacity to adapt to its 
effects which will in turn reduce national security concerns caused by 
effects like changes in natural resource availability. Those funds 
mobilized to mitigate greenhouse gas emissions are working to directly 
address climate change by limiting the increase in temperature rise and 
reducing the source of the problem which poses such extensive national 
security concerns throughout the world.
    Question. As you have stated, the Middle East Peace process has 
effectively stalled. How do you plan to reestablish the trust of the 
parties and move the peace process forward?
    Answer. We are pursuing a two-pronged approach toward comprehensive 
peace based on the two-state solution: first, to encourage the parties 
to enter direct negotiations to reach an agreement on all permanent 
status issues; and second, to help the Palestinians build their economy 
and the institutions that will be necessary when a Palestinian state is 
established. The two objectives are mutually reinforcing. Our goal is 
to re-launch direct, bilateral negotiations between Israel and the 
Palestinians as soon as possible with a 24-month timeline for their 
successful conclusion. We expect that all concerned will demonstrate 
the leadership to make bold commitments and take bold actions to make 
peace possible.
    Question. We saw with the Sean Goldman case that international 
parental abduction is a major problem. Although we were able to secure 
a positive outcome in that case with your help, many other parents are 
still struggling to bring their children home and it is clear that the 
current system falls short. What are you doing to improve the 
Department's ability to locate and help safely return American children 
who are victims of international parental abduction?
    Answer. The Department has designated the Office of Children's 
Issues (CI) in the Bureau of Consular Affairs as the U.S. Central 
Authority for the Hague Convention on the Civil Aspects of 
International Child Abduction (Hague Abduction Convention) and to work 
with parents and our posts abroad on cases of international parental 
abduction to countries that are not Hague partners. CI works to reunite 
parents with abducted children and has expanded in size as the number 
of international parental child abductions has grown. In the last year 
alone, the Department has hired 21 new employees in the Office of 
Children's Issues to work exclusively on abduction cases, bringing 
total staff for the issue of abduction to over 70 employees spread 
among five issue-specific and geographic branches. In addition, the 
management structure of CI has been expanded and a number of new 
higher-graded positions have been introduced. The CI Director is a 
member of the Senior Foreign Service. A Senior Advisor will also be 
added to provide senior management with analysis and policy 
recommendations. Additionally, in the fall of 2009, CI added a 
Diplomatic Security officer to its staff to strengthen its cooperation 
with law enforcement authorities. These additional resources will 
enable CI to continue to broaden its prevention-related activities, 
improve its ability to locate abducted children abroad, ensure 
consistently high levels of service among case workers, improve 
training, and carry out more vigorous bilateral and multilateral 
engagement with countries that are parties to the Hague Abduction 
Convention, and those that are not.
    These bilateral and multilateral efforts are critical to resolving 
cases of international parental child abduction. As the Goldman case 
with Brazil demonstrated, complying with the Hague Abduction Convention 
and returning children remains an ongoing challenge for some countries. 
When countries fail to comply with the Hague Abduction Convention, the 
Department, in coordination with other treaty party countries and the 
Hague Conference on Private International Law, offers technical 
assistance and guidance. The Department participates in and helps to 
sponsor judicial seminars on the Convention in party countries across 
the globe. In the last few years alone, the Department has participated 
in judicial conferences or training in Argentina, Brazil, Chile, 
Colombia, Costa Rica, the Dominican Republic, El Salvador, France, 
Israel, Mexico, Panama, Paraguay, and Spain.
    The Department has seen how its diplomatic efforts can produce 
positive results. As recently as 2007, for example, Germany was one of 
the most difficult countries from which to recover an abducted child. 
But active engagement with Germany through quarterly bilateral meetings 
has resulted in consistent and prompt action by German courts. Germany 
has returned 17 children to the United States over the past 2 years.
    Intensive cooperation with other Convention countries has also been 
critical to enhancing our ability to stop abductions before they 
happen. When the Department becomes aware that a parent may be in the 
process of abducting a child from the United States to another country, 
it works with U.S. law enforcement to stop the departure from the 
United States. Once the abductor is on the way to another country, the 
Department works with officials in other Convention countries to 
intercept the taking parent, if possible. In 2009, these efforts 
resulted in the prevention of 147 abductions from the United States to 
61 different countries.
    The Department is engaged in multilateral efforts to obtain better 
cooperation from countries that are not parties to the Convention. In 
Japan, for instance, our ambassador has recently joined his 
counterparts from Australia, Canada, France, Italy, New Zealand, Spain, 
and the United Kingdom in a persistent effort both to encourage Japan 
to recognize foreign custody orders and to adjust its laws so that 
Japan can join the Hague Abduction Convention. The Department will 
continue and increase these efforts with Japan and around the world in 
the coming months.
    The Department's abduction staff is expert in the field, speaks 21 
different languages, and works closely with embassies and consulates 
around the world to do everything the Department legally can to assist 
parents in preventing abduction and recovering their children. CI has 
developed resources for left-behind parents that are easily accessible, 
regardless of a parent's immigration status, English-language 
capability, or financial situation. These include: information on our 
website at travel.state.gov; a 24-hour toll-free number for parents; 
lists of attorneys abroad and in the United States; a language line for 
parents who do not speak English; law enforcement liaison; and victim 
assistance resources. The CI Staff are available to assist 24 hours a 
day, 7 days a week, worldwide. An improved website focused on 
international child abduction and intensified outreach programs in 
domestic and international fora are contributing to public awareness of 
both the problem and of resources to combat it.
    The Department assisted in the return of 422 children to the United 
States from other countries during fiscal year 2009. During the same 
period, 132 children were returned from the United States to their 
countries of habitual residence. More detailed information about 
international parental child abduction cases and the Department's work 
to resolve longstanding cases will appear in the Department's upcoming 
2010 Report to Congress on Compliance with the Hague Convention on the 
Civil Aspects of International Child Abduction. Previous reports can be 
found online at www.travel.state.gov/childabduction.
    Question. According to the Justice Department, Teodoro Nguema 
Obiang, the forest and agriculture minister of Equatorial Guinea and 
the son of its president, has accumulated most if not all of his wealth 
through corruption while the people of Equatorial Guinea live in severe 
poverty. Nonetheless, Mr. Obiang has been granted multiple visas to 
enter the United States in violation of U.S. law and reportedly 
purchased a $35 million home in Malibu. Why has Mr. Obiang continued to 
receive visas despite U.S. anti-kleptocracy laws? What are you doing to 
enforce those laws and commitments?
    Answer. The Department of State is committed to combating 
kleptocracy and corruption internationally and to use Presidential 
Proclamation 7750 and other provisions to deny entry to corrupt foreign 
government officials. We are aware of the concerns you raise and of 
ongoing congressional interest in Mr. Obiang. Under Section 222(f) of 
the Immigration and Nationality Act visa records are considered 
confidential, and therefore I cannot comment on any individual case. 
The Department would be happy to share such relevant information in a 
closed setting.
    Combating corruption is a foreign policy priority for the 
Department. We coordinate and cooperate with other Departments to 
foster a comprehensive approach including by law enforcement and other 
agencies. In our overall international anticrime strategy we recognize 
the central role of corruption, as the ``grease'' that facilitates 
virtually all transnational illicit activities, from drug trafficking 
to terrorist financing. We take the role of Presidential Proclamation 
7750, which allows for denial and revocation of corruption foreign 
government officials and their families, very seriously. However, it is 
only one part of our Anti-Corruption Policy Framework.
    The United States has been a leader on anticorruption issues 
globally:
  --With the passage of the Foreign Corrupt Practices Act in 1977, the 
        United States was the first country to criminalize foreign 
        bribery.
  --In 1999 the USG developed and launched the premier government-to-
        government event, the Global Forum, the first-ever 
        international conference on corruption and how to combat it.
  --The first multilateral enunciation of the No Safe Haven policy for 
        kleptocrats and their ill-gotten assets occurred at Evian in 
        2003. Each G-8 summit since then has sought to deepen political 
        commitment and foster concrete action. The G-20 has also 
        undertaken similar anticorruption commitments.
  --The U.S. International Anti-Kleptocracy Strategy was promulgated in 
        2006, in part to spur greater interagency cooperation in taking 
        concrete action against kleptocrats and their assets.
  --Denial and revocation of the visas of kleptocrats continues to play 
        an important role in both of the preceding initiatives.
  --The United States supported the negotiation and implementation of 
        the United Nations Convention against Corruption (UNCAC), which 
        entered into force in December 2005, and was ratified by the 
        Senate in 2006. It now has 143 States Parties.
  --The United States supported the UNCAC as the first truly global 
        anticorruption treaty and the most comprehensive anticorruption 
        instrument. It has chapters on criminalization and law 
        enforcement, prevention, recovery of stolen assets, 
        international legal cooperation, and technical assistance. In 
        November 2009, the United States helped lead its Conference of 
        Parties to establish a comprehensive review mechanism, a 
        significant and rare accomplishment for a United Nations 
        instrument.
  --Another key treaty is the OECD Anti-Bribery Convention. The United 
        States was a leader in the OECD's push to tackle foreign 
        bribery. The OECD Convention has many similarities with the 
        U.S. Foreign Corrupt Practices Act (FCPA) and targets the 
        supply side of the corruption equation. The United States is an 
        active participant in the treaty's peer review process and the 
        Working Group on Bribery.
  --The United States also supports and participates in regional 
        treaties or initiatives in the Americas (Inter-American 
        Convention), Western and Eastern Europe (Council of Europe/
        GRECO), Middle East/North Africa, and the Asia-Pacific region. 
        These are useful to bring together countries to press each 
        other on progress and to share good practices.
  --The USG is one of the largest donors of technical assistance in 
        anticorruption and good governance. In fiscal year 2009, the 
        Department of State and USAID provided a total of over $1 
        billion in anticorruption and related good governance 
        assistance.
                                 ______
                                 
             Questions Submitted by Senator Mitch McConnell

    Question. Last September, Secretary Clinton announced the 
administration's new strategy of engagement with the Burmese regime. We 
are now 6 months into the new strategy, what tangible benefits have 
come about as a result of the new approach? Has the denial of Aung San 
Suu Kyi's appeal led to a reevaluation of the engagement policy?
    Answer. Last year the Administration launched a review of Burma 
policy, acknowledging that neither sanctions nor engagement alone had 
succeeded in influencing Burma's generals to adopt a course of reform. 
The conclusions of the policy review reaffirmed our fundamental goals 
in Burma. We want a democratic, prosperous Burma that respects the 
rights of its people. To achieve that end, the administration decided 
to engage Burmese authorities in a senior-level dialogue while 
maintaining the existing sanctions regime and expanding humanitarian 
assistance.
    We understood at the outset that this process would be long and 
difficult, in particular given the regime's focus on this year's 
planned elections. We have not yet achieved concrete progress on our 
core concerns and with respect to the electoral process, the regime has 
taken a step backwards. However, our new approach has helped advance 
the interests of the United States, both in Burma and in the wider 
region. Through our senior-level dialogue, we have been able to get our 
message in directly to senior leaders in Nay Pyi Taw and we have had 
been able to meet with imprisoned democracy leader Aung San Suu Kyi for 
the first time in years. The channels of communication we developed 
through our dialogue were instrumental in securing the release of Kyaw 
Zaw Lwin (aka Nyi Nyi Aung), a U.S. citizen imprisoned on politically 
motivated charges. More broadly, our outreach to Burma and our 
determination not to allow Burma to be an obstacle to a strong U.S.-
ASEAN relationship has strengthened the position of the United States 
in Southeast Asia. We were able to hold the first ever meeting between 
the United States and ASEAN at the leaders' level and to sign on to the 
Treaty of Amity and Cooperation.
    We continue to monitor and evaluate events in Burma carefully and 
have and will continue to adjust our strategy as necessary to advance 
our policy goals.
    Question. What is the Department of State's understanding of 
Burmese nuclear capabilities and ambitions?
    Answer. We closely follow Burma's pursuit of nuclear technology, 
ostensibly for peaceful scientific applications, as well as reports 
that Burma is pursuing a clandestine nuclear program.
    Burma joined the IAEA in 1957, acceded to the NPT in 1992, and 
signed a Safeguards Agreement with the IAEA in 1995. Burma is also a 
Party to the 1995 Treaty of Bangkok that established the South-East 
Asia Nuclear Weapons Free Zone. In 1997, Burma established a Department 
of Atomic Energy and in 1998 passed an Atomic Energy Law. The IAEA 
provides training to Burmese nuclear researchers through a number of 
Technical Cooperation projects, most involving nuclear applications in 
medical research, food, and agriculture.
    After several years of bilateral discussions between Burma and 
Russia, Moscow agreed in 2007 to provide a small pool-type research 
reactor to Burma, conditioned on the reactor being under IAEA 
safeguards. While there has been little or no movement on implementing 
this agreement, Burmese students have been studying nuclear science at 
several Russian universities and institutes for several years.
    It is incumbent on Burma, as a signatory to the NPT and the Bangkok 
Treaty and as a member of the IAEA, to be transparent in all its 
nuclear undertakings and live up to its international obligations. In 
addition, we urge Burma to modify its Small Quantities Protocol (SQP) 
with the IAEA and implement the IAEA's Additional Protocol.
    Question. Please characterize the relationship between North Korea 
and Burma.
    Answer. Burma and North Korea have clearly both been subject to 
substantial international scrutiny for numerous aspects of their 
behavior, including disregard for human rights and for international 
standards on nonproliferation. We are concerned, in particular, about 
the military relationship between North Korea and Burma. U.N. Security 
Council Resolutions 1718 and 1874 requires all member states to 
prohibit the procurement by their nationals, or using their flagged 
vessels or aircraft, of conventional arms and related materiel, 
nuclear-related, ballistic missile-related, and other WMD-related items 
from North Korea. The UNSCRs also prohibit any associated technical, 
training, advice, services, or assistance. The Burmese government has 
publicly committed to enforcing UNSCR 1874 fully and transparently, and 
we have reminded the Burmese of their obligations under both UNSCRs 
1718 and 1874. We have encouraged all states, including Burma, to be 
vigilant and transparent in their dealings with North Korea.
                                 ______
                                 
           Questions Submitted by Senator Christopher S. Bond

    Question. Does the Administration support any conditionality on FMF 
assistance for Indonesia?
    Answer. Indonesia is the world's third-largest democracy. Over the 
last decade, it has undergone a democratic transformation to become a 
stable and peaceful nation. It is committed to democratic reform and 
has become an ally in promoting democracy and human rights in the 
region, including through the Association of Southeast Asian Nations. 
As part of its transformation, the Indonesian government has taken 
significant steps to reform its military, emphasizing respect for human 
rights, and generally maintained effective civilian control of the 
military. Indonesia is also an important partner of the USG on a broad 
range of issues, including combating terrorism and addressing maritime 
security threats in the region. The Department supports Indonesia's 
efforts to address these security-related areas that are of mutual 
concern to both our countries, including by providing FMF assistance.
    Given Indonesia's progress in promoting and protecting human rights 
and our close collaboration on security issues, we believe FMF 
assistance to Indonesia is warranted without conditionality.
    Question. Can you describe for us the role our International 
Affairs programs play in helping spur economic growth here at home and 
creating American jobs? How do these programs help U.S. businesses and 
entrepreneurs to remain competitive in the global market place?
    Answer. The State Department supports the efforts of U.S. companies 
and farmers to expand their business through exports. As flourishing 
international trade requires at least two parties, our efforts support 
U.S. businesses wishing to export and also help our trading partners 
develop so that those countries will have a healthy demand for those 
exports. The Department promotes U.S. exports by providing advocacy on 
behalf of U.S. companies, urging enforcement of intellectual property 
rights, and helping to develop high-potential overseas markets. State 
Department officers manage the commercial function at 96 U.S. missions 
worldwide that have no U.S. Commercial Service presence. State 
Department officers also provide vital political and economic insight 
to U.S. companies about foreign countries. U.S. Embassies and 
Consulates are key advocates for U.S. business overseas. Embassies can 
offer U.S. exporters critical country-specific insight on markets, 
assist in commercial and investment disputes, and provide expertise on 
local judicial systems. Our advocacy efforts are to ensure that 
exporters of U.S. goods and services get fair and equitable treatment 
in foreign markets.
    On the other side of the trade equation, State and USAID foreign 
assistance programs help developing country economies grow, resulting 
in increased demand for U.S. goods and services over time. More 
directly, some U.S. Trade Capacity Building (TCB) programs help 
countries streamline customs and other import administration procedures 
and improve trade-related infrastructure, thereby lowering the cost of 
U.S. products in those markets and opening up new export and job 
opportunities for U.S. suppliers. Other TCB programs help countries 
comply with their trade commitments under bilateral Free Trade Area 
agreements and the World Trade Organization, such as their commitments 
to ensure that agriculture and food safety standards are based on sound 
science.
    Question. I note with concern that funding overall for Southeast 
Asia took a $22 million cut below the fiscal year 2010 enacted level. 
Can you provide me with an overview of where some of these cuts were 
made and why a reduction in overall funding?
    Answer. The United States must have strong relationships and a 
strong and productive presence in Southeast Asia. This region is vital 
to the future of not only the United States and each of the ASEAN 
countries, but to the world's common interests: a significant and 
trade-oriented regional economy; a critical strategic location; and a 
set of countries that will be key to any solutions we pursue on climate 
change, counterterrorism, global health, and so much else. Our fiscal 
year 2011 request for Southeast Asia increased by $65 million (11.2 
percent) over our fiscal year 2010 request. While there are always more 
assistance needs in the region than we are able to fund, given current 
budget realities, this increase strongly reflects the importance of 
Southeast Asia to the Administration. Not all regions in the Department 
experienced an increase, or even a straight-line; some were reduced 
from the fiscal year 2010 request level. The Department faces difficult 
choices in allocating limited foreign assistance funding, and the 
ability to fund Frontline States necessarily requires trade-offs in 
funding in other regions, including Southeast Asia.
                                 ______
                                 
              Questions Submitted by Senator Sam Brownback

    Question. The French government has recently announced its plans to 
sell several Mistral-class helicopter carriers to Russia and a French 
company is reportedly negotiating to sell tanks as well. A Russian 
admiral, Vladimir Vysotsky, stated recently that if Russia had had a 
Mistral ship during the Georgia war in 2008 it could have won the 
conflict in 40 minutes. Baltic States such as Estonia are furious over 
the ship sale and it is a direct threat to Georgia and our national 
interests, as well as our billion dollars in rebuilding assistance. Do 
you share the concerns raised by our NATO allies? Most importantly, 
does the sale violate the Wassenaar Arrangement on Export Controls as 
well as the European Union Code of Conduct for Arms Exports?
    Answer. We understand that reports of this potential sale have 
raised concerns among some of Russia's neighbors. Inflammatory comments 
from a senior Russian military officer added to this anxiety. We would 
urge all parties to focus on efforts to promote stability in the region 
and avoid actions that could escalate tensions. I made these points 
when I met with President Sarkozy in January.
    Export control decisions in the Wassenaar Arrangement are left to 
national discretion. The European Union Code of Conduct for Arms 
Exports, to which the United States is not a party, sets criteria under 
which EU countries are obligated to assess arms export licenses. 
Implementation is an internal matter for each EU party.
    Question. As of today, Russia is continuing to build military bases 
and station elite troops in regions of Georgia not under the Georgian 
government's control. What concerns does the United States have toward 
the sale of advanced weapons to Russia that could be used in a future 
conflict against Georgia or a NATO ally?
    Answer. The United States supports Georgia's sovereignty and 
territorial integrity within its internationally recognized borders. We 
are concerned about recent Russian announcements to introduce 
additional military facilities and troops into the Georgian regions of 
Abkhazia and South Ossetia. We would regard such actions to be in 
violation of the August and September 2008 ceasefire agreements and the 
principles of sovereignty, territorial integrity, and host nation 
consent for the stationing of foreign forces. We support the ongoing 
Geneva talks, which established the Incident Response and Prevention 
Mechanisms (IPRMs) to increase communication and transparency among the 
parties to the conflict and decrease the escalation of tension along 
the ceasefire lines. We continue to emphasize the importance of re-
starting the South Ossetian IPRM.
    Russia's possible procurement of a French Mistral-class helicopter 
carrier has raised concerns among some of Russia's neighbors. While we 
recognize that arms sales are a sovereign decision for individual 
countries to make in keeping with international law and treaty 
obligations, we continue to follow these developments closely, and we 
urge all parties to focus on efforts to promote stability in the region 
and avoid actions that could escalate tensions. These points have been 
raised at high-levels with the French government.
    Question. A recent Senate Foreign Relations Committee report 
determined that the United States should move forward and rearm the 
Georgian government with the weapons it needs to defend its territory. 
Do you support this step? If not, why? If so, when will the United 
States begin the sale of arms to an ally that is deploying 1,000 troops 
to Afghanistan?
    Answer. The Administration remains committed to supporting 
Georgia's sovereignty and territorial integrity. Our security 
assistance and military engagement with Georgia is focused on 
rebuilding Georgia's defense and security architecture. This approach 
is consistent with Georgia's objectives in its NATO Annual National 
Program. It also helps Georgia advance toward NATO membership by 
supporting Georgian defense modernization and reform and improving 
Georgia's ability to contribute to international security operations. 
Our focus in the near term is enhancing self-defense capabilities 
through an emphasis on doctrine, personnel management, education, and 
training.
    Additionally, the United States is assisting the Georgian Armed 
Forces by training and equipping four infantry battalions for 
successive deployment to Afghanistan, around twice a year for 2 years. 
Georgian forces will sustain this rotation without caveats, and will 
fight alongside the U.S. Marines as part of NATO's International 
Security Assistance Force in Regional Command--South, Helmand Province, 
to conduct distributed operations in a counter-insurgency environment. 
The first Georgian battalion of approximately 750 troops began training 
September 1, 2009 and will deploy to Afghanistan in April for six 
months. Three follow-on battalions will be trained and deployed to 
Afghanistan in 7-month rotations.
    Question. In a letter exchange between Secretary Clinton and 
Senators Feingold, Brownback, and Durbin, the State Department stated 
that it had begun mapping the mineral rich zones controlled by armed 
militias in the Congo. When will this map be made available to the 
public and/or Members of Congress? The letter also indicated that the 
State Department is considering additional efforts to address conflict 
minerals in the Congo. What are these ``additional efforts'' that the 
State Department is exploring to address conflict minerals in the 
Congo?
    Answer. The map of mineral-rich zones and armed groups in the 
Democratic Republic of the Congo (DRC), which was mandated in Public 
Law 111-84, will be made available to the appropriate congressional 
committees and the public shortly.
    In terms of additional efforts, we plan to strengthen our public 
diplomacy to draw attention to the conflict minerals challenge; to 
enhance diplomatic outreach with the DRC, in the region and with 
countries in the supply chain; to intensify engagement with the private 
sector to discourage illegal minerals trade; to continue examining and 
further expand reporting on the link between illegal exploitation of 
natural resources, corruption, and human rights abuses in the State 
Department's annual human rights report on the DRC; and to contribute 
to the work of the United Nations Security Council's Democratic 
Republic of the Congo Sanctions Committee's Group of Experts (UNSC DRC 
Group of Experts) on due diligence guidelines for importers, processing 
industries and consumers of mineral products.
    Question. What are the current programs within both the State 
Department and USAID to improve the livelihood prospects of communities 
affected by human rights abuses in eastern Congo, particularly victims 
of sexual and gender based violence?
    Answer. USAID social protection programs in the Democratic Republic 
of the Congo (DRC) include economic strengthening activities for 
survivors of sexual and gender-based violence and their families. 
Economic assistance is also provided to other highly vulnerable women. 
Current programs include:
  --Program for Psychosocial Support and Reintegration of Survivors of 
        Sexual and Gender-Based Violence in Eastern DRC.--Implemented 
        by Cooperazione Internazionale (COOPI), operating in Ituri 
        District, Orientale Province and Maniema Province, funded at 
        $4,945,045 (December 15, 2008, to December 14, 2011). COOPI and 
        its local partners are providing medical, psychosocial, socio-
        economic, and legal support to 24,000 survivors of sexual and 
        gender-based violence. Through this project, 4,000 survivors 
        benefit from income generating activities each year through 
        self-help groups and women's NGOs.
  --ESPOIR: Ending Sexual Violence by Promoting Opportunities and 
        Individual Rights.--Implemented by International Rescue 
        Committee, operating in North and South Kivu Provinces, funded 
        at $7,000,000 (September 17, 2009, to September 30, 2012). IRC 
        and its local partners are providing medical, psychosocial, 
        socio-economic, and legal support to 14,500 survivors of sexual 
        and gender-based violence. IRC's sub-grant to Women-for-Women 
        International is supporting more than 6,000 women in income-
        generating activities and vocational training.
  --Program for Assistance and Reintegration of Abducted Girls and Boys 
        and Other Gender-based Violence Survivors.--In partnership with 
        UNICEF (COOPI is the implementing partner), operating in Ituri 
        District, Orientale Province, funded at $1,511,644 (July 20, 
        2006, to December 31, 2009). This program assists girls and 
        boys formerly associated with armed groups, many of whom are 
        affected by sexual and gender-based violence, with social and 
        economic reintegration. Community-based reintegration includes 
        returning to school and engaging in income-generating 
        cooperatives for vulnerable children (children who have been 
        separated directly from armed groups, as well as children who 
        encounter challenges in reintegrating with their families, 
        particularly girls and girl mothers).
  --USAID Food for Peace programs in the DRC provide livelihood 
        assistance to displaced and other highly vulnerable people in 
        North and South Kivu, areas most affected by insecurity, human 
        rights abuses, and sexual and gender-based violence. 
        Development food aid programs support individuals and small 
        farmers' associations to increase agricultural productivity 
        through training and food-for-work programs.
  --USAID Office of U.S. Foreign Disaster Assistance programs support 
        livelihood activities for vulnerable individuals in eastern 
        DRC. In fiscal year 2009, USAID's Office of U.S. Foreign 
        Disaster Assistance provided $33 million for agriculture and 
        food security, economic recovery and market systems, 
        humanitarian coordination and information management, health, 
        logistics and relief commodities, nutrition, protection, 
        shelter and settlements, and water and sanitation programs.
  --The Department of State Office of Population, Refugees, and 
        Migration provided more than $45 million in fiscal year 2009 
        for humanitarian programs for refugees and internally displaced 
        persons from and in DRC. Funding includes programs for 
        agriculture and food security, education, emergency food 
        assistance, health, protection for refugees and internally 
        displaced persons, livelihoods, psychosocial services, refugee 
        integration, sexual and gender-based violence protection and 
        response, shelter, and water and sanitation programs.
    Question. What resources, including personnel, are dedicated both 
within the State Department and USAID to the issue of conflict minerals 
in the Congo?
    Answer. The United States dedicates significant financial and 
personnel resources to address illicit mining in the Democratic 
Republic of the Congo. We have supported incorporation of the mining 
issue into the mandates of both the U.N. Mission in the Congo (MONUC) 
and the U.N. Group of Experts on the DRC. Through USAID, we support 
livelihoods programs for Congolese artisanal miners who are the great 
majority of miners nationwide. Through the U.S. Department of Labor, we 
fund programs to remove child laborers from the mines and enroll them 
in school. Embassy Kinshasa is working with the DRC Ministry of Mines 
to support the implementation of the country's 2002 Mining Code, and 
the Bureau of International Narcotics and Law Enforcement Affairs is 
training Congolese border and customs police in interdiction 
techniques.
    Question. Please explain the decrease in the State Department's 
budget request for peacekeeping operations in Sudan, an account that 
among other things is used to professionalize the SPLM and provide 
communications and other equipment for the military.
    Answer. The State Department's $42 million budget request for non-
assessed peacekeeping operations in Sudan is the same in fiscal year 
2011 as it was in fiscal year 2010. Congress appropriated $44 million, 
$2 million more than the Administration's request, for voluntary 
peacekeeping operations in Sudan in fiscal year 2010. At this time, the 
request of $42 million will be sufficient to advance the Department's 
fiscal year 2011 programs for supporting the Government of Southern 
Sudan's (GoSS) goals and objectives to transform its military, the 
Sudan People's Liberation Army (SPLA), into a professional military 
body.
    Question. Can the United States include radar for the SPLM capable 
of detecting aerial attack within its peacekeeping operations budget 
request or as part of another State Department funding vehicle?
    Answer. Section 7070(f)(5) of the fiscal year 2010 Department of 
State, Foreign Operations, and Related Programs Appropriations Act 
authorizes the provision of ``non-lethal military assistance, military 
education and training, and defense services controlled under the 
International Traffic in Arms Regulations'' to the Government of 
Southern Sudan (GoSS), provided that the Secretary of State provides 
Congress 15-days advance notice of her determination that the provision 
of such items is in the U.S. national interest. Deputy Secretary 
Steinberg made this determination on February 3, 2010, with respect to 
fiscal year 2010 funds. As a general matter, a radar system would be 
considered non-lethal assistance, although the exact configuration of 
radar and its integration into a weapons system could change this 
conclusion.
    Currently, the priority use of peacekeeping operations (PKO) funds 
supporting the development of the SPLA is as outlined in the fiscal 
year 2010 and fiscal year 2011 congressional budget justifications--
namely the transformation of the SPLA into a professional military--and 
does not include providing a radar system to the SPLA.
    Question. What resources, including personnel, is the State 
Department employing to monitor and report on human rights conditions 
throughout Sudan?
    Answer. The human rights situation in Sudan is poor, and human 
rights abuses continue to be wide-ranging. The Obama Administration is 
committed to improving the situation.
    The State Department monitors human rights abuses through a 
collaborative process that involves personnel both in the field, 
including at Embassy Khartoum and Consulate Juba, and in the United 
States. Our staff has regular contact with human rights activists, 
victims of abuse, and non-governmental organizations in Sudan. Special 
Envoy Gration also travels extensively in Sudan, and he regularly 
raises human rights issues with his high-level counterparts in Khartoum 
and in Southern Sudan. Finally, United States Government (USG) 
personnel based in Washington, DC, meet regularly with a variety of 
Sudanese diaspora, civil society, and advocacy groups to discuss human 
rights issues. We place a high value on these discussions, and we work 
to ensure that we follow-up on the information and concerns presented 
to us by these constituencies.
    The USG, through the State Department's Bureau of Democracy, Human 
Rights, and Labor, issues Country Reports on Human Rights Practices and 
the International Religious Freedom Report. The Department's Office to 
Monitor and Combat Trafficking in Persons issues the annual Trafficking 
in Persons Report. Taken together, these reports provide detailed 
information on human rights issues in Sudan. The State Department also 
continuously collaborates with the United Nations on its efforts to 
monitor the human rights situation. We have successfully worked to 
ensure that the U.N. Human Rights Council maintains a reporting and 
monitoring mechanism focused on Sudan, through the establishment of the 
independent expert on the situation of human rights in Sudan. We also 
continue to closely follow the work of the U.N. Panel of Experts on 
Sudan.
    Question. As we've seen in Darfur, many non-Arab Sudanese Muslims 
have longstanding grievances against the central government in Khartoum 
that can lead to conflict. What is the State Department doing to help 
prevent new crises among marginalized peoples and regions in Sudan?
    Answer. The United States government (USG) has a long standing 
commitment to the people of Sudan. The central Sudanese government in 
Khartoum has marginalized many groups of non-Arab Muslims throughout 
various regions within Sudan, and we have long been greatly concerned 
about the marginalization of these populations. We continue to pursue 
policies and implement programs that will help to mitigate the effects 
of marginalization by the government and promote peacebuilding and 
conflict resolution within marginalized communities. Additionally, the 
USG continues to work tirelessly to achieve the goals of the Sudan 
Strategy, including full implementation of the Comprehensive Peace 
Agreement (CPA) that ended the North-South civil war and a definitive 
end to violence, gross human rights abuses, and genocide in the Darfur 
region.
    Since the signing of the Comprehensive Peace Agreement (CPA) in 
2005, the people of Sudan have made progress in developing a stable 
political environment where residents can work and live without the 
overt threat of violence. However, parts of Darfur, Southern Sudan, the 
Three Areas and Eastern Sudan remain volatile and are flashpoints for 
destabilization. The U.S. Government is working with international 
partners to support Sudanese communities to prevent or moderate 
conflict in these flashpoints so that problems do not escalate and 
interfere with Sudan's higher political processes. The State Department 
and USAID will implement complementary programs. USAID efforts focus 
primarily on supporting state and local governments, organizations, and 
communities to manage conflict, to provide economic alternatives to 
raiding and banditry, and to implement reconciliation processes 
important to a sustainable peace in Sudan. State Department activities 
focus primarily on building state and local capacity to stabilize the 
security and political situation.
    Question. Revenue-sharing from the oil sector is a key element of 
the CPA. What is the State Department doing to ensure Khartoum lives up 
to its promises to share oil revenues with the South?
    Answer. Over the course of 2009, the United States Government (USG) 
brought together the National Congress Party (NCP) and the Sudan 
People's Liberation Movement (SPLM) to address outstanding 
Comprehensive Peace Agreement (CPA) implementation issues, including 
issues related to the sharing of oil revenues. Due to this U.S.-led 
Trilateral initiative, the two parties signed 10 Points of Agreement in 
August 2009, one of which was devoted to wealth-sharing and oil 
revenue. Following this agreement, the Government of National Unity 
(GoNU) returned approximately $52 million to the Government of Southern 
Sudan (GoSS), a sum that was incorrectly deducted from monthly oil 
revenue transfers to finance election activities. While in the past, 
GoNU payments to the GoSS had been late or partial, as of December 
2009, the parties broadly agreed that the GoNU shall transfer the full 
oil revenue amount allotted to the GoSS. As a result, all agreed-upon 
arrears have been paid to the GoSS by the GoNU.
    During the Trilateral Process, the two parties also agreed to an 
independent audit of the oil sector, to determine whether the payments 
made to the GoSS represented the full amount due under the CPA. While 
progress has been slow in obtaining approval from relevant government 
bodies for the audit to move forward, it is hoped that the audit can 
proceed after the formation of new national and regional governments in 
the wake of April's elections.
    Question. What is the State Department doing to persuade Khartoum's 
economic partners, particularly those with major investments in the oil 
sector such as China, India, and Malaysia, to use their influence to 
encourage Khartoum to implement the Comprehensive Peace Agreement (CPA) 
fully and to avoid the resumption of a destructive, and economically 
disruptive, North-South civil war?
    Answer. A key part of the U.S. Sudan strategy is reinvigorating and 
strengthening international attention to outstanding Comprehensive 
Peace Agreement (CPA) implementation issues. The United States 
Government (USG) continues to work with all international stakeholders 
to bring attention to remaining CPA issues such as demarcation of the 
North/South border and appointment of commissions for the Southern 
Sudan and Abyei referenda. Central to this is the promotion of 
sustainable economic development and stability in both Northern and 
Southern Sudan. This is an area in which China, other major investors 
in Sudan, and the United States have the same objectives. We continue 
to urge all countries, especially those with key interests in the oil 
sector, to advocate for continued attention to this matter as a central 
part of CPA implementation. U.S. officials discuss these issues 
regularly with their foreign counterparts. Additionally, we are 
engaging with all international stakeholders to coordinate 
international support for negotiations on post-referendum arrangements, 
an important component of which will be oil sector development and 
continued North/South oil revenue sharing.
    Question. The State Department's Office of International Religious 
Freedom has been without an Ambassador for International Religious 
Freedom for over a year. Given both President Obama's remarks in Turkey 
and Egypt and Secretary Clinton's remarks in Qatar regarding the 
importance of addressing religious freedom, when can we expect someone 
to be nominated for this post?
    Answer. A candidate for the position of Ambassador at Large for 
International Religious Freedom has been identified and is in the 
vetting process. We look forward to the announcement from the White 
House.
    International Religious Freedom remains a top focus for both the 
President and the Secretary of State. The Office of International 
Religious Freedom continues to pursue a robust agenda of monitoring and 
promoting religious freedom under the leadership of a Senior Foreign 
Service Officer. Religious Freedom issues are regularly raised by the 
Assistant Secretary of State for Democracy, Human Rights, and Labor, 
Michael Posner, as well as other State Department principals.
    Question. There continues to be severe and ongoing religious 
freedom violations in Vietnam, including the active suppression of 
independent religious activity and the detention and arrest of members 
of particular religious organizations for their religious freedom 
advocacy. As the State Department makes Country of Particular Concern 
(CPC) designations under the International Religious Freedom Act (IRFA) 
this year, what criteria, specific to Vietnam, will be used to 
determine whether Vietnam will be re-designated a CPC?
    Answer. The State Department applies the statutory standard found 
in IRFA Sec. (3)(11) to determine whether a country should be 
designated a CPC, and will consider CPC designations, as warranted, for 
all countries found to be, in the words of the Act, committing 
``systematic, ongoing, egregious violations'' of religious freedom.
    We are concerned about a number of religious freedom violations in 
Vietnam, including treatment during the past year of Buddhist monks and 
nuns of the Plum Village Order who were evicted from two pagodas, as 
well as the use of force against Roman Catholics in property 
restitution disputes. We are also watching closely whether the 
Government of Vietnam will fulfill its commitment to register more 
religious congregations.
    After being designated a CPC in 2004, Vietnam addressed its most 
serious violations (religious prisoners, church closings, forced 
renunciations, and the lack of a transparent registration system) and 
instituted policies and practices to protect religious freedom. The 
State Department removed Vietnam from the list in 2006 because it no 
longer fit the criteria of a CPC under the IRFA. Each year, we 
carefully monitor the status of religious freedom in Vietnam and 
reevaluate whether it merits designation as a CPC. We will report on 
further developments in Vietnam in our next International Religious 
Freedom Report, due in September.
    Question. Secretary of State Clinton has publicly spoken about the 
importance of freedom of worship. Is the Administration prioritizing 
the freedom of worship as a matter of diplomacy and if so, in what way? 
Does the Administration see any distinction between freedom of 
religion, as defined by international standards such as the ICCPR, and 
freedom to practice or worship?
    Answer. International religious freedom remains a central component 
to our promotion of human rights around the world. Promoting all 
aspects of freedom of religious belief and expression remains a high 
priority in our diplomatic efforts, as reflected in President Obama's 
Cairo speech in June, where he emphasized that ``freedom of religion is 
central to the ability of peoples to live together.'' In meetings with 
government leaders around the world, State Department officials 
consistently raise concerns regarding violations of religious freedom, 
and the annual International Religious Freedom Report is an important 
tool in that effort.
    As a matter of international human rights law, there is a 
difference between the terms ``freedom of religion'' and ``freedom of 
worship,'' and one encompasses the other. Article 18 of the 
International Covenant on Civil and Political Rights describes the 
right to freedom of thought, conscience and religion as including 
freedom to manifest one's religion or belief ``in worship, observance, 
practice and teaching.'' Freedom of worship is a component of the 
broader freedom of religion. As an informal matter, the terms ``freedom 
of religion'' and ``freedom of worship'' have often been used 
interchangeably through U.S. history, including in this Administration.
    Question. International NGOs continue to report on periodic violent 
attacks against Burmese Rohingya refugees in Thailand and Bangladesh. 
What resources are the State Department and USAID employing to offer 
assistance to the Rohingya refugees? How is the State Department 
engaging the governments of Thailand and Bangladesh regarding the 
protection of Rohingya refugees?
    Answer. We are closely following the situation of Burmese Rohingya 
refugees and asylum seekers in Bangladesh, Thailand and elsewhere in 
the region. The State Department and USAID are very concerned by 
credible reports of a growing humanitarian crisis among the 
unregistered Rohingya population residing outside of Kutupalong refugee 
camp in Bangladesh and the increased numbers of arrests and push-backs 
to Burma at the border. We are urging the Royal Thai Government to 
provide assistance to Rohingya ``boat people'' distressed at sea who 
are encountered in international waters near Thailand or within Thai 
waters, in accordance with international maritime law and practice.
    In fiscal year 2009, the State Department provided more than $2 
million in funding to several international humanitarian organizations 
to provide assistance and protection activities to both the registered 
and unregistered Rohingya populations in Bangladesh, Malaysia, 
Indonesia and elsewhere in the region. These organizations include 
ActionAid, Handicap International, Action Contre La Faim and the 
International Organization for Migration. Humanitarian assistance 
includes the provision of healthcare, water and sanitation, education, 
vocational skills training, conflict resolution, community 
mobilization, mental health and psychosocial support, gender-based 
violence prevention and response, and access to essential services for 
Persons with Disabilities. USAID implements development programs in 
Southeast Bangladesh on sectors that include population, health, 
energy, natural resource management, and democracy and governance. 
PACOM is constructing seven multi-purpose cyclone shelters and schools. 
Given the sizeable Rohingya population in Southeast Bangladesh, these 
programs also indirectly benefit the unregistered Rohingya.
    We are urging the Government of Bangladesh (GOB) to allow UNHCR to 
properly document the unregistered Rohingya population to ensure its 
protection. We also urge the GOB to respect the principle of non-
refoulement, to investigate allegations of abuse, and take actions as 
necessary. UNHCR has also gained agreement with the Government of Burma 
to expand operational space in Northern Rakhine State. Third-country 
resettlement remains an important strategic durable solution for some 
Rohingya refugees in the region. The eventual voluntary repatriation of 
refugees from Burma in safety and dignity and when conditions allow is 
also another solution. Both the registered and unregistered Rohingya, 
recognized as Persons of Concern by UNHCR, need freedom of movement and 
access to opportunities for work, which would enable them to become 
self-reliant and improve their chances for voluntary repatriation.
    The issue of the Rohingya is complex with a strong international 
dimension that requires a concerted effort by affected countries in the 
region. Thailand and Bangladesh have an important role to play in the 
Bali Process, where the Rohingya situation is being addressed 
regionally, to help combat people smuggling, trafficking in persons, 
and related transnational crimes in the Asia-Pacific region and beyond. 
The State Department continues to urge UNHCR to work in close 
coordination with IOM through the Bali Process in developing a 
coordinated regional response and comprehensive plan of action with 
affected countries to address the plight of the Rohingya.
    Question. How is the State Department engaging Japan in diplomatic 
discussions regarding International Child Parental Abduction (IPCA) 
issues? At what level are these discussions occurring? What has been 
the outcome of these discussions thus far?
    Answer. For several years, IPCA has been a high priority as the 
number of children abducted to Japan has steadily increased. Japan has 
consistently opposed signing the 1980 Hague Convention on the Civil 
Aspects of International Child Abduction. This places United States 
left-behind parents of abducted children to Japan at a great 
disadvantage given Japan's family law system and traditions.
    The Embassy and the Bureaus of Consular Affairs and East Asian and 
Pacific Affairs continue to raise this issue during meetings with 
Japanese officials at all levels. Japanese officials have consistently 
stated that:
  --The Ministries of Foreign Affairs and Justice are studying the 
        Hague Convention.
  --Japanese family law is not consistent with the Hague Convention.
  --The Diet would have to pass the required legislation to change 
        domestic law.
    However, as Japanese officials have recently begun to take IPCA 
more seriously, we have been more actively engaged on a number of 
fronts. On October 16, 2009, U.S. Ambassador to Japan Roos, and the 
Ambassadors of Canada, France, Italy, New Zealand, Spain, the United 
Kingdom, and the deputy head of mission of Australia, demarched the new 
Minister of Justice about IPCA. They urged Japan to accede to the Hague 
Convention and take measures to improve access for parents separated 
from their children. A joint press statement was issued by the eight 
embassies following the meeting. On January 22, 2010, American Citizen 
Services Chief William Christopher and staff from the Office of 
Children's Issues met with officials from Ministry of Justice to 
discuss Japan's legal statutes as they relate to IPCA, in particular 
the legal definition of domestic violence, how courts determine custody 
in divorce cases, and mechanisms used to enforce court orders.
    On January 30, 2010, Ambassador Roos, accompanied by the same six 
ambassadors and one deputy head of mission from other embassies in 
Japan, demarched Minister of Foreign Affairs Katsuya Okada about IPCA. 
The Ambassadors urged Japan to accede to the Hague Convention and to 
take measures to improve access for parents separated from their 
children. Minister Okada expressed appreciation for the meeting and 
stated that the new government must decide how to deal with IPCA. There 
was good media coverage of the meeting and the statement in both Japan 
and overseas.
    The third annual symposium on IPCA was held from March 17-18 in 
Tokyo. The symposium brought together key stakeholders and professional 
counterparts from the co-hosting nations in an expert level forum. The 
event was in response to Japanese Justice Minister Keiko Chiba's 
October 2009 expression of interest in learning about the experiences 
of Hague signatory nations.
    Our joint efforts have encouraged Japanese officials to more 
seriously consider the issue of child abduction and look for ways to 
address both accession to the Hague Convention and resolution of 
current cases. We are encouraged by the Ministry of Foreign Affairs' 
decision to establish the Division for Issues Related to Child Custody, 
and we expect this to be an avenue for discussion of individual cases.
    Question. The budget request to combat Trafficking in Persons seems 
inadequate. If the State Department and USAID were to have more 
resources devoted to combating trafficking, how would they be used?
    Answer. The Department of State (DOS) uses foreign assistance funds 
to stimulate governments to take action to combat trafficking in 
persons (TIP) through criminal justice sector improvements, trafficking 
prevention programs, and support for protection and assistance services 
to victims. Funds for these anti-trafficking programs are critical to 
fulfilling the mandate of the Trafficking Victims Protection Act (TVPA) 
of 2000 and our bipartisan policy priorities.
    Since 2006, the Office to Monitor and Combat Trafficking in Persons 
(G/TIP) which manages a portion of the State Department's anti-TIP 
funds has funded a mere fraction of the requests received, which is 
approximately $21 million of the over $288 million requested. G/TIP has 
seen a 325 percent increase in requested funds for anti-trafficking 
projects in a 4 year period from $45 million in fiscal year 2006 to 
over $288 million in fiscal year 2010. G/TIP's most recent solicitation 
resulted in 531 Statements of Interest for fiscal year 2010 funding, 
which is a significant increase from the previous year's 372 proposals.
    If an increase in funding to combat TIP were appropriated, DOS and 
USAID would look to:
  --Fund a greater percentage of the proposals received for 
        international anti-TIP projects;
  --Increase the number of innovative TIP prevention programs, 
        including TIP-specific development projects;
  --Increase the number of TIP research projects to promote greater 
        understanding of the scope of the problem and increase efficacy 
        of USG anti-TIP resources;
  --Create dedicated training and technical assistance program to 
        include recruitment and deployment of experienced counter-
        trafficking professionals in areas of victim assistance and 
        protection, rule of law, and investigation and prosecution.
    Question. How is the Senior Policy Operating Group, which the State 
Department chairs, ensuring the coordination of anti-trafficking 
funding across the State Department and United States government per 
the mandate established in the TVPRA?
    Answer. The Senior Policy Operating Group (SPOG) coordinates 
programs and policies at several levels:
  --Quarterly SPOG meetings.--G/TIP chairs quarterly, interagency 
        meetings involving every USG agency involved in anti-
        trafficking programs--DOS, DOL, DOJ, DHS, and others. The 
        quarterly meetings provide a forum for agencies to coordinate 
        anti-trafficking policies and programs.
  --SPOG Committee meetings.--The SPOG created working-level committees 
        to further its work, one of which is focused on grant-making.
  --SPOG Programs Review Process.--Before issuing anti-trafficking 
        grants or contract funds, all USG agencies submit their 
        proposed anti-trafficking actions for review by the other key 
        SPOG members. Anti-trafficking program proposals are subject to 
        a 7-day comment period, during which SPOG member agencies 
        provide comments on whether the project will duplicate other 
        USG activities, whether the project presents opportunities for 
        cooperation with other USG activities, and whether the project 
        is consistent with USG anti-trafficking policy.
  --Fiscal Year Chart on USG Spending.--At the end of each fiscal year, 
        SPOG staff gathers and organizes data on USG funds obligated in 
        that fiscal year for TIP projects.
    Question. India has arguably the world's largest Trafficking in 
Persons population, with its millions of bonded laborers. Given the 
importance of our bilateral relationship, is the State Department 
ensuring that combating trafficking in persons is conveyed as a 
strategic priority for the United States throughout all diplomatic 
discussions with the Government of India?
    Answer. The Department places great importance on the need to build 
a stronger partnership with the Government of India on addressing 
shared human trafficking concerns. We encourage the Indian government 
to research the phenomena of sex trafficking and bonded labor within 
India. Over the last year, Secretary Clinton and other senior officials 
have raised the issue of human trafficking with the Indian government 
and the Department continues to convey the priority the Obama 
Administration places on this human rights issue. We believe the 
Government of India is committed to combating human trafficking and in 
achieving faster progress against this global problem.
    Question. How is the State Department leveraging U.S. trade to 
further encourage other nations to actively combat trafficking in 
persons?
    Answer. The State Department is committed to expanding trade and 
market opportunities in developing countries to help create an 
environment not conducive to trafficking. Economic pressures make more 
people susceptible to the false promises of traffickers. Embassy 
employees worldwide provide country-specific data for the annual 
Trafficking in Persons report, as well as the Department of Labor's 
Trafficking Victims Protection Reauthorization Act (TVPRA) list of 
products made by forced labor and child labor in violation of 
international standards. Products on the TVPRA list are not permitted 
to be imported into the United States.
    Question. As Haiti has shown us all too clearly, disasters in 
general (and Haiti in particular) often necessitate expertise and 
resources specific to combating trafficking in persons in our 
protection response. What can the State Department learn from Haiti and 
how can the U.S. government best ensure preplanning is done such that 
the United States is ready to meet that need when the next disaster 
strikes?
    Answer. As past natural disasters have proved, commandeering the 
appropriate response on a wide-range of issues takes absolute 
coordination, communication, resources, and resolve.
    Specifically to trafficking in persons, the Department was actively 
involved in anti-trafficking efforts prior to the January 2010 
earthquake in Haiti. The Office to Monitor and Combat Trafficking in 
Persons funded efforts in fiscal year 2008 by its non-government 
partners to: increase public awareness; create a whole of community 
efforts with targeted interventions, economic opportunity, and 
psychological support; and address the ``restavek'' issue in country.
    We were able to translate our pre-existing efforts into response in 
the immediate aftermath of the earthquake. The Office to Monitor and 
Combat Trafficking in Persons was involved with the Child Protection 
Subcluster and it participated in a host of task forces and working 
groups to ensure a whole of government response that was both 
coordinated and concerted against trafficking.
    One of the challenges we face in combating human trafficking in 
post-natural disaster areas is the fact that many of these nations 
already are facing an uphill battle against modern slavery before the 
whole new set of post-disaster challenges emerge. We can learn from 
every experience in disaster response. Perhaps the greatest lesson in 
post-earthquake Haiti is recognizing that trafficking in persons must 
be interwoven in the disaster-response in the immediate, interim, and 
long-term plans. From the beginning, the United States Government must 
train itself to translate human trafficking and be mindful of the 
cultural contexts that increase vulnerability to TIP as a subset of the 
protection pillar of disaster response, whether it is child protection, 
protection against gender-based violence, or overall security issues. 
It cannot come days later, or after a news story breaks, but should be 
in pre-planning efforts across the board.
    Fortunately, we were aware of the increased likelihood of human 
trafficking in the days following the Haiti earthquake and worked 
around the clock to make sure we could supplement and strengthen our 
efforts. However, it is vital to ensure that the first boots on the 
ground are fully aware of the warning signs and the trends of human 
trafficking and are readily equipped to properly address this issue.
                                 ______
                                 
           Questions Submitted by Senator George V. Voinovich

    Question. I am concerned about--and would appreciate your thoughts 
on--the pace of constitutional reform in Bosnia-Herzegovina. I am 
particularly worried that the Presidential/Parliamentary campaign 
rhetoric in Bosnia this Fall will ``poison the well'' for the extension 
of NATO Membership Action Plan (MAP) to Bosnia. I know you agree that 
we must continue to push Bosnia towards NATO and the EU, and not allow 
it to become an economic and political black-hole in Europe. I'm 
heartened that, in the Republik of Srpska, Prime Minister Dodik has 
stated his support for Bosnia's membership in NATO despite great public 
opposition within his entity.
    What is your view on the possible extension of MAP--or a 
declaration by NATO of an intention to grant MAP--to Bosnia before the 
Fall elections? Senator Shaheen and I met with the leaders and foreign 
ministers of Slovenia, Croatia, Bosnia-Herzegovina, Kosovo, Macedonia, 
and Serbia during our visit to the region last week, who all believed 
that such a step would be a positive signal to Bosnia's leaders that 
NATO is serious about Bosnia's future.
    Answer. The United States continues to support Bosnia and 
Herzegovina's aspirations for NATO and EU membership and we are working 
in Sarajevo and Brussels to encourage Bosnia along its Euro-Atlantic 
integration path.
    At the December 2009 NATO Foreign Ministerial, Allies noted that 
Bosnia and Herzegovina has made substantial progress in cooperation 
with NATO and urged its leaders to work together to pursue national 
integration and improve the efficiency and self-reliance of state-level 
institutions. Allies expressed support for Bosnia and Herzegovina's 
participation in MAP once it achieves the necessary progress in its 
reform efforts, and pledged to keep its progress under active review.
    In order to successfully participate in MAP, a country needs to 
have the institutional structures in place to make timely decisions and 
implement difficult reforms. We have made clear to the leaders of 
Bosnia and Herzegovina that they must demonstrate concrete evidence of 
a sufficient capacity for political decisionmaking and a level of 
government functionality to meet the commitments under MAP.
    The next opportunity to assess Bosnia and Herzegovina's 
preparedness for MAP will come at the meeting of NATO Foreign Ministers 
in Tallinn on April 22. We will continue to encourage Bosnia's leaders 
to intensify their reform efforts and to demonstrate their commitment 
to advancing their aspirations.
    Question. The Iranian regime remains the single greatest threat to 
the peace and security of the Middle East. The neighboring nations of 
the Gulf Cooperation Council (GCC), which include the United Arab 
Emirates, Bahrain, Saudi Arabia, Oman, Qatar, and Kuwait, are valuable 
allies for the United States and have forged an important strategic 
partnership with us. The GCC represents an important bulwark against 
Iranian aggression.
    What other forms of cooperation can the United States pursue with 
the GCC to further strengthen our partnership and to enhance the 
regional security?
    Answer. The United States is actively working to strengthen our 
partnership with the GCC states via significant engagement on regional 
security, non-proliferation, alternative energy development (including 
nuclear energy and renewables), and support for economic 
diversification.
    On the political front, we consult with our Gulf partners to 
coordinate efforts to manage regional political, diplomatic, and 
security challenges, including threats posed by Iran. With respect to 
Iran, these consultations have resulted in Gulf country support for 
five U.N. Security Resolutions on Iran, increased vigilance and action 
against Iranian efforts to evade sanctions, active participation in a 
GCC-plus-3 forum (with Egypt, Jordan, and Iraq), and increased U.S. 
security and military cooperation throughout the Gulf.
    Our political dialogue is complemented by a robust security 
relationship among the U.S. and Gulf States. Using multilateral 
exercises, training, and Foreign Military and Direct Commercial Sales, 
the United States strengthens the GCC nations' capacity to defend 
against regional threats, thereby limiting their vulnerability to 
Iranian pressure.
    Similarly, we cooperate with Gulf States on counterproliferation 
issues. This growing cooperation is best exemplified by our cooperation 
with the UAE. In 2006, we initiated a senior-level bilateral 
counterproliferation dialogue (Counterproliferation Task Force or 
``CTF''). The CTF meets annually in addition to supporting working 
groups that meet throughout the year. Since 2006, we have seen the UAE 
make significant progress on counterproliferation issues by actively 
enforcing United Nations Security Council Resolutions related to Iran 
and North Korea, participating in the Proliferation Security Initiative 
and the Global Initiative to Combat Nuclear Terrorism, passing and 
implementing an export control law, and preventing transshipments of 
sensitive items from going to countries of proliferation concern such 
as Iran.
    Moreover, the United States is taking active steps, along with our 
Gulf allies, to provide a counterweight to Iran's energy strategy. We 
have encouraged our regional partners to help us reduce international 
reliance on Iranian natural resources as a way to sharpen the choice 
for Iran--opt to comply with nuclear obligations or face further 
isolation. On civil nuclear energy issues, we concluded a landmark 123 
Agreement on civilian nuclear energy with the UAE in 2009 which 
includes the highest nonproliferation standards and a commitment by the 
UAE to forgo enrichment and reprocessing on its soil. This civil 
nuclear energy agreement represents a powerful countermodel to Iran in 
demonstrating how a country can pursue civil nuclear energy and still 
meet its international obligations.
    We are also actively engaged in building commercial ties with the 
GCC nations. Using tools such as our Free Trade Agreements with Bahrain 
and Oman, proactive commercial advocacy and technical assistance on 
commercial law development, the United States is encouraging expanded 
American commercial ties in the region. Not only does this expand U.S. 
business opportunities, but it also supports Gulf States' efforts to 
diversify their economies.
    Question. The Conference Agreement for the fiscal year 2010 
Departments of Transportation and Housing and Urban Development, and 
Related Agencies Appropriations Act includes specific language stating 
that ``The Conferees support the Organization for Security and 
Cooperation in Europe (OSCE)'s initiatives to combat anti-Semitism in 
Europe and Eurasia and expect the Coordinator for United States 
Assistance for Europe and Eurasia to provide adequate funding to ensure 
continued leadership within the OSCE.''
    Madam Secretary, can you provide me in writing with specific 
details of your team's fiscal year 2010 work toward compliance with the 
expectations of the House and Senate conferees concerning U.S. 
financial support for OSCE efforts to combat anti-Semitism in Europe 
and Eurasia--including support for OSCE extra-budgetary programming 
efforts?
    Answer. The OSCE is committed to combating all forms of racism, 
xenophobia, anti-Semitism, and discrimination in the 56 participating 
States (pS). The United States supports efforts to ensure that OSCE 
commitments in the fields of tolerance and non-discrimination and 
freedom of religion or belief are implemented effectively. We believe 
the Office for Democratic Institutions and Human Rights (ODIHR) 
projects should focus on those countries where the gap between 
commitments and practices is the greatest. The United States has 
successfully insisted that ODIHR treat freedom of religion as a 
fundamental freedom as well as an issue of promoting mutual respect (as 
demonstrated during the Supplemental Human Dimension Meeting on Freedom 
of Religion in July 2009). We have successfully lobbied Chairs-in-
Office to appoint or re-confirm the three special representatives on 
anti-Semitism, anti-Muslim discrimination, and discrimination against 
people of other religions including Christianity, who track government 
activity to promote respect for religious differences and ensure the 
rights of people of all faiths in the OSCE region.
    The fiscal year 2010 appropriation levels approved by Congress will 
enable the State Department will meet all U.S. financial obligations to 
the OSCE and will also provide voluntary contributions for elections 
support, U.S. personnel on secondment to the OSCE, and extra-budgetary 
projects. OSCE funding comes from a combination of the Assistance for 
Europe, Eurasia and Central Asia (AEECA), and Diplomatic and Consular 
Affairs Program (D&CP) accounts. We expect to provide significant 
financial and extra-budgetary contributions to the OSCE in support of 
the efforts of ODIHR and the OSCE Personal Representatives on tolerance 
to combat anti-Semitism throughout Europe and Eurasia. We continue to 
encourage the OSCE and the ODIHR to attach a high priority to combating 
anti-Semitism and we will continue to support the organization's 
pioneering efforts in this area. We look forward to sending a 
delegation to a planned OSCE high-level conference on mutual respect 
and non-discrimination issues this summer and to engaging on a robust 
agenda there.
    Question. I would also appreciate from your team during the next 30 
days a written strategic plan outlining the Department of State's 
policy initiatives to combat anti-Semitism, including milestones, 
metrics, and expected future financial resource requirements from 
Congress.
    Answer. To effectively combat anti-Semitism, we are building strong 
channels of communication and collaborating with nongovernmental 
organizations. This includes greater engagement in interfaith efforts, 
active outreach among Muslim leaders, as well as reaching out to other 
groups that experience discrimination.
    The President has appointed Hannah Rosenthal as the new Special 
Envoy to Monitor and Combat Anti-Semitism. Special Envoy Rosenthal 
joined the Department of State in late November. Since that time she 
has traveled extensively both overseas and in the United States to 
advance her mandate.
    One of Special Envoy Rosenthal's goals is to work more closely with 
the Organization for Security and Cooperation in Europe. Enclosed 
please find her strategic outline to elevate and increase the 
visibility of the work that the OSCE does to combat anti-Semitism.
    On January 27, Special Envoy Rosenthal was part of the President's 
delegation to the 65th anniversary of the liberation of Auschwitz 
commemoration in Poland. Prior to the actual ceremony at Auschwitz-
Birkenau, she met with the Education Ministers from 29 countries to 
learn more about their Holocaust and anti-discrimination education. All 
29 countries reported that they are implementing curriculum and 
activities to educate about the Holocaust and to confront intolerance. 
However, the Office for Democratic Institutions and Human Rights 
(ODIHR) was not present at this gathering and none of the countries in 
attendance mentioned use of the ODIHR curriculum or expertise. 
Immediately after the ceremony, Special Envoy Rosenthal stayed on in 
Poland for several more days to better understand this situation. She 
went to Warsaw and had an excellent meeting with the staff at ODIHR, 
where she learned that ODIHR representatives had tried unsuccessfully 
to get invited to that Education Ministers' meeting. She discussed how 
we can ensure that does not happen again, how to increase ODIHR's 
visibility, and how best to get ODIHR the credit that is its due.
    ODIHR has virtually no funds for public relations and clearly needs 
people with higher visibility to talk about its mission, expertise, and 
accomplishments. To assist with this challenge, Special Envoy Rosenthal 
planned three major actions upon her return to Washington from Poland: 
a trip to Lithuania in April to discuss with the U.S. Embassy in 
Vilnius a proposal to develop a ``training the trainers'' approach to 
tolerance education; clearance for all her speeches in the United 
States and abroad to highlight the work of OSCE-ODIHR; and a new 
initiative to be rolled out at the OSCE high-level conference on 
tolerance and non-discrimination in Astana, Kazakhstan June 29-30. 
These are included in the attached outline.
    The outline was created after Special Envoy Rosenthal consulted 
with Rabbi Andrew Baker; ODIHR; Human Rights First; the 
Interparliamentary Coalition to Combat Anti-Semitism; the Co-Existence 
Trust of England; and several human rights NGOs in Poland, the United 
Kingdom, and domestically.
Increasing the Visibility of the OSCE
            Hannah Rosenthal Speech Highlights
    Meetings with over 10 NGOs in Warsaw January 28-29, 2010.
    Jewish Council for Public Affairs annual conference February 22, 
2010.
    Community Security Trust in London March 8, 2010.
    Yale Institute of Research on Anti-Semitism April 12, 2010.
    Testimony HFAC April 14, 2010.
    University, Kaunas, Lithuania April 27, 2010.
    ADL Leadership Conference May 3, 2010.
    Graduation speech Madison, Wisconsin May 15, 2010.
    Maryland Jewish Council May 27, 2010.
    Canadian Interparliamentary Council to Combat Anti-Semitism 
November 2010.
            Partnerships--promote to their members and activities, 
                    cover on websites
    Jewish Council for Public Affairs.
    American Jewish Committee.
    B'nai Brith.
    Anti-Defamation League.
    Human Rights First.
    Joint Distribution Committee.
    Simon Wiesenthal Center.
            Reiterate recommendations to governments
    Acknowledge and condemn anti-Semitism and hate crimes.
    Enact laws that address hate crimes.
    Strengthen enforcement and prosecute offenders.
    Train law enforcement.
    Undertake interagency, parliamentary and other special inquiries.
    Monitor and report on hate crimes, and ensure delineation for anti-
Semitism.
    Strengthen anti-discrimination and human rights bodies.
    Reach out to NGOs.
    Speak out against official intolerance and bigotry.
    Encourage international cooperation and joint statements.
            OSCE to publicize
    Help countries to meet obligation to collect and report hate crimes 
data to ODIHR.
    Make more visible three personal representatives.
    Expand administrative resources to support three representatives 
and provide public affairs capacity.
    Support ODIHR's Tolerance and Non-Discrimination unit
  --Ensure law enforcement program participation;
  --ODIHR convene national points of contact and NGOs to build trust 
        and cooperation between law enforcement agencies, civil society 
        groups, and victims;
  --Distribute materials and reports widely; and
  --build funding through regular OSCE budget and extrabudgetary 
        contributions.
    High-level conference on Tolerance and Non-Discrimination--June 
2010.
    Develop a ``side event'' at the OSCE high-level conference in 
Kazakhstan June 29-30 to roll-out the ``ART Initiative: Acceptance, 
Respect and Tolerance.'' SEAS and USOSCE will bring 8-10 NGOs that work 
with governments to move beyond tolerance and advance acceptance and 
respect. Highlight their ``best practices'' with easy-to-share 
demonstration models. The proceedings will be both videotaped and 
transcribed for official documents and websites for broad dissemination 
at conferences, country visits, State Department website, OSCE website, 
partners' websites, etc.
            US Government and leadership
    ART promotion.
    Bilateral discussions.
    Funding and TA expertise.
    Human Rights Report and International Religious Freedom Report 
annually.
    Clearly state our freedom of expression issues.
    Clearly state our definition of anti-Semitism (and where it is part 
of anti-Israel rhetoric and activities).
            Award/Recognition program
    Develop an annual nomination and selection process for high 
visibility recognition to individual and organizational work to advance 
ART (acceptance, respect and tolerance).
    Question. Secretary Clinton, I understand that the Department of 
State recently entered into a contract with a new provider of crystal 
stemware to be used at all American embassies.
    Could you please explain the circumstances surrounding this award 
and the process by which the new vendor was selected?
    Answer. The Department of State had a new departmental requirement 
for lead-free crystal ware design, production, inventory management and 
fulfillment services for U.S. embassies. Department officials met with 
SDI, a company that had earlier been introduced to the Department of 
State by the Small Business Administration (SBA), to discuss the 
company's capabilities in fulfilling the contract requirements.
    In accordance with complying with FAR 6.302-5, ``Other Than Full 
and Open Competition, Authorized or Required by Statue,'' the 
Contracting Officer sent an offer letter to SBA to negotiate and award 
a contract under the 8(a) program with SDI, an 8(a) program 
participant. SBA accepted the requirement into the 8(a) program and 
authorized DOS to negotiate a contract with SDI on May 18, 2008. A 
solicitation was released to the firm who then submitted a proposal.
    SDI subsequently informed the Department that they could not find a 
U.S. manufacturer of lead-free crystal, and planned instead to 
subcontract manufacturing to Orrefors/Kosta Boda, USA located in New 
Jersey. Market research conducted by the Department indicated there was 
no company that manufactured lead-free table top crystal ware in the 
United States. The Department evaluated SDI's proposal, determined it 
to be technically acceptable and that the price was fair and 
reasonable. An award for a base year and four option years was made to 
SDI on September 24, 2009, for a total ceiling for the contract of $5.4 
million (total for 12-month base year, and four 12-month option years).

                          SUBCOMMITTEE RECESS

    Senator Leahy. Thank you, Madam Secretary. This hearing is 
recessed.
    [Whereupon, at 12:21 p.m., Wednesday, February 24, the 
subcommittee was recessed, to reconvene subject to the call of 
the Chair.]


  STATE, FOREIGN OPERATIONS, AND RELATED PROGRAMS APPROPRIATIONS FOR 
                            FISCAL YEAR 2011

                              ----------                              


                        TUESDAY, APRIL 20, 2010

                                       U.S. Senate,
           Subcommittee of the Committee on Appropriations,
                                                    Washington, DC.
    The subcommittee met at 10:35 a.m., in room SD-192, Dirksen 
Senate Office Building, Hon. Patrick J. Leahy (chairman) 
presiding.
    Present: Senators Leahy, Landrieu, Gregg, Bond, and 
Brownback.

               U.S. AGENCY FOR INTERNATIONAL DEVELOPMENT

STATEMENT OF DR. RAJIV SHAH, ADMINISTRATOR

                 STATEMENT OF SENATOR PATRICK J. LEAHY

    Senator Leahy. I know there are several other hearings 
going on and people are at different places. Dr. Shah, welcome 
to the subcommittee. We'll talk about your budget request, and 
I might say and I've told you this privately, I sincerely 
appreciate the fact that a person of your intellect and 
enthusiasm has taken on this job.
    I think I told you one of the first times we talked, I 
wasn't sure whether to offer you congratulations or 
condolences, but on behalf of the country I'm glad you're 
there.
    I don't envy you the job because USAID is in urgent need of 
reform and it is a formidable task and if it's not fixed, there 
are those who are going to ask whether USAID as it is should 
continue. I think every member of this subcommittee supports 
USAID's mission in one way or another, but I've heard on both 
sides of the aisle increasing concern about the performance of 
the agency.
    That doesn't diminish in any way the many extraordinary 
USAID staff or ignore the important and often life-saving work 
which they and USAID's implementing partners around the world 
do to help improve the lives of people in some of the world's 
poorest countries.
    We provide billions of dollars for USAID's programs and 
operations. So it stands to reason that a lot of that money is 
being used to positive effect. But I don't think USAID is 
living up to its potential of what--and I can say this to you 
directly because you have the task of fixing what was done 
wrong before--the U.S. taxpayers and this subcommittee expect 
it to do.
    Like many government bureaucracies, USAID suffers from a 
culture of arrogance that it knows best. Too often, it seems 
more comfortable dealing with elites of foreign countries than 
those people who have no voice. There is a disturbing 
detachment between some USAID employees in missions overseas 
who spend much of their time in comfortable offices, behind 
imposing security barriers, living in relatively high style, 
and the impoverished people they're there to help, so much so 
that it's hard to wonder how you can make a connection.
    I have nothing against suitable working and living 
conditions. We provide the funds for that. What concerns me is 
the way in some places USAID has become an ivory tower, distant 
from the trenches, writing big checks for big contractors and 
high-priced consultants and churning out self-serving reports 
filled with sometimes incomprehensible bureaucratic jargon.
    I've read them and I've sometimes wondered what did they 
say and, you know, English is my first language and they are 
written in English and I can't understand them.
    Now there are many USAID staff and often they're former 
Peace Corps volunteers who love to be out in the field doing 
hands-on work implementing, overseeing programs, but that's 
become more the exception, not the rule.
    I also often hear the frustration of creative people who 
want to help, have so much to offer, but then they end up 
facing a closed door, and a closed mind, at USAID. They face a 
labyrinth of reporting requirements that are burdensome or 
almost a way of saying we don't need you.
    I think USAID has to change its culture, change the way it 
does business, if it wants the kind of money that you're here 
asking for. If it doesn't change I will not vote for money for 
USAID and if I'm not going to vote for it, there are a lot of 
other people who may not.
    I'll have some questions about your budget and I say this 
in this subcommittee, in the Senate, Republicans and Democrats, 
you will not find stronger supporters of your mission among the 
men and women on this subcommittee than anywhere else in the 
Senate and we want nothing more than for you to tell us how you 
plan to reform USAID.
    So here's your chance, in plain English. Put your full 
statement in the record. But just tell us how are you going to 
make these changes and how are you going to restore USAID's 
image on Capitol Hill?
    So over to you, Dr. Shah.

                  SUMMARY STATEMENT OF DR. RAJIV SHAH

    Dr. Shah. Thank you, Senator, and thank you, Mr. Chairman.
    I want to first start by recognizing your deep commitment 
to USAID's mission. I've had the opportunity to participate in 
some of your trips abroad from a distance when I was in a 
different role and I know the commitment you have to this 
mission supersedes any commitment to an institutional 
arrangement or a particular bureaucracy. I look forward to 
working with you to put a change agenda in place so that USAID 
does live up to your aspirations and mine and those of the 
thousands of people that are still involved in USAID programs 
around the world.
    I think this is an important opportunity. In many ways I 
consider this a once-in-a-lifetime or once-in-a-generation type 
of opportunity. The President, the Secretary, members of this 
subcommittee, yourself, and other Members of Congress have all 
called for a more effective, transparent, and capable 
development enterprise. I think that is a legitimate call in an 
environment where our world is more interconnected and people 
care more about the development mission.
    I'm excited about being at USAID because the agency has a 
rich legacy of successfully introducing the green revolution, 
of bringing oral rehydration therapy and other health solutions 
to millions of children, and of creating higher education 
institutions in parts of the world. I was just in Pakistan and 
met graduates that were proud to have been supported by U.S. 
generosity.
    I also fully understand the need for change in the way we 
do business. The examples are really everywhere. I was just in 
Afghanistan where some of our staff reported errors in their 
paychecks during a pay period. That's one example where our 
human resources system failed. There are others, but I think 
this highlights how acute the need is for performance 
improvement in many of our core operating functions.
    The planning, measurement, and capability to put together 
ideas and articulate them across the agency and, as you put it, 
relate to the reporting capabilities of the agency are very 
weak today. Having been here for a few months with a big 
interagency focus on Haiti, it took extraordinary measures for 
us to be able to produce the kind of data reporting and 
information on a daily and weekly basis so that our interagency 
colleagues could understand what's working and what's not 
working in the Haiti relief effort and try to fill gaps in 
assistance in a rapid way. We need to build better systems in 
that space.
    Our contracting model, as you highlight, needs real reform. 
I visited an institution just last week where we've provided 
about $4.5 million over probably 3\1/2\ years and have done 
wonderful work in supporting thousands of students to gain 
access to technical training in Afghanistan. At a cost of about 
$1,000 a student per year, they will graduate from a 2-year 
course and earn incomes of $300 to $500 a month in areas like 
the construction trades, electrical wiring, ICT, and computer 
programming, but we probably spent 35 percent more than we 
needed to in order to get that result. Having come from a place 
that had far fewer bureaucratic processes to address, I've seen 
development happen in a more efficient and a more direct way 
and think it can be done at USAID.
    You asked very specifically about a reform agenda that 
would better serve U.S. taxpayers and that is what we deeply 
believe in. Before the end of this month, we hope to roll out a 
new policy, planning, evaluation and budget capability at USAID 
that will allow us to be more accountable and make smarter 
decisions and real resource trade-offs, so that we're not just 
chasing every need in an environment where needs are endless. 
We've all been to settings where we are overwhelmed by the 
extent of needs, but we are focusing on those areas where we 
can get the most cost-effective impact and results for our 
investment.
    This summer I hope to launch a series of procurement 
reforms. This will not be easy because the agency has come to 
outsource a huge amount of work, including basic program design 
and program oversight activities, but we have a team in place 
to work on this issue. We've already put a Board of Acquisition 
and Assistance Review in place to review all contracts over $75 
million. We will take that further by developing specific 
detailed guidelines for procurement reform that are based on 
the premise that we should be doing much more work in-house, 
especially related to program design and oversight.

                           PREPARED STATEMENT

    And finally, we will focus on human resources and 
evaluation in a very substantive way over the course of the 
summer and the fall. I think if we do these things, sir, we 
will be a more accountable agency, a more transparent agency, 
and a more effective agency. I share your passion and urgency 
around these points and appreciate your guidance and your 
opening comment.
    [The statement follows:]

                  Prepared Statement of Dr. Rajiv Shah

                           INTRODUCTION/HAITI

    Chairman Leahy, Ranking Member Gregg, Members of the Subcommittee, 
I am honored to join you here today in support of the President's 
fiscal year 2011 foreign operations budget request.
    It has been less than 4 months since I was sworn in as 
Administrator for the U.S. Agency for International Development. As you 
know, just days after my swearing-in, the people of Haiti were struck 
by a tragedy of almost unimaginable proportions. The United States--and 
the American people--responded swiftly and aggressively to this 
unprecedented disaster--a response that reflected the leadership and 
compassion of our nation.
    In the immediate aftermath of the earthquake in Haiti, President 
Obama designated me as the Unified Disaster Coordinator and charged our 
government with mounting a swift, aggressive and coordinated response. 
In that capacity, USAID coordinated the efforts of the Departments of 
State, Defense, Homeland Security, and Health and Human Services. We 
worked collaboratively with the Government of Haiti and a host of other 
governments, the United Nations, other international organizations, 
NGOs, the private sector, and with thousands of generous and concerned 
individuals. Together we have provided a comprehensive response to a 
complex disaster whose scope far exceeds any other that the 
Administration has faced internationally and one that requires a 
continued aggressive and unique approach.
    Our unprecedented level of coordination in response to these 
challenges has shown results on the ground. With our partners, we 
launched the largest, and most successful international urban search-
and-rescue effort ever--with more than 135 lives saved by over 40 
countries' search and rescue teams in Haiti. In coordination with 
Haitian authorities, our military, the United Nations, and NGO 
colleagues, we created a fixed distribution network to surge food 
distribution to nearly 3 million people--the most robust urban food 
distribution in recent history. Within 30 minutes of landing on the 
ground, the U.S. military secured the airport, and in the hours that 
followed, rapidly expanded its capacity to well beyond pre-earthquake 
levels. The United States also helped to restore a critical sea port, 
thereby scaling up the delivery of essential goods and restoring 
commercial capacity. And our partners at the Department of Health and 
Human Services provided medical assistance that enabled an additional 
30,000 patients to receive treatment.
    Nevertheless, we all know that Haiti faces a long and steep road to 
recovery. Reconstruction will take time and will require the shared 
commitment and resources of our international partners, working in 
concert with the Government and the people of Haiti.
    We are requesting a total of $1.6 billion for the Department of 
State and USAID in supplemental funding for efforts in Haiti. Of that, 
approximately $501 million will be used to reimburse USAID for the 
emergency humanitarian response already provided through International 
Disaster Assistance and Food for Peace Title II. Of the funding 
requested in the supplemental for reconstruction , $749 million is 
requested for the Economic Support Fund to support Haiti's critical 
recovery and reconstruction needs, including rebuilding infrastructure, 
supporting health services, bolstering agriculture to contribute to 
food security, and strengthening governance and rule of law. Finally, 
we have requested an additional $1.5 million for USAID's Office of the 
Inspector General to ensure greater oversight of these funds.

                    GUIDING PRINCIPLES AND OVERVIEW

    Recovery in Haiti will continue to be a major focus for the 
foreseeable future. But we will not lose sight of the important work of 
strengthening USAID and helping other countries achieve their 
development goals. Investment in development has never been more 
strategically important than it is today. Even in the midst of 
difficult economic times domestically, helping nations to grow and 
prosper is not only the moral obligation of a great nation; it is also 
in our national interest. The investments we make today are a bulwark 
against current and future threats--both seen and unseen--and a down 
payment for future peace and prosperity around the world.
    As Members of this Subcommittee know very well, development is an 
essential pillar of our foreign policy. As President Obama said in Oslo 
last December, ``Security does not exist when people do not have access 
to enough food, or clean water, or the medicine and shelter they need 
to survive.'' Building the capacity of countries to meet these basic 
needs--and in turn, increasing dignity and opportunity for their 
people--is what guides our work and the resources we put behind it.
    While the scope and complexity of the world's challenges have 
grown--from the food crisis to the global financial crisis, terrorism 
to oppression, climate change to pandemics--we have never had the 
technology, tools and global imperative for action that we have today. 
Together with other government departments and agencies, USAID is 
examining our policies, resources, and capabilities to determine how 
best to achieve our development objectives through the Presidential 
Study Directive on U.S. Development Policy and the Quadrennial 
Diplomacy and Development Review. And already, we are moving to face 
these challenges, guided by the following important principles:
  --Working in partnership, not patronage with the countries we serve;
  --Coordinating across U.S. agencies and among donors and partners for 
        maximum impact;
  --Ensuring strategic focus with targeted investments in areas where 
        we can have the greatest impact with measurable results and 
        accountability;
  --Embracing innovation, science, technology and research to improve 
        our development cooperation; and
  --Enhancing our focus on women and girls.
    The fiscal year 2011 budget request will support development 
priorities that contribute directly to our national security. 
Specifically, our request is focused on three priority areas:
  --Securing Critical Frontline States.--$7.7 billion in State and 
        USAID assistance will support U.S. development efforts in 
        Afghanistan, Pakistan, and Iraq.
  --Meeting Urgent Global Challenges.--$14.6 billion in State and USAID 
        assistance will support local and global solutions to national 
        and transnational problems, including global health, food 
        security, poverty, disasters, and threats of further 
        instability from climate change and rapid population growth.
  --Enhancing Aid Effectiveness and Sustainability.--$1.7 billion will 
        support the ongoing rebuilding of USAID personnel and 
        infrastructure.
  securing critical frontline states: afghanistan, pakistan, and iraq
    By far the largest component of our requested budget increase is 
dedicated to the critical states of Afghanistan, Pakistan and Iraq. We 
have made some progress in each of these countries, but we realize that 
significant challenges remain.
    Over the past several years, our focus in Afghanistan has been 
achieving greater stability and security. Working within a fully 
integrated civilian-military plan, our goal is to create space for 
economic investment and to lay the foundation for a more 
representative, responsible and responsive government. We believe these 
investments are key to providing sustainable security and stability in 
Afghanistan.
    We are gradually delivering more of our resources through public 
and private Afghan institutions and these efforts have been successful 
so far. We are performing careful and diligent oversight and directing 
resources to local institutions and partners who perform well.
    We are beginning to see major improvements in the Afghan healthcare 
system. In 2002, just 8 percent of the population had access to some 
form of healthcare, but by 2009, that number had increased to 84 
percent.
    We have also made significant strides in education. Under the 
Taliban, only 900,000 boys and no girls were officially enrolled in 
schools. As of 2009, more than 6 million children were enrolled, 35 
percent of whom are girls. One of our biggest economic accomplishments 
in Afghanistan has been to begin to rejuvenate the agricultural 
industry. In November of last year, with USAID support, Afghan 
provincial farmer associations sent to India the first shipment of what 
is expected to be more than 3 million kilograms of apples this season.
    USAID has also been active in developing a coordinated Afghan 
energy policy, and helped advance new electricity generation capacity 
and provide 24-hour power for the first time in cities including Kabul, 
Lashkar Gah, and Kandahar City. With additional resources, we expect a 
half million people will benefit from improved transportation 
infrastructure.
    In Pakistan, our request supports ongoing efforts to combat 
extremism, promote economic development, strengthen democratic 
institutions, and build a long-term relationship with the Pakistani 
people. We are focusing on programs that help demonstrate the capacity 
of local civilian governance to meet the Pakistani people's needs, and 
channeling assistance to less-stable areas to rebuild communities and 
support the Government of Pakistan's counterinsurgency efforts.
    USAID and our partners in Pakistan have made progress in several 
areas. In 2009, we expanded educational opportunities, rebuilt schools 
and increased support for higher education. We trained 10,852 
healthcare providers, 82 percent of whom were women, and provided 
essential care to nearly 400,000 newborns. Over the life of our 
program, we have helped treat 934,000 children for pneumonia, 1.6 
million cases of child diarrhea, and provided DPT vaccines to 731,500 
babies through training programs for healthcare workers.
    We have also focused on generating economic opportunities for the 
people of Pakistan, contributing to the country's stability. USAID 
programs generated more than 700,000 employment opportunities in 2009, 
including training more than 10,000 women in modern agricultural 
techniques.
    The funding increase in fiscal year 2011 for Pakistan will help 
USAID reach approximately 60,000 more children with nutrition programs, 
increase enrollment in both primary and secondary schools by over 1 
million learners, and support 500,000 rural households to improve 
agricultural production.
    Finally, turning to Iraq, we have transitioned to a new phase in 
our civilian assistance relationship--shifting away from reconstruction 
toward the provision of assistance to bolster local capacity in line 
with Iraqi priorities. Indeed, we are working in partnership with the 
Government of Iraq whose investment in their own development matches or 
exceeds at least 50 percent of U.S. foreign assistance funds.
    Specifically, USAID is promoting economic development, 
strengthening the agricultural sector, which is the largest employer of 
Iraqis after the Government of Iraq, and increasing the capacity of 
local and national government to provide essential services. For 
example, USAID is strengthening public administration, strategic 
planning and project management in critical Iraqi ministries by 
supporting 180 international post-graduate scholarships in programs 
related to public administration for Iraqis at universities in Cairo, 
Amman, and Beirut. The additional funding requested will also promote 
small and medium enterprise growth, strengthen the Iraqi private 
banking sector and increase access to lending for entrepreneurs engaged 
in new market opportunities resulting from improved stability.

                    MEETING URGENT GLOBAL CHALLENGES

    In addition to supporting these critical frontline states, we are 
targeting investments to assist with urgent global challenges that--if 
unmet--can compromise the prosperity and stability of a region or 
nation.
    First, global health, where we are requesting $8.5 billion in State 
and USAID assistance. Our request supports President Obama's Global 
Health Initiative, which builds on the President's Emergency Plan for 
AIDS Relief (PEPFAR), launched by the Bush Administration, and other 
U.S. global health programs and will help our 80 partner countries 
strengthen health systems and sustainably improve health outcomes, 
particularly for women, children and newborns. This initiative will be 
carried out in collaboration with the Department of State and the 
Department of Health and Human Services to ensure our programs are 
complementary and leave behind sustainable healthcare systems that are 
host-country owned.
    With additional funding, we will build on our strong record of 
success in HIV/AIDS, TB and malaria, and achieve results where progress 
has lagged, in areas such as obstetric care, newborn care and 
nutrition. The initiative will include a special focus on up to 20 
countries where we will intensify efforts to ensure maximum learning 
about innovative approaches for working with governments and partners, 
accelerating impact and increasing the efficiency and effectiveness of 
U.S. government investments.
    Second, to support global food security, we propose investing $1.2 
billion for food security and agricultural programs, in addition to the 
$200 million set aside for nutrition programs that support the goals of 
improved global health and food security. These funds are in addition 
to the emergency and non-emergency food assistance we provide. There is 
a strong link between security and hunger, made clear in 2008 when the 
global food price crisis led to a dramatic rise in food riots in more 
than 30 countries around the globe. With these additional funds, we 
will work in countries in Africa, Central America, and Asia to combat 
poverty and hunger. Our work will draw upon relevant expertise across 
the United States government to deliver the most effective programs 
possible.
    Our third principal challenge is climate change. We propose to 
invest $646 million in our programs, part of the Administration's 
overall request of $1.4 billion to support climate change assistance. 
USAID will support implementation of adaptation and sustainable 
landscape investments, as well as low-carbon development strategies, 
market-based approaches to sustainable energy sector reform and 
emission reductions, capacity-building and technologies to enhance 
adaptation and local resilience to climate change in partner countries. 
We plan to expand renewable energy programs in the Philippines, 
improving electric distribution systems in Southern Africa, and support 
high-level bilateral climate change partnerships with major economies 
like India and Indonesia.
    Finally, we remain focused on humanitarian assistance, including 
emergency and non-emergency food aid, where USAID and the Department of 
State propose to use $4.2 billion. The tragedy in Haiti brings clarity 
to both the critical need for America's leadership on humanitarian 
assistance and the strong support from the American people that such 
efforts enjoy. This funding allows us to assist internally displaced 
persons, refugees, and victims of armed conflict and natural disasters 
worldwide.
    With the combined investments proposed in global health, food 
security, climate change and humanitarian assistance, we will build the 
capacity of countries to save lives and, through economic growth, help 
make people less vulnerable to poverty and the threat of instability 
that extreme poverty can represent. In so doing, we honor our basic 
values, strengthen our national security and promote our national 
interests.

             ENHANCING AID EFFECTIVENESS AND SUSTAINABILITY

    All of the priorities I have outlined require well-trained 
personnel and robust infrastructure. We must treat development as a 
discipline. This requires strong capacities in evaluation, planning, 
resource management, and research to ensure we are incorporating best 
practices. At the same time, we must be able to recruit, hire and 
retain best in class development professionals.
    As we build our workforce, we must reclaim the Agency's historical 
leadership in science and technology. We must also strengthen USAID's 
capacities to identify, implement, and rigorously evaluate new and 
existing approaches that reward efficiency, effectiveness, and 
sustainability. We must have the capacity to analyze, plan, and invest 
strategically for the long term. And most important, we must stay 
relentlessly focused on results--which means establishing baseline 
data, measuring progress, being transparent about both our successes 
and our failures--learning from both and improving our approach as we 
go forward.
    Our fiscal year 2011 budget request represents a vital investment 
in our human resources, and I want to thank the Committee for its 
foresight and support for the Development Leadership Initiative. The 
additional resources requested will allow us to bring on 200 new 
Foreign Service Officers, furthering our goal of doubling the size of 
our Foreign Service Corps. Fields of particular focus are education 
officers, economists, agriculturalists, stabilization, governance and 
reconstruction officers, global health officers and evaluation experts.
    This long-term investment in human resources is critical to help 
fill a shortage of experienced middle- and senior-level technical 
experts and managers. Equally important, by reducing our reliance on 
contractors to design and evaluate programs, we will not only save 
taxpayer dollars but also enable greater oversight and more effective 
program implementation.
    Through these critical investments, we can achieve the development 
goals we have set around the world and restore USAID's standing as the 
world's premiere development agency.

                               CONCLUSION

    Our objective each day is to seek out these best practices, learn 
from them, and adapt them to everything we do. We are committed to 
transparency in both our successes and our failures--viewing both as 
opportunities to learn and improve.
    I know this is a time of great economic strain for so many 
Americans. For every dollar we invest, we must show results. That is 
why this budget supports programs vital to our national interests. The 
United States must be able to exercise global leadership to respond to 
crosscurrents of a complex world. This requires the effective use of 
all instruments of our national security--including development. We 
agree strongly with President Obama and Secretary Clinton's vision of 
embracing development as indispensable to American foreign policy and 
national security.
    It is through this relentless dedication to results that we do 
justice to our motto, ``from the American people.'' We do this not just 
by extending a helping hand, but by sharing the hopefulness of the 
American dream in places where hope remains shrouded by poverty, 
oppression and despair.
    In many cases, the balance between a future filled with fear and a 
future filled with hope is fragile. Every day, USAID tips the scale 
toward hope and opportunity.
    Thank you very much.

    Senator Leahy. Thank you. I, and I believe most people 
here, want USAID to succeed, but you talked about outsourcing 
and some of the other things that are being done.
    You said local hires are not being paid, but I'm sure that 
USAID employees, their paychecks came, and--no?

                             PAYROLL ISSUES

    Dr. Shah. There were problems with payroll for the Foreign 
Service Limited (FSL) employees--differentials not paid, pay 
caps imposed, among other issues. The Foreign Service National 
staff and other employees are being paid and have not had 
payroll issues.
    Senator Leahy. So that, it was a mechanical thing, this was 
not a case of money that ran out. Am I right?
    Dr. Shah. Correct. It was entirely related to our internal 
process and we've already made that fix for that particular 
problem.

                          POLITICAL APPOINTEES

    Senator Leahy. How many of your political appointees and 
other top positions are still waiting for final approval by the 
White House? What are you hearing as far as getting them 
approved?
    Dr. Shah. We've made 36 political appointments that have 
joined and are currently working at the USAID. We've submitted 
62 names to the White House. A number of the Senate-confirmed 
individuals are through an initial process where I believe 
they're on to the second stage of review and vetting. For me 
it's an incredible priority to make sure we get a series of 
names up to the Senate so we fill the slate, but those are the 
numbers in terms of the progress we've had.
    Senator Leahy. So you still have some that haven't gone 
through the vetting at the White House?
    Dr. Shah. Thirty-six have joined and are onboard. Of the 
Senate-confirmed, roughly one-half of them are through an 
initial vetting process but that only gets concluded when the 
White House, of course, announces the formal appointments.

                                 AFRICA

    Senator Leahy. There was an Op-Ed in last Sunday's New York 
Times by Bono entitled ``Africa Reboots.'' Did you have a 
chance to read that?
    Dr. Shah. I did, sir.
    Senator Leahy. For the others, it described his 
conversation with different African political leaders, artists, 
and entrepreneurs during a recent trip around Sub-Saharan 
Africa focused on aid and trade, governance, corruption, 
transparency, enforcing the rule of law, rewarding measurable 
results, and so on.
    I know the trip was exhausting but one that he found very 
worthwhile, and he and I talked about it.
    Is there anything in that, in his comments that would have 
relevance for USAID and the way you do business in Africa and 
other parts of the world?
    Dr. Shah. Yes, sir, I believe so. The fundamental point he 
was making in that Op-Ed was that he believes Africa is in a 
place where there is strong innovative and capable leadership 
in government, in the private sector, and in civil society, and 
what I took away from the article was that it is incumbent upon 
us to find those change agents and those leaders and do the 
types of things that empower them to be successful and build on 
their capacity to offer real leadership.
    We've seen that in a number of ways. The article talked 
about the Mo Ibrahim Prize that essentially does that for very 
high-level African presidential leadership. I was at the Bill 
and Melinda Gates Foundation for nearly 8 years and we 
certainly got a lot of credit in that setting for finding 
innovative leaders and empowering them to be successful.
    One of the things I noted, and I shared this with part of 
the USAID team that runs a program called the Development 
Credit Authority, is in many cases the initial organization 
that found and supported the leaders that we were then helping 
to take to the next level, was USAID and USAID programs, USAID 
missions, and networks that had developed over many, many years 
of being present in countries. I think there is a base of 
capability and leadership and knowledge regarding who's capable 
of offering real leadership, no matter what sector they come 
from. USAID has connections and networks that we can build on 
using some of the tools that are already at our disposal, like 
the Development Credit Authority, and other tools to support 
private sector and civil society organizations.

                       USAID'S PROCUREMENT SYSTEM

    I think our procurement process almost systematically 
excludes a lot of local leaders from being real participants in 
our efforts and that needs to be fixed in order to really help 
us be successful.
    Senator Leahy. Well, in fact, there's been a lot of delays 
in launching the USAID's worldwide procurement software and 
system. This predated you being there, but it was scheduled to 
be completed in March 2008. I think now it has a completion 
date of June 2011 at a cost of around $100 million.
    Are you confident it's going to be completed?
    Dr. Shah. That's what I'm told. Part of what we're doing is 
looking at the full range of procurement tools we have as part 
of this procurement reform that I hope to announce in June.
    Senator Leahy. Well, let me pick up on that.
    If you call a mission abroad and they say, well, Dr. Shah's 
on the phone, get the mission director, you say how are things 
going, and you're told everything is fine.
    To what extent can you get objective information? Do you 
have confidence that you can get that kind of feedback if 
something isn't working, whether it's procurement, which 
obviously didn't work with your predecessor because it wasn't 
completed, but what's your level of confidence that you can 
hear bad news as well as good news?
    Dr. Shah. Well, you know, this may be surprising, sir, but 
it is high in the sense that I do hear regularly a fair stream 
of bad news. Some of it is related to mistakes that were made 
in following process and some of it is externally created 
mishaps that result in a poor outcome.
    My goal is to give people the space to come to me sooner 
with an identification of when those kinds of problems are 
likely to happen, as opposed to coming to me with ``we screwed 
up'' after the fact. Even in that area, I'm encouraged.
    I was recently in Afghanistan and we built a series of what 
I call data dashboards, which sector by sector identify four to 
five key metrics that would allow us to track our spending in 
that context, and whether it is having the impact we expect and 
having--and I know this is very mechanical, a small red, 
yellow, or green light indicator against each metric so you can 
see if we're spending x amount of money in the education 
sector, are we improving the attendance rates for girls, 
educational quality and building capacity in the ministry in 
the sector that needs to sustain this effort. I found the 
dialogue there was very rich, very honest.
    People want to come forward with what they're struggling 
with. If we can create the space for that and if we can create 
a culture that celebrates identifying what's tough and coming 
up with innovative ways to address it head-on, I think the 
people and the staff are ready to stand up and participate in 
that.

                                 HAITI

    Senator Leahy. Well, one good example would be how 
objective a response you can get on our response in Haiti. 
There are a number of things that went right. There are a 
number of things many of us feel went wrong, and I would like, 
once you've had an evaluation of knowing what went right and 
what went wrong, I would like to sit down with you and see how 
objective a picture you got because we're going to also have 
questions in Afghanistan, Pakistan and elsewhere, different 
problems, of course, different situations, but I want to know 
how objective the reports are that you receive.
    Dr. Shah. Sir, I would look forward to the opportunity to 
do that. We're engaged in a number of after action reports in 
that regard.
    I would just add that during the crisis and, of course, 
it's an ongoing one, on a daily or weekly basis we were having 
the dialogue around which sectors were working more effectively 
and which ones were not. Areas like sanitation and hygiene in 
particular, efforts to move and resettle individuals who were 
at risk of the floods and the rains, and we were able to 
rededicate ourselves and bring additional resources to help 
address some of those sectors that were going slower.
    So I appreciate the reporting that took place in that 
context, but I understand your point is a more fundamental one 
and I look forward to that opportunity.
    Senator Leahy. Thank you very much. We've been joined by 
Senator Gregg. I'll yield to you and then we'll get to Senator 
Landrieu.
    Senator Gregg. Thank you, Mr. Chairman. Thank you. 
Unfortunately, I apologize, Dr. Shah, I'm going to have to 
leave quickly for another meeting.
    But, first, I want to associate myself with the chairman's 
opening remarks. I think he's raised a number of very 
significant and important red flags for the agency, and this 
subcommittee has a very deep interest in making sure those are 
addressed. It's a bipartisan interest and I hope you'll respond 
to those concerns aggressively.

                        FISCAL YEAR 2011 BUDGET

    Second, just a quick question: I look at the resources that 
are available and everything you folks want to do and they 
don't match. Let's even assume that you get significant 
increases--which is going to be difficult in the climate that 
we're functioning in--but you've got the Millennium Challenge 
Corporation (MCC), you've got the Feed the Future Initiative 
(FTF), and you've got the U.S. President's Emergency Plan for 
AIDS Relief (PEPFAR), and I don't see how you do any of those 
three in as robust a way as you're suggesting under the 
resources that are going to be available.
    So I'd like to get a sense of how you think you're going to 
do that.
    Dr. Shah. Well, thank you, Senator. I would just say in a 
generic sense we recognize the need to do a better job of 
setting priorities and especially country by country, narrowing 
the number of sectors we might work in so that in each of those 
sectors we can build real technical excellence, stay committed 
for 5 or 10 years, and see the kind of big transformative 
outcomes we hope to see.
    So part of my leadership, I hope, over time is to narrow 
our focus in countries to those specific sectors that we think 
are most important in those particular countries and in a way 
that is consistent with how our resources are provided to us.
    Senator Gregg. Take, for example, PEPFAR and MCC. They're 
supposed to be 10-year-type initiatives and yet I look at your 
budget and I'm wondering, well, they're just sort of being 
atrophied a bit and replaced with this FTF Initiative.
    Dr. Shah. Well, sir, with PEPFAR in particular, I could 
talk through how we're approaching that because we have 
launched, as you know, the global health initiative and it's 
our real aspiration to try and get much more efficiency out of 
the aggregate U.S. Government global health spending.
    So when we add up PEPFAR and CDC spending and USAID 
spending in the global health sector, I think the total budget 
request is a little bit over $8 billion for 2011.
    You know, I just saw data coming out of Ethiopia and 12 
other countries where we did a substantive data call. There are 
real opportunities to be more efficient in getting this work 
done. There are environments where we'll buy a viral load 
analyzer and put it in an environment where we're serving very 
few patients and there's a better way to do that.
    There are opportunities for us to integrate our work and by 
integrating our work across these various programs, to do a 
better job of providing skilled attendants at birth and 
reducing maternal mortality or do a better job of providing 
those specific prioritized interventions, like rotavirus and 
pneumococcal conjugate vaccines, for children to go after the 
big categories of unyielding child mortality.
    So I think our goal is to sort of look at the whole 
portfolio and identify how we can be more efficient in spending 
those resources while also achieving the direct disease 
outcomes.
    Senator Gregg. Dr. Shah, unfortunately, I have to leave. 
What I'd like to get from you, if you possibly can do this, is 
take your four or five biggest categories and you've just 
listed two of them, throw in MCC and FTF, and tell me what's 
the 2 year, 3 year, 5 year, 7 year, and 10 year projection for 
what you expect those categories to accomplish, how you expect 
them to be funded, and how you expect the funding of the 
categories to interrelate with each other in the context of the 
very stringent budget that we're facing. I'd appreciate that.
    I apologize for having to run.
    Dr. Shah. We will do that. Thank you.
    [The information follows:]

                       Largest Funding Categories

    Most USAID programs, as well as independent agencies such as MCC, 
do not have firm multi-year budget plans beyond the amount requested 
for fiscal year 2011. Such plans are of course subject to the 
availability of funding provided in the annual appropriations process. 
In the case of major development assistance initiatives, the President 
has committed to seek predictable multi-year funding, which will be 
critical to achieving those initiatives' goals. USAID is currently 
implementing the majority of funding in three of these--the Global 
Health Initiative, the Feed the Future Initiative, and the Global 
Climate Change Commitment.
  --Global Health Initiative (GM).--The President committed to provide 
        $63 billion over 6 years to this expanded and comprehensive 
        global health effort. Enacted appropriations from the GHCS 
        account (both State and USAID portions) for fiscal year 2009 
        and 2010 and the President's budget request for fiscal year 
        2011 total $23.6 billion, leaving $33.4 billion to be funded 
        over the remaining 3 years of the initiative (fiscal year 2012-
        2014) ($6.4 billion is to be funded from other accounts).\1\ By 
        2015, the GHI aims to reduce mortality of mothers and children 
        under five, saving millions of lives; avert millions of 
        unintended pregnancies; prevent millions of new HIV, 
        tuberculosis and malaria infections; eliminate some neglected 
        tropical diseases; and strengthen local health systems.
---------------------------------------------------------------------------
    \1\ Roughly 60 percent of the PEPFAR budget allocated to State is 
implemented through USAID.
---------------------------------------------------------------------------
  --Feed the Future Initiative.--The President committed at least $3.5 
        billion to this initiative over 3 years (fiscal year 2010 
        through 2012). The enacted appropriation for fiscal year 2010 
        and the President's budget request for fiscal year 2011 total 
        $2.7 billion, leaving $0.8 billion to be funded over the 
        remaining year of the initiative. Additional funding would be 
        required in fiscal year 2012 through fiscal year 2015 in order 
        to achieve the goals of significantly reducing global poverty, 
        hunger and under-nutrition laid out in the Administration's 
        ``Feed the Future Guide,'' released by Administrator Shah on 
        May 20.
    Global Climate Change Initiative.--The President committed, along 
with other developed countries, to provide approaching $30 billion in 
international climate finance over fiscal year 2010-2012. As part of 
this commitment, the USG also committed to provide $1 billion to REDD+ 
(Reducing Emissions from Deforestation and Forest Degradation Plus) 
between 2010-2012, and we are working to meet that goal. The enacted 
appropriation for fiscal year 2010 and the President's budget request 
for fiscal year 2011 total $2.4 billion in direct climate funding, plus 
additional funding from other agencies and co-benefits from other 
assistance programs. Because the United States did not commit to a 
specific percentage of this total amount, future international climate 
funding will be determined through the fiscal year 2012 and subsequent 
budget processes. The USG also committed with other developed counties 
to jointly mobilize $100 billion per year in international climate 
finance by 2020 in the context of meaningful mitigation actions and 
transparency from developing countries; this funding is intended to be 
a mix of public and private funding streams, and our out-year budgets 
will contribute toward the public finance portion of that goal.

    Senator Leahy. Senator Landrieu.
    Senator Landrieu. Thank you, Mr. Chairman. Dr. Shah, thank 
you so much for being present this morning and for being so 
accessible. I've enjoyed our conversations on several 
opportunities since you've been in your current position and 
I'm impressed with your background and your enthusiasm for what 
you're doing.
    I do have, though, some questions and issues I'd like to 
raise before I get into the specifics on Haiti which you and I 
spoke about on my return just last week.
    I'd like you to clarify for me and, Mr. Chairman, if the 
staff here can help, I'm having a little difficult time with 
the numbers in front of me understanding what exactly is your 
budget entailing. I see different figures. Is it $21 billion 
out of the total $52 billion? Could you just say what your 
understanding is of the amount of money under the control of 
USAID in this budget for this coming year 2011?
    Dr. Shah. I believe it is approximately in that area.
    Senator Landrieu. $21 billion, roughly $21 billion out of 
$52 billion?
    Dr. Shah. Correct. And I think one of the things we're 
doing as part of putting in place a slightly reformed budget 
process is we will be able to do a better job of identifying 
those resources that are specific to USAID programs.
    The current process for budgeting doesn't break it out that 
way. So it's been difficult for me to get an answer to that 
question in a way that's valid. That figure doesn't necessarily 
include resources that might come to us through an MCC 
threshold program or PEPFAR or other funding streams.
    Senator Landrieu. Well, then I'm glad it's not just me, Mr. 
Chairman, because my staff and I have been working on this for 
weeks and I'm glad that the head of the agency is having 
difficulty. Well, I'm not happy that the head of the agency is 
having difficulty understanding the budget that he's tasked to 
manage, but it makes me feel better because we've been trying 
to break these numbers out to no avail.
    But I think, Mr. Chairman, it's extremely important for 
this subcommittee, in order for us to continue our focus on 
helping to reform USAID and working for it to become a more 
effective agency as it is our primary arm of bilateral support 
to our allies and friends around the world, to really get a 
handle on it and to be able to break it down so we ourselves 
can understand where our focus needs to be.
    Senator Leahy. It might also help with the State Department 
to let them know exactly where their money's going, too.
    Senator Landrieu. Well, absolutely.
    Senator Leahy. I say this in defense of Dr. Shah.
    Senator Landrieu. You know, absolutely. I think it's just 
critical, which brings me to my questions about Haiti.

                    ORPHANS AND VULNERABLE CHILDREN

    There's no question that there were some important steps 
taken. The government and the officials that I met with down 
there were very appreciative of everything that the United 
States and the international partners had done in terms of life 
saving and distribution of food, et cetera, but as you are 
personally aware, the challenges to Haiti are just enormous, 
from just basic delivery of services, water, sanitation, 
housing, education, and I went down there with several Members 
particularly focused on children, all children but particularly 
vulnerable children, potentially orphaned children, and came 
away with a couple of thoughts about how we might want to 
proceed and wanted to ask you if you had some knowledge of the 
work going around the effort to provide for the first time in 
Haiti a universal free pre-K through 12 school system which may 
be shocking for people to know doesn't exist in Haiti today.
    It might be one of the reasons why they're the poorest 
nation in our hemisphere because they virtually have no 
fundamental school system accessible to most families and that 
the families that are sending their kids to school are sending 
them to inadequate, poorly staffed, non-certified teachers in a 
private setting which isn't in itself a problem, except when 
it's inadequate, and using a great deal of their small salary, 
which may be $2 a day, if that much, to fund the education of 
their children.
    Does USAID have a position about the importance or priority 
of this, and could you comment on your interest in potentially 
maybe targeting this as an area that we could see some real 
improvement?
    Dr. Shah. I do. Thank you, Senator. I think, in part based 
on our conversation, we also are trying to identify specific 
budget line items that sit in sectors that are called housing 
or social services that would be education-related and pulling 
that out to back up what I'm about to say with the budget 
numbers.
    But the reality is we are committed to an education 
strategy in Haiti. We have for a number of years been working 
against a single multi-donor strategy that has really pulled 
the resources of donors together against a strategy that was 
primarily focused on primary education and the number of kids 
that had access to primary education and then secondarily 
focused, although many of our resources went into this, on 
teacher training and a number of other efforts to improve the 
quality of education in those environments.
    That was between $12 and $20 million a year, depending on 
which funding streams we count and we had every intention of 
continuing that going forward pre-earthquake.
    Given the earthquake, there's obviously a huge need for 
reconstituted infrastructure and schools and we have built the 
budget for that into the housing budget and I do think that's 
an area where we want to share with you the assumptions we used 
in the budget planning but we really do recognize the need and 
our capacity to help fill the current gap by engaging in 
building schools that could serve as a platform for a broader 
range of services.
    Senator Landrieu. Well, I would just suggest, Mr. Chairman, 
the members of our subcommittee, that as we look out into the 
reconstruction of Haiti, that helping the Haitian Government 
and working with international partners, I understand Canada 
and France want to help lead this effort, to put down as a 
cornerstone a free universal education system for Haiti 
accomplishes many goals, one of which, high on my agenda, is to 
prevent childhood abandonment.
    The hundreds of thousands of orphans, Mr. Chairman, that 
are in Haiti is because families in many instances give their 
children up hoping they can get an education at one of these 
over-crowded orphanages. They're both maybe as familiar as they 
should be with the horrific circumstances, even in the best run 
of orphanages, that that's not happening.
    So that's, you know, one point, and if I could make my 
second point, I'm also concerned about USAID budget generally. 
In thinking about serving children, Dr. Shah, separate from 
their families, thinking about the importance of feeding 
children, providing their health, their education in and 
through families as opposed to sort of separate revenue streams 
that don't support the permanency issue that are so important 
to children, either to stay with the families to which they're 
born or to try to promote through the international laws that 
we now have developing adoption, both domestic and 
international.
    So I'd just ask you when you look at your budget think 
about if you're serving children separate from their families, 
which is not the way we do this in the United States. Our 
system isn't perfect, but our programs serve children in and 
through families which keeps our abandonment rate relatively 
low, keeps our adoption rate relatively high, okay, and so 
that's just my final point about the way we structure our 
programs is serving children in and through families, and I'll 
come back to a second round.
    Thank you.
    Senator Leahy. Senator Brownback.
    Senator Brownback. Thank you, Mr. Chairman. Dr. Shah, good 
to have you here, and, Mr. Chairman, my last appropriations 
cycle, I want to recognize you and your longstanding commitment 
to these difficult issues around the world. You've hung in here 
for years and done a great job of it and I really want to 
recognize and acknowledge that.
    Senator Leahy. Well, Senator Brownback, on my time, I 
appreciate that very much. You've worked with me on landmines 
and on so many other issues and on issues of poverty, of health 
around the world, something that you don't see in Kansas, I 
don't see in Vermont, but part of our common humanity, we 
respond to and I applaud you for what you've done on that.
    Senator Brownback. Thanks. Thank you. Dr. Shah, I want to 
raise a couple issues, if I can with you.

                                 SUDAN

    This is the watershed year for Sudan on the Comprehensive 
Peace Agreement. They had the vote. It seemed like some 
questionable issues happened on the presidential vote, but as 
you know, the referendum on the south happens in January 2011. 
I mean, this is the big deal and my sense is that you probably 
will see the south separate from the north and they're going to 
need a lot of help if they're going to sustain it.
    This Comprehensive Peace Agreement's been one of the great 
successes, I think, of foreign policy for the last decade or so 
for us that took a 20-year conflict in Africa and has ended. 
I've been involved in the issue. I'm sure you have. Yet you've 
cut the economic support funding for Sudan going into this 
watershed year and I really hope you look at other ways you can 
support that.
    I don't know if you've been in the south of Sudan yet 
yourself. If you haven't, I would sure urge you to put it high 
on your priority list. Great people, wonderful folks, but this 
is the big one and they're going to need you guys' help and 
focus.
    I've got a couple of other issues I want to raise with you, 
but I hope that's something you can do. Have you been into the 
south of Sudan yet?
    Dr. Shah. Not yet, sir, but I am planning to visit there in 
about 1 month.
    Senator Brownback. Good, good. You need to and they need 
us.

                      NEGLECTED TROPICAL DISEASES

    On neglected diseases, this is an area that Senator Sherrod 
Brown and I have worked a lot on on getting a priority review 
process so that you can get some of the neglected diseases that 
so hit the Third World countries and this is kind of building 
off of Senator Gregg's comment about where are you--how are you 
going to do all this with the money you've got, and I like your 
heart and I like your attitude, but there is a resource issue 
here and it's unlikely to get a whole lot bigger just in the 
near term.
    Having said that, I'm the ranking member on the Agriculture 
Subcommittee which has Food and Drug Administration (FDA) and 
we're pushing FDA to do a shortened pathway for neglected 
diseases as a way of reducing the cost of these things and 
trying to get more investment in them.
    I hope you can take a look at that and back this cause 
because this is the way we can get our marketplace to help fund 
these neglected diseases that typically hit the Third World and 
have very small markets. We can't afford to have a process that 
costs $700 million to develop a drug that has a market 
potential of a $150 million. I'm pulling that number out of the 
air but not the first number and that is being pursued by FDA 
now and if you were to get and your agency backing of that and 
get involved in this review process, we've got a special 
committee that's set up to do this, good people on it, that can 
be a big help and I think it's one where we can start to 
whittle away at some of these neglected diseases that cost us 
so much.

                              AGRICULTURE

    A final issue I wanted to throw out to you was the 
Department of Homeland Security (DHS) and USDA is building a 
National BioAgriTerrorism Facility. That may sound like a long 
ways away from your work but a good portion of the diseases 
they're going to study are animal diseases that come out of the 
Rift Valley. I think actually maybe as many as 10 of 12 are 
their primary targets.
    I think this is a chance for us to network with 
veterinarians trained in Africa and that region to scale up 
their ability or help train them because it helps us and then 
you're off of somebody else's budget, as well, and Department 
of Homeland Security's which is a great place to be because 
that's one we tend to think, well, okay, let's put more money 
in this one and I think there's a good chance that we could 
build some upscale programs of training better veterinary 
medicine people in Africa to be eyes and ears for us and help 
develop awareness of when some of these things are breaking out 
or what's coming because the Rift Valley has been such a deadly 
zone for some really nasty things coming out.
    But we can use it to train up a level of people that can go 
back and do great things in a country. Part of the Green 
Revolution was Norman Borlaug training a generation of plant 
geneticists in the Third World. Why can't we do that toward 
animal agriculture, particularly in Africa, that is a source of 
their wealth and revenue for so many people and do it under our 
security umbrella so it helps leverage your dollars?
    I point these out as ones that I think are key for us 
moving forward on some really meaty areas and I'm hoping in 
particular you can help us out with Sudan. I said I was going 
to end with that, but there's one final thought.

                    DEMOCRATIC REPUBLIC OF THE CONGO

    Senators Durbin, Feingold, and I sent you a letter on 
Congo, Eastern Congo. We've been involved in the conflict 
commodity issue in that area. I think it's at the core of 
stabilizing Congo and probably four countries in that region if 
we can get the conflict commodities out of the means of 
commerce that funds the rebels in the regions. Similarly, it's 
the blood diamonds of east Africa is what this amounts to.
    We asked you to look at putting on a mining specialist to 
really help track some of these issues and work on them. I hope 
you can look at it because I think it's really key for us to 
get Congo and probably, as I mentioned, four countries in that 
region more stabilized so we get less money going to the 
protagonists that are in that region.
    That's a lot, but I wanted to throw that out to you.
    Dr. Shah. Thank you. Should I address that?
    Senator Brownback. Go ahead.
    Senator Leahy. Please. I know you've also had some 
firsthand experience with the Green Revolution. So please go 
ahead.
    Dr. Shah. Well, thank you. On Sudan, I appreciate the 
comments. I look forward to getting out to our offices there as 
soon as possible. We've provided, as you know, sir, $95 million 
in support for the election and the referendum activities, 
including some of the monitoring activities that have been more 
visible in recent days.
    We are very focused on expanding support for local 
governance and local service delivery in the south in 
anticipation of how important such activities will be in the 
future, and I would just use this as an opportunity to 
highlight the fact that our mission in Juba, as you know, has 
nearly 17 U.S. direct hires and PSCs and 75 Foreign Service 
Nationals--professional and support staff, which makes us 
really the largest organized donor presence in that 
environment.
    We recognize the responsibility that comes with that to 
work with partners, including the World Bank and other donors, 
to try to mobilize efforts in a very connected way to those 
local leaders that have capacity there.

                      NEGLECTED TROPICAL DISEASES

    On neglected tropical diseases, I completely agree with 
your point about a shortened development and approval cycle. I 
will follow up directly with Administrator Hamburg on that and 
I think there are also opportunities to work with the World 
Health Organization which has the mandate for those types of 
governing regulations for most of the countries where we would 
introduce those.
    The only thing I would add is that often the firms we work 
with in this space benefit from having simple market 
introduction plans, a thoughtful demand analysis, and a 
forecast for how product would get to needy populations and so 
sometimes small investments in those types of activities can 
unlock real private sector innovation and activity and we will 
follow up on that.

                             FOOD SECURITY

    And finally, on the question with respect to USDA and DHS, 
I'm actually quite familiar with that particular facility and I 
agree. I think there are tremendous opportunities with Rift 
Valley livestock diseases and with veterinary training which, 
of course, large vet gaps are a big gap here in the United 
States and abroad.
    As part of our Food Security Initiative, we've allocated 
$145 million for agricultural-related research for fiscal year 
2011. A significant proportion of that would be executed in 
partnership with USDA and used in the livestock area where they 
do some unique work, both related to this facility and more 
broadly. So I look forward to moving that forward. I think that 
is a critical and completely unaddressed opportunity in the 
food security space.
    And finally, on Congo, I agree and, in addition, we've been 
working on following up based on that letter and will continue 
to share information with your office, but thank you.
    Senator Brownback. Mr. Chairman, thank you for the extra 
time.
    Senator Leahy. Thank you, Senator Brownback.

                              PROCUREMENT

    The thought occurred to me when we were talking earlier 
about how you evaluate these contracts. What's your largest 
contract? Say $10, $50, $100 million?
    Dr. Shah. I think significantly larger than that, sir. I 
don't know which ones are the largest, but I've seen several 
that are several hundred million dollars.
    Senator Leahy. Then I would keep the pressure on to get 
that. The system that was supposed to be ready in 2008, long 
before you were there, to get it ready, and I hope you 
understand when I ask these questions, I think you are and will 
be an inspiration to the people in USAID. There are some superb 
men and women working at USAID. There are many who worry about 
the mission being overwhelmed by bureaucracy. They want you to 
give them the direction. They want to break through. They want 
to do the things that inspired them to come to USAID in the 
first place and so we're putting in your lap years of neglect 
and problems and say please fix it.
    And you will have the support here to fix it. Senator 
Brownback mentioned neglected diseases, something that this 
subcommittee actually started focusing on about 5 years ago and 
now it has become, both in the last administration and this 
administration, an important priority and please keep it a 
priority.
    You're being asked to increase your staff and programs in 
Afghanistan, Pakistan. Both countries face severe security 
threats. They have weak governments, endemic corruption, 
inadequate housing and office space for USAID personnel. And 
you can't get USAID staff out in the field to monitor programs 
because of the obvious security problems.
    We learned in Iraq that spending lots of money quickly can 
end up withy a lot of fraud and waste. Now Afghanistan, the 
tribal areas of Pakistan, I can see the potential and I'm sure 
you can for enormous corruption and waste.
    How do you get a handle on that and protect the men and 
women who have to manage these programs?

                              AFGHANISTAN

    Dr. Shah. Well, thank you, sir. Having just returned from 
Afghanistan, I can attest to the fact that our more than 400 
USAID staff there that are working as part of the overall 
mission experience, all of the things you just described, 
threats to their personal security, challenge around their 
ability to be mobile in areas where programs are active, and to 
some degree challenging housing situations, to say the least, 
but they are very committed to the work. In general, I think 
the way to address this is to break down our work into core 
sectors.
    In each sector, we are in the process of refining and 
developing a coherent strategic approach that clearly 
distinguishes between things we might do to achieve short-term 
security and stability objectives in the context of an active 
military campaign and how one builds a bridge to sustainable 
long-term development in those settings.
    To give you an example, I was in Arghandab, an area outside 
of Kandahar City, and in a 6-month period of time, through a 
combination of agricultural vouchers for inputs, some technical 
training, cash for work, short-term jobs programs,----
    Senator Leahy. Irrigation.
    Dr. Shah [continuing]. And improvements in roads and 
irrigation, we've seen a huge improvement in agricultural 
productivity in that particular area, an area that covers about 
35,000 people. Over a 6-month period those improvements have 
led, by all accounts, to significant improvements in the 
security and stability situation in that region, so much so 
that our military colleagues believe fewer kinetic operations 
will be required in that particular space as a result.
    But we know that we have much more to do to track those 
resources that are getting spent and to make sure that we have 
a glide path where over 2 or 3 or 4 years we can take that 
spending to an appropriate per capita level of investment so 
that the Government of Afghanistan and other partners can 
sustain it over the long run and that's been the focus of how 
that team is planning to take those programs forward.
    So I think it is doable. We just have to be focused on the 
right metrics as opposed to annual or monthly spend rates or 
something like that.
    Senator Leahy. Well, yes, I don't consider success based 
just on what the spend rate is, especially when you're in an 
area where so much can be stolen. I wish we could go to a 
website and find that x number of dollars has gone to this NGO 
near Kandahar or wherever it might be and here's what they're 
spending it on.
    Dr. Shah. I don't believe I can find that online today. I 
do think we ought to get to that point. Part of what we try to 
do is----
    Senator Leahy. I want to avoid what happened in Iraq where, 
you know, cargo planes full of money came in. Now we're still 
searching for the hundreds of millions of dollars that were 
stolen, probably billions of dollars, some by Americans, but 
certainly a lot by the people in the country we're helping.
    Dr. Shah. That's certainly a risk, sir, and I think we are 
trying to put in place a system whereby whenever we invest 
directly in a ministry or a local institution, we put in place 
a significant certification process and reserve auditing 
capabilities that allow us to track resources as they're spent 
in the health sector. The Ministry of Health in Afghanistan is 
perhaps a good example of that, where it took a number of years 
to build the actual financial disbursement and contracting 
mechanism in a transparent and accountable way and now we're 
able to flow more resources through that system. I think that's 
a model for what we're trying to do.
    Senator Leahy. Nothing would bring about more effort to cut 
off money if it turns out that it wasn't spent well and I'm 
not--and, Dr. Shah, understand that I'm not expecting you to 
have total success in everything you try.
    When I was a prosecutor, I used to tell the assistants in 
my office who would tell me they'd never lost a case, I'd say 
then you're not trying enough cases, and if you say we've never 
had a failure on any program, you're not taking enough risks. 
Imagine the number of things Dr. Borlaug tried before he got 
where he was. You worked for the Gates Foundation and they set 
some pretty tight controls about what's going to be successful, 
but they'll be the first to admit that sometimes things don't 
work.
    So keep trying. We're going to be coming back on Haiti and 
again I really want to see when you have more material on what 
worked, and what didn't. I will have more questions on 
Afghanistan and Iraq. I've been there and to Pakistan. I know 
the need, you've got some real, real problems there, and I look 
at, of course, Africa where we can do so much, provided the aid 
can get to the people.
    Senator Landrieu, you've been waiting patiently.
    Senator Landrieu. That's okay, Mr. Chairman. I'm very happy 
to follow your line of questioning and agree with your points 
and comments, and I, too, am very anxious for USAID to be 
reformed in a way that we can be effective, it can be 
expression of the values of the American people and their deep 
desire to be helpful and generous, but also their hesitancy to 
throw good money after bad, to not account for the millions of 
dollars they're contributing, and it's discouraging to them.
    This agency should operate in the most transparent, 
accountable way possible and when it operates that way, it 
encourages, I think, literally billions of dollars of private 
donations that Americans and American corporations and 
individuals, faith-based communities are willing to contribute 
to the effort, if they believe that it's being done in a 
comprehensive and strategic way, which brings me to one of your 
strategic efforts I want to commend and ask you to commend and 
that is coordinating across U.S. agencies and other donors and 
partners country to country.

                        INTERAGENCY COORDINATION

    My experience in visiting not nearly as many countries as 
the chairman but at least a half dozen, is the common complaint 
that USAID does virtually no coordinating among its own 
agencies, let alone other NGOs, and you must be aware, Dr. 
Shah, that there are somewhere between 900 and 1,000 
independent NGOs and IGOs operating in Haiti with virtually 
little coordination and again if USAID isn't stepping up to do 
that coordination, my question is is Canada or is, you know, 
France?
    If we are not trying to coordinate, is there a country in 
the world that is tasked with coordinating so that these public 
and private monies in every country can be spent more 
strategically, and is that a role that you want USAID to take 
on?
    Dr. Shah. Well, thank you for those comments. I think in 
Haiti, in particular, I'd just share one anecdote, that 2 days 
into the crisis and the earthquake we made a small grant to 
InterAction in order to help them set up a hub to coordinate 
the activities of NGOs through that context. I think it was a 
good first step and it made a big difference, both because it 
brought especially the largest international NGOs that are the 
conduit for large streams of funding from a range of partners 
to a single point of coordination and it gave us someone to 
engage with when we wanted to address the NGO community 
specifically.
    Through that effort they were also able to identify certain 
NGOs that, frankly, were doing things that were 
counterproductive, and relatively irresponsible in terms of the 
way they were distributing food or doing other things that 
didn't meet best practices.
    So I think that helped and that is an example of how USAID, 
through leveraging partners in that community, can do a better 
job of helping NGOs organize among themselves.
    The other comment I'd like to make on that is the Global 
Health Initiative, I think, is a good example of where we're 
actually trying to turn the coordination point into the 
relevant country ministry. So if you look at Ethiopia or 
Tanzania, what we would ultimately like to do is have the 
Ministry of Health in those places (a) be aware of what their 
NGOs and our implementing partners are doing in countries, (b) 
take some responsibility for offering direction to those NGOs, 
and (c) develop a financial sustainability plan so that there's 
some sense of who's going to provide these services in a 
sustained long-term way over 5, 7, or 10 years. I think if we 
can do those types of things, it will start to improve the 
coordination of those NGOs and, frankly, it will improve our 
partnership with countries who regularly complain that they 
don't know where our money is going and they don't know what 
we're doing in their country.
    Senator Landrieu. Well, I appreciate that and I heard in 
your answer that, yes, you're committed to organization and 
coordination and even more importantly or equally importantly 
trying to build capacity within the countries the appropriate 
ministries to be able to identify and coordinate some of those 
activities, and I know that would be very important to the 
Haitian Government that, frankly, in their view expressed to me 
feels overwhelmed with just identifying the number of different 
groups and NGOs and coordinating that effort and you want NGOs 
to be helpful but they're not a substitute for effective 
governance in country.

                                 UNICEF

    Number 2. I have been over the years getting more and more 
concerned about UNICEF which is one of our--I think we 
contribute, Mr. Chairman, over $100 million to UNICEF and 
despite my personal conversations with leaders of UNICEF over 
time, Carol Bellamy when she led the organization, Ann Veneman, 
and now the incoming director, Tony Lake, I'm concerned about 
UNICEF's position seemingly to be, despite comments to the 
contrary, their position against adoption, both in country and 
international.
    I want to know if you've come across any conversations with 
UNICEF or thoughts that you might have about ways that we could 
encourage UNICEF to understand the extraordinary capacity among 
families in the world, excess capacity, literally excess 
budgets within families, excess rooms within homes to take in 
orphans in an appropriate way when children are truly orphaned 
to give them a chance at a permanent nurturing family.
    Are you willing to maybe express some of these views to 
UNICEF or to work with me to kind of change a little bit of 
their outlook in this direction?
    Dr. Shah. Yes, Senator, I am, and we had a chance yesterday 
to meet with Tony Lake and I think he's also open to exploring 
what we can do differently to be more effective across the 
broad goal of child protection and using a broad range of 
strategies.
    I will say in Haiti, we had experiences where we worked 
effectively with UNICEF and experiences where things were 
challenging, but I do want to credit them with conducting a 
data collection exercise across the different institutions that 
were labeled orphanages that provided some basic data in what 
was otherwise a numbers-deficient environment to determine 
where the kids were, in which institutions, and how would we 
provide them with services. That sort of work did allow us, 
together with our military colleagues, to target those 
institutions for distribution of food and water in the early 
days of the crisis.
    So, you know, I think there are areas where they've done 
effective work and there are probably areas where there could 
be an expansion of the thinking.
    Senator Landrieu. Okay. Well, I'll look forward to working 
with you on that and just to finalize, the first lady of Haiti 
is extremely enthusiastic and excited and, of course, is a 
graduate of George Washington right here. The University 
Collaborative has really come together to support her and her 
work, really focused on this education opportunity for children 
in Haiti and for long-term development of Haiti, Mr. Chairman.
    I couldn't think of a better way to invest U.S. dollars and 
I think our taxpayers would agree to give a free quality 
universal education to the 4.5 million children in Haiti that 
really have no access today.
    Thank you, Mr. Chairman.
    Senator Leahy. Thank you. There are so many opportunities 
and sometimes with the simple things.
    Dr. Borlaug and I were friends and I admired him greatly 
and I look at what he accomplished, but also I had mentioned 
earlier the Op-Ed piece by Bono. In fact, without objection, 
I'll put that in the record at the end of this hearing.
    [The information follows:]

               [From The New York Times, April 17, 2010]

                             Africa Reboots
                               (By Bono)
    I spent March with a delegation of activists, entrepreneurs and 
policy wonks roaming western, southern and eastern Africa trying very 
hard to listen--always hard for a big-mouthed Irishman. With duct tape 
over my gob, I was able to pick up some interesting melody lines 
everywhere from palace to pavement . . .
    Despite the almost deafening roar of excitement about Africa's 
hosting of soccer's World Cup this summer, we managed to hear a 
surprising thing. Harmony . . . flowing from two sides that in the past 
have often been discordant: Africa's emerging entrepreneurial class and 
its civil-society activists.
    It's no secret that lefty campaigners can be cranky about business 
elites. And the suspicion is mutual. Worldwide. Civil society as a rule 
sees business as, well, a little uncivil. Business tends to see 
activists as, well, a little too active. But in Africa, at least from 
what I've just seen, this is starting to change. The energy of these 
opposing forces coming together is filling offices, boardrooms and 
bars. The reason is that both these groups--the private sector and 
civil society--see poor governance as the biggest obstacle they face. 
So they are working together on redefining the rules of the African 
game.
    Entrepreneurs know that even a good relationship with a bad 
government stymies foreign investment; civil society knows a resource-
rich country can have more rather than fewer problems, unless 
corruption is tackled.
    This joining of forces is being driven by some luminous 
personalities, few of whom are known in America; all of whom ought to 
be. Let me introduce you to a few of the catalysts:
    John Githongo, Kenya's famous whistleblower, has had to leave his 
country in a hurry a couple of times; he was hired by his government to 
clean things up and then did his job too well. He's now started a group 
called Inuka, teaming up the urban poor with business leaders, creating 
inter-ethnic community alliances to fight poverty and keep watch on 
dodgy local governments. He is the kind of leader who gives many 
Kenyans hope for the future, despite the shakiness of their coalition 
government.
    Sharing a table with Githongo and me one night in Nairobi was DJ 
Rowbow, a Mike Tyson doppelganger. His station, Ghetto Radio, was a 
voice of reason when the volcano of ethnic tension was exploding in 
Kenya in 2008. While some were encouraging the people of Kibera, one of 
the largest slums in Africa, to go on the rampage, this scary-looking 
man decoded the disinformation and played peacemaker/interlocutor. On 
the station's playlist is Bob Marley and a kind of fizzy homespun 
reggae music that's part the Clash, part Marvin Gaye. The only 
untruthful thing he said all evening was that he liked U2. For my part, 
I might have overplayed the Jay-Z and Beyonce card. ``They are friends 
of mine,'' I explained to him, eh, a lot.
    Now this might be what you expect me to say, but I'm telling you, 
it was a musician in Senegal who best exemplified the new rules. 
Youssou N'Dour--maybe the greatest singer on earth--owns a newspaper 
and is in the middle of a complicated deal to buy a TV station. You 
sense his strategy and his steel. He is creating the soundtrack for 
change, and he knows just how to use his voice. (I tried to imagine 
what it would be like if I owned The New York Times as well as, say, 
NBC. Someday, someday . . .).
    In Maputo, Mozambique, I met with Activa, a women's group that, 
among other things, helps entrepreneurs get seed capital. Private and 
public sectors mixed easily here, under the leadership of Luisa Diogo, 
the country's former prime minister, who is now the matriarch in this 
mesmerizing stretch of eastern Africa. Famous for her Star Wars hairdo 
and political nous, she has the lioness energy of an Ellen Johnson 
Sirleaf, a Ngozi Okonjo-Iweala or a Graca Machel.
    When I met with Ms. Diogo and her group, the less famous but 
equally voluble women in the room complained about excessive interest 
rates on their microfinance loans and the lack of what they called 
``regional economic integration.'' For them, infrastructure remains the 
big (if unsexy) issue. ``Roads, we need roads,'' one entrepreneur said 
by way of a solution to most of the obstacles in her path. Today, she 
added, ``we women, we are the roads.'' I had never thought of it that 
way but because women do most of the farming, they're the ones who 
carry produce to market, collect the water and bring the sick to the 
clinics.
    The true star of the trip was a human hurricane: Mo Ibrahim, a 
Sudanese entrepreneur who made a fortune in mobile phones.
    I fantasized about being the boy wonder to his Batman, but as we 
toured the continent together I quickly realized I was Alfred, Batman's 
butler. Everywhere we went, I was elbowed out of the way by young and 
old who wanted to get close to the rock star reformer and his 
beautiful, frighteningly smart daughter, Hadeel, who runs Mo's 
foundation and is a chip off the old block (in an Alexander McQueen 
dress). Mo's speeches are standing-room-only because even when he is 
sitting down, he's a standing-up kind of person. In a packed hall in 
the University of Ghana, he was a prizefighter, removing his tie and 
jacket like a cape, punching young minds into the future.
    His brainchild, the Ibrahim Prize, is a very generous endowment for 
African leaders who serve their people well and then--and this is 
crucial--leave office when they are supposed to. Mo has diagnosed a 
condition he calls ``third-termitis,'' where presidents, fearing an 
impoverished superannuation, feather their nests on the way out the 
door. So Mo has prescribed a soft landing for great leaders. Not 
getting the prize is as big a story as getting it. (He doesn't stop at 
individuals. The Ibrahim Index ranks countries by quality of 
governance.)
    Mo smokes a pipe and refers to everyone as ``guys''--as in, 
``Listen, guys, if these problems are of our own making, the solutions 
will have to be, too.'' Or, in my direction, ``Guys, if you haven't 
noticed . . . you are not African.'' Oh, yeah. And: ``Guys, you 
Americans are lazy investors. There's so much growth here but you want 
to float in the shallow water of the Dow Jones or Nasdaq.''
    Mr. Ibrahim is as searing about corruption north of the Equator as 
he is about corruption south of it, and the corruption that crosses 
over . . . illicit capital flight, unfair mining contracts, the aid 
bureaucracy.
    So I was listening. Good for me. But did I actually learn anything?
    Over long days and nights, I asked Africans about the course of 
international activism. Should we just pack it up and go home, I asked? 
There were a few nods. But many more noes. Because most Africans we met 
seemed to feel the pressing need for new kinds of partnerships, not 
just among governments, but among citizens, businesses, the rest of us. 
I sense the end of the usual donor-recipient relationship.
    Aid, it's clear, is still part of the picture. It's crucial, if you 
have HIV and are fighting for your life, or if you are a mother 
wondering why you can't protect your child against killers with 
unpronounceable names or if you are a farmer who knows that new seed 
varietals will mean you have produce that you can take to market in 
drought or flood. But not the old, dumb, only-game-in-town aid--smart 
aid that aims to put itself out of business in a generation or two. 
``Make aid history'' is the objective. It always was. Because when we 
end aid, it'll mean that extreme poverty is history. But until that 
glorious day, smart aid can be a reforming tool, demanding 
accountability and transparency, rewarding measurable results, 
reinforcing the rule of law, but never imagining for a second that it's 
a substitute for trade, investment or self-determination.
    I for one want to live to see Mo Ibrahim's throw-down prediction 
about Ghana come true. ``Yes, guys,'' he said, ``Ghana needs support in 
the coming years, but in the not-too-distant future it can be giving 
aid, not receiving it; and you, Mr. Bono, can just go there on your 
holidays.''
    I'm booking that ticket.
    In South Africa, with Madiba, the great Nelson Mandela--the person 
who, along with Desmond Tutu and the Edge, I consider to be my boss--I 
raised the question of regional integration through the African 
Development Bank, and the need for real investment in infrastructure . 
. . all the buzzwords. As Madiba smiled, I made a note to try not to 
talk about this stuff down at the pub--or in front of the band.
    ``And you, are you not going to the World Cup?'' the great man 
chided me, changing the subject, having seen this wide-eyed zealotry 
before. ``You are getting old and you are going to miss a great coming-
out party for Africa.'' The man who felt free before he was is still 
the greatest example of what real leadership can accomplish against the 
odds.
    My family and I headed home . . . just in time, I was getting 
carried away. I was going native, aroused by the thought of railroads 
and cement mixers, of a different kind of World Cup fever, of opposing 
players joining the same team, a new formation, new tactics. For those 
of us in the fan club, I came away amazed (as I always am) by the 
diversity of the continent . . . but with a deep sense that the people 
of Africa are writing up some new rules for the game.

    Senator Leahy. But one of the things that really struck me, 
he was talking with women in Mozambique. That's the first place 
we used the Leahy War Victims Fund.
    He quotes a woman who said, ``Roads. We need roads. 
Today,'' she added, ``we women, we are the roads carrying 
things.'' And I hear this over and over again. Don't ship us 
huge containers of food and agricultural products from the 
United States. Help us build some simple roads. If you raise 
produce on a farm but to sell it, the market is 12 miles away, 
15 miles away, but it's going to take you 3 days to get it 
there, then it doesn't do you any good to raise it. You can't 
sell it. If you have a simple road, that 15 miles, you can get 
there in an hour's time.

                             JUSTICE REFORM

    One last thing or last two things I'd like to talk about. 
One is justice reform. We spend tens of millions of dollars, 
maybe hundreds of millions of dollars to reform dysfunctional 
justice systems around the world. You can't have a democracy, a 
real democracy without a functioning justice system. Honest 
prosecutors, honest and independent judges.
    Look at Central America and we see places where people get 
away with murder literally or where judges are bribed or 
intimidated. Haiti is another example. There's never been the 
political will at the top.
    Is that an area where you will watch and evaluate because 
we'll spend the money if you think it's going to accomplish 
something, but I've been so disappointed seeing how little has 
been accomplished.
    Dr. Shah. Yes, sir. We will watch that. I think you're 
right to point that out and I would just highlight that it is 
both a combination of programmatic activity, training and 
supporting judges and prosecutors. There are some efforts. I 
was just part of the rehearsal concept drill in Afghanistan 
where there was a really substantive conversation about what it 
would actually take to support the informal justice system and 
the transition to more formality in that system, as well. We're 
trying some unique things in our program there.
    But I think you're absolutely right and it often is 
understated that the political will to create space for that to 
be effective is a precondition to success at scale.
    Senator Leahy. Well, I remember a group came here from one 
country to talk to me and they said, we want to look at your 
justice system and we talked about that. They asked, is it true 
that in the United States people actually sue the government on 
occasion? I said, yes, it happens often, and they said, and is 
it true that sometimes the government loses? I said, yes. They 
said, and so you then replace the judge? And then when I 
explained that, no, we don't, they finally began to understand 
what an independent judiciary is, and we have so many people in 
this country willing to take the time to go to these countries 
and work with them and help them, but too often they get lip 
service while they're there and then the bribes continue or the 
replacement of a judge who rules against the government or so 
forth.

                             CLIMATE CHANGE

    The administration plans to spend about $1.4 billion on 
climate change programs in fiscal year 2011, $646 million is 
through USAID and the State Department, part of it's to protect 
forests. Of course, the Amazon is the largest and the most 
threatened from large hydro projects and agribusiness and 
logging and mining, a lot of it illegal.
    How much are you planning to spend for forest protection 
programs in Brazil or in the other Andean American countries?

             FOREST PROTECTION ACTIVITIES IN SOUTH AMERICA

    Dr. Shah. In Brazil, USAID plans to spend 100 percent of 
the $14 million in Biodiversity and Sustainable Landscapes 
funds for forest protection programs in fiscal year 2010.
    The USAID Regional Program's Initiative for Conservation in 
the Andean Amazon will spend $7 million this year on forest 
protection in Colombia, Ecuador, Peru and Bolivia.
    USAID plans to spend the following amounts for forest 
protection programs in other South American countries in fiscal 
year 2010: Bolivia: $2.5 million in Biodiversity funds; 
Colombia: $3 million in Biodiversity and Sustainable Landscapes 
funds; Ecuador: $3.1 million in Biodiversity funds; Paraguay: 
$1 million in Biodiversity funds; and Peru: $7.5 million in 
Biodiversity and Sustainable Landscapes funds.
    In summary, USAID plans to spend the following amounts for 
forest protection programs: $14 million in Brazil, $7 million 
on the Regional Program, and $17.1 million in other South 
American countries.
    Total planned expenditures on forest protection programs is 
$38.1 million in fiscal year 2010.
    I'd also add that in the context of this, we're also 
exploring certain private sector partnerships to see if we can 
partner with private foundations and other institutions that 
have an interest in this area and might partner with us in some 
of these initiatives in Indonesia and other parts of the world.
    Senator Leahy. Well, of course, at the same time the State 
Department and others are going to have to bring some pressure 
on some of the governments to actually do the things necessary.
    The Millennium Challenge Corporation requires governments 
to commit to do certain things if they want our aid, like 
reducing corruption or increasing their own budgets for 
healthcare and education.
    Do you think USAID should be doing the same thing? In other 
words, a quid pro quo, or is that naive to think that you can 
do that in some areas?
    Dr. Shah. I think, in general, the efforts to have long-
term effective sustainable development that's broad enough that 
it reaches a large percentage of a population in country does 
require some significant degree of country ownership. MCC, of 
course, encapsulates that in a very specific set of indicators 
that then gives them a go/no go against a very large program in 
countries.
    I think the approach we're taking, especially in the Food 
Security Initiative, is a little bit more specific. If a 
country is meeting its obligations to increase its domestic 
spending in agriculture, and they are signing up to bringing 
together all of the stakeholders and private sector partners 
against a country plan, then we will stand with them and help 
them build the capacity to be successful over the long run.
    So it's a different, I think, interpretation of the 
concept, but the underlying concept that country ``skin in the 
game'' and country ownership is a precondition to long-term 
success I think was probably a shared one.
    Senator Leahy. Thank you very much. I'll put the rest of my 
questions in the record.
    I'll yield to Senator Bond.
    Senator Bond. Thank you very much, Mr. Chairman, and Dr. 
Shah, I apologize to you both for arriving so late. I had a 
visit from a high White House official talking about a rather 
pressing issue that went on and one and on.
    Senator Leahy. Aren't they all?
    Senator Bond. Well, yeah, and I--but to me, this is 
extremely important and I'm delighted to welcome Dr. Shah today 
because we believe on--I know the chair and I agree that your 
leadership is critically important at this time.
    USAID may not get all the glory on TV but when you get out 
and help the world's poorest people with global issues, clean 
water, child mortality, HIV, malaria, it's integral to, I 
think, a broader national policy, smart power, which Secretary 
Clinton has advocated so strongly and I believe in, and I know, 
having traveled around the globe extensively, I've seen where 
USAID can be a tremendous force for winning the hearts and 
minds of the people in other countries and dealing with those 
problems that are a concern to us as good neighbors or people 
in my case Christians should do.
    But a key to expanding that service is getting enough 
Foreign Service officers in USAID. We want to do that. We need 
to see USAID build a core capacity and lessen its over-reliance 
on contractors, to increase accountability and effectiveness.
    Now, as you know, biotechnology is an important component 
of smart power. Not only does it contribute to food security 
and better nutrition now, but it's absolutely essential if 
we're going to feed a global population of 9 billion people. We 
cannot get there without the most modern farming techniques and 
biotechnology.
    Dr. Shah, I know you've been a longstanding supporter of 
plant biotechnology. I want to--I can spend until early 
afternoon talking about that, but obviously I would not.

                                 ENERGY

    I need to turn to another subject that's of high priority. 
A couple weeks ago I visited India to discuss energy and a 
number of other matters. Energy, of course, is important in 
India as it is in the United States and they are overwhelmingly 
dependent upon coal to fuel their growth, to supply the energy 
to bring 1 billion population with tremendous poverty up to 
basic living standards and given the abundance and 
affordability of coal on their country, as ours, we have to 
make it cleaner, more efficient, and I was very impressed about 
an initiative USAID has undertaken in India.
    Over the course of the USAID-India Greenhouse Gas Pollution 
Prevention or GGPP Project, it has cumulatively avoided 
CO<INF>2</INF> emissions from USAID-supported coal activities 
nearly a 100 million tons in the last 10 years. However, I was 
very concerned when U.S. and Indian officials told me that 
those efforts are no longer possible under constraints 
contained in a 2010 funding bill.
    The constraints direct that no funds shall be utilized for 
any nuclear, coal, or other fossil fuel technology or 
production and without that, India's going to go back to 
burning coal without the reduction in emissions. They have made 
progress and I'd be very interested in hearing your thoughts on 
this and hope that we can work together with the chairman and 
the ranking member to find an appropriate solution that will 
allow us to resume making CO<INF>2</INF> emission reductions 
and making coal more energy efficient and cleaner for the 
people of India.
    Where do you stand on that?
    Dr. Shah. Well, thank you for mentioning that, Senator, and 
for highlighting some of the efforts that have been undertaken 
there.
    The low emission growth strategies for countries and 
especially mid-level economies is an important part of our 
overall Climate Change Program and will be a larger component 
of what we do going forward. We, of course, have, as part of 
the Climate Change Initiative, a broader approach but that's an 
important piece.
    I'd have to look more specifically at the 2010 funding 
constraints that preclude us from being able to work----
    Senator Bond. Would you look at that and get 
recommendations because I heard a very, very strong objection 
from both sides, both Indian and the people working for us in 
that country about the benefit that that project that was just 
cut off had provided. So if you would get back to me and 
obviously to the subcommittee, but I would like to see a copy 
of whatever you transmit to the chair and ranking member.
    [The information follows:]

 2010 Funding Constraints for the USAID/India Greenhouse Gas Pollution 
                           Prevention Project

    To comply with fiscal year 2010 guidance from Congress, 
USAID is unable to use climate change funds to continue 
supporting activities under the Greenhouse Gas Pollution 
Prevention Project. USAID is reviewing whether other funds can 
be identified outside of the funds appropriated for Global 
Climate Change clean energy program to support the project 
which is designed to introduce cleaner coal technologies and 
better operating and maintenance equipment and practices to 
make coal-fired electricity plants more energy efficient and 
cleaner. The project also reduces CO<INF>2</INF> emissions with 
respect to a business-as-usual situation where no interventions 
are made.
    To support the goals of the October 2009 Memorandum of 
Understanding to Enhance Cooperation on Energy Security, Energy 
Efficiency, Clean Energy and Climate Change between the United 
States and India, USAID is in the process of designing a new 
clean energy program to help India promote end-use energy 
efficiency and deploy renewable energy technologies that will 
reduce the need to build as many CO<INF>2</INF> emitting coal-
fired powerplants. The new program will support India's efforts 
to transition to an economy that produces lower volumes of 
greenhouse gases while meeting their poverty reduction goals.

    Senator Bond. Let me jump back into my favorite area, 
biotechnology. You're familiar with the Donald Danforth Plant 
Science Center and Roger Beachy. They've been improving crop 
yields even though Roger's decamped to Washington and Cassava, 
for example, is a root crop that's primary food for 750 million 
people. It's a poor nutritional content, susceptible to many 
pathogens, particularly in Asia. One-third is lost every year 
to viral diseases and the Danforth Center has been the lead on 
two major projects to address nutritional content, have been 
focusing on increasing Casava's zinc, iron, protein, vitamin A 
and E content, lowering the level of naturally occurring 
cyanide which we would think would want to be reduced, and 
reducing spoilage, and it's also done research to increase 
folic acids and minerals in sweet potato and to develop more 
protein, enhance sorghum and peanuts, and they have research 
partners in Africa.
    Now, a lot of people normally talk about biotech and you 
can see a lot of people yawn, but this to me is key to feeding 
people, hungry people in the world, and I think projects like 
this will be critical in applying the most significant business 
thinking.
    I urge you to continue supporting plant biotech research in 
Global Hungry and Security Initiative, particularly in places 
like Africa and Southeast Asia. I'd like to hear your comments 
on USAID's priorities in the area of plant biotechnology 
development.
    Dr. Shah. Thank you, Senator. I'll start by just 
acknowledging your leadership on this issue. I've had the 
chance to work with both the Danforth Center and Roger Beachy 
over the years and appreciate the unique leadership that those 
institutions and he brings.
    I think there's been a false distinction in choice set up 
between overall sustainability and core productive agriculture 
productivity and I think we have an opportunity to be 
significant advocates for using the broad range of 
technological solutions against those core constraints that are 
holding back productive agriculture in much of the world and 
disproportionately in some of the poorest parts of the world 
where rain-fed production is the predominant form of production 
and where small holder producers suffer from hunger and 
starvation when they don't have enough productivity.
    We've identified and gone through a process of identifying 
a set of core traits and core crops in which we want to work. 
As you would acknowledge, cassava is, of course, the second 
highest source of calories in Africa and is a very important 
crop and on that list and traits, like improved 
biofortification, improved drought tolerance, improved use 
characteristics, like lower cyanide content, in cassava are all 
priorities in that----
    Senator Bond. Sounds good to me.
    Dr. Shah [continuing]. Context.
    We're right now in the process of trying to ascertain what 
that means for our existing CRSP programs that fund U.S. land 
grant universities to work on a range of crops, peanuts, 
soybeans, sorghum, et cetera, and trying to take those CRSP 
programs and move them forward in a way that is more aligned 
against the set of priorities that have been identified by crop 
and by constraint and that unlock the broad set of tools and 
technologies that could be used to create advances.
    And I'd say the final piece is that we will remain 
committed to working with countries on regulatory systems and 
in country testing and training. What we have found, of course, 
is in areas like drought-tolerance maize, when a country, like 
Uganda, builds a testing facility on their own agriculture 
research station and invests in training their own scientists, 
that seems to unlock the political energy to put in place a 
regulatory system that allows their people to have access to 
those technologies. So we think that's an important part of 
this, as well.
    Senator Bond. Well, thank you very much, Dr. Shah. Mr. 
Chairman, if you'd indulge me one more minute, talking about 
the regulatory matter is very important.
    I talked with the Secretary of Agriculture in India and 
other leaders. I talked to Secretary Bahsu and he understands 
the importance of transgenic seeds. Right now Aubergine, what 
you call eggplant, is the high controversy. I understand from a 
very good friend of ours that right now the Aubergine crop 
requires a 120 pesticide spray and the farmers won't even eat 
the darn vegetable because there's so much pesticide on it.
    I've talked with the Ambassador and others in India and 
they say, oh, well, we need to listen to our people who are 
concerned about it. They're listening to NGOs who make their 
living off of raising fear about GMOs and as a result they are 
missing the opportunity to increase the harvest of a very 
important vegetable that can be produced with far less chemical 
pesticides.
    Mr. Chairman, again, please accept my sincere thanks and my 
apologies for this.
    Senator Leahy. We've worked together on so many of these 
things and this will be your last hearing with the Director of 
USAID.
    Senator Bond. That's why I wanted to get several bites, but 
I'm going to be--I hope he will contact me. We look forward to 
working with him because I----
    Senator Leahy. As I said before you came in, I'm delighted 
that he's there because there have been problems at USAID that 
you and I have discussed before.
    Senator Bond. Oh, yes, I remember those.

                     ADDITIONAL COMMITTEE QUESTIONS

    Senator Leahy. But I think Dr. Shah's the right person at 
the right time and the right place and there are many, many 
very dedicated men and women at USAID and I think they breathed 
a sigh of relief when he arrived, and with that, we'll stand in 
recess.
    Thank you. Thank you, Dr. Shah.
    Dr. Shah. Thank you.
    [The following questions were not asked at the hearing, but 
were submitted to the Agency for response subsequent to the 
hearing:]

            Questions Submitted by Senator Patrick J. Leahy

                      TRANSITION INITIATIVE MODEL

    Question. Although we often hear about how slow and bureaucratic 
most of USAID is, we hear the opposite about the Office of Transition 
Initiatives. That office focuses on conflict-prone countries, and 
countries making the transition from crisis to stability. The office is 
relatively small but agile, with flexibility to target resources 
quickly at the local level. Why can't more of USAID function like that 
office?
    Answer. I am pleased that our Office of Transition Initiatives 
(OTI) is recognized for effectively and efficiently managing in very 
difficult and fluid situations. OTI is charged with responding to a 
particular set of countries that are conflict prone, are in conflict, 
or those in transition to stability.
    OTI's business model involves flexible planning and management 
structures, including short-term strategies geared to short-term 
objectives along with systems for procurement, staff and monitoring/
reporting developed for those purposes. These structures rely on 
constant innovation, rapid procurement systems, and intensive, hands-on 
management tailored to dynamic, fluid environments enabling OTI to 
react quickly to evolving situations on the ground. OTI fosters a 
culture of entrepreneurism while placing more authority in the field. 
Staff are encouraged to seek alternate solutions in program design and 
execution, and to support small-scale, rapid, and tactical investments 
in community or national projects that address a country's transition 
or momentum toward recovery from conflict.
    The Agency does take OTI's experience into account in its larger 
programming response. These include a greater focus on the use local 
implementing organizations, more rapid program monitoring and feedback 
systems, and flexible planning where authorities are in the field, 
which permits rapid programming responses. Additionally, having 
Indefinite Quantity Contracts (IQCs) in place as rapid response 
mechanisms will continue to be an important component to the Agency's 
ability to respond more efficiently.
    As part of our Agency's reform process, I am closely looking at 
OTI's business model and lessons learned and will identify other 
elements which can be replicated to the rest of the Agency. I 
acknowledge that not all tools are applicable to longer-term 
development, but in a changing world, we must consider and integrate 
all the innovative approaches we can.

                          USAID EFFECTIVENESS

    Question. You have said that restoring USAID's effectiveness is 
your top priority and that this will require USAID to make significant 
changes in the way that it is organized and operates. What do you mean 
by ``restoring USAID's effectiveness'', what do you see as most needing 
change, and what changes are you making?
    Answer. I have recently outlined a new approach to high-impact 
development which will lie at the center of restoring USAID's 
effectiveness. In four core areas we're already putting this approach 
into practice.
    First, USAID is contributing to the U.S. commitment to the 
Millennium Development Goals (MDGs), not simply by delivering services 
to those in need, but through building sustainable systems that will 
transform healthcare, education, food security and other MDG areas.
    Second, we are strengthening our ability to invest in country-owned 
models of inclusive growth and development success. USAID will promote 
these outcomes in a focused set of areas in countries that are 
reasonably well-governed, economically stable, globally connected and 
market oriented. We will undertake these enhanced efforts in a whole-
of-government context using complementary assets like trade, private 
investment and diplomacy to increase the effectiveness of our 
development cooperation and increase the chances of success.
    Third, we are identifying new ways of leveraging science and 
technology to develop and deliver tools and innovations which we 
believe can be transformational. I am proud of USAID's past support for 
the Green Revolution, and this is the time to recalibrate our current 
science and research portfolio around today's set of grand challenges 
such as climate change, global health, and food security.
    Finally, we need to continue to bring USAID's expertise to bear on 
some of the most daunting national security challenges we face as a 
Nation including stabilizing countries like Afghanistan.
    Restoring USAID's effectiveness requires more than these new focus 
areas. We have to transform the way we do work. USAID's development 
experts will provide increased support to encourage innovation and 
entrepreneurship. USAID staff will be encouraged to take risks in a 
smart and calculated way to achieve greater returns in international 
development. To support this, we're putting in place a range of policy 
reforms and new business models that will help our operations improve 
and enable our people to be development entrepreneurs.
    USAID is establishing a new policy bureau and resource planning 
capacity that will be instrumental in managing coherent development 
approaches and strengthening accountability for our work. In addition, 
USAID is planning to roll out a meaningful set of procurement reforms. 
These will involve doing a better job of building local capacity and 
investing in local institutions where we work overseas. This summer we 
will launch a set of talent management and human resource reforms that 
are key to our future as an effective Agency. This will include doing a 
better job of leveraging the skills and knowledge of USAID's Foreign 
Service National staff. Finally, in the fall we will launch a major 
monitoring, evaluation and transparency initiative.
    I am convinced if we can re-establish a rigorous program evaluation 
function and be the most transparent development agency in the world, 
that the American people will increase their support of our work. I 
believe this package of reforms will restore USAID's effectiveness and 
provide the means to restore the Agency to a world-class institution.

                               PSD-7/QDDR

    Question. What impact do you anticipate the White House's 
``Presidential Study Directive on U.S. Development Policy'' and the 
Secretary of State's ``Quadrennial Diplomacy and Development Review'' 
will have on USAID?
    Answer. I anticipate that both exercises, which are closely 
coordinated, will have a very positive impact on USAID and U.S. global 
development efforts. Both the PSD and QDDR are premised on the strong 
belief in the importance of international development and of 
strengthening USAID. I am gratified by the support of President Obama 
and Secretary Clinton in this regard.

                           GLOBAL ENGAGEMENT

    Question. One of the Administration's new initiatives includes a 
request for $100 million for a new ``Global Engagement'' account. My 
understanding is this account would provide economic growth, academic 
exchanges and partnerships, and other education-related assistance to 
partner countries with mainly Muslim populations, and would likely be 
administered by USAID.
    These are all things that USAID and the State Department already 
do. Why does a new account need to be created instead of providing 
support for these activities through existing mechanisms? Which 
countries are likely to receive this assistance?
    Answer. President Obama's vision of Global Engagement is that the 
U.S. Government engages the world in a spirit of respect and 
partnership to achieve shared goals. One of his priorities in this area 
is to broaden the relationship between the United States and Muslim-
majority countries around the world. The Department of State and USAID 
requested a separate line item to catalyze the start-up and initial 
tracking of funding for a cohesive set of activities to address the 
objectives of Global Engagement.
    This is not a request for a separate account, but rather a separate 
line item within the Economic Support Fund account. This will allow us 
to track the activities that are started-up with these funds, and these 
new activities will complement and strengthen ongoing foreign 
assistance efforts. In future years, we may incorporate these 
activities into ongoing program and country budgets.
    The countries to receive this assistance are still to be 
determined, and but will be regionally-diverse with significant Muslim 
populations.

                        AFGHANISTAN AND PAKISTAN

    Question. USAID is dramatically increasing its staffing and 
programs in Afghanistan and Pakistan. Both countries suffer from severe 
security threats, weak governments and corruption, and inadequate 
office and housing space for USAID personnel.
    We hear frequently how difficult it is for USAID staff to get out 
into the field to monitor programs. We also learned in Iraq that 
spending lots of money quickly in places like Afghanistan or the tribal 
areas of Pakistan is a recipe for waste, fraud and abuse.
    How are you dealing with these challenges, and are you trying to 
spend too much money too fast--as was the case in Iraq and Afghanistan 
by the previous administration?
    Answer. The issue of adequate oversight for and thoughtful 
expenditure of resources in an environment such as Afghanistan and 
Pakistan is a challenge that we face on a daily basis. In order to 
tackle that challenge and protect U.S. taxpayer funds, we are engaging 
in several concurrent efforts in both countries. I will mention them 
briefly here and provide additional detail below. Specifically, we are 
increasing our staffing (both program and oversight) in both countries; 
we are developing alternative mechanisms of oversight in those 
situations where direct access to activities is not yet possible; and, 
through the provision of technical assistance, we are increasing the 
capacity of local institutions to provide services to the population 
and make assistance efforts more sustainable.
    While USAID is increasing our staffing and programs in both 
Afghanistan and Pakistan, you are correct that it has been historically 
difficult for us to get out and monitor projects. As you are aware, we 
are working intensively with Missions in both countries to adequately 
plan, recruit, and retain qualified staff to be present both in the 
capital cities and throughout the countryside. These new personnel have 
a wide variety of backgrounds including financial management, 
agriculture, governance, and engineering and add much needed 
development assistance to these countries, while at the same time 
providing the essential oversight element to our activities.
    From a security perspective, Afghanistan and Pakistan will provide 
us with significant challenges for the foreseeable future insofar as 
access to activities is concerned. In light of that fact, we have 
developed alternative mechanisms of providing oversight to our 
activities in situations when direct access is not possible. In 
Afghanistan we are developing ``movement agreements'' with our military 
colleagues in order to enable our civilian PRT representatives to 
regularly access project sites within their respective provinces 
instead of being confined to their PRT. Furthermore, in both countries, 
we rely extensively on our locally engaged staff, Quality Assessment/
Quality Control (QA/QC) contractors--the staff of which is largely 
locally employed, and implementing partners to provide oversight 
functions when direct access by United States direct hire personnel is 
not possible.
    As you are aware, we are working to change our business model to 
include increased implementation through local entities (government and 
private sector) that have been or will be assessed and certified to 
receive USAID funding directly. A large portion of requested funds for 
the fiscal year 2010 supplemental and fiscal year 2011 will be 
dedicated to that effort. This will serve to increase the capacity of 
national, provincial and local entities while making assistance more 
sustainable.
    Finally, I would also like to note that we work collaboratively 
with our Inspector General communtiy in both countries, who provide the 
needed audit and investigative review of activities to provide 
assistance in a well directed manner.

           INTERNATIONAL COOPERATIVE ADMINISTRATIVE SERVICES

    Question. A recent survey about the State Departments ICASS 
process, which consolidates agency administrative operations overseas 
like motor pools, warehousing, supplies, maintenance and other 
functions, was a logical idea to improve efficiency and save money. But 
the survey suggests that for USAID, ICASS has caused more problems than 
it has solved.
    The overwhelming majority of USAID overseas employees reported that 
their work had become harder and more costly. There were complaints 
about access to vehicles, billing mistakes, time consuming reporting, 
and an increase in tension between USAID and the State Department. Have 
you looked at this? Is it time to review the consolidation and 
determine whether it really makes sense for USAID?
    Answer. The Agency is working in collaboration with the Department 
of State to jointly review our experience with administrative 
consolidation through the Quadrennial Diplomacy and Development Review 
(QDDR). The QDDR leadership formed a Joint USAID/State Task Force to 
survey and examine the impact of consolidation overseas recognizing 
that problems exist. The review is focusing on the 21 posts where USAID 
missions overseas are collocated on secure Embassy compounds and where 
functions have been substantially consolidated for 3 years.
    During the course of the QDDR Task Force review, the American 
Foreign Service Association (AFSA) sent out its own survey worldwide to 
all USAID employees of all employment categories, and the results show 
that the implementation of consolidation caused significant confusion 
and highlighted several support services and procedures that have been 
problematic at many Embassies.
    State Department and USAID management are addressing these problem 
areas in a systematic manner. Areas for improvement are being 
identified, and the Task Force will recommend measures to strengthen 
joint State/USAID support platforms within ICASS. Both the Department 
and USAID have affirmed that the goal of this review is to achieve 
optimum consolidation of overseas administrative services provided to 
State and USAID under the ICASS platform based on the principles of the 
most cost efficient, and effective service provision to support our 
respective diplomatic and development missions.
    The Task Force has reviewed existing consolidation data and annual 
ICASS Satisfaction Surveys, and detailed questionnaires were completed 
by both the USAID missions and the ICASS Service Providers (Embassy 
Management Officers). Existing cost data in Washington also is being 
reviewed, and USAID missions are providing updated cost information on 
post-consolidation operations.
    The interim data collected by the Task Force shows that 
improvements can be made that will result in a higher quality and more 
effective shared platform overseas that serves State and USAID as well 
as the many other U.S. Government ICASS customer agencies. The keys to 
making those improvements and to success in optimizing consolidation 
appear to be: (1) recognition that consolidation has been successful 
for most services at most posts, but that problems must be actively 
addressed; (2) improved accountability by the service provider; (3) 
communication on best practices, roles, and responsibilities; (4) 
incorporating additional flexibilities for USAID when necessary to meet 
the Agency's mission-critical needs; and (5) addressing individual 
posts directly where broad service issues may exist.
    The Task Force study will help USAID and State reach agreement on 
shared principles for consolidating services in the future, and the 
QDDR operational plan will also seek to identify opportunities to 
enhance and optimize consolidation efforts at all posts.

                            NGO TRANSPARENCY

    Question. Budget transparency is a big issue these days, in an 
effort to reduce opportunities for corruption. USAID gives a lot of 
money to NGOs--nongovernmental organizations--for projects to promote 
transparency in other countries, but what about the NGOs themselves--do 
they have to make public their own project budgets so people can see 
what they are doing with the money they receive from USAID?
    Answer. U.S. NGOs (PVOS) that receive grants from USAID are awarded 
funding based on budgets submitted with their applications. Project 
budgets are part of grant agreements which, in turn, are public 
documents. Expenditures are reported quarterly and are subject to 
audit. As 501(c)(3) organizations, each must file an annual Form 990 
with the Internal Revenue Service. PVOs registered with USAID must 
submit audited financial statements annually to the USAID Registrar. 
These include all funding received from USAID whether as grants or 
contracts.
    Question. If I want to know what NGO ``x'' is doing with money from 
USAID for a ``rule of law'' project, or a ``budget transparency'' 
project, or some other project, in the Philippines, or Mozambique, or 
El Salvador, can I go to a website and find a breakdown for how the 
funds are being spent--does USAID require this kind of transparency 
from its own grantees? If not, should it?
    Answer. At present there is no website where you can find out 
expenditure information for NGOs that have received funding from USAID. 
USAID does have an internal capacity for accrual reporting but this 
information only provides amounts obligated and gross expenditures, not 
budget details. For USAID to collect and enter detailed expenditure 
information for each contract and grant for website use would require a 
major investment in software development as well as staff time.
    Project budgets are part of grant agreements which, in turn, are 
public documents. The Agreement Officers' Technical Representatives 
responsible for the awards receive quarterly financial reports and can 
request more detailed information on expenditures. All grants and 
contracts are subject to audit.
    While we would agree that to model the transparency they are 
encouraging through USAID-funded projects, PVOs and others should make 
their financial reporting under our grants available to the public. 
USAID's present grant agreements do not require this. This requirement 
could be added to all grant agreements but limitations exist on 
financial reporting requirements per U.S. Federal regulations (22 CFR 
226.52). Should a member of the public request this information from 
USAID, it could be made available.
    Working with the Department of State, USAID is committed to 
increasing the ease of access by the public to information about 
foreign assistance expenditures and performance. While there are limits 
to the level of detail for individual grants and contracts that we will 
be able to provide to the public, we are aggressively working to 
improve our ability to respond to in-country information needs about 
USAID activities, and to provide more real-time, complete, and 
understandable information to the general public.
    In line with USAID's demonstrated commitment to transparency, the 
agency supports NGOs adhering to similarly high standards in making 
expenditures public. A coalition of diverse international humanitarian 
and development NGOs is currently working to identify common principles 
of development effectiveness, including budget transparency. USAID is 
very supportive of this process and the desired outcome for greater 
downstream transparency \1\. NGOs are in the best position to establish 
common reporting standards amongst their peers and we are supportive of 
their efforts in this area.
---------------------------------------------------------------------------
    \1\ While USAID supports greater transparency, there is recognition 
that the release of information may at times undermine other U.S. 
government priorities and interests. For this reason, the agency 
supports principled exceptions in line with FOIA guidelines.
---------------------------------------------------------------------------
               GLOBAL HUNGER AND FOOD SECURITY INITIATIVE

    Question. The President's ``Food for the Future'' initiative calls 
for $3.5 billion over 3 years to combat hunger through agricultural 
development and improved nutrition. The Administration has requested $1 
billion for agriculture programs and $200 million for nutrition 
programs in fiscal year 2011 to support this initiative.
    I have seen many anti-hunger initiatives over the years, all well 
intentioned, and most have had positive impacts. But hunger remains a 
global problem. Assuming you get the funds you have requested and 
everything goes as planned, can you predict what portion of the world's 
hungry people will no longer be hungry after this 3 year initiative?
    Answer. As there is no fully agreed-upon number of the ``world's 
hungry,'' even though the figure of 1 billion is commonly used, it is 
difficult to predict what portion of this population will no longer be 
hungry after the 3-year Feed the Future initiative. However, an 
international investment of $22 billion pledged by L'Aquila partners, 
which includes the Feed the Future initiative, invested in country-led, 
evidence-based strategies, will help to raise incomes, improve 
nutrition, and enhance food security in several ways:
  --Based on detailed cost-benefit analysis, we estimate that as a 
        baseline level, donor programs can directly increase the 
        incomes of at least 40 million people in developing countries, 
        including 28 million people who are currently living on incomes 
        of less than $2 per day and 13 million people living in extreme 
        poverty on less than $1.25 per day.
  --We can amplify these returns through significant increases in 
        investments in agricultural research, as well as its adaptation 
        and dissemination. Through ``game changing'' innovations like 
        improved crop varieties, the direct benefits of other 
        assistance programs can be extended to many millions of other 
        beneficiaries.
  --These gains will be further amplified by the complementary 
        investments by host country governments, and by private sector 
        investors, both domestic and international. Our investments in 
        infrastructure, extension services, and other areas, 
        complemented by government public investments, will make 
        private investments more attractive, adding to the impact of 
        the program.
  --Based on our preliminary analysis, we can reach 25 million children 
        in developing countries with a package of nutrition 
        interventions that has been demonstrated to reduce child 
        mortality, improve nutrition outcomes, and protect human 
        capital. These interventions are projected to reduce the number 
        of stunted children by nearly 10 million, and the number of 
        underweight children by more than 4 million.
    Specifically, with regard to the U.S. Government's Feed the Future 
initiative, our development and diplomatic support for game-changing 
policy reforms that expand opportunities for widespread private 
entrepreneurship--including full participation by women--can also 
accelerate a process of sustainable country-driven development that 
extends the benefits of this initiative to millions more consumers who 
cannot be reached directly with project-based assistance as food 
supplies increase, prices decline and markets become more stable.
    Question. Is the President's plan part of something bigger, 
coordinated with what other donors and governments in developing 
countries are doing?
    Answer. Yes, the Global Hunger and Food Security Initiative, also 
known as ``Feed the Future,'' is part of the larger L'Aquila Global 
Food Security Initiative (AFSI). G8 and other donor countries have 
pledged $22 billion to increase investments in agriculture and 
nutrition to improve the lives of the world's hungry. The USG has 
pledged $3.5 billion as its part of AFSI. That pledge is contingent on 
the availability of appropriated funds.
    The Feed the Future initiative has been developed to accelerate 
progress toward Millennium Development Goal #1 (MDG 1) in countries 
committed to achieving that goal of halving hunger and poverty by 2015. 
It is designed to improve the coordination and integration of USG 
resources capable of contributing to global food security now and in 
the future. Five principles will guide our common approach: Invest in 
country-owned food security plans; strengthen strategic coordination 
among key stakeholders; ensure a comprehensive approach; leverage the 
benefits of multilateral institutions; and deliver on sustained and 
accountable commitments.
    Further evidence of a larger effort is the Administration's 
commitment to multilateral engagement through the Global Agriculture 
and Food Security Program (GAFSP), a new trust fund administered by the 
World Bank. The United States contributed approximately $67 million to 
the Fund in 2010. Other donors who have made commitments to the fund to 
date include Canada ($230 million), Spain ($95 million), South Korea 
($50 million) and the Gates Foundation ($30 million).

                         DEVELOPMENT ASSISTANCE

    Question. You request $2.9 billion for Development Assistance, a 
$460 million increase from last year. The bulk of the increase is for 
agriculture and food security, climate change, and education programs.
    More money is one thing, and I strongly support these programs as I 
believe many others do. But using money effectively is another, 
especially in a time of budget constraints. What steps do you plan to 
take to get better results from the money you already have, before 
spending more?
    Answer. To achieve better results from existing resources, the Feed 
the Future (FTF) and the Global Climate Change (GCC) initiatives as 
well as USAID Basic and Higher Education programs will include robust 
monitoring and evaluation systems, as well as results frameworks that 
are underpinned by rigorous analyses. An expanded set of performance 
indicators will include the collection of baseline data for both 
initiatives that will focus on impact. The United States is working 
with other donors to ensure that we do not duplicate efforts. Within 
the U.S. Government, initiatives are being coordinated to leverage the 
technical expertise of various agencies providing more efficient 
delivery of assistance. Internally, USAID is aligning efforts to 
achieve far greater integration across its global, regional and 
country-focused programs.
    Furthermore, focusing on achieving better results includes not only 
an emphasis on monitoring and program evaluations, but also on 
communications, knowledge management and training for staff and USAID 
counterparts.

                             CLIMATE CHANGE

    Question. How much are you requesting globally for programs to 
protect biodiversity (the Congress provided $205 million in fiscal year 
2010)?
    Answer. The Administration requested $113.9 million in fiscal year 
2011 for biodiversity conservation. This request was developed through 
a bottom-up request process. USAID Missions faced a constrained budget 
scenario, requiring difficult choices in their budget requests for 
fiscal year 2011.

                           MICROCREDIT LOANS

    Question. The New York Times ran an article recently about lending 
institutions that charge exorbitant interest rates on micro-loans and 
reap big profits (see attached article, ``Banks Making Big Profits from 
Tiny Loans''). One bank in Mexico is cited as charging poor 
entrepreneurs an incredible 125 percent annual interest rate on its 
micro-loans. Your fiscal year 2011 budget request includes $230 million 
for micro-enterprise and micro-finance programs, which have 
consistently received support from this subcommittee.
    What is the average interest rate of loans charged by micro-lending 
institutions that receive USAID support, and how does this rate compare 
to the global average for micro-loans? How frequently does USAID 
receive information on changes in the rates of interest these 
institutions charge?
    Answer. USAID does not currently collect information on the 
interest rates of its partners around the world; rather, it focuses its 
efforts on promoting development of sustainable microfinance sectors 
across the developing world, which requires that microfinance 
institutions be allowed to set competitive interest rates. USAID 
guidelines for its microfinance programs require responsible practices 
regarding interest rates and other lending policies.
    Recognizing that the need to ensure sustainability of micro-finance 
services in economic environments where investment risks are high often 
requires MFIs to establish relatively high interest rates, USAID 
provides a range of support to MFIs designed to improve efficiency, 
reduce risk and, thereby, to reduce the interest rates required for 
sustainable cost recovery. For example, USAID helps MFIs overcome the 
challenges of attracting a broad base of funding, introducing 
alternative delivery mechanisms to reduce operational costs, and 
identifying more efficient ways to reach remote, poor populations while 
keeping operating costs low. USAID also employs guarantee programs 
through the Development Credit Authority (DCA) to increase access to 
low-cost commercial funds for MFIs.
    USAID recognizes that competition works best when interest rates 
are presented to borrowers in clear and transparent terms, so that they 
have the ability to rationally choose among lenders. For this reason, 
USAID will be providing support this fiscal year to the ``Smart 
Campaign'' led by the Center for Financial Inclusion at ACCION 
International. As part of this initial pilot, the Campaign will work 
with MFIs around the world to ensure they provide transparent, 
respectful and prudent financial services, including transparency 
surrounding their interest rate. Therefore, while USAID does not 
currently collect information on the interest rates of its partners 
around the world, support for the Smart Campaign movement--as well as 
the anticipated push from donors, practitioners, and investors in the 
years to come--will help USAID continue to promote development of the 
microfinance sector, including competitive interest rates.
    According to USAID policy, before signing an agreement to provide 
assistance to any microfinance institution, the Mission must determine 
that the institution has full and effective latitude to set interest 
rates and fees at full cost-covering levels; the institution's 
management is prepared to charge interest rates and fees on loans that 
are high enough to cover the program's full long-run costs; the 
institution can attain full financial sustainability on the MFI's 
financial service activities within no more than 7 years of the initial 
provision of USAID assistance; and the institution will use USAID 
assistance to expand the availability of financial services to 
microentrepreneurs and other poor people.
    Also, the MFI must have a plan to reach full financial 
sustainability, including a timetable and benchmarks to track its 
progress. USAID's annual Microenterprise Results Report (MRR) tracks 
the financial sustainability of the MFIs supported by our funds. In 
fiscal year 2008, 75 percent of institutions were reported as fully 
sustainable.

               [From The New York Times, April 13, 2010]

                Banks Making Big Profits From Tiny Loans
                         (By Neil MacFarquhar)

    In recent years, the idea of giving small loans to poor people 
became the darling of the development world, hailed as the long elusive 
formula to propel even the most destitute into better lives.
    Actors like Natalie Portman and Michael Douglas lent their boldface 
names to the cause. Muhammad Yunus, the economist who pioneered the 
practice by lending small amounts to basket weavers in Bangladesh, won 
a Nobel Peace Prize for it in 2006. The idea even got its very own 
United Nations year in 2005.
    But the phenomenon has grown so popular that some of its biggest 
proponents are now wringing their hands over the direction it has 
taken. Drawn by the prospect of hefty profits from even the smallest of 
loans, a raft of banks and financial institutions now dominate the 
field, with some charging interest rates of 100 percent or more.
    ``We created microcredit to fight the loan sharks; we didn't create 
microcredit to encourage new loan sharks,'' Mr. Yunus recently said at 
a gathering of financial officials at the United Nations. ``Microcredit 
should be seen as an opportunity to help people get out of poverty in a 
business way, but not as an opportunity to make money out of poor 
people.''
    The fracas over preserving the field's saintly aura centers on the 
question of how much interest and profit is acceptable, and what 
constitutes exploitation. The noisy interest rate fight has even 
attracted Congressional scrutiny, with the House Financial Services 
Committee holding hearings this year focused in part on whether some 
microcredit institutions are scamming the poor.
    Rates vary widely across the globe, but the ones that draw the most 
concern tend to occur in countries like Nigeria and Mexico, where the 
demand for small loans from a large population cannot be met by 
existing lenders.
    Unlike virtually every Web page trumpeting the accomplishments of 
microcredit institutions around the world, the page for Te Creemos, a 
Mexican lender, lacks even one testimonial from a thriving customer--no 
beaming woman earning her first income by growing a soap business out 
of her kitchen, for example. Te Creemos has some of the highest 
interest rates and fees in the world of microfinance, analysts say, a 
whopping 125 percent average annual rate.
    The average in Mexico itself is around 70 percent, compared with a 
global average of about 37 percent in interest and fees, analysts say. 
Mexican microfinance institutions charge such high rates simply because 
they can get away with it, said Emmanuelle Javoy, the managing director 
of Planet Rating, an independent Paris-based firm that evaluates 
microlenders.
    ``They could do better; they could do a lot better,'' she said. 
``If the ones that are very big and have the margins don't set the 
pace, then the rest of the market follows.''
    Manuel Ramirez, director of risk and internal control at Te 
Creemos, reached by telephone in Mexico City, initially said there had 
been some unspecified ``misunderstanding'' about the numbers and asked 
for more time to clarify, but then stopped responding.
    Unwitting individuals, who can make loans of $20 or more through 
Web sites like Kiva or Microplace, may also end up participating in 
practices some consider exploitative. These Web sites admit that they 
cannot guarantee every interest rate they quote. Indeed, the real rate 
can prove to be markedly higher.
Debating Microloans' Effects
    Underlying the issue is a fierce debate over whether microloans 
actually lift people out of poverty, as their promoters so often claim. 
The recent conclusion of some researchers is that not every poor person 
is an entrepreneur waiting to be discovered, but that the loans do help 
cushion some of the worst blows of poverty.
    ``The lesson is simply that it didn't save the world,'' Dean S. 
Karlan, a professor of economics at Yale University, said about 
microlending. ``It is not the single transformative tool that 
proponents have been selling it as, but there are positive benefits.''
    Still, its earliest proponents do not want its reputation tarnished 
by new investors seeking profits on the backs of the poor, though they 
recognize that the days of just earning enough to cover costs are over.
    ``They call it `social investing,' but nobody has a definition for 
social investing, nobody is saying, for example, that you have to make 
less than 10 percent profit,'' said Chuck Waterfield, who runs 
mftransparency.org, a Web site that promotes transparency and is 
financed by big microfinance investors.
    Making pots of money from microfinance is certainly not illegal. 
CARE, the Atlanta-based humanitarian organization, was the force behind 
a microfinance institution it started in Peru in 1997. The initial 
investment was around $3.5 million, including $450,000 of taxpayer 
money. But last fall, Banco de Credito, one of Peru's largest banks, 
bought the business for $96 million, of which CARE pocketed $74 
million.
    ``Here was a sale that was good for Peru, that was good for our 
broad social mission and advertising the price of the sale wasn't the 
point of the announcement,'' Helene Gayle, CARE's president, said. Ms. 
Gayle described the new owners as committed to the same social mission 
of alleviating poverty and said CARE expected to use the money to 
extend its own reach in other countries.
    The microfinance industry, with over $60 billion in assets, has 
unquestionably outgrown its charitable roots. Elisabeth Rhyne, who runs 
the Center for Financial Inclusion, said in Congressional testimony 
this year that banks and finance firms served 60 percent of all 
clients. Nongovernmental organizations served 35 percent of the 
clients, she said, while credit unions and rural banks had 5 percent of 
the clients.
    Private capital first began entering the microfinance arena about a 
decade ago, but it was not until Compartamos, a Mexican firm that began 
life as a tiny nonprofit organization, generated $458 million through a 
public stock sale in 2007, that investors fully recognized the 
potential for a windfall, experts said.
    Although the Compartamos founders pledged to plow the money back 
into development, analysts say the high interest rates and healthy 
profits of Compartamos, the largest microfinance institution in the 
Western Hemisphere with 1.2 million active borrowers, push up interest 
rates all across Mexico.
    According to the Microfinance Information Exchange, a Web site 
known as the Mix, where more than 1,000 microfinance companies 
worldwide report their own numbers, Compartamos charges an average of 
nearly 82 percent in interest and fees. The site's global data comes 
from 2008.
    But poor borrowers are often too inexperienced and too harried to 
understand what they are being charged, experts said. In Mexico City, 
Maria Vargas has borrowed larger and larger amounts from Compartamos 
over 20 years to expand her T-shirt factory to 25 sewing machines from 
5. She is hazy about what interest rate she actually pays, though she 
considers it high.
    ``The interest rate is important, but to be honest, you can get so 
caught up in work that there is no time to go fill out paperwork in 
another place,'' she said. After several loans, now a simple phone call 
to Compartamos gets her a check the next day, she said. Occasionally, 
interest rates spur political intervention. In Nicaragua, President 
Daniel Ortega, outraged that interest rates there were hovering around 
35 percent in 2008, announced that he would back a microfinance 
institution that would charge 8 to 10 percent, using Venezuelan money.
    There were scattered episodes of setting aflame microfinance 
branches before a national ``We're not paying'' campaign erupted, which 
was widely believed to be mounted secretly by the Sandinista 
government. After the courts stopped forcing small borrowers to repay, 
making international financial institutions hesitant to work with 
Nicaragua, the campaign evaporated.
A Push for More Transparency
    The microfinance industry is pushing for greater transparency among 
its members, but says that most microlenders are honest, with experts 
putting the number of dubious institutions anywhere from less than 1 
percent to more than 10 percent. Given that competition has a pattern 
of lowering interest rates worldwide, the industry prefers that 
approach to government intervention. Part of the problem, however, is 
that all kinds of institutions making loans plaster them with the 
``microfinance'' label because of its do-good reputation.
    Damian von Stauffenberg, who founded an independent rating agency 
called Microrate, said that local conditions had to be taken into 
account, but that any firm charging 20 to 30 percent above the market 
was ``unconscionable'' and that profit rates above 30 percent should be 
considered high.
    Mr. Yunus says interest rates should be 10 to 15 percent above the 
cost of raising the money, with anything beyond a ``red zone'' of loan 
sharking. ``We need to draw a line between genuine and abuse,'' he 
said. ``You will never see the situation of poor people if you look at 
it through the glasses of profit-making.''
    Yet by that measure, 75 percent of microfinance institutions would 
fall into Mr. Yunus's ``red zone,'' according to a March analysis of 
1,008 microlenders by Adrian Gonzalez, lead researcher at the Mix. His 
study found that much of the money from interest rates was used to 
cover operating expenses, and argued that tackling costs, as opposed to 
profits, could prove the most efficient way to lower interest rates.
    Many experts label Mr. Yunus's formula overly simplistic and too 
low, a route to certain bankruptcy in countries with high operating 
expenses. Costs of doing business in Asia and the sheer size of the 
Grameen Bank he founded in Bangladesh allow for economies of scale that 
keep costs down, analysts say. ``Globally interest rates have been 
going down as a general trend,'' said Ms. Javoy of Planet Rating.
    Many companies say the highest rates reflect the costs of reaching 
the poorest, most inaccessible borrowers. It costs more to handle 10 
loans of $100 than one loan of $1,000. Some analysts fear that a 
pronounced backlash against high interest rates will prompt lenders to 
retreat from the poorest customers.
    But experts also acknowledge that banks and others who dominate the 
industry are slow to address problems.
Added Scrutiny for Lenders
    Like Mexico, Nigeria attracts scrutiny for high interest rates. One 
firm, LAPO, Lift Above Poverty Organization, has raised questions, 
particularly since it was backed by prominent investors like Deutsche 
Bank and the Calvert Foundation.
    LAPO, considered the leading microfinance institution in Nigeria, 
engages in a contentious industry practice sometimes referred to as 
``forced savings.'' Under it, the lender keeps a portion of the loan. 
Proponents argue that it helps the poor learn to save, while critics 
call it exploitation since borrowers do not get the entire amount up 
front but pay interest on the full loan.
    LAPO collected these so-called savings from its borrowers without a 
legal permit to do so, according to a Planet Rating report. ``It was 
known to everybody that they did not have the right license,'' Ms. 
Javoy said.
    Under outside pressure, LAPO announced in 2009 that it was 
decreasing its monthly interest rate, Planet Rating noted, but at the 
same time compulsory savings were quietly raised to 20 percent of the 
loan from 10 percent. So, the effective interest rate for some clients 
actually leapt to nearly 126 percent annually from 114 percent, the 
report said. The average for all LAPO clients was nearly 74 percent in 
interest and fees, the report found.
    Anita Edward says she has borrowed money three times from LAPO for 
her hair salon, Amazing Collections, in Benin City, Nigeria. The money 
comes cheaper than other microloans, and commercial banks are virtually 
impossible, she said, but she resents the fact that LAPO demanded that 
she keep $100 of her roughly $666 10-month loan in a savings account 
while she paid interest on the full amount.
    ``That is not O.K. by me,'' she said. ``It is not fair. They should 
give you the full money.''
    The loans from LAPO helped her expand from one shop to two, but 
when she started she thought she would have more money to put into the 
business.
    ``It has improved my life, but not changed it,'' said Ms. Edward, 
30.
    Godwin Ehigiamusoe, LAPO's founding executive director, defended 
his company's high interest rates, saying they reflected the high cost 
of doing business in Nigeria. For example, he said, each of the 
company's more than 200 branches needed its own generator and fuel to 
run it.
    Until recently, Microplace, which is part of eBay, was promoting 
LAPO to individual investors, even though the Web site says the lenders 
it features have interest rates between 18 and 60 percent, considerably 
less than what LAPO customers typically pay.
    As recently as February, Microplace also said that LAPO had a 
strong rating from Microrate, yet the rating agency had suspended LAPO 
the previous August, 6 months earlier. Microplace then removed the 
rating after The New York Times called to inquire why it was still 
being used and has since taken LAPO investments off the Web site.
    At Kiva, which promises on its Web site that it ``will not partner 
with an organization that charges exorbitant interest rates,'' the 
interest rate and fees for LAPO was recently advertised as 57 percent, 
the average rate from 2007. After The Times called to inquire, Kiva 
changed it to 83 percent.
    Premal Shah, Kiva's president, said it was a question of outdated 
information rather than deception. ``I would argue that the information 
is stale as opposed to misleading,'' he said. ``It could have been a 
tad better.''
    While analysts characterize such microfinance Web sites as well-
meaning, they question whether the sites sufficiently vetted the 
organizations they promoted.
    Questions had already been raised about Kiva because the Web site 
once promised that loans would go to specific borrowers identified on 
the site, but later backtracked, clarifying that the money went to 
organizations rather than individuals.
    Promotion aside, the overriding question facing the industry, 
analysts say, remains how much money investors should make from lending 
to poor people, mostly women, often at interest rates that are hidden.
    ``You can make money from the poorest people in the world--is that 
a bad thing, or is that just a business?'' asked Mr. Waterfield of 
mftransparency.org. ``At what point do we say we have gone too far?''

                                 WATER

    Question. The Administration has requested $255 million for water 
sanitation and supply projects in fiscal year 2011. USAID funds water-
related activities in various program areas such as agriculture, 
economic growth, nutrition, and health. Approximately how much will 
USAID spend on water-related activities in fiscal year 2011, across all 
programs?
    Answer. The Administration's request for water programs in fiscal 
year 2011 is $260 million. Each year, additional amounts for all water 
activities normally include portions of other programs that help to 
improve water supply, sanitation and hygiene (WSSH), water resources 
management (WRM); water productivity (WP), and water-related disaster 
risk reduction (DRR). Those additional programs may include Disaster 
Assistance for WSSH (normally $90-$100 million), natural resources 
management programs contributing to WRM, agricultural sector 
productivity contributions to WP and broader disaster response and 
preparedness contributions to water-related DRR. Based on current 
projections, the total fiscal year 2011 USAID water expenditures, once 
all attributions are included, can be expected to be between $500-$600 
million.
    Question. The fiscal year 2010 State and Foreign Operations bill 
requires the relevant USAID bureaus and offices that support cross-
cutting programs such as water to coordinate on a regular basis. In the 
case of water, how does USAID plan to better coordinate water 
activities and programs across bureaus?
    Answer. The Administration has now formed a new High-level Steering 
Group on Water that will be responsible for coordination of diplomatic 
and development activities related to water within State, USAID and the 
wider U.S. Government. As part of early actions on coordination, 
efforts are underway to better integrate water into the 
Administration's fiscal year 2012 budget request, and to identify 
water-related aspects of the Administration's new initiatives in Global 
Climate Change, Food Security and Global Health. Beyond these new 
efforts, USAID has been engaged in a vigorous ongoing coordination and 
communication process within the Agency's Water Team, which is an 
informal coordination group with membership from all USAID functional 
and regional bureaus in Washington and all USAID missions overseas who 
are engaged in water sector activities, whether in health, economic 
growth, environment, energy, gender integration, agriculture, private 
sector business and finance or in other areas where water figures in 
development programs.

                            WOMEN AND GIRLS

    Question. For years, the Congress has tried to get USAID and the 
State Department to pay more attention to the needs of women and girls 
in our foreign aid programs. It has not been easy. This Administration 
seems to be more receptive, but good intentions do not always produce 
good results. How do you plan to address this issue?
    Answer. USAID is placing renewed emphasis on addressing the needs 
of women and girls throughout our foreign aid programs. Three areas in 
particular relate to staff training, new gender analysis and planning 
requirements, and the incorporation of gender considerations into new 
Administration initiatives, all reflecting USAID's renewed commitment 
to women and girls.
    With regard to USAID's new gender analysis and planning 
requirements, the Agency adopted new regulations in November 2009 that 
require gender analysis and the inclusion of gender within all of the 
Agency's program planning, monitoring, contracting, and evaluation 
processes. In 2010, guidance on these new regulations was created to 
ensure staff is familiar with the regulations and understand how to 
comply with them. USAID is now also training program officers, 
contracts officers, and field staff in these new regulations. The new 
regulations also require USAID Missions to conduct gender analyses. In 
2010, 20 gender assessments have been completed, are in process or 
planned, as compared to three completed in 2009, two in 2009 and three 
in 2007.
    In 2009, USAID also made it mandatory that all incoming Foreign 
Service Officers (FSOs) receive gender training. To date, 264 of 
USAID's junior FSOs have been trained. USAID also conducted gender-
based violence and trafficking in persons training for field staff from 
19 countries in February 2010 and several more field-based trainings 
are scheduled. USAID is reviewing ways to improve measuring performance 
toward achieving gender equality as part of our renewed focus on 
monitoring and evaluation.
    Finally, all of the Administration's new initiatives, Global 
Health, Global Climate Change, Global Engagement, and Feed the Future, 
have explicitly incorporated gender concerns. For example, the Feed the 
Future guide published in May 2010, emphasizes gender integration into 
all proposed food security investments. Global Climate Change 
Initiative (GCC) investments are being designed to promote women's 
participation in the development of community-level strategies to 
increase community resilience to climatic risks. The Global Health 
Initiative (GHI) includes significant increases for programs that serve 
women and girls, including maternal and child health, family planning, 
nutrition and HIV/AIDS. The GHI will also support long-term, systemic 
changes to remove economic, cultural, social and legal barriers and to 
expand opportunities to increase the participation of women and girls 
in decisionmaking in the health sector.

                             JUSTICE REFORM

    Question. USAID has spent many tens of millions--probably hundreds 
of millions--of dollars in what has often been a futile effort to 
reform dysfunctional justice systems around the world. We recognize 
that justice is fundamental to democracy and stability. One need only 
look at Central America today to see what happens when people know they 
can get away with murder, or where judges can be easily bribed or 
witnesses intimidated, to see the consequences. Violent crime and 
organized crime are flourishing.
    But without the political will to reform, we end up throwing away 
good money after bad. Haiti is another example. There has never been 
the necessary political will at the top and frankly, there still isn't. 
Do you agree that in order to reform a country's justice system the 
country's own Ministry of Justice needs to be serious about reform?
    Answer. Indeed, reform of the justice system requires a commitment 
to reform by the Ministry of Justice as well as the political will to 
reform other parts of the government. The justice system is an 
important element of a functioning, transparent and accountable 
government. The Ministry of Justice, along with other ministries and 
agencies responsible for advancing the rule of law, are keys to 
success; while civil service reform is also necessary to ensure that 
government workers--including police, prosecutors, judges, and prison 
officials--are paid a living wage. If governments do not undertake this 
type of reform, thus reducing incentives for corruption, corruption 
will destroy developmental gains that might otherwise be realized.
    Even in places where democracy is in its infancy or is struggling, 
it is possible to foster momentum for change. There will be those in 
the business, academic, faith, media and even government communities 
who can be rallied to support the necessary changes in the justice 
system. In some places, it may be that facilitating this momentum is 
``Job #1'' for USG representatives and other donors interested in the 
same result.
    One of the best ways to convince leaders that reform is in their 
best interest is through the empowerment of civil society. As civil 
society becomes stronger and civic education expands, citizens begin to 
understand the services that their governments should be providing and 
they are thus more likely to hold leaders accountable for their 
actions. This is not a quick process, but rather something that must be 
pursued with local change agents over a period of many years. Civil 
society empowerment should be a lynchpin for the USG's promotion of 
democracy, good governance, and the rule of law.

                           COUNTRY OWNERSHIP

    Question. USAID is using the term ``country ownership'' more and 
more. What does this mean in practice, and how does USAID's concept of 
country ownership differ from that of the Millennium Challenge 
Corporation?
    Answer. For USAID, in practice, there have been three main aspects 
to ``country ownership'': (1) host country commitments to good 
governance and policy reform; (2) the extent to which the host country 
is a partner in the selection, orientation and design, implementation, 
and monitoring and evaluation of the assistance program; and (3) the 
extent to which the host country invests in cost sharing arrangements 
to ensure the sustainability of the program. All of these aspects are 
relevant to both USAID and the MCC approaches to the delivery of 
foreign aid and are consistent with the growing body of knowledge on 
the link between country ownership and aid effectiveness.
    The MCC defines country ownership of an MCC compact as being ``when 
a country's national government controls the prioritization process 
during compact development, is responsible for implementation, and is 
accountable to its domestic stakeholders for both decisionmaking and 
results''. Their model emphasizes country ownership from the selection 
process, through compact design and implementation, using host nation 
systems at all stages of the compact.
    For USAID, the concept of country ownership--focused on host nation 
participation in formulating and designing aid programs--has always 
been an integral part of its program planning. For example, USAID's 
programming guidelines state that country development cooperation 
strategies which aim to promote transformational development must 
``align with host country strategies coordinated with a broad cross 
section of stakeholders, including the socially and economically 
disadvantaged.'' Importantly, USAID's historic operating model 
emphasized country presence specifically to work in collaboration with 
host country leaders and national stakeholders to build country 
capacity for development reforms. Bilateral Assistance Agreements have 
been used to set forth mutually agreed upon understandings between 
USAID and the host government of the timeframe, results expected to be 
achieved, means of measuring those results, resources, 
responsibilities, and contributions of participating entities for 
achieving defined priorities, goals and objectives.
    In light of our new approach to high-impact development and 
emphasis under the PSD-7 and QDDR exercises, USAID is currently 
reviewing its policies and business model to align them more 
intrinsically with aid effectiveness principles, including that of 
country ownership. We expect reforms in the way we do business to 
result in greater use of host country development strategies, planning 
and financial management systems, and accountability to their own 
citizens for results from development investments.

                              SELECTIVITY

    Question. One of the things I like about the MCC is that it 
requires governments to commit to do certain things if they want our 
aid, like taking specific steps to reduce corruption, or increase their 
own budgets for heathcare and education. Do you think USAID should 
require governments to meet these types of benchmarks of progress in 
return for our aid?
    Answer. In accordance with its charter, the MCC uses ex-ante 
indicators of performance as the basis for selection of country 
partners--a principle known as ``selectivity.'' Given the relatively 
limited set of partner countries in which MCC operates, this 
``selectivity'' has been useful as an incentive for potential partners 
to undertake their own reforms as a step toward eligibility for MCC 
assistance. USAID also considers ``selectivity'' to be important for 
the success of its transformational development programs, but works 
with a larger, more diverse universe of partners, and with a broader 
set of criteria. Key among a number of factors for selecting USAID 
partner country investments are: need, U.S. foreign policy interest, 
and the country's own development priorities and commitment to reforms. 
As such, USAID's approach to ``selectivity'' primarily informs 
decisions about how to engage, rather than whether to engage.
    As you know, the Obama administration is close to putting in place 
an overarching development policy. The policy is intended to focus 
strategically our goals and aspirations so that we can most effectively 
achieve them. We're already putting a new approach to high-impact 
development into practice in a number of core areas, including 
strengthening our ability to invest in country-owned models of 
inclusive growth and development success. We have learned from recent 
country examples, the experience of MCC and from efforts like the 
Spence Commission of the value of focusing on a set of areas critical 
to inclusive growth in countries that are reasonably well-governed, 
economically stable, globally connected and market-oriented. We 
anticipate working with MCC, State and others to identify such 
countries where the foundations for progress are in place. In this new, 
more focused approach, USAID may consider the use of additional policy 
benchmarks to help more reliably identify a recipient country's 
location along the development continuum. We may also learn from MCC's 
approaches to monitoring and evaluation and ex-ante cost benefit 
analyses to help achieve greater transformational impact.

                             GLOBAL HEALTH

    Question. One of the four main components of the Administration's 
Global Health Initiative is ``doing more of what works and less of what 
doesn't.'' One would hope that would be a requirement of every Federal 
program. Since the GHI began in 2009, has USAID ended any programs or 
activities that were not working, that has resulted in significant 
savings? Have any new initiatives achieved better results?
    Answer. Learning and accountability are critical to the success of 
the GHI, and we are increasing the rigor and transparency of monitoring 
and evaluation, with an emphasis on using data to help us identify 
critical problems and improvements throughout our programs. This lens 
will apply for both new and innovative approaches, as well as for those 
existing programs that may benefit from adjustments and improvements.
    We place strong emphasis on close tracking and evaluation because 
that ongoing process, in close dialogue with the country teams, will 
permit us to learn, respond and ultimately have tailored programs that 
are ``smarter,'' with greater country ownership, more partners, and 
more efficient and effective approaches than we would have designed in 
a ``blueprint'' manner. In GHI, as across this Administration's 
development agenda, the findings from evaluations will be shared with 
decisionmakers in ways that are intended to create the best information 
for effective programming in the future.
    As part of our efforts to ensure country-led programs, we expect 
and welcome programs that are designed at the country level to best 
respond to the specific disease and health systems priorities in that 
country. Since the GHI's inception, we have not ended programs or 
activities, but as we continue to work on the country-level roll-out, 
we will work with our country colleagues to hone and sharpen our 
existing efforts while learning from new and innovative approaches.

                       MATERNAL AND CHILD HEALTH

    Question. The European medical journal The Lancet recently reported 
that global maternal mortality deaths have decreased by 40 percent 
since 1980. But there are still about 350,000 cases of preventable 
maternal deaths annually around the globe.
    There are some who want to cut foreign aid. This is one area where 
those who care about women, children, and families can point to life-
saving results. The Administration has requested $700 million for 
maternal and child health programs in fiscal year 2011, a significant 
increase of approximately $225 million over the fiscal year 2010 level. 
What do you plan to do, and what do you expect to accomplish, with this 
additional money?
    Answer. The additional funding will allow USAID to:
    Advance coverage of life-saving interventions in up to 31 countries 
\2\ that are a priority for USAID MCH programs.
---------------------------------------------------------------------------
    \2\ India, Cambodia, Indonesia, the Philippines, Bangladesh, Nepal, 
Pakistan, Tajikistan, Afghanistan, Azerbaijan, Yemen, Ethiopia, Sudan 
(southern), Uganda, Rwanda, Mali, Nigeria, Senegal, Liberia, Ghana, 
Benin, Democratic Republic of the Congo, Zambia, Mozambique, Malawi, 
Tanzania, Madagascar, Kenya, Haiti, Guatemala and Bolivia.
---------------------------------------------------------------------------
    The evidence suggests that focusing on the major causes of 
maternal, newborn and child mortality with simple interventions could 
prevent about two-thirds of child deaths, up to two-thirds of newborn 
deaths, and a large fraction of maternal deaths globally.
  --Some longstanding proven interventions need reinvigoration. For 
        example, USAID will focus on increasing oral rehydration 
        therapy (ORT) for diarrhea, including the use of zinc as an 
        adjunct to ORT, in those countries where ORT use rates are 
        stagnant or falling.
  --Other interventions need to be introduced or are ready to be scaled 
        up, such as:
    --Active management of the third stage of labor (AMTSL) to prevent 
            postpartum hemorrhage (PPH): USAID will expand full 
            provision of this intervention (that can reduce PPH by up 
            to 60 percent) to 75 percent of facility-level births in 
            Mali, Mozambique, Malawi, Nigeria, Kenya, Mali, Tanzania 
            and Bolivia. (In a multi-country survey of 10 countries in 
            2008, full application of AMTSL ranged from <1-31 
            percent.);
    --Management of severe preeclampsia/eclampsia with magnesium 
            sulfate in facilities.--USAID will apply this life-saving 
            intervention in up to 10 countries (with possible expansion 
            to community level in 2 or 3 countries);
    --Essential newborn care and resuscitation.--These life-saving 
            interventions will be introduced and a phased-in scale up 
            will be launched in up to 13 countries, with substantial 
            potential for public-private partnership with a 
            manufacturer of innovative low-cost equipment for newborn 
            resuscitation in several;
    --Integrated community case management (CCM) of malaria, diarrhea 
            and pneumonia.--USAID will introduce or scale up case 
            management in Cambodia, Nepal, Benin, the Democratic 
            Republic of the Congo, Ethiopia, Ghana, Malawi, Mozambique, 
            Rwanda, Senegal and Zambia. In five of these countries, 
            USAID will introduce rapid diagnostic tests for malaria to 
            increase appropriate treatment of children with fever; and
    --Community-led total sanitation and sanitation marketing.--USAID 
            will support these new behavior-focused approaches to 
            improving sanitation in health programs in up to five 
            countries.
    Increase coverage of care by frontline healthcare providers, 
especially midwives and community health workers, to provide the 
evidence-based interventions essential for mortality reduction.
    Gaps in human resources for health, in terms of numbers, skill mix 
and distribution, continue to pose a challenge for effective service 
delivery, particularly in underserved rural areas. While the human 
resource deficit is serious, there has been progress, particularly in 
Asia, but the problem in Africa is more challenging. USAID will:
  --Disseminate evidence on the effectiveness of alternative financing 
        approaches, such as community-based health insurance and 
        waivers of fees to increase the use of skilled birth 
        attendants. USAID's contribution to this dynamic field will 
        influence key policy decisions by governments for use of their 
        own and donor resources to reduce the financial barriers for 
        families to access skilled care;
  --Accelerate the training and supervision of community health workers 
        (CHWs), who can be extremely effective in providing preventive 
        and curative care that saves lives. USAID expects to apply the 
        newly developed and pilot-tested CHW Functionality Tool in 
        approximately five countries to catalyze policies and focus 
        effort on the weakest components of national CHW programs; and
  --Expand support to midwifery pre-service education programs in five 
        to seven sub-Saharan African countries, initiating or 
        strengthening accreditation systems, to unlock the unending 
        cycle of need for in-service training to develop basic skills.
    Invest in health systems that advance rational policies and improve 
individual and organizational capacity for sustainable development.
    USAID will selectively strengthen components of the health system 
critical to delivering the high-impact interventions needed to reduce 
child and maternal mortality. USAID will:
  --Expand support for the effective implementation of systems of 
        procurement, storage and delivery of key pharmaceuticals and 
        other essential commodities;
  --Rapidly expand quality improvement systems, including standards-
        based management and collaborative approaches in 15 countries--
        including Afghanistan, Pakistan, Malawi and Tanzania--as well 
        as other innovative approaches to increase incentives to 
        improve service delivery such as pay-for-performance; and
  --Expand activities to address the long-term sustainability of 
        national health systems by strengthening the capacity of 
        national and sub-national ministries of health to ensure 
        services that are effective, non-discriminatory and responsive 
        to local needs.
    Target the most vulnerable as maternal and child health programs 
are expanded, many of whom give birth and are treated for illness in 
the community setting.
    USAID will expand delivery of evidence-based interventions into 
communities where the poor and vulnerable face death outside of formal 
healthcare facilities. This will include enhancing the advocacy, 
policy, planning and budgeting capacity to support a basic package of 
integrated services that emphasizes the MCH needs of vulnerable women 
and children, while also--in line with Global Health Initiative (GHI) 
core principles--fostering women's leadership, empowerment and access 
to these critical services. USAID will:
  --In six countries, introduce misoprostol, an effective uterotonic, 
        to prevent post-partum hemorrhage in home deliveries where 
        AMTSL cannot be provided by a skilled birth attendant;
  --Promote the management of newborn infections with antibiotics by 
        trained CHWs in seven countries; and
  --Disseminate and promote examples of effective CHW programs--such as 
        in Nepal where maternal mortality declined by 48 percent within 
        10 years and where antibiotic treatment for pneumonia by CHWs 
        has contributed to dramatic reductions in child mortality--to 
        policymakers and programmers in other countries and supporting 
        development of national programs adapted from effective models.
    Expand monitoring and evaluation to ensure that results of USG 
investments are documented in a transparent way and lessons learned 
incorporated into our programs.
    Investing in regular, as well as intermittent, independent 
monitoring and evaluation of MCH programs is essential to improve 
health outcomes by tailoring approaches based upon evidence. USAID will 
enhance health information systems to:
  --Improve tracking of availability and stock-outs of drugs and other 
        critical commodities;
  --Improve routine and periodic systems for measuring progress in all 
        priority countries;
  --Better assess the quality of care being delivered; and
  --Monitor access to services and health outcomes, as an input to 
        formulate sound policies and as a means to ensure 
        accountability for results to donors.
    Expanded and accelerated monitoring will take place in all priority 
countries so that key indicators for tracking progress will be 
available for all 31 emphasis countries on an annual basis.
    Continue to support major international research and the 
advancement of new technologies and approaches to enhance MCH program 
effectiveness.
    To improve programs in the long run and to tackle some of the key 
problems facing health programs in diverse environments, it is 
essential to find and test innovations. New technologies and approaches 
are needed. Importantly, many of the most vulnerable choose to avoid or 
are geographically and culturally distanced from modern medicine. USAID 
will expand its work in finding innovations--both technological and 
human--to reach these vulnerable people. Additional funding will allow 
for a new generation of approaches to be investigated and further 
developed, such as:
  --Cell phone and other communication technology (for communicating 
        health messages, enhancing client care at a distance, improving 
        the functioning of the referral system for obstetric and 
        newborn emergencies, etc.);
  --New diagnostics and preventive approaches, such as a simple test to 
        detect risk for impending eclampsia and other risk 
        identification for pregnant women and newborns;
  --Improved therapeutic approaches, such as starting preeclampsia and 
        eclampsia treatment in the community with a loading dose of 
        magnesium sulfate before transfer to a hospital for definitive 
        care; and
  --Effective behavior change strategies for client behaviors, such as 
        stopping harmful infant nutrition practices, and for provider 
        behaviors, such as eliminating demeaning and abusive behavior 
        toward childbearing women.
    In all countries, regions, and global programs--consistent with the 
principles of the GHI--USAID will expand coordination and strategic 
integration of MCH programs with malaria, HIV/AIDS, and family planning 
programs, as well as strengthen partnerships with multilateral 
organizations, and other international and in-country partners. USAID 
will strengthen existing and build new public-private partnerships for 
the development and introduction of innovative health technologies and 
approaches, such as oxytocin Uniject to prevent postpartum hemorrhage, 
new methods of delivering chlorine-based drinking water disinfectants, 
and promotion of hand washing among caregivers as an important measure 
to prevent severe newborn infection.
    Ultimately, the impact of this work, along with investments prior 
to and after fiscal year 2011, will be measured in terms of mortality 
and lives saved by many countries in 2015 to document progress or 
attainment of Millennium Development Goals 4 and 5. In the interim, 
USAID will provide evidence from all countries of improved policies to 
promote evidence-based practices, better quality of care, increased 
uptake of services by the poor, and increased use of life-saving 
interventions.

                                  H1N1

    Question. At the beginning of the H1N1 outbreak there was 
difficulty in obtaining antivirals in desired quantities. Does USAID 
currently have any plans to acquire antivirals to help combat H1N1 
globally and in places like West Africa where the virus is currently 
spreading? If no, please explain. If yes, how will USAID determine the 
proper amount of antivirals to acquire? Does USAID have long-term plans 
to acquire antivirals to distribute to affected countries to combat 
future pandemics?
    Answer. At present, USAID does not have any plans to stockpile 
antivirals. Because the World Health Organization (WHO) was able to 
independently establish a stockpile of more than 10 million doses of 
Tamiflu, it was determined that this stockpile was adequate for the 
current global needs and no USAID funds were required for this purpose. 
We are in constant contact with WHO and we monitor the situation very 
closely to determine if any USAID assistance in the stockpiling of 
antivirals is required. If assistance is required, USAID would support 
WHO's ability to procure the needed antivirals. USAID stands ready to 
assist WHO in drug distribution, should that be necessary. We have 
played a major role in the area of vaccine and ancillary commodity 
distribution and can expand that role to antivirals if needed. USAID 
will continue to work with the other USG agencies and international 
organizations to determine the appropriate measures needed and how to 
best meet those needs.
    With respect to sub-Saharan Africa, USAID is working very closely 
with countries and international organizations to support improved 
surveillance of influenza through the provision of laboratory equipment 
and supplies, as well as supporting vaccination programs for health 
workers and pregnant women. By the end of May 2010, USAID will have 
supported the delivery of more than 40 million doses of the H1N1 
vaccine and ancillary materials to more than 60 countries worldwide. 
Additionally, USAID is supporting a global laboratory network to 
monitor the impact of the H1N1 virus as it spreads around the world, 
with a special focus in upgrading the surveillance and laboratory 
capacities of 26 countries in West and Central Africa and Central and 
South America--where such capacities were previously non-existent. 
While we are watching the situation in Africa very closely, sub-Saharan 
Africa only constitutes about 3 percent of the total number of H1N1 
cases worldwide and less than 1 percent of the deaths attributed to 
H1N1. Strengthening the ability of countries to accurately detect H1N1 
cases and monitor any changes in the trends of these cases is critical 
to rapid and effective response. USAID is constantly monitoring the 
trends in all regions and is prepared to mobilize support should the 
situation change significantly.
                                 ______
                                 
               Question Submitted by Senator Tim Johnson

                  WHEAT STEM RESISTANCE WHEAT VARIETY

    Question. This appropriations cycle I have requested additional 
funds for USDA to develop a Ug99 wheat stem resistance wheat variety. 
Can you tell me how agriculture programs at USAID complement the 
research conducted at USDA? Ug99 would be devastating to my South 
Dakota producers, as well as producers throughout the world. What is 
your plan for developing a Ug99 wheat resistant variety?
    Answer. USAID has been the lead international development agency in 
responding to the wheat stem rust alarm first raised by Dr. Norman 
Borlaug some 5 years ago. After almost 50 years of durable resistance 
to this most dreaded disease of wheat, Ug99 appeared as a virulent new 
strain that threatened food security in Africa, the Middle East and 
South Asia, but ultimately could greatly harm America's farmers as 
well. The disease has not yet reached an epidemic stage, but with the 
right environmental conditions in South Asia, a food security disaster 
could result, including setting the stage for a global pandemic of Ug99 
that would probably reach the U.S. wheat belt.
    To prevent this from happening, USAID has provided some $20 million 
in the last 5 years for wheat research by the Consultative Group on 
International Agricultural Research (CGIAR), in partnership with U.S. 
universities and USDA's Agricultural Research Service, to identify and 
rapidly deploy resistance genes. USAID also supported expanded efforts 
by USDA's Cereal Disease Laboratory in St. Paul to identify new sources 
of resistance to the pathogen. USAID and USDA also supported screening 
trials in disease hot-spots in East Africa, where global wheat 
varieties--including those from the United States and Canada--were 
screened for both susceptibility and resistance. It is estimated that 
over 80 percent of the world's wheat varieties are susceptible, a fact 
that underscores the severity of the threat. In addition, the Bill and 
Melinda Gates Foundation established the Borlaug Global Rust 
Initiative, which links to both USAID and USDA, to respond to this 
threat and put in place expanded ability to monitor and control wheat 
rust pathogens in the future.
    CGIAR wheat breeding efforts have made excellent progress. Using 
the latest molecular techniques and genetic information from 
international partnerships, new varieties of wheat that are resistant 
to the new strain have been developed, forming a first line of defense 
against a potential epidemic. Over the last 2 years, USAID has deployed 
over $5 million in specially authorized ``Famine Funds'' to rapidly 
multiply and scale up production of resistant wheat seed in 
Afghanistan, Pakistan, Nepal, Egypt and Ethiopia. We also have a 
partnership with India, which brings its own considerable resources to 
the effort. In addition, we also are working with global partners as 
part of a disease-surveillance effort to monitor movement of the 
disease, which has now moved as far as east Iran.
    It is important to recognize that, while we have taken vital steps 
and made good progress, more work is needed to build back the ``durable 
resistance'' that Dr. Borlaug achieved in the Rockefeller Foundation's 
wheat program in Mexico in the 1950s--the forerunner of CGIAR. USAID 
has worked closely with USDA's Agricultural Research Service, U.S. 
universities and researchers in Australia, India and elsewhere around 
the world to ensure that resistant varieties are developed and food 
security protected. All of the resistant materials and genetic 
information about the disease and resistance to it are freely available 
from the various partners, especially the CGIAR, which has an explicit 
focus on sharing its products and information. These new sources of 
resistance are being used in USDA and U.S. university wheat breeding 
programs to develop varieties adapted to U.S. growing environments. 
Taken together, our overseas work aimed at protecting food security in 
the developing world is also helping to ensure that U.S. farmers 
continue to have access to high-yielding, resistant wheat varieties 
with the qualities our markets demand. Similarly, U.S. scientific 
capabilities are being shared through research collaborations around 
the globe, helping to strengthen food security.
                                 ______
                                 
           Questions Submitted by Senator Frank R. Lautenberg

                          HAITI RECONSTRUCTION

    Question. In the reconstruction process in Haiti, what is being 
done to enable local, community-based organizations to access funds?
    Answer. USAID recognizes that its work in the longer-term recovery 
and reconstruction phase must be both transparent and participatory. 
Therefore, USAID is developing a procurement strategy that will support 
transformational change in Haiti.
    This procurement strategy will support the humanitarian response as 
well as the recovery and reconstruction phases in a way that is both 
country-led and builds local capacity. The following outlines 
procedures that are designed to ensure transparency, efficiency and 
broader outreach to attract new partners.
    For example, our New Partners Initiative: The USAID procurement 
strategy encourages and provides for greater use of local NGOs, and 
U.S. small, minority and women-owned businesses, and seeks to tap the 
expertise and energy of the Haitian-American community. Assessments of 
local NGOs are conducted and technical assistance provided to build 
their organizational capacity to receive direct awards. Direct 
engagement with the U.S. Haitian-American community helps the Diaspora 
understand the U.S. foreign assistance strategy and how to do business 
with USAID. Set-asides for U.S. small, minority and women-owned 
businesses will be maximized and public-private partnerships will be 
promoted.
    Question. How are you making certain that the large majority of the 
recovery and reconstruction funds for Haiti are going to services, 
supplies or other direct benefits and not organizational administrative 
costs?
    Answer. USAID shares Congress' intent to get as many resources as 
possible into the hands of Haitian organizations and communities to 
achieve the goal of ``building Haiti back better.'' We are committed to 
working with a variety of organizations in the recovery and 
reconstruction effort, including local Haitian, Diaspora, American and 
international organizations.
    Working successfully toward results in difficult environments takes 
deliberate planning and considerate amounts of coordination at all 
levels. For this, development programs require some level of 
administrative support that provides for an effective and efficient 
infrastructure, designed to allow the program to reach its end goals. 
Salaries for local Haitian employees, for example may be considered an 
administrative cost. Yet, these costs also directly benefit the economy 
of Haiti.
    USAID is working diligently to maximize resources going directly to 
benefit the people and country of Haiti through careful negotiation of 
our grants and contracts and continuous oversight during 
implementation. USAID makes every effort to minimize fixed 
administrative costs when negotiating new mechanisms so that USG 
resources reach the maximum number of beneficiaries possible. This 
includes requesting mandatory cost share contributions and leveraging 
resources with the private sector to offset administrative costs.
    Question. What role will environmental issues such as reforestation 
play in the long-term recovery plan for Haiti?
    Answer. Root causes of environmental disaster in Haiti include 
acute poverty, rapid population growth and unplanned urbanization. In 
the short term, it is critical to convert hillsides to tree-based 
perennial agriculture to improve soil conservation. Lessons learned 
from decades of reforestation programs demonstrate that, if a tree has 
value, a farmer is likely to maintain and manage it; if not, it will 
likely disappear. Therefore, strengthening tree crop value chains is an 
approach with proven ability to restore degraded landscapes.
    USAID/Haiti's Watershed Initiative for National Natural 
Environmental Resources (WINNER) Project, an agricultural and watershed 
management program, applies best practices such as this. WINNER is 
already active in the Cul-de-Sac watershed where Port-au-Prince is 
located, as well as the Cabaret, Mirebalais, Archaie and Gonaives 
regions of Haiti. WINNER was underway prior to the January 12, 2010 
Haiti earthquake and was modified to immediately address post-
earthquake needs. The United States will continue to invest a total of 
$126 million in the project over the next 5 years. WINNER is 
strengthening the value chains for tree crops and focusing on tree 
crops with high value (such as mango) as these are effective incentive 
to hillside farmers to plant and manage perennial crops.
    In addition to tree crops, the USG strategy in Haiti also includes 
plans to promote cleaner and more efficient cooking technologies, such 
as liquid petroleum gas (LPG), to decrease charcoal consumption and 
reduce the rate of deforestation and environmental degradation. After 
completing a rigorous assessment of the potential market for improved 
cooking technologies, the USG will implement a program that will 
address market barriers such as high upfront costs or lack of awareness 
and achieve large-scale reduction of charcoal consumption over a 5-year 
period. Beneficiaries are likely to include households, food vendors 
and energy-intensive businesses such as laundries and bakeries.
    Finally, a Programmatic Environmental Assessment will be conducted 
for proposed earthquake reconstruction activities, which will pay close 
attention to addressing these issues across the mission's portfolio of 
projects.

                        EMERGENCY CONTRACEPTION

    Question. Do you plan to add emergency contraception to the list of 
contraceptive commodities available for purchase by USAID missions and 
to make funds available to do so?
    Answer. USAID-supplied oral contraceptive pills are among the FDA-
approved formulation that can be used for emergency contraception (EC). 
While USAID does not currently procure a dedicated EC product as part 
of its contraceptive commodity procurement program, USAID supplies 
information about the use of EC in a variety of its technical and 
training materials and supports sharing information about this 
contraceptive option with family planning clients in countries where EC 
is an approved contraceptive method. USAID has supported biomedical 
research on the mechanism of action, use, and effectiveness of EC, and 
in some countries supported operations research programs to determine 
EC use and need.
    While there is no current plan to add EC commodities to the list of 
commodities available for purchase by USAID, the Agency is currently 
reviewing its procurement policy and guidelines with respect to 
programming EC.
                                 ______
                                 
              Questions Submitted by Senator Arlen Specter

                     INFLUENZA PANDEMIC PREPARATION

    Question. I have been a consistent proponent of aggressive 
preparedness efforts at the Federal, State and local levels to reduce 
the threat of an influenza pandemic, and have worked with a series of 
HHS Secretaries--Secretaries Thompson, Leavitt and now Sebelius--to 
ensure that Congress provides the adequate resources to defend our 
country against a pandemic. As pandemics are global by definition, I 
know that USAID plays a major role in our preparation efforts.
    With regard to H1N1, in late February 2010, the World Health 
Organization elected to hold at the phase 6 pandemic alert level rather 
than move to a post-peak phase. As I understand it, the WHO experts 
based this decision on evidence of new spread of the H1N1 virus in West 
Africa, and the possibility of a second wave of illnesses as the 
Southern Hemisphere enters its winter months. I am also still keeping 
my eye on H5N1, which has already claimed lives in Egypt and Vietnam 
this year and has been reported in several other countries.
    I know USAID has taken steps to acquire pre-pandemic vaccines to 
combat these viruses on a global scale, and I applaud this effort. 
However, I am also aware of the important role of antivirals, such as 
Tamiflu, in combating influenza pandemics. It is my understanding that 
last year, USAID considered acquiring antivirals for the purpose of 
distribution to countries affected by the pandemic, but did not move 
forward because of a sense that H1N1 had waned.

             LONG-TERM PLANS TO COMBAT SPREAD OF PANDEMICS

    What actions is USAID taking to counter the spread of H1N1 in 
regions seeing growing incidence of H1N1, such as West Africa? Does 
USAID currently have any plans to acquire antivirals to help combat 
this spread? If not, why?
    Answer. In fiscal year 2009, USAID programmed a total of $85 
million to address the H1N1 virus, of which $50 million was 
appropriated as an emergency supplemental and $35 million was 
reprogrammed from USAID's regular fiscal year 2009 Avian and Pandemic 
Influenza (API) appropriation. USAID worked closely with other USG 
departments to coordinate efforts. USAID funds were allocated to 
activities that were best suited for USAID's comparative advantage and 
in support of activities that were being conducted by other government 
entities. These funds have been used to support three lines of H1N1 
related work:
  --Deployment of the H1N1 vaccine and related ancillary materials 
        (syringes, needles, etc.). By the end of the May 2010 we expect 
        to have supported the delivery of more than 40 million doses of 
        the H1N1 vaccine and ancillary materials to more than 60 
        countries;
  --Support for a global laboratory network to monitor the impact of 
        the H1N1 virus as it spread around the world, with a special 
        focus on upgrading the surveillance and laboratory capacities 
        of 26 countries in West and Central Africa and Central and 
        South America--where such capacities were previously non-
        existent; and
  --Support for community-based, non-pharmaceutical interventions in 28 
        countries through a coalition of the International Federation 
        of Red Cross Societies, UN partners and NGOs.
    Because the World Health Organization (WHO) was able to 
independently establish a stockpile of more than 10 million doses of 
Tamiflu, no USAID funds were used for this purpose. We are in constant 
contact with WHO and monitor the situation very closely to determine if 
any USAID assistance in the stockpiling of antivirals is required. At 
present no USAID funds are required for this purpose.
    Question. How does the acquisition and stockpiling of antivirals 
fit into USAID's long-term plans to combat future pandemics?
    Answer. At present, USAID does not have any plans to stockpile 
antivirals in fiscal year 2011. The WHO stockpile is determined to be 
sufficient for combating future outbreaks. If this situation should 
change, USAID will work with the other USG agencies to determine the 
appropriate measures needed and how to best meet those needs.
    In fiscal year 2011, USAID plans to support the global laboratory 
network for continued monitoring of the H1N1 virus; these laboratory 
platforms would also be supported for monitoring of the emergence of 
other new dangerous pathogens. USAID is also continuing to focus on 
community based preparedness and non-pharmaceutical interventions that 
can be put into practice in the event of a pandemic.
                                 ______
                                 
              Questions Submitted by Senator Sam Brownback

                      DEMOCRATIC REPUBLIC OF CONGO

    Question. I sent you a letter in February about USAID's programs 
and capacity to help address the underlying causes of conflict in the 
Democratic Republic of Congo, specifically the exploitation of minerals 
by armed groups. Your reply to that letter mentioned that your staffing 
resources ``may not be sufficient to cover the complex minerals 
situation'' and that USAID was considering hiring a ``senior mining 
specialist.'' First, does USAID's Mission in the DRC have sufficient 
capacity and resources to focus on the resource dimensions of the 
conflict? And if not, does USAID's budget request for the DRC reflect 
these needs? Also, has USAID hired a senior mining specialist and is 
this position reflected in USAID's budget request?
    Answer. The USAID Mission is currently exploring options to add a 
dedicated senior mining expert. At the same time, our fiscal year 2011 
budget request for DRC focuses on post-conflict programming to 
strengthen institutions of democracy and governance (notably justice 
reform), economic growth (with an emphasis on agriculture and food 
security), basic education and responding to sexual and gender-based 
violence.

                         LORD'S RESISTANCE ARMY

    Question. What USAID programs and resources are currently dedicated 
to addressing the violence perpetrated by the Lord's Resistance Army 
and assisting affected communities? Does USAID's fiscal year 2011 
budget request include resources to assist communities affected by the 
LRA?
    Answer. USAID programs in Haut and Bas Uele Districts (Orientale 
Province) currently fall in the realm of humanitarian assistance, due 
to limited access and a security situation that precludes 
stabilization, recovery, and development programming. USAID has 
responded favorably to the World Food Program's Emergency Operation of 
LRA-affected areas of Orientale Province, with a nearly $4 million 
contribution in fiscal year 2010 funds.
    Current programs of USAID's Office of U.S. Foreign Disaster 
Assistance include:
  --Premiere Urgence, Agriculture and Food Security, $2,105,085;
  --Mercy Corps Economic Recovery and Market Systems Orientale 
        Province, $980,920; and
  --WHH Agriculture and Food Security, Economic Recovery and Market 
        Systems Orientale Province, $1,998,755.
    USAID anticipates the need to program additional food and non-food 
humanitarian assistance from fiscal year 2011 FFP and OFDA 
appropriations. USAID's constraints in responding to LRA-affected 
populations are directly related to security and access. It remains 
virtually impossible to implement programs in LRA-affected areas 
without putting the beneficiaries and implementers at serious risk of 
being targeted.

                      DEMOCRATIC REPUBLIC OF CONGO

    Question. What specifically is USAID doing to address the conflict 
minerals problem and how does this fit within USAID's budget request 
for the DRC? What are the current programs within USAID to improve the 
livelihood prospects of communities affected by human rights abuses in 
eastern Congo, particularly victims of sexual and gender based 
violence?
    Answer. Illicit trade in minerals is a diplomatic and strategic 
challenge. Armed groups and renegade elements of the Congolese army 
control many of the mining sites and transit routes, while other 
militias are tied to elements in nearby countries. The ``U.S. 
Government Strategic Action Plan on Conflict Minerals in the Eastern 
Democratic Republic of the Congo'' includes diplomatic and strategic 
responses as well as use of foreign assistance to strengthen 
institutional and regulatory capacity to formalize trade in minerals 
and socio-economic activities for affected communities.
    USAID's analytical work contributed to the knowledge base around 
this complex set of issues and our programming supports key sectors 
such as improved governance, rule of law and economic development which 
are all essential to addressing the underlying vulnerabilities which 
allow conflict to be fueled through the rich resource base of the DRC. 
A number of USAID programs in southern and eastern DRC have sought to 
address issues, such as reintegration of ex-combatants and community-
based economic recovery in conflict-affected areas as well as improved 
local governance of resource revenues. Comprehensive reintegration 
programs reduce the likelihood that ex-combatants will be recruited 
into illicit enterprises or re-recruited into armed groups that control 
much of illegal minerals trade.
    In support of the Strategic Action Plan on Conflict Mining, State 
and USAID are currently considering program options to: (1) strengthen 
trade route monitoring, through police training, to secure borders and 
track movement of resources; (2) develop safe transit routes through 
construction and rehabilitation of key roads; and (3) promote 
strategic, regulatory, and institutional reforms to formalize minerals 
trade and develop systems of traceability.
    In communities affected by human rights abuses, USAID promotes 
humanitarian assistance programs and supports stabilization and 
recovery through the use of Economic Support Funds and Public Law 480 
developmental food aid programs.
    USAID's fiscal year 2011 budget request does not specifically 
request funding to combat illicit mining. The ESF request, which 
includes funding for agriculture, microenterprise, water, and 
education, focuses on post-conflict programming to strengthen 
institutions of democracy and governance (notably justice reform), 
economic growth (with an emphasis on agriculture and food security), 
basic education and responding to sexual and gender-based violence.
    With respect to livelihoods for affected communities, USAID has 
requested fiscal year 2011 funding for stabilization and recovery ($2 
million), Sexual and Gender Based Violence ($2.5 million) and Public 
Law 480 Development Food Aid ($30 million).
Humanitarian Assistance
    In fiscal year 2010 to date, USAID has provided more than $6.3 
million in humanitarian assistance, for agriculture and food security, 
health, nutrition, protection, and water and sanitation programs in the 
DRC. In fiscal year 2009, USAID provided nearly $34 million for 
humanitarian programs, many of which remain ongoing and include 
activities such as agriculture and food security, economic recovery and 
market systems, humanitarian coordination and information management, 
health, logistics and relief commodities, nutrition, protection, 
shelter and settlements, and water, sanitation, and hygiene program.
Stabilization and Recovery
    Programs to improve livelihoods are an integral part of USAID's 
stabilization and recovery programs, which support the return, 
reintegration and recovery and extension of state authority components 
of the International Security and Stabilization Support Strategy for 
Eastern DRC. International efforts are focused around six strategic 
axes, which include vital links to key mining areas.
    In fiscal year 2008 and fiscal year 2009, USAID received 
supplemental appropriations which allowed us to support the following 
two projects:
  --The Promote Stabilization and Ex-Combatant Reintegration in North 
        and South Kivu project ($8.2 million), which is in its early 
        stages, targets 30 communities for peace-building and 
        reconstruction activities.
  --The Support to the Stabilization Strategy along the Rutshuru-
        Ishasha Axis project ($5 million) has completed rehabilitation 
        of 63 kms of road on one of six strategic axes (Rutshuru-
        Ishasha), allowing freedom of movement, trade and economic 
        opportunity for at least 1 million people. The construction or 
        rehabilitation of 13 administrative buildings, which will allow 
        Congolese local government officials to deploy and provide 
        services to the population, is ongoing. The construction has 
        created 550 short term jobs, and direct cash inflows into 
        communities from these workers of approximately $200,000.
            Development Food Aid
  --Three Publicl Law 480, Title II, Multi-Year Assistance Programs 
        ($42 million) provide employment and support recovery of 
        livelihoods in eastern DRC. In South Kivu, USAID funds a 
        program to reduce food insecurity, focusing on female-headed 
        households and returnees.
  --In Northern Katanga, we manage a program to reduce food insecurity 
        and in Goma, North Kivu, our program is designed to improve the 
        food security status of vulnerable households and improve 
        access to potable water.
            Social Protection
  --USAID is providing 6,000 women with income generating and vocation 
        training through our 3-year project called ESPOIR (Ending 
        Sexual Violence by Promoting Opportunities and Individual 
        Rights, $7 million).
  --A different project ($4.9 million) is providing income generating 
        activities and professional training for almost 4,000 women 
        affected by SGBV.
  --A third project ($3.2 million) helps several hundred abducted 
        children (who are often victims of sexual violence) per year 
        return to school and engage in income generating activities. 
        USAID also assists communities with food insecurity issues with 
        particular attention given to female-headed households.
            Livelihoods in the Mining Sector
  --Good examples of programs addressing these underlying 
        vulnerabilities are our comprehensive reintegration programs 
        that reduce the likelihood of recruitment of ex-combatants into 
        illicit enterprises or re-recruitment into armed groups that 
        control much of illegal minerals trade. Additionally, USAID has 
        implemented an innovative program to improve governance and 
        reduce conflict associated with the exploitation of mineral 
        resources. The program, a public-private partnership which 
        leverages USAID funds, coupled with a larger private sector 
        contribution by reputable mining companies operating in Katanga 
        and focused on fostering corporate social responsibility and 
        supporting alternative livelihoods for artisanal miners, who 
        were operating in some cases illegally on private company land. 
        The program also addresses critical human rights issues around 
        the mining sites and strengthens conflict resolution mechanisms 
        among artisanal miners. In addition, the program creates local 
        development funds, which are in line with Congolese local 
        government reform processes, in order to ensure that taxes 
        gleaned from legal mining are invested back into community-
        driven development programs thus supporting economic and social 
        development objectives as well as good governance objectives.
  --The success of this intervention led to the establishment of a 
        joint U.S.-DRC Development Credit Authority activity ($378,000) 
        to provide up to $5 million in loan guarantees for small and 
        medium-scale enterprises in the key mining province of Katanga, 
        where access to credit was practically nonexistent.
  --In Bafwasende, Orientale Province, where U.N. peacekeepers, the 
        FARDC, and Mai Mai rebels all operated on a nature reserve rich 
        with valuable minerals, USAID supported a program based on 
        community-driven anti-corruption committees. The program 
        focused on conflict resolution and succeeded in getting the Mai 
        Mai to disarm, demobilize and stop pillaging the resources of 
        the reserve. The lessons learned from this project are 
        applicable to eastern DRC.
  --In addition to work with artisanal miners through the public-
        private partnership, USAID has also supported stand-alone 
        programs focused on the unique challenges of artisanal miners. 
        For example, in the town of Kolwezi in the southern Katanga 
        copper belt, one project ($597,000) seeks to (1) promote 
        reconciliation, cooperation, and understanding among artisanal 
        and small-scale mining-related institutional actors; (2) 
        prevent conflicts and risks to communities over resource access 
        and use; (3) improve access to, and awareness of, pertinent 
        mine legislation; and (4) establish a conflict resolution 
        mechanism for disputes and conflicts. The lessons learned and 
        best practices distilled from this and other innovative 
        programs have been used to inform the design of a new multi-
        million dollar, multi-donor, multi-year program focused on the 
        mining sector in the East. Called PROMINES, it is supported by 
        the World Bank and the UK's Department for International 
        Development (DfID). USAID is currently not contributing funding 
        to this project, but is exploring options for future support.

                    ECONOMIC SUPPORT FUND FOR SUDAN

    Question. Can you please explain why there is a decrease in the 
budget request for the Economic Support Fund for Sudan, an account that 
among other things is used for programs to promote basic education and 
help build infrastructure in Southern Sudan?
    Answer. The decrease in the Economic Support Fund (ESF) account 
from fiscal year 2010 to fiscal year 2011 is primarily due to the 
decreased need for resources in fiscal year 2011 to fund activities 
that support the remaining major power-sharing benchmarks of the 
Comprehensive Peace Agreement (CPA) such as public administration, 
civic participation and international observation. The overall decline 
in ESF however, does not signify a decrease in highly-needed programs 
to increase access to education or improve infrastructure.
    Per the CPA, the national elections, popular consultations and 
referenda processes in Sudan were to take place sequentially and be 
completed by January 2011. Originally scheduled for July 2009, the 
election was delayed four times before the April 2010 schedule was 
announced and implemented. USAID supported electoral activities with 
ESF from fiscal year 2008 regular appropriations, and fiscal year 2008 
and fiscal year 2009 supplemental funds. At the moment, the timeline 
for the referenda in January 2011 is holding. The timeline for popular 
consultations in Southern Kordofan and Blue Nile states is less clear, 
due to postponed legislative and gubernatorial elections in Southern 
Kordofan which have yet to be implemented. However, we presently 
anticipate that these processes will be completed before fiscal year 
2011 resources will be available for programming.

                                 SUDAN

    Question. What resources and staffing needs has USAID incorporated 
into the fiscal year 2011 budget request that are dedicated to assist 
Sudan in all possible outcomes of the referendum, including a Southern 
Sudanese government that will need resources and technical assistance 
to begin a new chapter as a sovereign nation or the possibility of a 
failed referendum renewing a civil war in Sudan?
    Answer. Fiscal year 2011 will be a critical year for Sudan as it 
continues on the path toward peaceful democratic transformation. It 
will also be a year in which flexibility in U.S. assistance is 
required, pending outcomes of the referenda on the future status of 
southern Sudan and Abyei and popular consultations in Blue Nile and 
Southern Kordofan States. There will be an urgent need to support the 
outcomes and build consensus for these processes and the outcome of the 
general elections in April 2010 that are adjusting the power- balances 
in the national, regional, and State governments.
    The fiscal year 2011 budget request represents a joint USAID and 
State Department estimate of program resources needed to assist Sudan 
in all possible outcomes of the southern Sudan referendum, whether 
southern Sudan votes for independence or chooses to remain part of a 
unified Sudan. To support these outcomes, USAID has worked closely with 
the State Department to plan for an immediate, expanded presence in 
Juba to implement programs critical to stabilizing the South in the 
critical pre-referenda period and immediate aftermath. The additional 
staff will bolster USG diplomatic functions and capacity for State-
managed peace and security and rule of law programs which complement 
USAID's robust programs and presence on the ground. USAID currently has 
65 staff assigned to Juba, including both U.S. staff and foreign 
service nationals.
    Future USAID staffing requirements will vary depending on political 
events. USAID is reviewing multiple scenarios and analyzing associated 
staffing requirements for 2011 and 2012.
    USAID will continue to deploy staff, respond to humanitarian 
emergencies and support traditional development programs, such as 
investing in human capacity and health and expanding infrastructure and 
economic opportunities. In coordination with other donors, State and 
USAID will jointly implement resources to strengthen the capacity of 
the Government of Southern Sudan (GOSS), bolster rule of law 
institutions and capacity, and to mitigate and respond to conflict 
throughout Sudan.
Transition and development programming
    USAID's assistance will be geared toward addressing the threat of 
new or renewed conflict in the Three Areas, as well as a potential 
increase in tension between the north and the south in the run-up to 
the 2011 referenda. Consequently, a higher proportion of resources will 
be dedicated to conflict prevention and mitigation.
    USAID will continue to work on the extension of state authority 
throughout southern Sudan aiming to prevent conflict. Funding will also 
be directed at mediating and preventing conflict around post-2011 
issues including cross border development; security and movement; and 
inter-ethnic relationships. USAID's transition and conflict management 
program provides a quick and flexible mechanism for direct technical 
and material support to reinforce diplomatic efforts to address these 
issues.
    Supporting the development of democratic governance in southern 
Sudan and the Three Areas will continue to be critical regardless of 
the outcome of referenda and popular consultations. USAID assistance 
will build on efforts made since the signing of the CPA to strengthen 
capacity in core government functions to enable expanded service 
delivery, and deepen the accountability, transparency and 
responsiveness of key institutions in the GOSS and the Three Areas. 
Additionally, strengthening the legislative assembly that is inducted 
after the elections; enhancing government understanding of public 
views; building consensus between leaders and constituencies; 
strengthening the capacity of political parties to conduct outreach to 
and represent their constituents in the newly elected legislative 
assembly after the April 2010 elections; and, strengthening civic 
participation, bolstering civil society and expanding access to free 
and independent information will all continue to be elements of USAID 
assistance. Technical assistance and southern Sudan capacity-building 
will also align with post-2011 arrangements.
    USAID will monitor developments regarding Sudan's subsequent post-
CPA arrangements, which may include elections and other political 
processes. USAID, in coordination with the State Department, will 
program fiscal year 2011 ESF funding to begin supporting these 
processes.
Humanitarian Assistance
    As with natural and complex disasters throughout the world, USAID 
remains prepared to respond to pre- and post-referendum deterioration 
in the humanitarian situation in Southern Sudan. USAID humanitarian 
programs are flexible and able to reallocate resources to meet emerging 
humanitarian needs.
    USAID has taken the following concrete steps to proactively prepare 
for potential post-referendum humanitarian needs in southern Sudan:
  --In order to rapidly respond to population displacement in southern 
        Sudan, USAID supports an international organization to 
        stockpile emergency relief supplies and to rapidly provide safe 
        drinking water and dispatch mobile health clinics, as needed.
  --USAID supports strong local and international partners operating in 
        rural areas of southern Sudan to provide assistance to recently 
        returned populations and to prepare to respond quickly to 
        potential outbreaks of violence in the months leading to and 
        following the January 2011 referenda. Ongoing USAID support 
        allows partners to continue to deliver essential basic 
        services, with a focus on health, agriculture and food 
        security, and water, sanitation, and hygiene in areas of 
        highest population movement or IDP return depending on the 
        scenario.
  --Depending on the magnitude of the deterioration, USAID remains 
        prepared to rapidly deploy USAID humanitarian personnel to 
        southern Sudan, ranging from regional advisors and field 
        officers to assessment teams or a disaster assistance response 
        team.
    The combination of these three capacities will ensure that USAID is 
able to respond to the immediate humanitarian impacts of the referenda 
in either scenario and within the current budget request.
            Independence Scenarios
    In a steady-state scenario where the referenda results in a 
peaceful separation, USAID expects humanitarian needs across Sudan to 
be roughly similar to 2009. USAID will continue to maintain both World 
Food Program (WFP) and private voluntary organization (PVO) food aid 
supplies, with PVO partners engaged in recovery activities in southern 
Sudan.
    However, populations could initially experience violence 
surrounding the results. The scale and scope of the humanitarian need 
will be proportional to the level and duration of violence. Should the 
resulting conflict be short-term in nature, the situation would require 
an immediate surge in humanitarian resources closely followed by 
complementary transition and/or development investments as has occurred 
in southern Sudan over the course of the Comprehensive Peace Agreement 
implementation (CPA), for example, following the violence in Abyei in 
May 2008 and in Akobo, Jonglei state, in early 2009.
    A longer-term conflict may result in the need for protracted 
humanitarian engagement requiring substantial financial and human 
resources. As conflict surrounding the referenda subsides, or if no 
violence occurs, humanitarian agencies can expect returns to increase. 
An increase in returns will necessitate a shift in the focus of 
humanitarian programming to ensure that returns are adequately 
supported, resulting in additional resource requirements for 
humanitarian activities in the near-term and development activities in 
the medium- to long-term.
            Return to war Scenarios
    A return to war will require a significant increase in humanitarian 
resources to address mass displacements. The scale and scope of 
resources required to address a return to war will depend on the level 
and geographic spread of the violence and on the access our 
humanitarian partners have to populations in need. With respect to 
food, USAID would increase contributions, and partners would be 
positioned to expand beneficiary caseloads and programmatic coverage. 
In either case, USAID would plan to increase staff to bolster capacity 
on the ground, to include local staff for food security program 
monitoring.

                    HUMAN RIGHTS CONDITIONS IN SUDAN

    Question. What resources and personnel is USAID employing to 
monitor and report on human rights conditions throughout Sudan?
    Answer. Human rights monitoring and reporting is currently not 
within USAID's mandate in Sudan. As presently structured, U.S. 
Government long-term development assistance in Sudan to monitor and 
report on human rights is done by the Department of State.

                     ASSISTANCE TO BURMESE REFUGEES

    Question. International NGOs continue to report on periodic violent 
attacks against Burmese Rohingya refugees in Thailand and Bangladesh. 
What resources is USAID employing to offer assistance to the Rohingya 
refugees?
    Answer. USAID follows closely the situation of Burmese Rohingya 
refugees and asylum seekers in Bangladesh, Thailand, and elsewhere in 
the region. We are concerned by credible reports of a growing 
humanitarian crisis among the unregistered Rohingya population residing 
outside of Kutupalong refugee camp in Bangladesh, and the numbers of 
arrests and push-backs to Burma at the border.
    U.S. Government efforts to address protection and assistance needs 
of the Rohingya refugee population are led by the Department of State's 
Bureau of Population, Refugees and Migration (State/PRM). In fiscal 
year 2009, State/PRM provided funding of more than $2 million to 
several international humanitarian organizations to assist both 
registered and unregistered Rohingya populations in Bangladesh, 
Malaysia, Indonesia, and elsewhere in the region. Humanitarian 
assistance for the Rohingya includes healthcare, water and sanitation, 
education, vocational skills training, conflict resolution, community 
mobilization, mental health and psychosocial support, gender-based 
violence prevention, and access to essential services for Persons with 
Disabilities.
    Cox's Bazar, the southeast district where most Rohingya residing in 
Bangladesh live, is one of the poorest districts in the country. In 
addition to high levels of illiteracy and malnutrition, 73 percent of 
the population lives below the poverty line. Much of the conflict is 
the result of host-community and Rohingya competing for the region's 
limited resources. The problems facing the Rohingya cannot be solved 
without addressing the issues of the broader host-community.
    USAID programs benefit the sizeable unregistered Rohingya 
population living in the Cox's Bazar region of southeast Bangladesh. 
Health programs focus on low-cost family planning services, maternal 
and child healthcare, and treatment for tuberculosis through a network 
of non-governmental clinics. USAID environment programs protect natural 
resources and help people use resources sustainably, particularly those 
from tropical forests. Governance activities support greater 
transparency and citizen participation in the management of public 
resources at the local level. Additionally, USAID's new 5 year, $210 
million Public Law 480 Title II program throughout the country will 
support projects in Cox's Bazar to promote economic development of the 
entire southeast portion of the country. U.S. Pacific Command (PACOM) 
is also constructing multi-purpose cyclone shelters and schools in 
southeast Bangladesh.
    With respect to USAID programs for vulnerable Burmese populations, 
USAID has not provided funds to assist Rohingya refugees as an 
identifiable subset of its programs. However, USAID implements 
humanitarian assistance programs for vulnerable Burmese along the 
Thailand/Burma border, and within Burma for people affected by Cyclone 
Nargis. Rohingya refugees living in these locations benefit from this 
assistance.

                         TRAFFICKING IN PERSONS

    Question. The budget request to combat Trafficking in Persons seems 
inadequate. If USAID were to have more resources devoted to combating 
trafficking, how would they be used?
    Answer. The Administration is deeply committed to combating 
trafficking in persons. The President's request for anti-trafficking 
programs increased from $31.5 million for fiscal year 2010 to $35.8 
million for fiscal year 2011. Between 2001 and 2009, USAID spent nearly 
$145 million on anti-trafficking projects in more than 70 countries as 
part of the coordinated U.S. government effort to eradicate 
trafficking. USAID programs focus on prevention, protection, and 
prosecution and address both sex and labor trafficking of women, 
children, and men.
    Nearly 90 percent of USAID anti-trafficking programs over the last 
3 years have focused on prevention and protection. While a focus on 
prevention and protection remains essential, increased focus on 
prosecution in coordination with other USG efforts and efforts to 
address labor trafficking require additional attention. Forty-four 
percent of 2009 USAID anti-trafficking projects strengthen prosecution 
by helping foreign governments draft anti-trafficking legislation and 
train police and prosecutors. However, USAID evaluations and the TIP 
Report have demonstrated a need to increase law enforcement capacity to 
combat trafficking. Incorporating this type of capacity building into 
foreign assistance programs would be coordinated through the inter-
agency Senior Policy Operating Group (SPOG). Likewise, Agency 
assessments, the TIP Report, and the Department of Labor's 2009 TVPRA 
list indicate a need for increased global attention to labor 
trafficking. Sixty-eight percent of our anti-trafficking programs since 
2001 have addressed both labor and sex trafficking.

                              AGRICULTURE

    Question. How will USAID use the resources it has, such as programs 
like the Consultative Group on International Agricultural Research 
(CGIAR), to help develop wheat variety resistant to Ug99 wheat stem, a 
disease that is destroying Africa's wheat crop? Will that research be 
available to U.S. producers? How could USAID's efforts on food security 
be improved?
    Answer. USAID has been the lead national development agency in 
responding to the wheat stem rust alarm first raised by Dr. Norman 
Borlaug approximately 5 years ago. After almost 50 years of durable 
resistance to this most dreaded disease of wheat, Ug99 appeared as a 
virulent new strain that threatened food security in Africa, the Middle 
East and South Asia. While the disease has not yet reached an epidemic 
stage, it poses a significant threat to Africa's farmers, and with the 
right environmental conditions in South Asia, a food security disaster 
could result.
    To prevent that from happening, USAID has provided over $20 million 
in the last 5 years for wheat research by CGIAR, in partnership with 
U.S. universities and USDA's Agricultural Research Service, to identify 
and rapidly deploy resistance genes. USAID also supported expanded 
efforts by USDA's Cereal Disease Laboratory in St. Paul, as well as 
screening trials in disease hot-spots in East Africa, where global 
wheat varieties--including from the United States and Canada--were 
screened for both susceptibility and resistance.
    USAID is pleased to report that CGIAR wheat breeding efforts have 
succeeded. Using the latest molecular techniques and genetic 
information from international partnerships, new varieties of wheat 
that are resistant to the new strain have been developed, forming a 
first line of defense against a potential epidemic. Over the last 2 
years, USAID has deployed over $5 million in specially authorized 
``Famine Funds'' to rapidly multiply and scale up production of 
resistant wheat seed in Afghanistan, Pakistan, Nepal, Egypt and 
Ethiopia. USAID also has a partnership with India, which brings its own 
considerable resources to the effort. In addition, the Agency works 
with global partners as part of a disease-surveillance effort to 
monitor movement of the disease, which has now moved as far as Iran.
    More work is needed--and will be supported through the Global 
Hunger and Food Security Initiative--to build back the ``durable 
resistance'' that Dr. Borlaug achieved in the Rockefeller Foundation's 
wheat program in Mexico in the 1950s--the forerunner of CGIAR. More 
seed multiplication support will also be needed. We are working with 
our overseas missions to ensure that all partners--national 
organizations, international NGOs like Catholic Relief Services, CARE 
and others, work together to ensure farmers get access to resistant 
seed. All of the above efforts have been carried out in close 
partnership with USDA, U.S. universities and partners in Australia, 
India and elsewhere around the world. All of the resistant materials 
and genetic information about the disease and resistance to it are 
freely available from the various partners, especially the CGIAR, which 
has an explicit focus on sharing its products and information.
                                 ______
                                 
           Questions Submitted by Senator George V. Voinovich

                      MILLENNIUM DEVELOPMENT GOALS

    Question. In September, world leaders will gather at the United 
Nations to assess the Millennium Development Goals and re-commit to 
achieving the MDGs by 2015. What are your plans in preparing the U.S. 
position at the U.N. session and any proposals President Obama might 
announce?
    Answer. As President Obama underscored in his address to the U.N. 
General Assembly last year, the United States fully embraces the 
Millennium Development Goals (MDGs). The MDGs are a core principle for 
USAID, and we are pleased to be playing a leading role in the 
interagency process to develop U.S. positions for the September MDG 
High Level Plenary (Summit). The interagency process has been working 
for the past few months to define U.S. strategies and approaches toward 
accelerating progress in achieving the MDGs.
    The 2010 Summit is an important opportunity to take stock of the 
progress made so far in achieving the MDGs. In fact, significant 
progress has been made in many MDG areas, although progress has varied 
dramatically across countries and regions. In developing its position 
for the U.N. process leading up to the September Summit, the United 
States will acknowledge and highlight this progress, while considering 
ways to replicate and scale up successes. At the same time, the 
challenges ahead in making further progress on the MDGs are formidable. 
In that regard, the United States will be considering the need for new 
approaches.
    Our preparations for the September MDG Summit provide an 
opportunity to build support for a more determined, strategically-
minded and analytically-focused approach to the MDGs. We see four 
elements as critical for making more rapid progress in the next 5 
years: first, the need to focus on development outcomes, not just 
development dollars; second, the need to enhance the principle and 
practice of national ownership and mutual accountability; third, the 
need to invest in making development gains sustainable; and fourth, the 
need to make more effective use of innovation and other force-
multipliers to maximize the impact of our efforts.
    The interagency process is continuing to consider the best strategy 
and approaches to advance the MDGs. Recent Presidential initiatives, 
for example, including the Global Health Initiative (GHI) and Feed the 
Future (FTF), provide opportunities to accelerate and sustain progress 
in these important MDG areas.

                           SCALE-BACK EFFORTS

    Question. Dr. Shah, looking at the areas of growth in your budget--
particularly for health, agriculture and USAID's own capacity--it is 
evident what the Administration's priorities are for development. Can 
you tell me where you think USAID could scale back, even eliminate or 
radically reform our current efforts?
    Answer. I have recently outlined a new approach to high-impact 
development which will lie at the center of restoring USAID's 
effectiveness. The approach is premised on greater focus and 
selectivity, and includes four core areas.
    First, USAID is contributing to the U.S. commitment to the 
Millennium Development Goals (MDG), not simply by delivering services 
to those in need, but through building sustainable systems that will 
transform healthcare, education, food security and other MDG areas. 
Second, we are strengthening our ability to invest in country-owned 
models of inclusive growth and development success. Third, we are 
identifying new ways of leveraging science and technology to develop 
and deliver tools and innovations which we believe can be 
transformational. Finally, we will bring USAID's expertise to bear on 
some of the most daunting national security challenges we face as a 
Nation--including stabilizing countries like Afghanistan.
    Focusing on these core areas will allow a concentration of USAID's 
resources and its efforts rather than spreading our efforts and 
resources over the many other technical areas that relate to broad-
based and sustainable development. Other areas of development 
engagement will be scaled-backed if they do not support the core 
objectives.
    On June 8, White House Chief of Staff Rahm Emanuel and OMB Director 
Peter Orszag sent a letter to the heads of all executive departments 
and agencies asking them to identify those programs that have the 
lowest impact on each agency's mission, and that constitute at least 5 
percent of each agency's discretionary budget. I fully support this 
effort, and USAID will meet or exceed the 5 percent target set by Chief 
of Staff Emanuel and Director Orszag. By identifying those areas where 
we can scale back or eliminate projects and programs, this exercise 
will help USAID further focus our financial and human capital on the 
four core areas described above.

                               PSD-7/QDDR

    Question. Dr. Shah, could you give us an update on the multiple 
efforts going on right now on reforming and improving our aid 
processes, including the QDDR and PSD? How do initiatives such as the 
Global Health initiative and Food security initiative fit within the 
proposed reforms?
    Answer. I anticipate that the QDDR and PSD exercises, in which we 
are actively participating, will have a very positive impact on USAID 
and U.S. global development efforts, including the Global Health (GHI) 
and Feed the Future/Global Hunger and Food Security Initiative. Both 
exercises are looking at how the initiatives could be affected by 
possible reforms. For example, a joint USAID-State QDDR task force is 
examining how to increase our capabilities around the issue of aid 
effectiveness, and in doing so is explicitly looking at how the 
effectiveness principles (country ownership, alignment, harmonization, 
managing for results, and mutual accountability) should be applied to 
both initiatives.
    A focus on factors that improve aid effectiveness, such as 
promoting country ownership, learning, cost-effective and streamlined 
processes, a whole-of-government approach, and donor coordination are 
key principles of both the GHI and the Food security initiative. These 
same principles are the focus of work under both QDDR and PSD.
    For example, through the GHI we will help partner countries improve 
health outcomes through strengthened health systems. A core principle 
underlying the GHI business model in support of reaching these 
ambitious health goals is to encourage country ownership and invest in 
country-led plans. The GHI works closely with partner governments, as 
well as civil society organizations, to ensure that investments are 
aligned with national priorities, and to support partner government's 
commitment and capacity so that investments are maintained in the 
future. Further, our efforts to strengthen country efforts will be 
coordinated across USG agencies and other partners to ensure efficient 
use of resources and effective results.

                        CIVILIAN RESPONSE CORPS

    Question. One of the concerns our military commanders have shared 
with us and others over the years is the lack of civilian follow up 
operations in places like Iraq and Afghanistan. As the USAID 
Administrator, how do you intend to build a cadre of dedicated staff at 
USAID that can move into post-conflict regions and begin long-term 
civilian stabilization and reconstruction (S&R)?
    Answer. USAID is dedicated to assisting in follow-up stabilization 
and reconstruction efforts in post-conflict regions. To accomplish 
this, we have built up a cadre of both immediate, rapid response 
networks and longer-term staff.
    To address immediate stabilization and reconstruction issues, USAID 
is responsible for a large contingent of Civilian Response Corps (CRC) 
personnel, managed by the Agency's Office of Civilian Response. The CRC 
focuses on restoring rule of law and stabilizing war-torn societies as 
a precursor to sustained economic growth.
    The CRC currently has two components: the Active and the Standby. 
The Active Component (CRC-A) will ultimately be comprised of 250 U.S. 
Government (USG) members, 91 of which will be from USAID. CRC-A members 
are direct-hire employees who form a team of first responders available 
to deploy within 48 hours of call-up for up to 12 months. CRC members 
within USAID are mostly senior-level, highly experienced personnel with 
S&R experience. They receive 3-4 months of training to prepare them for 
S&R operations. The Standby Component (CRC-S) interagency target is 
2,000 members, with a USAID target of 744 members. CRC-S is comprised 
of current USG employees who sign up for and are accepted to the CRC. 
They receive 2-4 weeks of S&R training and can be deployed within 30-45 
days.
    USAID CRC-A and CRC-S staff have already successfully deployed to 
Afghanistan, Pakistan, Sudan, Kenya, Somalia, Democratic Republic of 
Congo, Yemen, Sri Lanka, Kyrgyzstan, Nigeria, Nepal, Kazakhstan, and 
Haiti. In addition, they have participated in exercises with the 
Defense Department's European Command (EUCOM) and Africa Command 
(AFRICOM). Deployments differ in length from a few months to a year.
    The Agency is also building its Foreign Service cadre through the 
Development Leadership Initiative (DLI). The initiative, introduced in 
2008, is aimed at increasing USAID's ability to meet its development 
and national security objectives through a strong workforce. The goal 
of DLI is to double the USAID Foreign Service workforce by hiring 1,200 
junior and mid-level Foreign Service officers by 2012. To date, 483 new 
officers have been sworn in and oriented under this initiative; 89 will 
specifically focus on Crisis, Stabilization and Governance issues. This 
cadre of new Foreign Service officers will strengthen the Agency's 
capacity to provide leadership overseas to develop, carry out, and 
integrate programs that bring peace, prosperity, and security to the 
world.

                    LONG-TERM DEVELOPMENT IN AFRICA

    Question. Africa, as you know, remains a continent which suffers 
not just from extreme poverty, but from disease, lack of basic needs 
like clean water and food, and a dearth of educational and economic 
opportunities. Some nations in Africa even face the increasing 
influence of corrupt governments, terrorist organizations, drug 
traffickers and other destabilizing influences. One of the key ways 
these issues can be addressed is through strong, comprehensive and 
long-term development strategies that are designed to offer solutions 
to these destabilizing forces. What resources will USAID need to 
address these problems and how would you convince the American people 
that such expenditures would serve the national interests of the United 
States?
    Answer. Africa is vital to U.S. interests. Home to approximately 
800 million people, Africa is increasingly linked to global markets, 
holds vast natural resources, and will soon provide 25 percent of U.S. 
oil imports. There has rarely been a more critical time to consolidate 
the progress and promise of Africa. Although wars in Liberia, the 
Democratic Republic of the Congo (DRC), Angola, Burundi, Uganda, and 
Sierra Leone, and the North-South conflict in Sudan have ended or 
dramatically abated, sub-Saharan Africa has recently experienced 
significant stagnation and challenges to its progress toward democracy 
and good governance. Most worrying have been the democratic setbacks in 
countries that have historically been considered ``good performers,'' 
but that are at risk of political instability. Regional bodies such as 
the African Union have a growing potential to provide leadership and 
share best practices, but the influence of poorly governed and 
autocratic states on these multilateral institutions complicates and 
stifles the evolution toward better governance in Africa.
    It is in the interest of the United States for Africa to be stable, 
well-governed, and economically self-sufficient with healthy and 
productive populations. Poor governance, conflict, and corruption 
contribute to the need for billions of dollars per year in food and 
non-food emergency assistance from the United States and other 
bilateral and multilateral donors that could be used to solve other 
global problems. Lacking any sustained political and economic 
improvements, and with Africa's population expected to double by 2050 
to 1.8 billion, the continent's humanitarian needs will only escalate. 
The stakes are extremely high. However, strategic use of USG foreign 
assistance resources, combined with those from other bilateral and 
multilateral donors, can make a meaningful difference in Africa by 
creating tangible improvements in quality of life and building momentum 
toward political and economic progress.
    Our programs have already made significant contributions, including 
contributing to reducing mortality among children under five by 14 
percent since 1990, and increasing the number of children enrolled in 
primary school by 36 percent since 1999. To sustain and consolidate 
these gains in the face of current projected population growth requires 
a multi-pronged approach that addresses the key issues for the 
continent and can produce visible impacts at the country and regional 
level. The Africa Bureau's fiscal year 2011 foreign assistance request 
of $7.606 billion, which includes $3.728 billion of HIV/AIDS funding, 
directly advances key Administration policy priorities in the areas of 
democracy and governance, peace and security, economic growth and food 
security, health and education (including HIV/AIDS and malaria), and 
transnational challenges, including global climate change.
    When combined with the $3.9 billion currently committed to Africa 
through Millennium Challenge Corporation (MCC) Threshold programs and 
Compacts to date, and the annual average of $25.67 billion in other 
bilateral and multilateral donor assistance to Africa, the 
international community has the ability to effect real change. Within 
the United States, close coordination between the major U.S. agencies 
(MCC, State and USAID) has facilitated optimal use of funding. For 
example, USAID implements all the Threshold Programs for MCC in Africa, 
and is implementing some portions of the Compact in Burkina Faso. MCC 
Compact Teams coordinate closely with Ambassadors at post, and with 
USAID staff as appropriate. Another example is Senegal, where starting 
in July 2003 (even prior to the formal creation of the MCC), USAID 
provided $500,000 to enable the Government of Senegal to assess and 
strengthen its systems for managing development resources and developed 
a methodology that could be used in future MCC-eligible countries to 
accelerate start-up of MCC programs.

                       PROMOTING GOOD GOVERNANCE

    Question. We all recognize that corruption and weak governance are 
challenges in many of the poorest nations. What are some of the 
strategies USAID uses to promote good governance through our assistance 
programs? Is there legislation that could enhance these efforts?
    Answer. USAID's overall objective in governance is to provide 
assistance and training to promote greater transparency, 
accountability, effectiveness and participation in governing 
institutions and public policy processes at all levels.
    Specific Anticorruption Initiatives promote accountable and 
transparent governing institutions, processes and policies across all 
development sectors. For example, USAID programs:
  --Promote corruption prevention and education while also supporting 
        prosecution and enforcement through rule of law programming.
  --Focus on regulatory and procedural reform, increasing management 
        capacity within the executive branch, and strengthening the 
        oversight capacity of the judicial and legislative branches of 
        government.
  --Strengthen public financial management, procurement reform, audit 
        and internal controls, and transparency and accountability in 
        budget processes.
  --Support anticorruption commissions, ombudsman offices, civil 
        society, media oversight and advocacy capacity building.
  --Support host country multi-stakeholder initiatives such as the 
        Extractive Industries Transparency Initiative to improve 
        governance and public oversight in resource-rich countries.
    Executive offices, ministries, and independent governmental bodies 
are advised and trained on development and implementation of policies, 
procedures, and skill sets (including leadership, strategic management 
and communications). Assistance promotes linkages between different 
branches, levels and functions of government, including across 
development sectors such as health, education and economic growth, and 
enhances financial management and civil service reforms, public-private 
partnerships, and outreach to citizens.
    Security sector democratic governance programs focus on how 
component parts of the security system (e.g., policy, military, justice 
system, legislature, civil society) are linked and must all perform 
effectively and in a coordinated manner to achieve effective, 
legitimate security systems governed by law and accountable to the 
population. Program examples include reforming the justice system, the 
civil service and public management; enhancing strategic planning, 
policy and budget formulation; increasing civilian oversight of the 
security sector. As police are an important face of the government to 
citizens, USAID supports civilian police assistance programs.
    National and sub-national efforts support democratic 
decentralization of political, financial, and administrative authority, 
ensuring all levels are capable of effecting democratic and accountable 
local governance. Technical assistance and training strengthen 
development of budgets, local revenue raising, provision of public 
services, community planning, participation, and implementation of 
laws, regulations, policies and programs.
    Assistance to legislatures supports more democratic practices 
within legislative bodies, improves legislative processes, and 
increases the quality of legislation or constitutional reforms. 
Programs increase the legislature's capacity to be responsive to 
constituents, engage in policy-making, hold itself and the executive 
accountable, and oversee the implementation of government programs, 
budgets, and laws.
    Media freedom and access to Information legislation are promoted to 
improve enabling environments for the existence and operations of NGOs 
and to increase transparency and accountability in the public sector 
while strengthening democratic practices and enabling civic engagement.
    The Quadrennial Diplomacy and Development Review (QDDR) is 
reviewing all foreign assistance programs. As part of this process, 
legislative requirements to improve the effectiveness of governance 
assistance programs are being considered. We look forward to consulting 
with the Committee and others in Congress as we formulate 
recommendations and next steps on this critical issue.

                         CONCLUSION OF HEARINGS

    Senator Leahy. If there is nothing further, the 
subcommittee was stand in recess.
    [Whereupon, at 11:56 a.m., Tuesday, April 20, the hearings 
were concluded, and the subcommittee was recessed, to reconvene 
subject to the call of the Chair.]


       LIST OF WITNESSES, COMMUNICATIONS, AND PREPARED STATEMENTS

                              ----------                              
                                                                   Page

Bond Senator Christopher S., U.S. Senator From Missouri, 
  Questions Submitted by.........................................    58
Brownback Senator Sam, U.S. Senator From Kansas, Questions 
  Submitted by..................................................59, 122

Clinton, the Honorable Hillary Rodham, Secretary of State, 
  Department of State............................................     1
    Prepared Statement of........................................     7
    Summary Statement of.........................................     3

Gregg, Senator Judd, U.S. Senator From New Hampshire, Statement 
  of.............................................................     2

Inouye Senator Daniel K., U.S. Senator From Hawaii, Questions 
  Submitted by...................................................    44

Johnson, Senator Tim, U.S. Senator From South Dakota, Question 
  Submitted by...................................................   119

Landrieu Senator Mary L., U.S. Senator From Louisiana, Questions 
  Submitted by...................................................    46
Lautenberg Senator Frank R., U.S. Senator From New Jersey, 
  Questions Submitted by........................................52, 119
Leahy, Senator Patrick J., U.S. Senator From Vermont:
    Questions Submitted by.......................................    32
    Statements of................................................ 1, 73

McConnell Senator Mitch, U.S. Senator From Kentucky, Questions 
  Submitted by...................................................    57

Shah, Dr. Rajiv, Administrator, U.S. Agency for International 
  Development....................................................    73
    Prepared Statement of........................................    76
    Summary Statement of.........................................    74
Specter, Senator Arlen, U.S. Senator From Pennsylvania, Questions 
  Submitted by...................................................   121

Voinovich, Senator George V., U.S. Senator From Ohio, Questions 
  Submitted by..................................................68, 129


                             SUBJECT INDEX

                              ----------                              

                          DEPARTMENT OF STATE

                           Secretary of State

                                                                   Page

Additional Committee Questions...................................    32
Afghanistan..................................................19, 23, 24
Afghanistan-Pakistan Civilian Surge..............................    33
Agriculture......................................................    19
Assistance:
    For Europe, Eastern Europe and Central Asia..................22, 24
    To Indonesia.................................................    17
Climate Change...................................................    38
Democratic Republic of the Congo.................................    31
Economic Support Funds...........................................    11
Effective Oversight of Contractors...............................    40
Haiti............................................................    15
India and Pakistan...............................................    12
Internet Freedom.................................................    30
Iran..........................................................9, 14, 27
Jordan...........................................................    11
Microlending and Microenterprise.................................    28
Middle East......................................................12, 32
Millennium challenge Corporation.................................    29
Orphans..........................................................    20
Senate Confirmation Process......................................    26
Sudan............................................................    31
Syria............................................................13, 25
Travel to Cuba...................................................    11

               U.S. AGENCY FOR INTERNATIONAL DEVELOPMENT

Additional Committee Questions...................................   103
Afghanistan......................................................    91
    And Pakistan.................................................   105
Africa...........................................................    81
    Reboots......................................................    95
Agriculture.....................................................88, 128
Assistance to Burmese Refugees...................................   127
Banks Making Big Profits From Tiny Loans.........................   109
Civilian Response Corps..........................................   130
Climate Change..................................................98, 108
Country Ownership................................................   114
Democratic Republic of the Congo................................89, 122
Development Assistance...........................................   108
Economic Support Fund for Sudan..................................   125
Emergency Contraception..........................................   121
Energy...........................................................   100
Enhancing Aid Effectiveness and Sustainability...................    79
Fiscal Year 2011 Budget..........................................    83
Food Security....................................................    90
Forest Protection Activities in South America....................    98
Global:
    Engagement...................................................   104
    Health.......................................................   115
    Hunger and Food Security Initiative..........................   107
Guiding Principles and Overview..................................    77
H1N1.............................................................   118
Haiti............................................................    82
    Reconstruction...............................................   119
Human Rights Conditions in Sudan.................................   127
Influenza Pandemic Preparation...................................   121
Interagency Coordination.........................................    93
International Cooperative Administrative Services................   105
Introduction/Haiti...............................................    76
Justice Reform..................................................97, 113
Largest Funding Categories.......................................    84
Long-term:
    Development in Africa........................................   131
    Plans to Combat Spread of Pandemics..........................   121
Lord's Resistance Army...........................................   122
Maternal and Child Health........................................   116
Meeting Urgent Global Challenges.................................    78
Microcredit Loans................................................   108
Millennium Development Goals.....................................   129
NGO Transparency.................................................   106
Neglected Tropical Diseases......................................88, 90
Orphans and Vulnerable Children..................................    86
PSD-7/QDDR.....................................................104, 130
Payroll Issues...................................................    80
Political Appointees.............................................    80
Procurement......................................................    90
Promoting Good Governance........................................   132
Scale-back Efforts...............................................   129
Securing Critical Frontline States: Afghanistan, Pakistan, and 
  Iraq...........................................................    77
Selectivity......................................................   115
Sudan...........................................................87, 125
Trafficking in Persons...........................................   128
Transition Initiative Model......................................   103
2010 Funding Constraints for the USAID/India Greenhouse Gas 
  Pollution Prevention Project...................................   101
UNICEF...........................................................    94
USAID Effectiveness..............................................   103
USAID's Procurement System.......................................    81
Water............................................................   112
Wheat Stem Resistance Wheat Variety..............................   119
Women and Girls..................................................   113

                                   - 

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
